<html>
<title> - HEARING ON PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 115-616]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-616

                     HEARING ON PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 1, 2018
                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                 
                 


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
34-881 PDF                 WASHINGTON : 2019         





        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman

Jerry Moran, Kansas                  Jon Tester, Montana, Ranking 
John Boozman, Arkansas                   Member
Dean Heller, Nevada                  Patty Murray, Washington
Bill Cassidy, Louisiana              Bernard Sanders, (I) Vermont
Mike Rounds, South Dakota            Sherrod Brown, Ohio
Thom Tillis, North Carolina          Richard Blumenthal, Connecticut
Dan Sullivan, Alaska                 Mazie K. Hirono, Hawaii
                                     Joe Manchin III, West Virginia

                    Robert J. Henke, Staff Director
                Tony McClain, Democratic Staff Director

                      Majority Professional Staff
                               Adam Reece
                             Gretchan Blum
                            Leslie Campbell
                            Patrick McGuigan
                            Maureen O'Neill
                             David Shearman
                            Jillian Workman

                      Minority Professional Staff
                            Dahlia Melendrez
                            Cassandra Byerly
                                Jon Coen
                              Steve Colley
                               Simon Coon
                           Michelle Dominguez
                               Amy Smith


                            
                            
                            
                            C O N T E N T S

                              ----------                              

                             August 1, 2018
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     1
Brown, Hon. Sherrod, acting Ranking Member, U.S. Senator from 
  Ohio...........................................................     2
Boozman, Hon. John, U.S. Senator from Arkansas...................    20
Sanders, Hon. Bernard, U.S. Senator from Vermont.................    29
Manchin, Hon. Joe, III, U.S. Senator from West Virginia..........    31
Cassidy, Hon. Bill, U.S. Senator from Louisianna.................    36
Hirono, Hon. Mazie K., U.S. Senator from Hawaii..................    38
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................    40
Tillis, Hon. Thom, U.S. Senator from North Carolina..............    45

                               WITNESSES

Peters, Hon. Gary C., U.S. Senator from Michigan.................     3
Gillibrand, Hon. Kirsten E., U.S. Senator from New York..........     4
    Prepared statement...........................................     5
Daines, Hon. Steve, U.S. Senator from Montana....................     6
Lawrence, Paul R., Ph.D., Under Secretary for Benefits, Veterans 
  Benefits Administration, U.S. Department of Veterans Affairs; 
  accompanied by Ralph Erickson, M.D., M.P.H., Dr. PH, Chief 
  Consultant, Post-Deployment Health, Veterans Health 
  Administration, Tammy Czarnecki, Assistant Deputy Under 
  Secretary for Health/Administrative Operations, Veterans Health 
  Administration; and Jessica Bonjorni, Acting Assistant Deputy 
  Under Secretary for Health for Workforce Services, Veterans 
  Health Administration..........................................     8
    Prepared statement...........................................    10
    Additional views.............................................    26
    Response to request arising during the hearing by:
      Hon. Johnny Isakson........................................    27
      Hon. Mazie K. Hirono.......................................    40
    Response to posthearing questions submitted by:
      Hon. John Boozman..........................................    47
      Hon. Sherrod Brown......................................... 47,50
      Hon. Joe Manchin III.......................................    48
      Hon. Mazie K. Hirono.......................................    49
Nuntavong, Chanin, Director, National Veterans Affairs & 
  Rehabilitation Division, The American Legion...................    54
    Prepared statement...........................................    56
Manar, Gerald T., Blue Water Navy Veteran, Former Director, 
  National Veterans Service, Veterans of Foreign Wars of the 
  United States..................................................    69
    Prepared statement...........................................    71
Snee, Thomas J., National Executive Director, Fleet Reserve 
  Association....................................................    77
    Prepared statement...........................................    79
Weidman, Rick, Executive Director for Policy and Government 
  Affairs, Vietnam Veterans of America...........................    81
    Prepared statement...........................................    83

                                APPENDIX

Cantwell, Hon. Maria, U.S. Senator from Washington; prepared 
  statement......................................................    91
Feinstein, Hon. Dianne, U.S. Senator from California; prepared 
  statement......................................................    91
Advanced Medical Technology Association (AdvaMed); prepared 
  statement......................................................    92
Appraisal Institute (AI); letter.................................    94
Webb, Amy, National Legislative Policy Advisor, American Veterans 
  (AMVETS); prepared statement...................................    95
McClain, Hon. Tim S., Chairman, Board of Directors and James 
  Lorraine, President & CEO, America's Warrior Partnership (AWP), 
  Augusta, GA; prepared statement................................   100
Johnson, Cinthia, Interim Executive Director, Connecticut 
  Veterans Legal Center (CVLC); prepared statement...............   103
Villanueva, Jeremy M., Associate National Legislative Director, 
  Disabled American Veterans (DAV); prepared statement...........   109
U.S. Department of Defense (DOD); prepared statement.............   119
Denton, Ivan, Director, Office of National Programs, Veterans' 
  Employment and Training Service, U.S. Department of Labor 
  (DOL); prepared statement......................................   123
Mortgage Bankers Association (MBA); prepared statement...........   129
Military Officers Association of America (MOAA); prepared 
  statement......................................................   133
Military Order of the Purple Heart (MOPH); prepared statement....   138
Wells, CDR John B., USN (Ret.), Executive Director, Military-
  Veterans Advocacy (MVA); prepared statement....................   139
Mendenhall, Elizabeth J., 2018 President, National Association of 
  REALTORS (NAR); letter........................................   145
Murphy, Sharon L., President, National Association of State 
  Veterans Homes (NASVH); prepared statement.....................   146
Stewart, Joshua, Director of Policy, National Coalition for 
  Homeless Veterans (NCHV); letter...............................   147
Co-Directors, National Military and Veterans Alliance (NMVA); 
  letter.........................................................   149
Paralyzed Veterans of America (PVA); prepared statement..........   150
Augustine, Ms. Lauren, Vice President of Government Affairs, 
  Student Veterans of America (SVA); prepared statement..........   155
Tragedy Assistance Program for Survivors (TAPS); prepared 
  statement......................................................   159
Bandzul, Thomas, Esq. Legislative Counsel, Veterans & Military 
  Families for Progress (VMFP); prepared statement...............   161
Bardorf, Rene C., Senior Vice President of Government and 
  Community Relations, Wounded Warrior Project (WWP); prepared 
  statement......................................................   164

 
                     HEARING ON PENDING LEGISLATION

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2018

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:32 p.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Boozman, Heller, Cassidy, 
Tillis, Sullivan, Sanders, Brown, Blumenthal, Hirono, and 
Manchin.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
              CHAIRMAN, U.S. SENATOR FROM GEORGIA

    Chairman Isakson. Good afternoon. I call this meeting of 
the Senate Veterans' Affairs Committee to order.
    This is a hearing on legislation that will be pending 
before the U.S. Senate at some point in time in the future, in 
some cases the near future. I have had conversations with the 
authors before and told them that we would have a hearing as 
early as I could have one so we could get the preliminary 
information out there. I appreciate everybody who is here today 
from both the Senate and the members of the VA, plus VA staff 
and the advisory committees.
    We have a full agenda. We have 15 pieces of legislation to 
address. We have two panels with four speakers each. We have a 
number of big issues, but probably no bigger than the Blue 
Water Navy issue, which has come up for some time in the past. 
The House has passed a Blue Water Navy bill. Senator Gillibrand 
and others in the Senate have asked me if we are going to 
consider one in the U.S. Senate Veterans' Affairs Committee. I 
said we are going to, but we are going to do it in regular 
order. That is the way we did everything. We had some big 
issues last year which we were able to get through, like the 
Caregivers' bill, which had never gotten out of this Committee 
before because of the way we handled it, which is the reason we 
got it out.
    I know from time to time I irritated some people during the 
last couple of months by being deliberate, not slow but 
deliberate, on the way we handled that. We will handle it the 
same way this year in terms of Blue Water Navy, and I think we 
will come out with a similar result in terms of a thorough 
examination of the legislation.
    This is all very important legislation. For everybody's 
knowledge, we passed in the last 18 months 18 pieces of 
legislation to reform the Veterans Administration. Every Member 
of this Committee has had significant input into those reforms, 
had a lot to say about them.
    We have a new Secretary of the VA, Robert Wilkie, whom you 
heard from when we had our hearing, who I was with Monday with 
the President for the swearing in. He is a great individual, a 
fine individual, and someone who is known to all of you that 
are here. I know he will do a great job.
    My opening statement is this: Be ready. Fasten your seat 
belts. We have got a lot of work to do, and today is to find 
out what the authors of the legislation want us to know about 
the bills they have proposed and for the people who will be 
affected to have testimony and input on that.
    Each one of the Senators who are here, Mr. Peters, Mr. 
Daines, and Ms. Gillibrand, will speak first and will be 
welcome to leave as soon as your speech is over. You do not 
have to, but I know you are busy and got other things to do, so 
you are welcome to do that.
    I am proud to recognize Sherrod Brown, my good friend from 
the great State of Ohio, a good baseball State, and he, a good 
baseball player. Senator Brown is filling in for Jon Tester, 
our ranking member. We got out early today, as many of you 
know, and Senator Tester had to leave town early, as I 
understand it. I appreciate his tremendous help and cooperation 
over the last year and a half. He has pledged it for the 
remainder of this term as well. We are going to have a great 
time together in this Committee, and we need to get good stuff 
done.
    So, Senator Brown?

           OPENING STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown. I will be brief, Mr. Chairman. I would add 
on behalf of everybody on this Committee that Johnny Isakson is 
the least irritating member of the U.S. Senate. [Laughter.]
    I think you would all agree with that. I think we all are 
an irritating group of people, by and large, and he is not. So, 
thank you, Johnny, for that.
    Senators Daines, Gillibrand and Peters, thank you for 
joining us, and I speak on behalf, in part, Senator Daines, of 
the senior Senator, for Senator Tester.
    Thanks for holding the hearing, Mr. Chairman.
    There are two specific bills that I am interested in: (1) 
Better Access to Technical Training, Learning, and 
Entrepreneurship for Servicemembers Act, or BATTLE for 
Servicemembers Act that I have worked on with Senator Rounds, 
and I thank him; and (2) the Blue Water Navy bill, which is so 
important. This Committee will review two different pieces of 
legislation to address the needs of active-duty servicemembers 
as they transition to civilian life. We need to do everything 
we can to ensure they have the information and tools they need 
to succeed. Additional days of training to pursue education, 
technical training, entrepreneurship will help to set 
servicemembers up for good-paying jobs when they reenter 
civilian life, and I was pleased that this year's NDAA that 
Senator Isakson was so helpful on, too, included a version of 
this provision in the final conference report.
    I will not be able to stay for the second panel's 
discussion, but I wanted to say a few words about Blue Water 
Navy veterans. I appreciate Thomas Snee being here from Lake 
County, OH. I appreciate very much seeing him today. He knows 
all too well, we all do, the energy it takes to push the VA to 
do the right thing by those who have borne the battle, 
particularly those who were drafted to fight and felt forgotten 
when they returned home, only to develop conditions directly 
tied to their service.
    Our Vietnam vets, many of them, many of you, do not have a 
lot of years left, and it is important that they get these 
benefits regardless of whether they served on the land, in the 
Brown Water, or in the Blue Water. It does not matter.
    Mr. Manar will speak in a moment. I want to quote from him, 
if I could sort of a little bit steal his thunder with this 
quote: ``If there was dioxin in the water, we would have been 
exposed to it while swimming. Week after week, patrolling up 
and down the coast, we took in sea water and processed it 
through our fresh water evaporator system. We know from the 
Australian Navy study, validated by the National Academy of 
Medicine. . . that fresh water evaporator systems concentrated 
toxic material, including dioxin, which was then transmitted to 
sailors through drinking water.''
    ``As a matter of observation,'' he goes on, ``absent the 
cleaning and sanitation of the entire fresh water evaporator 
system, it is conceivable that every person who ever served on 
board my ship could have been exposed to dioxin after its first 
visit to Vietnam. Further, by the time we completed our last 
deployment. . . in 1972, the evaporator system would have 
accumulated concentrated dioxin from dozens of visits to 
Vietnam, not simply the final three that I experienced while on 
board.''
    Nobody could have said that better. My question for the 
record will be: why hasn't the VA concluded that the science 
behind the Australian study, in which NAM collaborated, is 
sufficient? Why hasn't VA done right by our veterans?
    So, Mr. Chairman, thank you for letting me offer those 
words. And, I appreciate all the panel members being here.
    Chairman Isakson. Thank you, Senator Brown. Thank you for 
being here, and thank you for your opening statement.
    Our first panel is made up of Senator Peters, Senator 
Gillibrand, and Senator Daines. Senator Peters will be 
recognized for 5 minutes, Senator Gillibrand for 5 minutes. I 
understand you are going to yield some time, is that correct, 
to Senator Daines, Senator Gillibrand? [Both nodding in 
agreement.]
    We will start with Senator Peters. You are recognized for 5 
minutes. If it gets to 7 or 8, you are in trouble.

               STATEMENT OF HON. GARY C. PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. I will be brief, Mr. Chairman.
    Thank you, Mr. Chairman, and thank you to all my colleagues 
for your service on this Committee. I certainly appreciate the 
opportunity to speak in support of Senate bill 1596, which is 
entitled the ``BRAVE Act.'' I was proud to introduce this 
bipartisan legislation with Senator Rubio.
    The BRAVE Act is a bicameral piece of legislation, and I 
also appreciate the leadership of Representative Duncan Hunter, 
who is shepherding this bill in the House of Representatives.
    Our brave men and women in uniform have sacrificed so much 
in the defense of our Nation. We owe it to them to ensure that 
they receive the benefits that they have earned through their 
service, including a dignified burial. Unfortunately, current 
VA burial benefits are woefully insufficient.
    The national median cost of a funeral in 2017 was $8,755. 
However, the VA burial benefits provide a mere $2,000 for 
service-connected deaths, $762 for non-service-connected deaths 
for veterans who pass away in a VA facility, and $300 for all 
non-service-connected deaths.
    It is clear that these benefits have not kept pace with the 
rising cost of funeral and burial expenses, which is why 
Senator Rubio and I have introduced the BRAVE Act. The BRAVE 
Act will make funeral benefits for non-service-connected deaths 
the same, regardless of where the veteran passes away.
    The legislation also ensures that all burial benefits are 
indexed for inflation, eliminating the need for Congress to 
make further readjustments and providing future generations of 
our Nation's veterans with the dignified burial that they have 
earned through their honorable service.
    The BRAVE Act enjoys support from organizations including 
the Veterans of Foreign Wars, Vietnam Veterans of America, the 
National Funeral Directors Association, the Association of the 
U.S. Navy, The American Legion, and Disabled American Veterans. 
I believe we should honor our Nation's heroes by making 
commonsense updates to VA burial benefits, ensuring that every 
veteran has a proper funeral and burial no matter the 
circumstances at the end of their lives.
    Thank you again, Mr. Chairman and the Committee, for the 
opportunity to speak today, and I look forward to working with 
you as you pass this important legislation. I yield the rest of 
my time to the Senator from New York, Senator Gillibrand.
    Chairman Isakson. Senator Gillibrand, you are recognized 
for 5 minutes plus whatever he yielded to you.

           STATEMENT OF HON. KIRSTEN E. GILLIBRAND, 
                   U.S. SENATOR FROM NEW YORK

    Senator Gillibrand. Thank you so much, Mr. Chairman and Mr. 
Ranking Member. I am very grateful for your leadership. I am so 
grateful for this hearing--we really want to support our Blue 
Water Navy veterans--and for your commitment to finally passing 
this long overdue bill.
    It is my sincere hope that now that we have an offset that 
has been identified and passed in the House, 382-0, that we may 
also quickly pass this bill and send it to President Trump as 
expeditiously as possible.
    As you know, during the Vietnam War, thousands of patriotic 
Americans were exposed to the chemical Agent Orange, which we 
now know is highly toxic. Some of our veterans were exposed to 
Agent Orange on the ground, some patrolling rivers, some while 
stationed on ships off the Vietnamese coast. These are called 
the ``Blue Water Navy vets.''
    Now, all these years later, Agent Orange has made many of 
them very sick, many of them severely ill, and many of them 
have already died because of Agent Orange. But, the VA is only 
helping some of the veterans exposed to this dangerous 
chemical. They are helping the Vietnam veterans who were 
exposed to Agent Orange on land or on rivers, but excluding 
those who served on the Blue Water. It does not make any sense. 
It is arbitrary. It is a bureaucratic rule that is preventing 
veterans who served in Vietnam from getting the treatment they 
desperately need.
    In Congress, we have been fighting for this legislation for 
nearly a decade so that the VA could just deliver the benefits 
that these men and women have already earned. With today's 
markup, we are finally there. Thanks to the tireless effort of 
both members of the House and Senator Veterans' Affairs 
Committees, we have a bipartisan bill, and we have a bipartisan 
pay-for.
    Now, I want to address the pay-for because that is 
important to a lot of our colleagues. The offset is nearly $1 
billion to care for our Blue Water Navy veterans, their 
families, and for some, their survivors. The way we pay for it 
is from the VA Home Loan Program because it provides a home 
loan guarantee benefit to help servicemembers, veterans, and 
surviving spouses who become homeowners. Private lenders 
provide VA home loans, but the VA guarantees a portion of that 
loan, enabling veterans to receive more favorable terms.
    Now, these loans are different from those that are offered 
to nonveteran civilian populations. Instead of paying annual 
fees or interest on the loan, the veteran only pays a one-time 
up-front loan fee. Currently that fee is 0.25 percent lower if 
you are active-duty versus National Guard or Reserve. All this 
bill does is equalize that number at 2.4 percent. It pays for 
the entire bill. It passed unanimously in the House of 
Representatives.
    So, I hope that our Senate colleagues can look at this pay-
for favorably and allow this bill to be fully paid for to help 
our veterans.
    Now, our Blue Water Navy veterans have waited a very long 
time for basic health care and basic benefits they have already 
earned. They have suffered consequences to their health, to 
their families, to their lives. I think this is an injustice 
that we can and must rectify, and I think we can do it in this 
Congress. So, I ask all of you to please consider this bill 
since it has had such bipartisan favorable response in both the 
House and Senate. I think the time is now to actually pass it.
    I would now like to yield the remainder of my time to my 
colleague Senator Daines.
    [The prepared statement of Sen. Gillibrand follows:]
            Prepared Statement by Hon. Kirsten Gillibrand, 
                       U.S. Senator from New York
              blue water navy vietnam veterans act of 2017
    Chairman Isakson and Ranking Member Tester, Thank you for the 
opportunity to speak again before this Committee in support of the Blue 
Water Navy Vietnam Veterans Act of 2017--and for your commitment to 
finally passing this long overdue bill. It is my sincere hope that now 
that an offset has been identified and passed the House 382 to ZERO, 
that we may also quickly pass this bill and send it to President Trump 
as expeditiously as possible.
    As you know, during the Vietnam War, thousands of patriotic 
Americans were exposed to a chemical called Agent Orange, which we now 
know is highly toxic.
    Some of our veterans were exposed to Agent Orange on the ground. 
Some of them were exposed to Agent Orange while patrolling the rivers. 
And some of them were exposed to Agent Orange while they were stationed 
on ships off the Vietnamese coast--these are the Blue Water Navy 
veterans.
    And now, all these years later, Agent Orange has made many of them 
sick. They are severely ill. Many of them have already passed away 
because of Agent Orange.
    But, the VA is only helping SOME of the veterans exposed to this 
dangerous chemical. They're helping the Vietnam veterans who were 
exposed to Agent Orange on land, or on rivers . . . but NOT the Blue 
Water Navy veterans. That doesn't make any sense.
    This arbitrary, bureaucratic rule is preventing veterans who served 
in the Vietnam War from getting the treatment they need now.
    In Congress, we have been fighting for nearly a decade to deliver 
VA healthcare and benefits to the Blue Water Navy veterans exposed to 
Agent Orange. And with today's markup of H.R. 299, we are finally 
there. Thanks to the tireless efforts of both the House and Senate 
Veterans' Affairs Committees, we have a bipartisan bill and a pay-for.
    I think it is important, in this hearing, that we directly address 
the pay-for in H.R. 299 that will offset the nearly $1 billion cost of 
caring for our Blue Water Navy veterans, their families, and--for 
some--their survivors.
    The VA Home Loan program provides a home loan guaranty benefit to 
help servicemembers, veterans, and eligible surviving spouses become 
homeowners. Private lenders provide VA home loans, but the VA 
guarantees a portion of the loan, enabling veterans to receive more 
favorable terms.
    These loans are different from those offered to the non-veteran, 
civilian population. Instead of paying annual fees or interest on the 
loan, the veteran only pays a one-time, up-front loan fee at the 
initiation of their loan.
    Currently, the rate of this fee is 0.25% lower if you are active 
duty than if you are in the National Guard or Reserve. This bill would 
equalize the rate at 2.40%.
    I believe our colleagues in the Senate will agree with the 
unanimous, bipartisan consensus in the House--that this pay-for is 
appropriate and measured. The VA Home Loan program will remain a 
powerful, unparalleled tool to help America's veterans become 
homeowners, and the rates will remain far better than rates in the 
private market.
    Our Blue Water Navy veterans have waited far too long for the 
healthcare and benefits owed to them. They've suffered health 
consequences that left them and their families on the hook for medical 
expenses that our government should have provided. Many have lost their 
lives. This is an injustice we can--and must--address here in this 
Congress.
    I ask that each of you here vote today to move H.R. 299 out of 
committee without changes or delay--so that our Nation can do right by 
our veterans and their families as quickly as possible.
    And now I'd like to yield to my colleague and lead cosponsor of 
this legislation, Senator Daines.

    Chairman Isakson. Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Chairman Isakson and Ranking Member Tester, 
thank you for allowing us to be here today to testify at this 
hearing.
    I am the lead Republican on this bill, and I want to thank 
my colleague and friend Senator Gillibrand for her leadership. 
I urge the Committee to pass this critical bipartisan measure.
    Since 2002, our U.S. Navy veterans who were exposed to 
Agent Orange while serving in Vietnam have been denied proper 
care through the VA. As background, you have to go back to the 
Agent Orange Act of 1991, 27 years ago. That bill passed 
unanimously by both Houses of Congress, and it extended 
presumptive health care coverage for all illnesses linked to 
Agent Orange.
    Here is the problem: The VA thwarted congressional intent 
by choosing the narrowest possible definition of ``service in 
the Republican of Vietnam,'' which excluded the country's 
territorial waters. Our Federal records show, the science shows 
a documented 19 million gallons of herbicide was sprayed over 
Vietnam between 1962 and 1971. No reasonable person would 
conclude that the runoff from these powerful chemicals was 
contained just to the shoreline.
    I am encouraged by the recent action our colleagues in the 
House have taken and the growing bipartisan push here in the 
Senate to correct, frankly, a senseless disparity once and for 
all. I urge this Committee to take a critical step toward that 
end today.
    Chairman Isakson. Thank you very much, Senator Daines. I 
think we go to questions and answer on the first panel.
    I am trying to exercise executive privilege over here. Just 
a second. I will be right back to you. [Pause.]
    The staff tells me I am out of order. [Laughter.]
    That is not the first or would be the last time. Senator 
Daines, thank you for coming.
    Senator Daines. Thank you, Mr. Chairman.
    Chairman Isakson. Ms. Gillibrand, thank you very much for 
your comments.
    Senator Gillibrand. Thank you all. Thank you for the time.
    Chairman Isakson. Senator Peters has already left. I thank 
him very much.
    The first panel, which I will introduce right now, is 
coming forward. Panel number 1 is Paul Lawrence, Ph.D., Under 
Secretary for Benefits, Veterans Benefits Administration, 
Department of Veterans Affairs.
    Ralph Erickson will be accompanying him. Ralph is a doctor, 
Chief Consultant, Post-Deployment Health, Veterans Health 
Administration.
    Tammy Czarnecki is Assistant Deputy Under Secretary for 
Health/Administrative Operations, Veterans Health 
Administration.
    And, Jessica Bonjorni--I hope you are Italian; that would 
be great--is Acting Assistant Deputy Under Secretary for Health 
for Workforce Services, Veterans Health Administration.
    Will you all please come forward and take your seats? Thank 
you very much for being here. This is an important panel, and I 
will get to ask you all questions. Just because the Senators 
dodged the bullet, you all will not be able to.
    We will start with Ms. Bonjorni--no, I am sorry. You are to 
be an acting aide. You are not going to be the main presenter. 
That is correct. I almost got you in trouble, too.
    Mr. Lawrence, you are on. You have 5 minutes, but if you 
take a little extra time because of the complexity of a couple 
of these issues, that will be fine with me.

   STATEMENT OF PAUL R. LAWRENCE, Ph.D., UNDER SECRETARY FOR 
BENEFITS, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF 
VETERANS AFFAIRS; ACCOMPANIED BY RALPH ERICKSON, M.D., M.P.H., 
  DR. PH, CHIEF CONSULTANT, POST-DEPLOYMENT HEALTH, VETERANS 
HEALTH ADMINISTRATION; TAMMY CZARNECKI, ASSISTANT DEPUTY UNDER 
SECRETARY FOR HEALTH/ADMINISTRATIVE OPERATIONS, VETERANS HEALTH 
 ADMINISTRATION; AND JESSICA BONJORNI, ACTING ASSISTANT DEPUTY 
  UNDER SECRETARY FOR HEALTH FOR WORKFORCE SERVICES, VETERANS 
                     HEALTH ADMINISTRATION

    Mr. Lawrence. Thank you very much, sir. Good afternoon, 
Chairman Isakson, Ranking Member Sanders, and Members of the 
Committee. Thank you for inviting us here today to present our 
views on several bills that would affect the Department of 
Veterans Affairs. You generously introduced our panel, so I 
will not repeat their names.
    With 15 bills on the agenda, I will cover a few in my oral 
statement.
    We are glad to support the bill to provide grants to 
coordinate suicide prevention efforts for veterans in our 
communities. There is no bigger or more urgent priority for VA.
    Other bills we support will provide long-overdue increases 
in burial benefits as well as improving benefits for surviving 
spouses.
    There are other bills on the agenda that raise concerns, 
including Blue Water Navy. We oppose this bill. Let me explain 
why.
    We know it is incredibly difficult to hear from groups of 
veterans who are ailing and ill. Many of us in this room are 
veterans with empathy and compassion. We also understand there 
are practical effects from this bill that give us great concern 
and pause. In the case of this legislation, we should be very 
clear on the precedent this bill attempts to create and the 
broad effects it will have over time.
    As you know, when a veteran files a claim, our pledge is to 
work hard to honor it. In the process of evaluating a veteran's 
claim, we rely on science and medical opinions. For example, a 
person suffers an injury during service or has a condition 
later in life that we think is connected to their time in 
service. They submit a claim for service-connected benefits 
based on the injury or condition. We apply science, in this 
case a medical exam, to demonstrate the injury or condition was 
caused during military services or has rendered them with a 
disability for which they should receive compensation.
    But, with Blue Water Navy, there is no conclusive science 
from the Institute of Medicine to support claims of toxic 
exposure. This Committee set the standard to use science to be 
fair and consistent in cases such as this. Once that standard 
is removed from the equation, it becomes nearly impossible to 
adjudicate a claim of this type on the merits. The resulting 
lower threshold sets in motion the prospect of uncontrolled 
demands for support. What remains eliminates this rationale, 
and instead we are left with a situation where there are no 
limits; therefore, no claims can be denied.
    This in turn invites other sympathetic causes without valid 
science to petition Congress for compensation. If this bill 
becomes law, this Committee is setting a precedent for 
potentially unwieldy policy with consequences to the future of 
Veterans Benefits, VA, and in other areas of Government.
    The bill before us today will then be referenced when other 
exposure claims are presented to this Committee. At that point 
Congress will be under greater pressure to accommodate these 
requests, too, regardless of the evidence.
    The National Academy of Medicine reviewed all available 
scientific evidence, concluding that it was unable to state 
with certainty that Blue Water Navy personnel were or were not 
exposed to Agent Orange. They recognized that the oft-mentioned 
Australian study does not directly support the contention that 
Blue Water Navy personnel were exposed to the dioxins of Agent 
Orange. This laboratory simulation was based on the false 
premise that water for ship distillation would be drawn near 
shore where pollution accumulates. To avoid these contaminants, 
established U.S. Navy policy was only to draw water from 12 
miles offshore where pollutants and dioxins would be diluted 
from trillions of gallons of sea water.
    Because we are always looking for new information, VA 
continues to review and monitor the peer-reviewed scientific 
and medical literature in collaboration with VSOs. To further 
address the medical aspects of Section 2, Dr. Erickson is with 
me today and is prepared to discuss ongoing VA studies of 
Vietnam veterans, one of which compares the health effect of 
Vietnam veterans with veterans who did not serve in Vietnam and 
with U.S. nonveteran populations. It has the advantage of 
including Blue Water Navy veterans on the steering committee. 
Results will be published in peer-reviewed scientific 
literature starting in 2019. Nearly 1,000 Blue Water Navy 
veterans are included in the study at this time.
    Additionally, VA is opposed to paying for the provisions of 
this bill by increasing the costs that some veterans must pay 
to access their benefits. Veterans will have to either finance 
the VA funding fee with interest or pay up-front in cash. This 
means fewer veterans will buy homes or buy homes using non-VA 
options, potentially opening them to predatory lenders.
    Another impact we need to raise regards the recent ongoing 
efforts to reduce the appeals and claims backlog. These efforts 
would be impacted through additional FTEs and costs, but also 
adding time to the 125 days to process a claim due to the 
verification study that would need to go into the processing of 
that claim.
    In summary, we oppose this bill because the science is not 
there, and what we do depends upon science. We care so we keep 
looking. Increased fees levied on home loans place additional 
financial burdens on veterans who are trying to buy a home, 
opening them further to predatory lending. The ongoing efforts 
and momentum of appeals and claim backlog would be set back.
    A final thought. Congress has always relied on science. If 
this bill passes, the legacy of this Committee could be forever 
changed.
    Let me now briefly address the draft bill on Veterans 
Dental Care Eligibility Expansion and Enhancement Act of 2018. 
We feel part of the bill is unnecessary and that the 
significant expansion of dental care called for in this bill is 
simply not feasible. VA does not have the infrastructure to 
provide that care, and the significant expense of adding the 
benefit we fear would squeeze resources from other critical 
veteran health care needs.
    State nursing homes are addressed in S. 3184. We know 
extended care for veterans is an important issue for the 
Committee and every Senator. However, we believe S. 3184, as 
drafted, could result in negative unintended consequences, 
including move State veterans' homes away from their core 
mission of serving veterans. We are glad to discuss ideas to 
improve this bill further with the Committee.
    This concludes my testimony. We look forward to answering 
any questions the Committee has.
    [The prepared statement of Mr. Lawrence follows:]
    Prepared Statement of Dr. Paul R. Lawrence, Under Secretary for 
             Benefits, U.S. Department of Veterans Affairs
    Good morning, Chairman Isakson, Ranking Member Tester, and Members 
of the Committee. Thank you for inviting us here today to present our 
views on several bills that would affect the Department of Veterans 
Affairs' (VA) programs and services. Joining me today are Ralph 
Erickson, M.D., M.P.H., Dr. PH, Chief Consultant, Post Deployment 
Health, VHA; Tammy Czarnecki, Assistant Deputy Under Secretary for 
Health/Administrative Operations, VHA; and Jessica Bonjorni, Acting 
Assistant Deputy Under Secretary for Health for Workforce Services, 
VHA.
         h.r. 299--blue water navy vietnam veterans act of 2018
Section 2: Clarification of Presumptions of Exposure for Veterans Who 
        Served in Vicinity of Republic of Vietnam
    Section 2 of H.R. 299 would add a new section 1116A to title 38, 
United States Code (U.S.C.). The bill would expand the presumption of 
Agent Orange exposure to all Veterans who served ``offshore'' of the 
Republic of Vietnam, as defined in subsection (d) of the bill, and 
would presume the in-service incurrence or aggravation of all diseases 
covered in 38 U.S.C. Sec. 1116 for these Veterans. It would also 
provide retroactive benefits for Veterans who had a previous claim for 
a covered disease denied and then file a new claim, comparable to the 
retroactive benefits available for Veterans who went ashore. This 
retroactivity would be accomplished via a special effective date rule 
contained in the bill. The bill would also expand the definition of 
``Vietnam-era herbicide-exposed veteran,'' codified at 38 U.S.C. 
Sec. 1710(e)(4)(A), to include Veterans with ``offshore'' service for 
purposes of the provision of health care.
    VA is opposed to section 2 of this bill. The legislative history of 
Veterans' disease presumptions dates back to 1921 when Congress 
established a presumption of service connection with an amendment (P.L. 
67-47) to the War Risk Insurance Act (P.L. 63-193). In the following 
years, additions to the presumptive list were made by regulation, 
executive order, and legislation. In 1991, the Agent Orange Act (P.L. 
102-4) established for Vietnam Veterans a presumption of a service 
connection for diseases associated with exposure to Agent Orange and 
certain other herbicides. For the first time, this Act required VA to 
contract with the Institute of Medicine (IOM) to biennially conduct a 
scientific review of the evidence linking certain medical conditions to 
herbicide exposure. VA was instructed to use the IOM's findings, and 
other evidence, to provide the rationale for establishing regulations 
and determining that a presumption for any disease would be warranted 
when there is scientific evidence of an association with herbicide 
exposure.
    VA's view is that the evidence-based approach to creating or 
expanding presumptions should be maintained. Although presumptions 
exist to assist in proving claims that may otherwise be difficult for 
individual veterans to establish on a direct basis, the presumptions of 
exposure and/or medical causation should always be supported by 
historical, scientific, and/or medical evidence about the specific 
population of Veterans affected. VA recognizes Congress's prerogative 
in creating or expanding presumptions. However, VA is concerned that 
new Congressionally-created presumptions that are not adequately 
supported by evidence will erode confidence in the soundness and 
fairness of the Veterans' benefits system. Such statutory presumptions 
will lead to increased pressure on VA to create or expand additional 
presumptions administratively, under a similarly liberal approach. 
Because VA generally cannot establish regulatory presumptions that are 
not reasonably grounded in evidence, Veterans petitioning VA for new 
presumptions that are not supported by the required level of evidence 
will likely be unsatisfied with VA's response. These Veterans may feel 
that the system is inequitable in providing expansive presumptions 
favoring certain groups of Veterans but not others.
    As a means of further assessing the potential for Agent Orange 
exposure, VA commissioned the IOM to produce the report, Blue Water 
Navy Vietnam Veterans and Agent Orange Exposure (2011). The report 
concluded that exposure among Blue Water Navy Veterans ``cannot 
reasonably be determined,'' and it did not find supported and 
compelling evidence of Agent Orange exposure due to aerial spray drift, 
river water runoff, or potable sea water distillation. The report 
indicated that Agent Orange was destroyed by sunlight within hours of 
application and any that survived would rarely make it out to the South 
China Sea because of the major dilution factor. Additionally, United 
States Navy ships were required to draw up seawater for conversion to 
shipboard potable water at least twelve miles offshore from any river, 
a distance at sea where the presence of Agent Orange was unlikely.
    Although there is insufficient scientific evidence to grant a 
blanket presumption of Agent Orange exposure for all Navy Vietnam 
Veterans, VA has a liberal policy of presuming exposure for all 
Veterans who served aboard Brown Water vessels operating on Vietnam's 
inland waterways, and for those Veterans serving aboard Blue Water 
ships that temporarily entered the inland waterways. Additionally, if 
evidence shows that a Blue Water ship off the coast sent crew members 
ashore for duty or visitation, any Veteran on the ship at that time 
will receive the presumption of exposure if they state that they 
personally went ashore.
    As such, VA opposes section 2 because there is insufficient 
scientific evidence at this time showing Blue Water Navy Veterans were 
exposed to Agent Orange. At VA's request, the IOM (now National Academy 
of Medicine (NAM) ) reviewed all available scientific evidence, 
concluding that it was ``unable to state with certainty that Blue Water 
Navy personnel were or were not exposed to Agent Orange and its 
associated TCDD'' (ref: Blue Water Navy Vietnam Veterans and Agent 
Orange Exposure, 2011). VA continues to review and monitor the peer-
reviewed scientific and medical literature and is collaborating with 
Veterans Service Organizations (including the Veterans of Foreign Wars 
and the Blue Water Navy Vietnam Veterans Association) to gather more 
information. A new VA health study of Vietnam Veterans that includes 
the collection of data on Blue Water Navy Veterans is currently 
ongoing. VA researchers are currently analyzing data from this effort. 
The timeline for initial results is expected to be in 2019, with 
publication of results potentially within 1-2 years. VA is committed to 
examining all available evidence on this issue and gathering input from 
stakeholders in order to make well-informed, scientific, evidence-based 
decisions for our Nation's Veterans.
    VA is also concerned with the special effective date provisions of 
the bill. Our understanding is that these provisions are intended to 
provide Blue Water Navy Veterans with effective date treatment that is 
similar to that available under the Nehmer court decision and orders 
for those who served in the Republic of Vietnam. However, in enacting 
provisions extending benefits to other groups of Veterans, Congress 
generally has not extended those benefits retroactively, much less for 
such a significant time period. VA is concerned about the apparent 
inequity of this disparate treatment of different groups of Veterans. 
Further, VA is concerned that the procedures necessary for applying 
these special effective date provisions, including determining proper 
effective dates and establishing awards covering large retroactive 
periods, would be complex and labor-intensive tasks that would divert 
resources from other important claim adjudications.
    Further, VA has concerns associated with the demarcation line used 
in this bill. Implementation of this provision would be impracticable. 
Currently, VA maintains a ship list for ships that operated on inland 
waterways. This requires VA to research and review deck logs in 
individual cases to assess the geographic coordinates of the ship, as 
well as the time periods on which the ship operated on an inland 
waterway. This bill would essentially extend that ships list to 
encompass an area no more than 12 nautical miles seaward of a line 
commencing on the southwestern demarcation line of the waters of 
Vietnam and Cambodia and intersecting certain geographic points. VA 
would be required to assess many more deck logs and coordinates to 
place additional ships on that list for certain time periods. Because 
of the nature of deck logs, it may be impossible to determine an exact 
location and determine whether a ship did, or did not, cross this line 
on a particular date. Additionally, based on the available scientific 
and medical evidence, VA is unaware of any association between a line 
twelve miles offshore and exposure to Agent Orange. VA understands that 
the Department of State also has concerns regarding this provision of 
the bill.
    This bill would also add significantly to the number of benefit 
claims pending over 125 days. Because of the retroactive provisions and 
the intricacies of reviewing deck logs, each claim would take longer--
more than twice as long, on average--to review than claims VA generally 
receives. In addition, a large volume of claims would be expected as a 
result of this bill. Thus, unless additional employees are provided, VA 
would expect the backlog to grow significantly due to this expected 
claims burden.
    Finally, VA does not support paying for the provisions of this bill 
by increasing the costs that some Veterans must bear to access their 
benefits. Section 6(b) of the bill would adjust the loan fee that 
certain Veterans, Servicemembers, and surviving spouses must pay to 
obtain home loans in VA's home loan program. In many cases, the 
adjustment would require borrowers to pay higher loan fees to obtain 
home loans. In other words, it appears that the bill would partially 
offset the Government's cost of increased benefits spending on some 
Veterans by raising loan fees for others. Granting new benefits for 
some Veterans at the expense of other Veterans is counter to VA's 
mission.
    VA's cost estimate for the bill is broken down into four 
categories: benefits, general operating expenses, information 
technology (IT), and health care expenditures. VA estimates the total 
benefits cost of this bill would be $1.8 billion during fiscal year 
(FY) 2019, $3.4 billion over 5 years, and $5.7 billion over 10 years. 
In addition to benefits cost, VA estimates the Veterans Benefits 
Administration (VBA) General Operating Expenses (GOE) costs for the 
first year would be $90 million and include salary, benefits, rent, 
training, supplies, other services, and equipment. Five-year costs are 
estimated to be $215.2 million and 10-year costs are estimated to be 
$349.1 million. VA further estimates that the IT cost to support VBA 
would be $2.9 million for the first year, $5.3 million over 5 years, 
and $7.6 million over 10 years. This cost would include the IT 
equipment for full-time equivalent employees, installation, 
maintenance, and IT support. Regarding health care expenditures, VA 
estimates the costs of section 2 of the bill would be $27.8 million in 
FY 2019, $275.1 million over 5 years, and $625.0 million over 10 years. 
In total, VA estimates section 2 of the bill would carry costs of 
approximately $6.7 billion over 10 years.
Section 3: Presumption of Herbicide Exposure for Certain Veterans Who 
        Served in Korea
    Section 3 would add a new section 1116B to title 38, U.S.C., 
extending the presumptions of service connection for diseases 
associated with exposure to herbicide agents to all Veterans who served 
in the Korean demilitarized zone (DMZ) between September 1, 1967, and 
August 31, 1971. It would not provide retroactive benefits comparable 
to those available for Veterans who served offshore of the Republic of 
Vietnam, as proposed in section 2 of this bill.
    VA is not opposed to presumptions for Veterans of service in the 
Korean DMZ, but has concerns with the prescribed presumptive dates, 
which we believe would unduly expand the start of the time period of 
presumptive exposure.
    Following consultation with the Department of Defense (DOD), VA 
promulgated 38 Code of Federal Regulations (CFR) Sec. 3.307(a)(6)(iv), 
which provides a presumption of exposure to an herbicide agent to 
Veterans who served between April 1, 1968, and August 31, 1971, ``in a 
unit that, as determined by [DOD], operated in or near the Korean DMZ 
in an area in which herbicides are known to have been applied during 
that period.'' As VA explained in the proposed and final rule notices 
implementing 38 U.S.C. Sec. 1821, DOD has identified April 1968, as the 
earliest known use of herbicides along the Korean DMZ. See 74 Fed. Reg. 
36,640, 36,641 (Jul. 24, 2009) (''[s]pecifically, DOD has reported that 
herbicides were applied between April 1968 and July 1969''); 76 Fed. 
Reg. 4245, 4246 (Jan. 25, 2011).
    Additionally, the lack of retroactive benefits for Veterans who 
served in the Korean DMZ highlights the disparity between the treatment 
of Veterans who served offshore of the Republic of Vietnam, as 
addressed in Section 2 of this bill, compared to other groups of 
Veterans.
    Costs associated with Section 3 are estimated to be insignificant.
Section 4: Benefits for Children of Certain Thailand Service Veterans 
        Born with Spina Bifida
    Section 4 would add a new section 1822 to title 38, United States 
Code, authorizing VA to provide the same benefits to children of 
Veterans with Thailand service, as defined in the bill, suffering from 
spina bifida as the benefits required to be paid to children of Vietnam 
Veterans suffering from spina bifida.
    VA supports assisting family members who may have been adversely 
affected by a Veteran's in-service exposure to Agent Orange. However, 
VA is concerned with Section 4 because there is continued scientific 
uncertainty surrounding the association of spina bifida and exposure to 
Agent Orange. As found in the last relevant NAM report, an association 
between spina bifida and exposure to Agent Orange is no longer shown. 
Spina bifida was moved from the category of limited or suggestive 
evidence of association in update 2012 to the category of inadequate or 
insufficient evidence of association in update 2014.
    VA estimates the total benefits cost of this bill would be $748,000 
during FY 2019, $3.9 million over 5 years, and $8.1 million over 10 
years. GOE and IT costs are not associated with this section. We are 
unable to provide health care cost estimates at this time.
Section 5: Updated Report on Certain Gulf War Illness Study
    Section 5 of the bill would require VA, within 180 days of the date 
of the enactment of this Act, to submit to the Committees on Veterans' 
Affairs of the House of Representatives and the Senate, an updated 
report on the findings, as of the date of the updated report, of the 
Follow-up Study of a National Cohort of Gulf War and Gulf Era Veterans 
under VA's epidemiology program. VA has no objection to this 
requirement, as we anticipate this update would be available within 
that time period.
Section 6: Loans Guaranteed Under Home Loan Program of Department of 
        Veterans Affairs
    Section 6(a) would amend 38 U.S.C. Sec. 3703(a)(1) by revising the 
definition of maximum guaranty amount to tie the maximum guaranty 
amount to the loan, regardless of whether the loan exceeds the Freddie 
Mac conforming loan limit.
    Subsection (b) would amend the loan fee table at 38 U.S.C. 
Sec. 3729 to adjust the statutory loan fees charged to borrowers 
obtaining loans made, guaranteed, or insured under VA's home loan 
program. Certain Veterans, Servicemembers, and surviving spouses would 
pay increased loan fees when obtaining purchase, construction, and 
fully underwritten loans.
    Subsection (c) would waive the statutory loan fees for 
Servicemembers who have received the Purple Heart award. However, 
subsection (c) would impose new statutory loan fees on disabled 
Veterans that have a service-connected disability rated as less than 
total and surviving spouses who are currently exempt from the loan fee.
    VA does not support section 6(a). Under current law, the maximum 
guaranty amount can prevent Veterans who live in high-cost areas from 
being able to obtain a zero down payment loan. By tying the maximum 
guaranty amount to the loan rather than to the Freddie Mac conforming 
loan limit, subsection (a) would eliminate what has restricted 
Veterans' use of their home loan benefits in certain high-cost areas. 
However, this provision may increase risks to the portfolio by 
increasing the effective loan-to-value ratio for these non-conforming 
loans. Higher loan-to-value ratios may lead to higher claim payments 
and lower recoveries in events of default.
    VA does not support subsections (b) and (c) of the bill. As 
previously explained, VA does not support paying for the provisions of 
this bill by increasing the costs that some Veterans must bear to 
access their benefits.
    VA still is refining estimates for benefits savings associated with 
section 6, but the 10-year savings likely will fall below $3 billion. 
Therefore, VA anticipates that the bill's costs would far exceed any 
savings associated with this section.
Section 7: Information Gathering for Department of Veterans Affairs 
        Home Loan Appraisals
    Section 7 would amend 38 U.S.C. Sec. 3731 to permit appraisers to 
make appraisals based solely on information gathered by a person with 
whom the appraiser has entered into an agreement for such services. The 
provision would result in less wait-time for Veterans who want to close 
their loans, particularly those Veterans who live in remote areas. 
Section 7 would also better align VA-appraisal policy and procedures 
with industry standards. VA believes this provision would address 
recent stakeholder concerns regarding timely delivery of VA-required 
appraisals. VA estimates that there are no costs associated with this 
section.
  s. ___--veterans dental care eligibility expansion and enhancement 
                              act of 2018
    Section 2 of the draft bill would amend 38 U.S.C. Sec. 1710(c) to 
authorize the Secretary to furnish dental services and treatment, and 
dental appliances, needed to restore functioning in a Veteran that is 
lost as a result of any services or treatment furnished under this 
subsection.
    VA does not support this section because it is unnecessary. VA 
already has the authority to provide these services. While VA currently 
has limited authority to furnish dental care and services, VA can 
furnish care and services under a different provision of law to 
Veterans who have been disabled by treatment. If the intent of this 
section is otherwise, VA would appreciate the opportunity to discuss 
this further with the Committee.
    Section 3 of the draft bill would require VA to begin a 3-year 
pilot program not later than 540 days after the date of the enactment 
of this Act. Through this pilot program, VA would assess the 
feasibility and advisability of furnishing dental services and 
treatments to Veterans enrolled in VA health care who are not eligible 
for such care under other authorities. VA would have to carry out the 
pilot program at not fewer than 16 locations meeting certain criteria 
and based on certain considerations. No more than 100,000 Veterans 
could participate in the pilot program, and the Secretary would have to 
distribute this limitation among locations selected for the pilot 
program in a manner that takes appropriate account of the size and need 
of dental services at each location. The services that would be 
provided would have to be consistent with the services the Secretary 
furnishes to Veterans with service-connected disabilities rated 100 
percent disabling under VA's laws. Veterans would be able to 
participate in the pilot at their election. VA would have the authority 
to collect copayments for dental services in accordance with 
authorities on the collection of copayments under VA's existing 
authorities, but could not be more than the copayments for medical care 
under chapter 17. VA would have to inform all Veterans eligible to 
participate in the pilot program of the services and treatment 
available, and VA could enter into contracts with appropriate entities 
for the provision of dental care, although each contract would have to 
specify performance standards and metrics and processes for ensuring 
compliance with such standards. Within 540 days and again within 3 
years of the commencement of the pilot program, VA would have to submit 
a report to Congress on the pilot program, and 180 days after the 
completion of the pilot program, VA would have to submit another report 
to Congress. These changes would take effect on the date that is one 
year after the date of the enactment of this Act.
    While VA supports the expansion of dental services and oral health, 
VA cannot support this section without additional resources, 
specifically funding, infrastructure, and staffing, to support such an 
effort. VA does not have the infrastructure or staff to furnish care to 
an additional 100,000 Veterans in 16 or more locations without reliance 
upon community providers. Therefore, implementation of this pilot 
program would significantly increase VA's financial obligations for 
community care at a time when VA is in the process of implementing the 
new Veterans Community Care Program required by the Caring for Our 
Veterans Act of 2018. We further note that, as this is structured to be 
a pilot program, we have significant concerns on how we would implement 
this and believe that Congress should make additional policy decisions 
concerning how this program would operate. While VA may be able to make 
these decisions through rulemaking, we expect these would potentially 
be controversial and could delay implementation of the program if VA is 
forced to decide these matters instead of Congress. For example, the 
bill provides no guidance on how VA should administer this benefit 
fairly--whether VA should rely upon first in time, a clinical 
assessment, priority group, or some other criterion for determining 
which 100,000 Veterans receive care under this program. Similarly, the 
legislation offers no guidance on how VA should make determinations 
concerning where such care would be furnished. Finally, as a term-
limited program, VA is concerned about how VA would manage care 
authorized near the end of the pilot program, as some Veterans may 
actually be worse off, if they received only a portion of a fuller 
episode of care. We would appreciate the opportunity to discuss these 
concerns in greater detail with the Committee.
    VA anticipates that the total cost for clinical care (not including 
administrative or other costs) during the three year pilot program 
would exceed $600 million.
    Section 4 would require VA to construct or lease a VA dental clinic 
in any State that does not have a VA facility that offers onsite dental 
services. Within 180 days of the date of the enactment of this Act, VA 
would have to submit a plan to Congress for construction or lease of a 
dental clinic in each applicable State and begin construction of any 
such clinic not later than 1 year after such date of enactment. There 
would be authorized to be appropriated, and would be appropriated, $10 
million to carry out this section.
    VA supports ensuring Veterans have access to dental services, but 
we believe decisions about establishing a new VA health care presence, 
whether leased or government-owned, should be made based upon an 
analysis of local conditions, namely the density of the population of 
eligible Veterans and the availability of other options to deliver 
cost-effective care.
    Section 5 would require VA to carry out a program of education to 
promote dental health for Veterans who are enrolled in VA health care, 
although nothing in this authority would alter or revise the 
eligibility of any Veteran for dental care under VA's authorities. This 
education program would have to provide information concerning the 
association between dental health and overall health and well-being; 
proper techniques for dental care; signs and symptoms of commonly 
occurring dental conditions; and treatment options for commonly 
occurring dental issues. The education program would also provide 
information pertaining to options for obtaining access to dental care, 
including information on eligibility for care through VA, State and 
local governments or non-profit organizations; purchasing private 
dental insurance; available and accessible options for obtaining low or 
no-cost dental care, including through dental schools and federally-
qualified health centers; and such other matters relating to dental 
health as the Secretary considers appropriate. The education material 
would have to be provided through a variety of mechanisms, including 
print, online, and through presentations.
    VA does not support section 5 because it is unnecessary. VA already 
develops, provides, and promotes educational information, including 
training and the availability and accessibility of options for 
obtaining low or no-cost dental care, including through dental schools 
and federally-qualified health centers.
    Section 6 would require VA, no later than 540 days after the date 
of the enactment of this Act, to expand the dental insurance pilot 
program established by 38 CFR Sec. 17.169 (as in effect on the date of 
the enactment of this Act) to establish a mechanism by which private 
sector dental care providers shall forward to VA information on dental 
care furnished to individuals under the pilot program for inclusion in 
the electronic medical records of VA with respect to such individuals. 
VA could continue the dental insurance pilot program for 2 years in 
addition to what is otherwise provided for in 38 CFR Sec. 17.169 if the 
Secretary determines that the continuation is needed to assess the 
mechanism required by this section. Individuals could elect whether to 
participate in the mechanism. VA would have to include information on 
the mechanism in each report to Congress on the dental insurance pilot 
program. This section would take effect on the date that is one year 
after the date of the enactment of this Act.
    VA does not support this section. We are concerned about the 
language in this section could create a requirement concerning medical 
records interoperability that is separate from VA's efforts to 
modernize its electronic health records generally. Many dentists are 
not accustomed to providing health record information electronically to 
other providers; the claims they submit to patients and insurers for 
payment are generally all that they provide. As a result, this could 
create additional requirements on individual providers, which could 
either become difficult for them to implement or could result in their 
refusal to participate in the Dental Insurance Program. We believe it 
is necessary to balance the interests of a complete medical record with 
the obligations and expectations of community providers. We further 
note that the dental insurance program is no longer a pilot program, 
but is now a permanent program that is codified at 38 U.S.C. 
Sec. 1712C; moreover, the pilot program authority (Public Law 111-163, 
section 510) was repealed through the Act that codified this authority 
(Public Law 114-218). VA fully supports the existing VA Dental 
Insurance Program.
    Section 7 would authorize VA to carry out a demonstration program 
to establish programs to train and employ alternative dental health 
care providers to increase access to dental care for Veterans who are 
entitled to such services from VA and reside in rural and other 
underserved communities. VA would give priority for participation in 
the demonstration program to VA medical centers or health systems in 
States with a technical college within the State college system that 
has established a degree or certificate level program for the training 
of alternative dental health care providers. Services through the 
demonstration program could be administered through telehealth-enabled 
collaboration and supervision when appropriate and feasible. 
Alternative dental health care providers would have the meaning given 
that term in 42 U.S.C. Sec. 256g-1(a)(2).
    VA is opposed to unproven alternative delivery of dental care 
models. While we support programs that expand dental health care to 
Veterans in a safe and effective manner, the scientific evidence does 
not currently support the proposed model for Veteran patients who 
require management of multiple physical and mental comorbidities and 
multiple prescription medications. The average VA dental patient is 
approximately 60 years old and is taking over 10 medications. Allowing 
Veteran patients to seek restorative oral health care from a non-
dentist practitioner poses too great of a potential overall health 
risk. VA strongly believes that the professional education and clinical 
expertise of a licensed dentist is essential for the thorough 
evaluation and comprehensive treatment of patients in VA.
    Section 8 would authorize to be appropriated $500 million for 
fiscal year 2020 to carry out this Act, other than section 4. The 
amount authorized to be appropriated would be available for obligation 
for the 5-year period beginning on the date that is one year after the 
date of the enactment of this Act.
    VA has no views on section 8.
     s. 3184--to amend title 38, united states code, to modify the 
requirements for application for construction of state home facilities 
to increase the maximum percentage of nonveterans allowed to be treated 
              at such facilities, and for other purposes.
    S. 3184 would amend one of the requirements for applications for 
State home construction grants in 38 U.S.C. Sec. 8135(a)(4). 
Specifically, it would require States that submit an application to 
provide reasonable assurance that, for purposes of providing care to 
spouses of Veterans, during a period in which a facility is operating 
with a bed occupancy rate of 90 percent or less, not more than 40 
percent of the bed occupancy at any one time will consist of patients 
who are not receiving such level of care as Veterans.
    While VA appreciates the intent of this legislation, we cannot 
support it as drafted. First, it is inconsistent with the intent of 
VA's grant program for State Veterans Homes, as this would allow a 
significant portion of the population in a State Veterans Home to be 
non-Veterans. This authority would only apply if the home has less than 
90 percent occupancy, which suggests that there may be insufficient 
demand for the Veterans Home in the first place.
    VA also has concerns with this legislation because the technical 
effects of the bill would result in adverse effects on Veterans and 
non-Veteran residents. Initially, we note that the additional language 
that would be added in Sec. 8135(a)(4)(B) only refers to providing care 
to ``spouses of veterans,'' but State homes may also provide services 
to other non-Veterans besides spouses, such as persons whose child or 
children died while serving in the Armed Forces. We note that this 
creates some ambiguity as to how VA is to calculate the percentages 
further discussed in that subparagraph.
    VA's greater concern, though, is that we believe that the language 
concerning occupancy rates could lead to unfortunate outcomes. Our 
reading of this language is that it would prohibit a State home from 
having a relative percentage of non-Veterans above 40 percent; for 
example, if a 100 bed facility only had 90 beds filled, there could be 
no more than 36 non-Veterans (40 percent of 90). We would interpret 
this language to mean that the occupancy rates would refer to the 
relative percentage of residents; VA has interpreted similar language 
concerning bed occupancy rates in VA's regulations at 38 CFR 
Sec. 51.210(d) to refer to the total number of residents, rather than 
the total number of beds in the home. Applying this interpretation to 
this legislation, though, could result in significant disruptions in 
care. For example, if the 40 percent occupancy rate is a percentage of 
the relative number of beds and 90 beds were filled, 36 could be filled 
with non-Veterans and 54 with Veterans. However, if the next applicant 
for a bed were a Veteran, the facility would exceed the 90 percent 
total occupancy rate, as it would have 91 residents if it admitted the 
Veteran. Because of this, it would no longer be authorized to have 40 
percent of its available beds for non-Veterans; instead, it could only 
have 25 percent of its beds available for non-Veterans.
    We think this requirement could force the facility to take actions 
that could lead to unfortunate outcomes. First, the facility could 
simply discharge a non-Veteran patient immediately and admit the 
Veteran, which would be very disruptive to the discharged non-Veteran 
patient. This also would be a perverse incentive because it would 
discourage States to fully use the beds already in place. Second, the 
facility could tell the Veteran to wait until a non-Veteran left the 
facility on his or her own, but this would delay the Veteran's care and 
would be a waste of resources, as the facility would have open beds 
available. We think one of these results would be required by the 
legislation because the bill would prohibit exceeding the 40 percent 
occupancy rate ``at any one time,'' which we interpret to mean that if 
at any point, even only momentarily, a facility is not in compliance 
with this requirement, it cannot have the additional flexibility the 
bill intends. The phrase ``at any one time'' has been very difficult 
for State homes to administer in other contexts, as it requires them to 
take action in anticipation of even momentary changes in their resident 
population. If the legislation, instead, referred to an average over a 
period of time (monthly or quarterly would likely be appropriate), that 
would seem to provide more flexibility and prevent unnecessary 
discharges as described in the scenarios above.
    VA does not anticipate that this bill would result in any 
additional costs.
    s. ___--discussion draft regarding transition assistance reform
    The draft bill would amend title 10, U.S.C., to improve the 
Transition Assistance Program (TAP) for members of the Armed Forces, 
and for other purposes. VA generally defers to DOD, to the extent that 
it is responsible for administering title 10. However, we provide input 
on sections of the bill affecting VA.
    Section 2 of the draft bill would direct the interagency partners 
for TAP to improve the counseling, information, and services currently 
furnished to transitioning Servicemembers, and to provide these 
services to transitioning Servicemembers' spouses as appropriate. It 
would require that transitioning Servicemembers begin TAP no later than 
one year before their date of separation. It further would require 
sequencing of instruction and training provided by other agencies while 
allowing Servicemembers to complete VA training at a pace and order 
satisfactory to them.
    VA appreciates Congress's interest in TAP and shares its desire to 
make sure that the program serves as many transitioning Servicemembers 
as possible, in the most effective way possible. To that end, VA and 
our TAP interagency partners currently have several interagency 
evaluations under way. These studies will provide us with the 
information needed to continue to make evidence-based policy decisions 
as to what improvements to TAP should be made, and how best to make 
them. While these evaluations are under way, we believe that 
legislation to mandate additional evaluations is premature at this 
time; nevertheless, we look forward to working with the Congress to 
improve TAP once we have completed these evaluations and have the 
evidence available to make evidence-based policy decisions.
    With regards to requiring Servicemembers to begin TAP no later than 
one year before separation, VA continues to take action to fulfill its 
commitment to integrate TAP into the Military Life Cycle in order to 
inform, equip, and provide support to Servicemembers earlier and at 
critical touchpoints throughout their career.
    With regards to the specific elements of counseling to be provided, 
VA supports the intent of proposed section 1142(f)(3)(A), regarding 
information on programs and benefits related to Veteran status, but is 
already providing benefits information to active duty Servicemembers 
who are separating from military service. This has facilitated earlier 
and easier enrollment and access to VA health care. Further, VA does 
not support subparagraph (E), which would require the pre-separation 
counseling include a description, developed in consultation with VA, of 
the assistance and support services for family caregivers of eligible 
Veterans furnished by VA under 38 U.S.C. Sec. 1720G, including the 
Veterans covered by the program, the caregivers eligible for assistance 
and support through the program, and the assistance and support 
available through the program. VA does not support this subparagraph 
because VA has been working closely with DOD to implement a similar 
provision enacted in section 541 of the National Defense Authorization 
Act for Fiscal Year 2018 (Public Law 115-91). VA fully supports 
ensuring Veterans understand the benefits that may be available to 
them, including those provided by VA and DOD (such as Special 
Compensation for Assistance with Activities of Daily Living), and we do 
not believe further legislation is required. VA supports the intent of 
subparagraph (F), which would require the pre-separation counseling to 
include information on survivor benefits available under the laws 
administered by VA or DOD. VA supports efforts to increase awareness of 
survivor benefits, such as the Civilian Health and Medical Program of 
the Department of Veterans Affairs, which is an important health care 
benefits program available for the family members of certain severely 
disabled or deceased Veterans. However, VA already provides much of 
this information.
    Subsection 1142(g)(4), would also extend VA's current 6-hour 
briefings into a one-day course of instruction. VA interprets a full 
day of instruction as 8 hours. VA is in support of extending the VA 
benefits briefings to a full-day of instruction, which will ensure that 
VA can better prepare Servicemembers for their transition and help 
foster what will be a lifetime relationship between their families and 
the Department. A full-day will further ensure that transitioning 
Servicemembers are presented information in a manner that is conducive 
to promoting increased awareness and understanding of VA benefits, 
services, and support tools. Increasing the VA benefits briefings to a 
full-day of instruction would require additional funding. VA suggests 
that the term ``registration'' in this section be replaced with the 
term ``application.''
    With regards to mandating the sequencing of TAP, VA encourages that 
transitioning Servicemembers undertake the VA Benefits I/II training in 
an order satisfactory to their own personal transition goals, 
emphasizing that early and consistent training on VA benefits is 
crucial to the Servicemember's successful transition outcomes.
    In addition to the changes to TAP, the draft bill would require 
changes to interagency data-sharing requirements. Section 4 would 
require DOD to establish and maintain an electronic tracking system and 
database that contains data on Servicemember participation, survey 
answers, available resources, and counselor notes for the Department of 
Labor (DOL), VA, commanders, and other TAP partners. Section 5 would 
require the gathering of information and survey responses regarding TAP 
participation at various stages by various agencies and would require 
the information be made available electronically to VA, among other TAP 
partners.
    Section 11 of the draft bill also calls for the identification of 
opportunities where VA can provide training to members which will lead 
to employment in critically understaffed positions in VA, using the DOD 
SkillBridge programs. With regards to identifying opportunities for job 
training and employment with VA in SkillBridge programs, VA and DOD 
have a shared goal to enhance services and employment opportunities at 
VA for transitioning Servicemembers through SkillBridge programs. Since 
2014, VA has offered opportunities for transitioning Servicemembers to 
complete a national-level training program that leads to an opportunity 
for an interview and potential job as a benefits claims examiner. More 
recently, VA launched the Military Transition and Training Advancement 
Course (MTTAC) which trains Servicemembers to become medical support 
assistants. Furthermore, VA and DOD are working to develop an 
overarching agreement that will expand these types of opportunities to 
additional VA job fields.
    In sections 5, 12, and 13, the bill would require several different 
Servicemember studies and other evaluations of the effectiveness of 
transition-related training. It would require Servicemember surveys in 
order to assess the Servicemembers' and their spouses' experiences of 
the assistance provided through TAP. It also would require the 
evaluation of transition training and counseling relating to post-
secondary education and use of educational assistance. Last, it would 
require VA, in consultation with interagency partners, to conduct a 5-
year longitudinal study on three separate cohorts of Servicemembers who 
have separated from the Armed Forces.
    VA has already begun development of a post-transitional 
longitudinal program, which will survey Veterans over time to gain 
detailed information about their outcomes and their evaluations of how 
TAP helped them prepare for their transitions to civilian life. The 
assessment instrument was submitted to the Office of Management and 
Budget (OMB) for review in February 2018, and the Federal Register 
notice has been published. To conduct full execution of this study, VA 
will require additional funding.
    With regards to Servicemember surveys, VA receives feedback from 
participating Servicemembers and dependents through the Transition GPS 
Participant Assessment, which is a web-based instrument designed to 
measure and improve customer satisfaction with the curriculum and TAP 
overall. Using this transitioning Servicemember feedback, VA conducts a 
deep dive every other year to look for ways to improve the 
instructional delivery and design of its curriculum. In addition, we 
conduct a technical review every year to ensure all content is up to 
date.
    Section 14 would require the establishment of a board within the 
Veterans Benefits Administration (VBA) to exchange information and 
develop partnerships to support the prevention of suicides, substance 
abuse, and homelessness among Veterans. This board would include 
representatives from VBA, VHA, DOL, the Department of Homeland Security 
(DHS), and DOD. The existing VA/DOD Joint Executive Committee 
established during the 108th Congress and the TAP interagency Executive 
Council have significantly enhanced interagency exchange of information 
and partnership development to support the prevention of suicides, 
substance abuse, and homelessness. Furthermore, the Federal Government 
is improving collaboration on suicide prevention as a result of 
Executive Order (EO) 13822. These existing governance bodies provide a 
valuable forum for information sharing and collaboration on addressing 
mental health and at-risk populations. VA agrees that there is a clear 
need to improve coordination between the administrations and offices 
within VA, as well as among other agencies, regarding suicide, drug 
overdose, and alcohol-related mortality prevention efforts. As we 
recently released in the National Strategy for Preventing Veteran 
Suicide, data and surveillance form the foundation of a public health 
approach to ending Veteran suicide. Coordination within VA has already 
begun under our annual Veteran suicide data reports but there is more 
to be done. While VA supports the intent of this section, VA is 
concerned that the language prescribes that this board reside in an 
office which no longer exists in the VBA organizational structure, 
rather than affording VA the ability to determine which VA office 
should lead this board, should it be established. In addition, VA notes 
that the proposed board would have no experts on substance use 
disorders.
    Finally, section 15 would require VA, within 90 days of the 
enactment of this Act, to submit to Congress a report on current and 
future studies supported by VA's Office of Research and Development 
(ORD) and others relating to economic risk factors affecting suicide 
prevention and a report on how the Department's REACHVET program is 
incorporating or will incorporate economic risk factors in its 
algorithm for suicide prevention.
    VA does not support this section, as we can already provide this 
information, or will provide this information upon its completion, at 
the Committee's request without legislation. Assessment of the effect 
of economic-related variables on risk for suicide is already part of 
the strategic plan within ORD that focuses on the transition period 
from active military status to Veteran status. Epidemiological data 
analyses indicate that the transition period is a high risk period for 
suicide and related behaviors. The ORD strategic plan for suicide 
prevention aligns with EO 13822, which requires VA, DOD, and DHS to 
provide seamless access to mental health care and suicide prevention 
resources for transitioning Servicemembers. The EO specifically 
emphasizes access to services during the critical first year period 
following discharge, separation, or retirement from military service.
    In order to more closely examine the economic factors affecting 
suicide, ORD will leverage the existing data coordinating center at the 
Canandaigua VA Suicide Prevention Center of Excellence to identify, 
extract, and analyze data critical for a comprehensive suicide 
prevention program. ORD has identified funds (beginning in FY 2019) to 
support the Canandaigua data coordinating center in this added effort. 
It is expected the work will be conducted in collaboration with various 
units across VA as well as with external agencies such as DOD and the 
National Institutes of Health.
                   s. ___--va hiring enhancement act
    Section 2 of this legislation proposes to exempt VA physician 
hiring from the applicability of private sector covenants not to 
compete by adding new language to Subchapter 1 of Chapter 74 of Title 
38 U.S.C. The applicability of covenants not to compete or non-compete 
clauses to Federal hiring has been a recurrent problem around the 
country, especially for physician hiring. In short, the proposed 38 
U.S.C. Sec. 7413 states that any covenant not to compete with a non-
departmental entity, facility or individual shall have no force or 
effect as it relates to an appointment to a physician position within 
VHA. It requires the appointee to provide clinical services at a VA 
medical facility for the duration of the covenant not to compete or for 
one year, whichever is longer. This service requirement may be waived 
by the Secretary. If the physician's appointment is terminated for any 
reason before the termination date of the covenant not to compete, then 
the proposed 38 U.S.C. Sec. 7413 would no longer be applicable to the 
covenant not to compete.
    VA supports section 2 of this proposed legislation as written, as 
it solves a problem known to medical facility Chiefs of Staff across 
the country and clarifies that VHA hiring is not subject to private 
sector covenants not to compete. This legislation should make it easier 
to hire physicians with these contractual obligations. It should be 
noted that exempting VA physician hiring from covenants not to compete 
entered into with non-Departmental facilities, entities and individuals 
should not result in additional costs to the Federal Government or VA.
    While VA supports the intent of section 3, we do not support this 
provision as written. VA supports raising the qualification standard 
for physician hiring to completion of a full specialty residency 
program. This is the community standard and elevates VA standards to 
typical norms. VA changed the physician qualification standard over a 
year ago, and this section brings the statutory language in line with 
the current qualification standard. However, the inclusion of language 
regarding contingent appointments is unnecessary and confusing. VA 
already has the authority to extend job offers well before graduation 
from residency. Applicants must always meet the qualification standard 
prior to appointment. In addition, depending on state law, some 
residents may not gain the ability to be licensed immediately upon 
graduation from the residency program, as appears to be contemplated by 
section (3)(C)(ii).
    VA anticipates that this bill would result in no additional costs.
 h.r. 5418--veterans affairs medical-surgical purchasing stabilization 
                                  act
    H.R. 5418 would require multiple regional prime vendors to carry 
out the Medical Surgical Prime Vendor (MSPV) Program and successors. It 
would require each employee that conducts formulary analysis or makes 
decisions on formulary management have medical expertise relevant to 
the items being considered. The proposed legislation would also require 
a quarterly report to Congress of the names and medical expertise of 
employees who are participating in formulary management.
    VA agrees that there is a need for a clinically driven sourcing 
capability. The proposed legislation limits consideration of the full 
spectrum of MSPV delivery solutions available to efficiently provide 
medical products to VA healthcare facilities. The requirement to 
provide quarterly reports on clinicians who participate in formulary 
management is excessively burdensome.
    Further, MSPV costs are affected by many variables including: 
contract language; vendor geographic presence; mix of items purchased; 
etc. These variables change in relation to one another and in relation 
to how many vendors VHA uses. VA believes the MSPV legislation will 
likely increase medical commodity identification and procurement costs. 
Further, Congress has already provided tools for evaluating options for 
changing the number of vendors in subsequent acquisitions. Statutes on 
contract bundling and consolidation provide criteria for evaluating 
potential cost savings or other acquisition benefits to determine if 
such actions are necessary and justified. Thus, VA does not support 
this proposed legislation as written.
    VA is unable to provide a cost estimate at this time. MSPV costs 
are affected by many variables including: contract language; vendor 
geographic presence; mix of items purchased; etc. These variables 
change in relation to one another and in relation to how many vendors 
VA uses. VA believes the bill would likely increase medical commodity 
identification and procurement costs.
                       s. 1596--brave act of 2017
    S. 1596 would increase the basic non-service-connected monetary 
burial benefit allowance and tie monetary burial benefit allowances to 
the current rate of inflation according to the Consumer Price Index 
(CPI). Under current law, VA may only pay a sum not exceeding $300 
under section 2302 of title 38 U.S.C. for basic burial allowance. This 
bill would increase the basic burial allowance payment to $749 and 
increase it by the CPI on an annual basis. The bill would also increase 
the service-connected burial benefit under section 2307, title 38 
U.S.C. based on the CPI.
    As a technical matter, VA notes that the burial allowance under 
section 2303 is currently $762, after the CPI adjustment. The $749 
amount in this bill may be derived from FY17's CPI calculation. 
However, the legislation would apply to deaths that occur one year 
after the bill's enactment. Therefore, we suggest changing the starting 
amount from $749 to $762 in order to achieve parity between the burial 
benefits in sections 2302 and 2303.
    VA supports S. 1596 provided Congress finds corresponding funding 
offsets. The last increase in the non-service-connected burial 
allowance under section 2302 occurred October 1, 1978, through the 
enactment of Public Law 95-479, increasing the allowance from $250 to 
$300. The last increase in the service-connected burial allowance under 
Sec. 2307 occurred December 27, 2001 through the enactment of Public 
Law 107-103, increasing the allowance from $1,500 to $2,000.
    In 2007, and 2008, VA's Office of Policy and Planning (OPP) 
conducted a study to determine whether the burial program was achieving 
expected outcomes and to determine the program's impact on Veterans and 
families. OPP found that funeral costs had increased at a greater pace 
than the cost of other services since 1990. OPP noted that in 1973, the 
service-connected burial allowance covered 72 percent of a Veteran's 
funeral and burial expenses, and the non-service-connected allowance 
covered only 22 percent of a Veteran's funeral and burial expenses. 
According to OPP, by 2007, the value of these benefits had decreased 
significantly; the service-connected burial allowance reimbursed only 
23 percent of the cost of a Veteran's burial, and the non-service-
connected burial allowance reimbursed only four percent of the cost of 
a Veteran's burial. The National Funeral Directors Association (NFDA) 
reports on its Web site, www.nfda.org, that the median cost of a 
funeral and burial was $7,045 in 2012. The reported cost did not 
include the cost of a vault or cemetery plot or other miscellaneous 
cash advance charges, such as charges for flowers or obituaries. 
Further, NFDA reports that the median cost for an adult burial and 
funeral in the United States had increased from $708 in 1960, to $7,045 
in 2012.
    The proposal will allow VA to offer a more valuable reimbursement 
for the costs of a Veteran's funeral during a very difficult and 
vulnerable period of transition for the survivor. Additionally, the 
proposal will tie the burial allowances to the current rate of 
inflation consistent with burial benefits under section 2303.
    Benefit costs are estimated to be: no budget impact in 2019, $75.8 
million over five years, and $259.2 million over ten years. This 
estimate is based on the rate of $749 for basic burial allowance in the 
bill. The cost would increase slightly if the rate is corrected to 
match the rate for burial benefits under section 2303.
            s. 2881--mare island naval cemetery transfer act
    S. 2881 would require VA to seek an agreement with the city of 
Vallejo, California, under which the city would transfer all right, 
title, and interest in Mare Island Naval Cemetery to the control of VA, 
at no cost to VA. If the cemetery is transferred, VA would be required 
to maintain the cemetery as a national shrine.
    VA does not support S. 2881, because the transfer of the Mare 
Island Naval Cemetery to VA could disrupt efforts currently underway to 
address the condition of the cemetery, and because acquisition of the 
cemetery by VA does not align with VA's current strategic objectives 
with respect to providing burial access to Veterans and their families. 
Finally, VA does not support S. 2881 because it sets an unwanted 
precedent regarding Veteran cemeteries in disrepair managed by 
localities, allowing them to eschew their responsibility to our 
Nation's heroes.
    In 2017, concerned citizens began an effort to persuade VA to 
``take back'' the Mare Island cemetery to address the deteriorating 
condition of the property. However, Mare Island cemetery has never been 
under the jurisdiction of VA. Mare Island was a Naval Base and a Navy 
shipyard that was closed in 1996; the on-base cemetery was closed to 
new interments sometime prior to that. When the base closed in 1996, 
the physical land and facilities, including the cemetery, were 
transferred to the city of Vallejo, at its request, which agreed to 
maintain the cemetery and has been solely responsible for its 
maintenance since that time. Despite the subsequent sale of some of the 
transferred land by the city of Vallejo, no funds were set aside to 
ensure the upkeep of the cemetery.
    VA is very concerned with the conditions observed at the Mare 
Island Cemetery and has been aiding the city of Vallejo to find ways to 
address the repairs needed. VA's National Cemetery Administration (NCA) 
has provided expert advice to the city in developing its application 
for support from DOD's Innovative Readiness Training (IRT) program. IRT 
establishes partnerships between DOD and U.S. communities that provide 
training for Servicemembers while addressing public and civic needs. 
DOD assessed Mare Island Naval Cemetery as a potential IRT project in 
May 2018 and has reported that a decision is pending evaluation of 
legal and historical considerations, as well as Federal and state 
environmental review requirements. DOD has indicated that the city's 
application for IRT assistance would not transfer to VA should 
ownership be transferred from the city of Vallejo to VA. Costs of 
repairs and upkeep for the cemetery would become a VA responsibility, 
one for which VA has received no appropriation.
    In addition to disrupting the current efforts to address the 
condition of Mare Island Naval Cemetery, transfer of the cemetery to VA 
does not align with VA's strategic objective to provide reasonable 
access to a burial option to 95 percent of eligible veterans and their 
families. Because this cemetery is closed to new interments, it does 
not offer new burial options for Veterans, and the transfer of the 
cemetery to VA would divert resources that should be used to provide 
additional burial options elsewhere. The service area within which Mare 
Island is located is already covered by other open VA national 
cemeteries. For instance, NCA currently operates the Sacramento Valley 
National Cemetery in Dixon, California, to serve Veterans and families 
members in the northern Bay Area. NCA also is seeking to improve burial 
access in this area with development of a columbaria-only urban 
cemetery (currently in design) at the new Alameda Point National 
Cemetery, which will provide enhanced access to burial benefits for 
approximately 420,478 Veterans, spouses and other eligible dependents.
    Finally, transfer of Mare Island Naval Cemetery to VA would 
establish an unwanted precedent with respect to Veterans cemeteries or 
sections of cemeteries not managed by VA, a state or tribal government 
that may fall into disrepair. VA could be asked to assume operational 
responsibility for gravesites in some of these locations and does not 
have the resources to address these requirements.
    VA cannot accurately assess the costs associated with S. 2881, 
because we have not performed our own assessment of the extent of 
repairs necessary to remediate the deterioration of the cemetery. In 
particular, we do not know the extent of structural problems that may 
not be visible from the surface, nor the cost of addressing those 
problems.
    Issues noted on visual observation include headstones that are 
misaligned and lacking proper maintenance, some of which may need to be 
replaced; restoration or replacement of perimeter fencing, foundation 
wall, and flagpole; turf restoration; and replacement of the irrigation 
system and water source. Based on a subject matter expert comparison of 
prior cemetery projects of similar size and potential scope, we 
estimate the cost of these discernable repairs to have a rough order of 
magnitude between $1.5 million and $3.2 million.
    VA is aware of media reports that raised the possibility of sub-
surface issues with the property, but we are unable to verify these 
reports without a complete survey and assessment of the cemetery. If 
those reports are validated, the estimated costs to restore the 
cemetery in compliance with S. 2811 could be $15 million or more.
            s. 1952--va financial accountability act of 2017
    Section 2 expresses the sense of Congress regarding VA's budgeting 
process. We defer to Congress in expressing its sense.
    Section 3 would require, not later than 90 days from the date of 
the enactment of this Act, VA to enter into a contract with an 
independent third party to, within 180 days, review and audit VA's 
financial processes, including reporting structures, and actuarial and 
estimation models, and develop recommendations for improving such 
structures. Within 60 days of the completion of this review, VA would 
have to submit a plan to Congress to implement the recommendations 
developed by the third party. VA would have to appoint one individual 
within the Office of the Secretary of Veterans Affairs to be 
responsible for monitoring the status and progress of implementation of 
recommendations submitted to the Secretary by third parties, including 
those submitted pursuant to the contract described above, and all such 
other recommendations as may be submitted to VA by the Comptroller 
General, the Special Counsel, and the VA Office of Inspector General. 
Subsection (c) would require VA to, not later than 45 days before the 
date on which a budgetary issue would start affecting a program or 
service, submit a justification for any supplemental appropriation 
request it submits to Congress, including a plan for how VA intends to 
use the requested appropriation, how long the requested appropriation 
is expected to meet the needs of VA, and certification that the request 
was made using an updated and sound actuarial analysis. Subsection (d) 
would require starting in FY 2019 and in each FY thereafter, the VA 
Chief Financial Officer (CFO) to submit to Congress a statement of 
assurance that the financial projections included in the President's 
annual budget request or the supporting materials submitted along with 
such budget are sufficient to provide benefits and services under laws 
administered by VA; a certification of the CFO's responsibility for 
internal financial controls of the Department; and an attestation that 
the CFO has collaborated sufficiently with the financial officers of 
the facilities and components of VA to be confident in such financial 
projections.
    VA concurs with the intent to make our Departmental resource 
requests more analytically based and transparent to Congress and other 
stakeholders. However, we do not support this bill as we find it to be 
duplicative of existing laws and policies within the Department. For 
example, subsections (a) and (b) are duplicative of current processes. 
VA's budget and financial processes are already the subject of frequent 
external audits and reviews. In particular, the Enrollee Health Care 
Projection Model (EHCPM) has been reviewed extensively by stakeholders, 
including OMB, VA leadership, Congressional staff, the Congressional 
Budget Office, , and the Government Accountability Office (GAO). GAO 
published a review of the EHCPM in 2011, ``VA Uses a Projection Model 
to Develop Most of Its Health Care Budget Estimate to Inform the 
President's Budget Request'' (GAO-11-205) and is currently reviewing 
the EHCPM as part their review of the VA Community Care Budget 
(102732). The RAND Corporation has also conducted an external review of 
the EHCPM The Department always takes the findings and recommendations 
of external audit bodies, including GAO and the VA Inspector General, 
seriously. Our progress in addressing these recommendations is 
described annually in our Congressional Budget Justification books, and 
we regularly monitor progress throughout the year via internal reviews.
    Similarly, subsection (c) is redundant, as it was enacted through 
section 141 of the VA MISSION Act of 2018. Moreover, as with all 
appropriations requests to Congress, VA already provides the most 
detailed justification possible to explain the need for resources and 
the consequences should they fail to be provided. While we try to 
anticipate funding needs well in advance of their becoming urgent, some 
funding needs are true emergencies, and we are concerned that the 
rigidity of the 45-day advance timeline required will constrain both 
Congress and VA in ensuring Veterans' needs are adequately met in the 
face of unexpected funding crises.
    Finally, subsection (d) is duplicative of laws and administration 
policies governing the Budget request and annual audit process, 
including the Congressional Budget Act and the Chief Financial Officers 
Act of 1990.
 s. 1990--dependency and indemnity compensation improvement act of 2017
    S. 1990 would change the formula for calculating Dependency and 
Indemnity Compensation (DIC) payments, which would increase the payment 
amounts. The bill would also lessen the number of years a Veteran must 
be rated totally disabled prior to death for a surviving spouse to be 
entitled to DIC and it would entitle a surviving spouse to all benefits 
under Chapter 13 when the surviving spouse remarries after the age of 
55.
    VA supports the bill. Increasing the amount of DIC benefit payments 
will help survivors continue to live a sustainable life. Lowering the 
remarriage age to 55 creates parity with certain DOD survivor benefits.
    VA is developing a cost estimate, but no estimate is available at 
this time. Although the bill would not require additional employee 
resources, there would be additional mandatory costs and associated 
required PAYGO savings, as well as information technology development 
costs.
   s. 2485, medal of honor surviving spouses recognition act of 2018
    S. 2485 would codify the current rate of $1,329.58 for the Medal of 
Honor special pension paid to eligible Veterans. The bill would also 
establish entitlement for surviving spouses of Medal of Honor (MOH) 
recipients to this special pension at the same rate. To be eligible, 
the surviving spouse must have been married to the Veteran for one year 
or more prior to the Veteran's death or for any period of time if a 
child was born of the marriage, or was born to them before the 
marriage.
    VA supports this bill provided Congress finds corresponding funding 
offsets. Paying special pension to surviving spouses would provide 
assistance to dependents of our most courageous Servicemembers and 
Veterans.
    Additionally, setting specific parameters concerning receipt of 
only one special pension, regardless if a surviving spouse has been 
married to more than one Veteran who was in receipt of a MOH, 
remarriage, and age is in-line with the other survivor benefits VA 
administers. Benefit costs are estimated to be $1.7 million in 2019, 
$9.0 million over five years, and $19.1 million over ten years.
                 s. 2748--battle for servicemembers act
    S. 2748 would make participation in the Transition Assistance 
Program (TAP) to prepare for higher education, technical training, or 
entrepreneurship mandatory for Servicemembers unless a waiver is 
granted.
    VA defers to DOD and DHS, as those Departments would have 
responsibility to implement the bill. VA fully collaborates with our 
interagency partners to address the complex challenges faced by our 
transitioning Servicemembers and Veterans. VA notes that a complicating 
factor in rapid identification of risk--or lack thereof for groups--is 
that often the signs and symptoms that stem from the challenges 
experienced during transition do not appear or begin until well after 
transition from military service. This delayed onset presents further 
challenges, as there are times when the Departments do not have regular 
contact with the transitioning Servicemember/Veteran.
    VA anticipates no additional costs to VA resulting from this bill.
  s. ___--to require the secretary of veterans affairs to establish a 
   program to award grants to persons to provide and coordinate the 
  provision of suicide prevention services for veterans transitioning 
  from service in the armed forces who are at risk of suicide and for 
                their families, and for other purposes.
    The draft bill would require VA, not later than 1 year after the 
date of the enactment of this Act, to establish a program to award 
grants to persons to provide and coordinate the provision of suicide 
prevention services for eligible Veterans who are at risk of suicide 
and for their families. A Veteran would be eligible for services under 
this section if the Veteran is within the first 3 years of 
transitioning from a member of the Armed Forces to civilian status. 
Grant applicants would be required to submit an application that 
describes the suicide prevention services to be provided; the 
identified need for these services; a detailed plan describing how the 
suicide prevention services would be delivered, including the community 
partners with whom the applicant proposes to work, the arrangements 
currently in place with such partners; and how long such arrangements 
have been in place. Additional information required is a description of 
the types of Veterans at risk for suicide and the families of such 
Veterans to be provided such services; an estimate of the number of 
Veterans at risk for suicide and the families of such Veterans proposed 
to be provided such services and the basis for the estimate; evidence 
of the experience of the person and proposed partners in providing 
suicide prevention services to individuals at risk for suicide, and 
particularly to Veterans at risk for suicide and the families of such 
Veterans; and a description of the managerial capacity of the applicant 
in several different areas.
    VA would be required to give priority in awarding grants to 
applicants who: have been providing or coordinating the provision of 
suicide prevention services for Veterans at risk of suicide and the 
families of such Veterans; have demonstrated the ability to provide or 
coordinate such services to such persons; have demonstrated the ability 
to provide opportunities for social connectedness for Veterans; and 
have demonstrated how they measure the effectiveness of their program. 
VA would also have to give priority to applicants providing services in 
rural or tribal areas, or in areas that have experienced high rates of 
or a high burden of veteran suicide and where no health care is 
furnished by the Department. Grants awarded under this program would be 
used to provide or coordinate the provision of suicide prevention 
services for Veterans who are at risk of suicide and their families. 
The suicide prevention services provided or coordinated would have to 
include the following: outreach to identify Veterans at risk of 
suicide, with an emphasis on Veterans who are at highest risk of not 
receiving health care or services from VA; screening risk assessment 
and referral to care; education of suicide risk and prevention to 
families and communities; case management services; peer support 
services; assistance in obtaining benefits from VA and other Federal, 
State, and local government entities; temporary assistance in 
transportation in the form of a voucher, when appropriate and 
applicable, to be used in accessing services; personal financial 
planning; legal services to assist with issues that interfere with 
obtaining or retaining housing or supportive services; and other 
services necessary for improving the resiliency of veterans at risk for 
suicide and their families.
    VA could require grantees to submit to the Secretary reports 
describing the use of the grant amounts. Grantees would have to notify 
each person who receives services that the services are being paid for 
in whole or in part by VA. VA would have to establish evaluation 
criteria for grantees under this section, require each grantee to 
submit a report with information necessary to evaluate the grantee at 
least annually, and evaluate each grantee at least annually. In 
planning and preparing to carry out this program, VA would have to 
consult with Veterans Service Organizations and various national and 
local organizations. VA would be required to report to Congress within 
1 year of starting the program on the program and on the grant 
recipients under the program.
    VA strongly supports the concept of this legislation subject to 
Congress finding appropriate offsets. In June 2018, VA published a 
report on its findings from the most comprehensive analysis of Veteran 
suicide in our Nation's history, examining more than 55 million Veteran 
records from 1979 to 2015 from all 50 States and four territories. The 
report built on previous VA Suicide Data Reports. Key findings include 
that in 2015, on average, 20 Veterans died by suicide each day. Six of 
the 20 were users of VHA services, while 14 Veterans had not used any 
VHA care in the calendar year of or prior to their death. While VA has 
a number of programs devoted to reducing Veteran suicide, and we 
continue to develop and enhance these programs and efforts, they are 
designed to reduce risk of suicide in the population of Veterans who 
are under VA care. Therefore, we believe this legislation could provide 
a critical tool for coordinating with other entities in the community 
to reach this population of Veterans who do not rely on VA for care. 
VA's efforts to reduce the incidence of suicide ideation, behavior (and 
suicide completions) among all Veterans could be complemented by 
partnering with community-based providers who are able to replicate 
VA's suicide prevention programs in the community and to connect with 
Veterans that are currently beyond VA's reach. VA considers effective 
partnering with eligible grantees key to being able to reduce the 
number of Veterans dying by suicide.
    We would appreciate the opportunity to work with the Committee to 
explore some technical alternatives or modifying language that may 
improve this proposal. For example, we have concerns about the narrow 
scope of eligibility for Veterans, as the bill would exclude Veterans 
who separated from the Armed Forces more than 3 years before; this 
would include the population of Vietnam Veterans who have some of the 
highest rates of suicide. We also recommend including members of the 
Armed Forces (including members of the Reserve Forces and the National 
Guard) up to a year prior to their separation. This would better inform 
them of VA services and help facilitate needed wraparound services for 
this high-risk population as they transition. It would also facilitate 
a warm handoff to VA upon their separation should the new Veteran be 
interested. Further, we recommend that the legislation authorize 
eligible entities, rather than persons, to receive grants. We are also 
concerned about the timeline for implementation, as pursuant to 38 
U.S.C. Sec. 501, VA will need to publish regulations for this program 
prior to awarding grants. Finally, we note that additional resources 
would be needed to support a new grant program, including funding for 
grant awards and program administration.
    s. ___--modernization of medical records access for veterans act
    The proposed legislation would require VA to establish a pilot 
program that would provide patients with a physical device, the size of 
a credit card, which would be used by patients to support the review of 
their personal health information and the exchange of information with 
other healthcare providers they might see, both inside and outside of 
VA. VA would be required to conduct a full and open acquisition and 
award a contract within 120 days of the enactment of the Act. VA would 
need to conduct a pilot in at least one VISN for a one-year period.
    VA agrees that patient-mediated health information exchange is a 
valuable strategy to support making health information available 
directly to patients and then under their direction, making that same 
health information available to the providers across the health system 
they entrust with their care. However, VA does not support this bill as 
written.
    Currently, VA has technologies that support interoperable patient 
health information exchange nationwide. VA's My HealtheVet Blue Button 
is piloting technology that allows Veteran patients to share their VA 
health records with their community care provider directly from their 
personal devices. VA's eHealth exchange technology is a rapidly growing 
network that connects VA with community health providers who can then 
securely share clinical information using a standardized approach.
    As noted above, the proposed legislation would require VA to 
establish a pilot program that would evaluate a physical device, the 
size of a credit card, which would be used by patients to support the 
exchange of information. Providing physical devices to patients with 
their health information has not been a part of VA's strategy for 
supporting patient-mediated data exchange, and we do not believe that 
this approach would add significant value beyond current efforts. VA 
believes Veterans would prefer to minimize the number of physical 
devices or items they would need to manage. Given the near ubiquity of 
smart mobile devices owned and used by health care consumers, VA 
believes a strategy that focuses on improved health data availability 
and exchange on a mobile platform would be preferred.
    VA believes that continued work on expanding query based exchange 
and on patient-mediated exchange via mobile and web applications 
supported by Federal Health Interoperability Resource Application 
Program Interfaces should remain top priorities at this time. 
Additionally, VA is preparing for the Department of Health and Human 
Services Trusted Exchange Framework direction that supports the ability 
for patients to access their health information electronically without 
any special effort. This direction supports a significant step toward 
achieving interoperability for the patient.
    Finally, no additional funding will be provided to support any 
efforts that would be required, should this bill become law. This would 
adversely affect other higher-priority health interoperability 
programs.
                   s. 514--no hero left untreated act
    S. 514 would require VA, within 90 days of enactment, to begin a 
one-year pilot program in no more than two VA facilities by providing 
access to magnetic EEG/EKG-guided resonance therapy (Magnetic 
eResonance Therapy (MeRT)) to treat Veterans suffering from Post 
Traumatic Stress Disorder (PTSD), Traumatic Brain Injury (TBI), 
military sexual trauma (MST), chronic pain, or opiate addiction. VA 
would provide access to MeRT to no more than 50 Veterans in carrying 
out this program. VA would have to submit a report to Congress on the 
program no later than 90 days after the completion of the program. The 
bill would not authorize additional amounts to be appropriated to carry 
out the requirements of this bill.
    While preliminary experience with this technology is promising, a 
study by the Newport Brain Research Laboratory to establish the 
efficacy of MeRT in treating PTSD in veterans is still in progress. VA 
offers repetitive transcranial magnetic stimulation (rTMS), which is a 
treatment related to MeRT that has the Food and Drug Administration 
(FDA) approval for treatment-resistant depression, a common comorbid 
condition in PTSD, TBI, MST, and chronic pain and opioid addiction. 
There is no existing evidence that MeRT is superior to rTMS for 
treating any disorder. To date, no medical device using MeRT technology 
has been cleared or approved by the FDA for the uses described in the 
legislation. While VA research continuously examines new treatment 
methods and modalities, independently collected evidence of the safety 
and efficacy of this technology has yet to be obtained. The additional 
pilot data that would be obtained under the proposed legislation would 
not address the critical issues of determining MeRT's efficacy against 
a placebo or against rTMS. For these reasons, VA does not support the 
legislation. VA estimates the bill will have a one-time $1.83 million 
cost to implement.

    This concludes my testimony. We appreciate the opportunity to 
present our views on these bills and look forward to answering any 
questions the Committee may have.
                                 ______
                                 
  Additional Views Provided by Hon. Robert L. Wilkie, Secretary, U.S. 
                     Department of Veterans Affairs

                         The Secretary of Veterans Affairs,
                                     Washington, September 6, 2018.
Hon. Johnny Isakson,
Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

    Dear Mr. Chairman: By this letter, the Department of Veterans 
Affairs (VA) is providing deliverables from the Committee's legislative 
hearing on August 1, 2018, and reiterating our opposing views on House 
Resolution (H.R.) 299.
    We know it is incredibly difficult to hear from Blue Water Veterans 
who are ailing and ill, and we have great empathy and compassion for 
these Veterans and their families. However, we urge the Committee to 
consider the scientific evidence, impact on other veterans, and costs 
associated with this legislation:

<bullet> Science Does Not Support the Presumption that Blue Water Navy 
        Veterans Were Exposed to Agent Orange.
        In 2011, the Institute of Medicine (IOM), now the National 
        Academy of Medicine, reviewed all available scientific evidence 
        and concluded that exposure among Blue Water Navy Veterans 
        ``cannot reasonably be determined.'' The IOM's report indicated 
        that Agent Orange was destroyed by sunlight within hours of 
        application and any that survived would rarely make it out to 
        the South China Sea because of the major dilution factor.
        Media and several Veterans Service Organizations supporting the 
        legislation have relied on an Australian study from 2002 that 
        was designed to mimic Royal Australian Navy distillation 
        policies and procedures; however, this study is irrelevant to 
        U.S. Navy policy and practice. U.S. Navy ships were required to 
        draw up seawater for conversion to shipboard potable water at 
        least 12 miles offshore from any river, a distance at sea where 
        the presence of Agent Orange was highly unlikely. As points of 
        reference, 12 cubic miles of water is equal to 13.2 trillion 
        gallons, and 1 trillion gallons of water flow over Niagara 
        Falls in a single month. Thus, the dilution factor would have 
        been significant. IOM considered the Australian study in its 
        2011 review and stated the significance of the study's findings 
        was highly uncertain for U.S. Blue Water Navy ships.
        VA continues to study the science behind this issue. In late 
        2019, VA will publish the peer-reviewed Vietnam Era Health 
        Retrospective Observational Study. The study will compare the 
        health and morbidity of deployed Vietnam Veterans versus a 
        cohort of non-deployed Veterans and similarly-aged U.S. 
        residents who never served in the military. VA collected data 
        from nearly 43,000 participants including nearly 1,000 Blue 
        Water Navy Veterans. VA recommends waiting on the findings of 
        the study instead of establishing a new presumption without a 
        scientific basis.
<bullet> Disabled Veterans Would Be Negatively and Disproportionately 
        Impacted by Modified Funding Fees for VA-Guaranteed Home Loans.
        Under this legislation, the funding fee would be a new 
        requirement for Veterans with service-connected disabilities 
        rated as less than total. This would be a departure from the 
        longstanding requirement that Veterans in receipt of VA 
        disability compensation are always exempt from the VA funding 
        fee.
        Currently, Veterans with a disability rating of less than 
        ``permanent and total'' pay $0 in VA funding fees, regardless 
        of loan amount. However, lenders generally require a down 
        payment for loans exceeding the conforming loan limit; that 
        down payment creates home equity for the Veteran.
        Under H.R. 299, such Veterans might not need a down payment, 
        but they would be required to pay a funding fee. The fee is 
        non-refundable, and if rolled into the life of the loan, it is 
        paid with interest. For example, on a $500,000 non-conforming 
        purchase loan, a disabled Veteran could be required to pay 
        $12,000 to VA in funding fees (plus interest if rolled into the 
        life of the loan) rather than applying $11,725 as a down 
        payment which results in home equity.
<bullet> Savings from Funding Fees Would Not Be Enough To Cover Blue 
        Water Costs.
        VA estimates we will need $5.5 billion to support the net costs 
        of the bill, $5.4 billion more than the approximate $100 
        million that the Congressional Budget Office (CBO) estimates 
        for the bill. CBO significantly underestimated the number of 
        Veterans and survivors who would be newly eligible for Blue 
        Water benefits. VA's estimate is based on the actual number of 
        Vietnam-era Navy Veterans denied the presumption for Agent 
        Orange on the basis of never setting foot on the landmass of 
        the Republic of Vietnam or its inland waters. VA records show 
        nearly 30,000 of these Veterans were previously denied, but CBO 
        estimates only 4,730 of these Veterans were previously denied. 
        Similarly, CBO anticipates only 120 survivors receiving 
        benefits over 10 years, while VA estimates 2,817 survivors 
        would receive benefits in the first year alone. In addition, 
        CBO did not account for any expenses to implement this section 
        of the bill. The Veterans Benefits Administration (VBA) 
        estimates 803 employees would need to be hired in the first 
        year, and funding would be required for salaries and related 
        expenses such as training and information technology equipment. 
        VA is unaware of any plans for CBO to revise its estimate.
<bullet> Impact on Claims Backlog.
        Another impact we need to raise is in regard to the recent 
        ongoing efforts to reduce the appeals and claims processing 
        backlogs. The accomplishments we have made with congressional 
        assistance will be stymied due to the fact that we will have to 
        research and evaluate what could total over 30,000 potential 
        claims. VBA's current resources are not adequate to begin this 
        workload. Therefore, these efforts would not only be impacted 
        through hiring of additional full-time equivalents and costs 
        but also in adding time to the 125 days to process a claim due 
        to the verification and study that would need to go into the 
        processing of that claim.
<bullet> Setting a New Precedent by Creating a Presumption without 
        Adequate Scientific Evidence.
        The changes proposed in this legislation will have a greater 
        effect beyond what we believe Congress intends. The creation of 
        a new statutory presumption that is not adequately supported by 
        scientific evidence will encourage increased pressure on both 
        Congress and VA to create and expand additional presumptions 
        under a similarly liberal approach. This would present a choice 
        between taking a similarly unprincipled approach to other 
        circumstances where a presumption is sought, but not supported 
        by science, or treating different groups of Veterans 
        disparately without any reasoned basis for doing so. If we do 
        not allow standards in these cases, there is a greater chance 
        that such policies will spread to other agencies in the Federal 
        Government.
<bullet> Unintended Consequences on Disabled Veterans.
        To offset costs for non-housing related programs, a disabled 
        Veteran would be required to pay VA a new loan fee of up to 2.4 
        percent of the purchase price of a home instead of applying a 
        similar down payment amount toward the purchase price. In 
        short, certain disabled Veterans would bear the cost of 
        providing other benefits by paying a new loan fee, which 
        creates no home equity, instead of contributing funds toward 
        home equity. This would impose a steep price for many and a 
        cost that others may be unable to take on. We do not believe 
        that these unintended consequences have been fully considered 
        by Congress, and they should be completely understood before 
        this legislation is passed.

    As for the deliverables requested during the hearing, VA was asked 
to provide for the record:

<bullet> An Estimate of the Additional Funds Generated by the Fee 
        Increases Proposed in H.R. 299.
        VA estimates savings associated with modified funding fees 
        proposed in section 6 of H.R. 299 would be $140 million in 
        2019, $732 million over 5 years, and $1.2 billion over 10 
        years.
<bullet> The Number of VA Home Loans Provided in 1 Year Based on the 
        Most Recent Data Available.
        In 2017, 685,735 home loans were guaranteed by VA.
<bullet> The Number of Those Loans that Included a Funding Fee.
        In 2017, 285,282 home loans, or 42 percent of all VA-guaranteed 
        home loans, included a funding fee.

    We appreciate this opportunity to comment on H.R. 299 and look 
forward to working with you and the other Committee members on this 
legislation.
            Sincerely,
                                          Robert L. Wilkie,
                                                         Secretary.

    Chairman Isakson. I will open with questions, and the order 
of questioning, by the way, is going to be all the Members that 
are here; we are going to call on everybody in order of 
arrival.
    Let me just start with myself on the Blue Water Navy. You 
made a statement just a second ago that the Australian study is 
flawed?
    Mr. Lawrence. That is correct.
    Chairman Isakson. What is the principal flaw in that?
    Mr. Lawrence. Let me draw on Dr. Erickson. He is the 
medical----
    Chairman Isakson. Dr. Erickson.
    Dr. Erickson. Chairman Isakson, thank you for the question. 
The Australian study--in fact, I even brought a copy of that in 
case we need to refer to it. It is a good study insofar as it 
purports to go after certain answers. In particular, this was 
commissioned by the Australian Government. The lead author was 
a fellow named Muller. It involved wanting to replicate or copy 
the distillation process that we used in Australian ships.
    Part of the problem here is that the Australian format for 
drawing water into the distillation system allowed them to draw 
water close to shore, quite frankly. So, in fact, this 
experiment--it was a laboratory experiment. Think about high 
school chemistry and the distillation apparatus. They wanted to 
replicate an existing amount of sea water with dioxin that they 
would approximate what was near shore.
    The problem is you cannot go from that experiment to then 
make a conclusion about U.S. naval personnel. And, in fact, the 
Institute of Medicine in their report, which Dr. Lawrence 
referred to this conclusion--there was not enough information 
to determine whether Blue Water Navy personnel were exposed or 
not.
    The Committee that wrote this report had the Australian 
study available to them and had an opportunity to really go 
through this. This was not enough information for that 
committee to conclude that U.S. Navy personnel had been 
exposed.
    Chairman Isakson. OK. Is anyone here familiar with the VA 
loan program and the funding fee?
    Mr. Lawrence. Yes. I am.
    Chairman Isakson. It has been a while since I was in the 
business, but if I heard Senator Gillibrand correctly, what she 
wanted to do was raise the funding fee from 2.25 to 2.4 
percent. Is that correct?
    Mr. Lawrence. That is correct.
    Chairman Isakson. That is 1\1/2\ percent of the loan 
amount, correct? An increase?
    Mr. Lawrence. Yeah, that is correct. It is $250 on every 
$100,000 of loan.
    Chairman Isakson. OK. Is that enough money based on the 
number of VA loans that are closed in any 1 year to actually 
fund the difference if it were to pass?
    Mr. Lawrence. Not in our opinion, no.
    Chairman Isakson. I would offer for everybody's benefit, I 
did real estate sales my entire life and did a lot of VA loans 
and FHA loans and things of that nature. You can make those 
numbers look like a lot of things, but that is not a lot of 
money, 1\1/4\ increase. It is a variable, too, because it 
depends on the number of loans that are actually closed and it 
is paid on. If you could get me your calculation, the best 
calculation as to what that yield would be in any 1 year, I 
would appreciate it, Dr. Lawrence.
    Mr. Lawrence. Will do. We will provide that. Thank you.

    [The information requested is included in VA's Additional 
Views letter dated September 6, 2018.]

    Chairman Isakson. I would like a copy of the Blue Water 
Navy report, Dr. Erickson. I would like a copy of that report. 
Not that I have the scientific acumen to understand it, but I 
can learn to ask enough questions about it, because we are 
going to make sure we do not leave any stone unturned in 
getting the information out that is necessary to make an 
educated decision. Our veterans deserve no less than that.
    Senator Sanders?

         HON. BERNIE SANDERS, U.S. SENATOR FROM VERMONT

    Senator Sanders. Thank you, Mr. Chairman, and thanks for 
holding this hearing. Let me thank the representatives of the 
VA for being here.
    I was not happy to hear that the VA is in opposition to 
legislation that we have introduced which does something that I 
think most Americans understand to be correct, and that is to 
understand that when we talk about health care, we must talk 
about dental care. Dental care is health care. Today, with the 
exception of service-connected oral problems, the VA does not 
provide dental care to veterans in this country. What that 
means is that in Vermont and I think in every State in this 
Nation, you have veterans who have teeth rotting in their 
mouths, who have infections, who are in desperate need of 
dental care, but are not able to afford to get that dental care 
and are not getting it at the VA.
    What ends up happening is, I think the panel will 
acknowledge, that a poor dental situation causes other health 
care problems. Many veterans, especially those exposed to Agent 
Orange, suffer from diabetes. Diabetes has a relationship to 
your teeth. So, the idea that we are compensating people 
appropriately for exposure to Agent Orange and the diabetes it 
causes, but not dealing with dental care does not make any 
sense to me at all.
    I think, Mr. Chairman, the time is long overdue for the VA 
to acknowledge what most Americans acknowledge: dental care is 
health care. Too many of our veterans are not getting the 
dental care they need.
    So, what our legislation is is a modest pilot program--and 
I am prepared to discuss with you and others about how we can 
modify it. Let us see how it works. Let us see if the need is 
out there. I think it is. I hear from Vermonters all of the 
time that it is a need. I heard from people around the country. 
Our legislation is supported by the VFW, and I thank them for 
that; The American Legion; the Fleet Reserve Association; and 
the Vietnam Veterans of America; and we will hear from a 
representative from the Vietnam Veterans of America in a few 
minutes.
    The bottom line is, Mr. Chairman, the time is long overdue 
for the VA to understand that dental care is health care, and 
it must be addressed for our veterans.
    Thank you.
    Chairman Isakson. Thank you, Senator Sanders.
    Senator Boozman?

         HON. JOHN BOOZMAN, U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman. Thank you so much 
for holding this important hearing that really covers a lot of 
different items.
    We appreciate you all being here, and we appreciate the 
second panel talking to us about the pros and cons, as you see 
it.
    First of all, I would like to start by saying how glad I am 
to see the Blue Water Navy legislation move forward in the 
Senate. This is an important piece of legislation that will 
allow many deserving veterans to receive the care and benefits 
that they have long earned and sought.
    I am also very pleased to see that the House-passed version 
of the Blue Water Navy bill includes a provision from my 
Thailand toxic exposure legislation. The provision authorizes 
the Secretary to provide any child of a veteran of covered 
service in Thailand who is affected by spina bifida the same 
health care, monetary allowance, and vocational training and 
rehab required for the children of Vietnam veterans similarly 
impacted by spina bifida.
    We have a situation where people in Thailand who served, we 
have recognized were affected, yet they are the only ones left 
out in regard to the children with spina bifida that we know is 
directly related to the other.
    Is there a reason that--I mean, are you all for or against 
that provision? Is there any reason, scientifically or not, not 
to include them with every other besides the cost?
    Dr. Erickson. Senator Boozman, thank you for the question. 
Part of the challenge as it relates to spina bifida is that the 
most recent ad hoc committee from the National Academy which 
reviewed this issue actually downgraded the evidence for there 
being an association of spina bifida in the children of Vietnam 
veterans. That does not mean that VA withdrew that benefit. 
However, at the present time, extending the benefit further is 
a little bit tricky because the foundation, the scientific 
foundation, per the National Academy of Medicine, has 
diminished remarkably.
    Senator Boozman. I guess the only argument I would make, a 
benefit for one, a benefit for another is not--it is not the 
way that we do things. So, we need to get that worked out.
    In regard to the Blue Water bill--we would like to get the 
Thailand exposure bill done, and we are going to work really 
hard to do that. But, in regard to Blue Water, we really are 
pleased that this is moving forward. I want to commend 
Commander Wells for his dedicated work to seeing the bill 
through the lengthy but rewarding process that we are 
experiencing. I strongly believe that it is due to people 
giving continued service pushing this forward--Commander Wells, 
Mr. William Rhodes, an Arkansas veteran who served in 
Thailand--that the Committee is able to advocate for 
servicemembers and their families. It is my sincere hope that 
this momentum will continue as we continue to seek care for the 
needs of all of our Nation's veterans well into the future.
    The other thing I would like to mention is a bill that we 
have, the VA Hiring Enhancement Act and just spend a second. 
That is a bill from myself, Senator Heller, and Senator Tester. 
What we have tried to do, you know--we talk about all of these 
situations, whether it is extending Blue Water Navy, Thailand, 
and then all the problems we have at the VA, one of the major 
problems we have right now is we do not have enough providers 
in positions to fill. In talking to our provider community, in 
talking to the people that are running the hospitals, one of 
the things that they mention is that and a couple of other 
things.
    First of all, in their residencies, the ability to offer 
them the opportunity like other providers do fairly early in 
their residency to come to work for the VA. That is not done 
now. I do not know if it is precluded, but it is not being 
done. This bill specifically says let us do that.
    The other thing is the noncompete contracts, which I think 
many people feel like do not hold up anyway. Many people just 
go ahead and do that regardless. We have had, I think, mixed 
judicial things in regard to that. But, what we would like to 
do is based on the fact that if you are in private practice, 
you go to work for the VA, you are not pulling patients from 
the private practice to the VA. It is a different class of 
patients. So, we would like to get rid of that and make it such 
that the VA is exempt from that.
    Do you have any comments about that very quickly?
    Mr. Lawrence. Sure. Let me direct the question to my 
colleague Jessica Bonjorni.
    Ms. Bonjorni. Thank you, sir, for the question. We are in 
support of the provision to remove noncompete agreements. We do 
not have data to suggest how often this is happening, but we do 
certainly have incidents where we have had difficulty bringing 
providers on board because of noncompete agreements in their 
local market, and we have to use work-arounds to try and get 
them on board or wait. We appreciate your support on that.
    Senator Boozman. Thank you very much.
    How about the issue regarding the residencies and trying to 
offer a job earlier than we are now?
    Ms. Bonjorni. We do have the ability to offer contingent 
appointments now. However, this legislation may help clarify 
that we have that ability now and make it more used in the 
community.
    Senator Boozman. Very good. Well, we will welcome you 
working with us on language, if you have concerns about 
specific things, and I do think little things like this really 
are big things in the sense we desperately need the providers 
that we can use in the VA system.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Boozman.
    Senator Manchin?

                     HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Mr. Chairman. I thank all of 
you for being here. Just a few things.
    The Blue Water Navy, so that I understand, that is for 
anyone who served during the Vietnam era that basically was on 
a ship 10-12 miles out supporting a carrier base, right? 
Probably a carrier fleet.
    Mr. Lawrence. That is correct.
    Senator Manchin. OK. And, they were not coming in. They 
were not combat. You are saying--I mean not ground combat. I 
am----
    Mr. Lawrence. Let me clarify. If your ship came in, in your 
example, and you parked at a port, you went on shore, and you 
make a claim, you would be covered by, as described earlier, 
the ground base presumptive, right? Senator Gillibrand talked 
about it. You were on the ground. So, in the example you are 
talking about, your ship has to stay out of----
    Senator Manchin. So, I never could touch land in Vietnam?
    Mr. Lawrence. Generally speaking, that is correct.
    Senator Manchin. But, now there are people that say that 
basically their ships did come into port, and they are still 
not getting that type--I mean, they are being rejected because 
they were not in combat or not in a combat zone that would have 
been exposed. I am just trying to understand.
    Mr. Lawrence. Sure.
    Senator Manchin. We all want to take care of our veterans, 
OK? I cannot imagine even if a veteran was on a ship that never 
came in and started showing all these symptoms that are 
prevalent with Agent Orange, that that person would not be 
taken care of.
    Mr. Lawrence. Certainly, and he should be. I am unfamiliar 
with the specifics you are referring to. But, we have logs 
during this period of time from the Department of Defense of 
where the ships traveled, where they moved. It is very detailed 
and it is voluminous. So, we are able to track the people you 
are describing. It does not say it does not happen, but, you 
know, you then have to have the diseases or the disabilities 
that are covered by the presumptives. So----
    Senator Manchin. The presumptives are if you were exposed 
in any way, shape, or form, these are the things that could 
happen, and you all can detect that.
    Mr. Lawrence. Correct. That is correct. So, ideally, the 
situation----
    Senator Manchin. But, you should be able to detect that 
also even if they had not come to shore.
    Mr. Lawrence. That is correct. Any veteran at any time can 
apply for a claim, and we adjudicate it the way I described.
    Senator Manchin. It looks like that you all--I mean, here 
is the only thing I can tell you what I hear, is they are 
automatically rejected if they had not been to shore. They are 
automatically--it is not like saying it is unusual, it is rare, 
but you do have the symptoms of being exposed even though you 
were not on land.
    Mr. Lawrence. The only thing I would quibble with, sir, is 
hopefully they are not automatically rejected, because we do 
each case on a case-by-case basis.
    Senator Manchin. OK.
    Mr. Lawrence. They are not automatically----
    Senator Manchin. Tell me how, if I have my constituents--
and West Virginia has a large military population, a large VA. 
How do I make sure they get proper evaluation and care, not 
just rejected because they had never been--this bill might not 
be needed if we were getting the care that a person showed the 
symptoms and they were taken care of under those conditions. I 
think that is what we are running into, the real stumbling 
block, and the people that are so upset are thinking they are 
just--there is no chance at all that I will get any care 
because I did not--I was on that ship, I was on that fleet, I 
did not come to shore.
    Mr. Lawrence. Sure. We have many, many claims made covering 
the way you are describing, and they are processed through our 
process with quality control. If you would like, I would be 
happy to talk to you about specifics to look in on them, but I 
will tell you, the process I am describing is what we use, and 
it is not automatic rejection the way you are describing. It 
does not say that there could not be things like that which you 
are describing happening, but that is not the intent----
    Senator Manchin. Well, Doctor, that might not be the 
intention, and I respect that. The only thing I can tell you is 
you would not have a vote that you had so strong out of the 
House if the people believed that. You would not have that many 
people supporting it in the Senate if the constituents are 
saying, ``Listen, we are just not being treated fair. We are 
not even given a chance.'' That is why it has come to this 
level.
    So, whatever you have done, whether we have the bill or 
not, we have got to get our veterans the care they need.
    Mr. Lawrence. Sure.
    Senator Manchin. That is the problem we are running into. I 
assume this bill is going to pass, probably, if it comes out 
and goes to the floor. I do not know anybody that would be 
opposed, because we have all had constituents that have been 
rejected without a fair evaluation. That is about it in a 
nutshell.
    I want you to know I am very much concerned about it. We 
should not be at this level. We should have taken care of our 
veterans.
    I have a bill, Senate bill 1952, the Financial 
Accountability Act. I know you all are not crazy about it 
either.
    Mr. Lawrence. Technically, sir, we do not support it.
    Senator Manchin. I want to be as respectful as I can. On 
that, it seems like, you know, you all--veterans is the one 
group of people that keep us together in a bipartisan way. 
There is not another group that we all respond in the same way, 
no matter where you come from, because they have done so much 
and given us a chance to be here. Every time you all need 
money, it is an emergency. It is an emergency. We have run out 
of money. I do not know whether you have got somebody that 
cannot count, somebody that cannot keep track of it, or 
whatever the problem may be, Doctor. I am not trying to be 
facetious about this. But, this bill only asks for 45--I mean I 
can see a crisis coming. If the VA cannot see a crisis coming 
in 45 days to put us always in an emergency position, it is not 
fair for us, not any of us, not to be able to do our job to 
make sure.
    We are very supportive of Mr. Wilkie coming in. We think he 
will do a good job. He is no-nonsense. I think he got 
bipartisan support. I think, from everything I am hearing, he 
has done a pretty good job trying to get things straightened 
out and moving in the right direction. But, I do not know why 
anyone would--you tell me what you are so offended by on 
holding you all accountable financially.
    Mr. Lawrence. I am generally aware of the subject matter 
covered by your bill, and I believe it has to do with----
    Senator Manchin. It is also Mr. McCain's bill.
    Mr. Lawrence. Sorry.
    Senator Manchin. It is also Mr. Tester's bill.
    Mr. Lawrence. All the cosponsors. I am generally familiar 
with that. I believe it has to do with the duplication of yet 
another set of requirements for things that are already in 
place. I will offer to you and others to bring the subject 
matter experts to talk to you directly about their concerns.
    Senator Manchin. Well, I am also for eliminating that, so 
if there is a duplication that we have that allows you all to 
declare an emergency within a week or two and not give us 
enough notice, we will do away with that one. What we believe 
is there should not be anyone that has not done their finances 
or done their due diligence telling us where you are going to 
run into a jam if something hits. That is, I think, what we are 
asking for.
    I know I have used more than my time, Mr. Chairman, and I 
appreciate it. Sir, I just believe our Blue Water veterans who 
are in need of service, we should not even be here talking 
about this. I mean, I do not think that they are asking for 
that much. So, if we have to do the bill, we are going to do 
the bill. But, I wish that we could find another way forward.
    Thank you, Mr. Chairman.
    Chairman Isakson. If I could beg the Committee's 
indulgence, let me expand on Senator Manchin's question. I want 
to make sure I understood your answer.
    When he asked you the question about exposure to Agent 
Orange of someone who had served in the Vietnam theater but was 
in the Navy and was 12 miles out, do I understand you to say 
that if they could demonstrate that they were on the ground 
during that service at any point in time, they could possibly 
be eligible for benefits, but if they were never on the ground, 
they could not be?
    Mr. Lawrence. Sure, let me be precise. As you recall, the 
law that was referenced provides a presumptive for Agent Orange 
for folks on the ground.
    Chairman Isakson. Right.
    Mr. Lawrence. It was expanded then to what was referred to 
as ``Brown Water.'' So, that is why if you are in the Blue 
Water and you are 12 miles offshore, you are not covered, hence 
the conversation we are having now. But, by tracking the ships 
and the flow, if your ship came in and parked on the land, now 
you were in the water that is covered by the presumptive, and 
you went ashore and you can document that you went ashore, and 
you now have the disabilities, the diseases that are covered by 
the presumptive, you would be covered by and be able to receive 
benefits.
    In the example he was talking about, for someone to be 12 
miles off and never be less than 12 miles off, you would not be 
covered. That is what Dr. Erickson was referring to about the 
pollutants being diluted.
    Chairman Isakson. That is the answer I expected, which I 
wanted to hear again so that we are absolutely clear on that, 
because that answer evolved during the course of your exchange.
    Senator Manchin. Mr. Chairman, if I may, just one other 
thing. That is the hardest thing we have to understand. If you 
are exposed, you are exposed. We do not care whether it is 
blue, brown, purple, green, yellow water, whatever it is. If 
you are on a ship and you are carrying--and they are loading 
tons and tons of napalm and tons and tons of Agent Orange, that 
is what we are saying. They have these symptoms, and the 
symptoms are directly involved with what they contacted. That 
is the hardest thing that we have to understand. They are 
automatically just saying, ``Listen, we are not even going to 
test you for that because we do not think there is any way you 
could have that because it is impossible since you were in Blue 
Water.'' That is the thing that does not make sense. That is 
the problem we have.
    Mr. Lawrence. Sure. Let me pull apart your question in a 
couple parts, OK?
    Senator Manchin. OK.
    Mr. Lawrence. So, again, anyone can file a claim, and you 
are not automatically rejected. Let me draw on Dr. Erickson, 
though, to clarify the science of what you described about 
handling weapons with napalm on them and how you actually are 
exposed to dioxin.
    Senator Manchin. Well, basically the aircraft coming back 
being exposed.
    Dr. Erickson. Senator Manchin, there are a couple things 
you referred to. Certainly we work with the Department of 
Defense on a regular basis to try to learn where were these 
agents shipped, how were they shipped, where were they stored, 
where were they used. We actually rely upon them because many 
of your constituents will contact and say, ``I was in country 
X, and I am sure that I was covered with it.'' We talk to DOD. 
DOD says, ``We used commercially available herbicides, but 
those colored agents, such as Agent Orange, were not shipped, 
stored, or used at that location.'' So, there is some precision 
that we would need to know, and if you have specific cases, 
please bring those to us, and we can help you with that.
    The other thing I want to engage you with, sir, is this 
issue of diseases being very clearly Agent Orange or, in 
particular, dioxin caused. Chloracne is one of the 14 
conditions, and that is probably the one of the 14 presumption 
conditions that is sort of a smoking gun. There was a president 
in Ukraine who, in fact, was poisoned with a dioxin, and you 
probably remember his face changed dramatically. He has 
chloracne. But, the other 13 conditions are ones actually that 
are common with age. They are diseases that people who did not 
go to Vietnam actually get. So, when an individual develops one 
of those diseases, that is not immediate proof that it was 
Agent Orange. We need to do other types of studies, other means 
to get to that type of conclusion.
    Senator Sanders. Mr. Chairman?
    Chairman Isakson. Senator Sanders? And, we are going to 
have to move on.
    Senator Sanders. All of this discussion, picking up on 
Senator Manchin's point, tells us why we need universal health 
care. What you are saying, if I got it correctly, if I am on a 
ship 11 miles offshore and I come down with an illness, I am 
covered. If I am on a ship 13 miles offshore and I come down 
with the same illness, I am not covered because under your 
definition I cannot quite prove that it is attributable to the 
water I may have drunk.
    Meanwhile, veterans are becoming ill with the same type of 
illnesses and they need care. Maybe our position should be if 
you are a veteran and you served in the United States military 
and you become ill, you are entitled to VA health care. End of 
discussion.
    Chairman Isakson. I think that is the way to end the 
discussion. I am the one that violated the rule by doing a 
follow-up question, so I hate to reprimand anybody else, but I 
thought Senator Manchin's question was right on point, and we 
needed to get that answer on record. I certainly would never 
cut out the former Chairman from having his say.
    So, with that said, Senator Cassidy.

                STATEMENT OF HON. BILL CASSIDY, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Thank you, Mr. Chair. I may come back to 
Blue Water just because Commander Wells is from Louisiana. I am 
very proud of him. I am also very proud of my Chairman for how 
he is handling this, so thank you both for bringing great 
consideration.
    I will briefly mention, by the way, my Modernization of 
Medical Records Access for Veterans Act, which I understand the 
VA has opposition to the bill's pilot program, but I will 
follow up on that at a later point because I want to focus on 
our suicide prevention.
    I noted, Dr. Lawrence, that the VA is in support. Thank you 
very much. That said, I understand there is both internal and 
external potential opposition to it, and so I would just like 
to make the case for my colleagues and hopefully for those who 
might not be sure about the bill.
    To put this in perspective, when Dr. Lawrence came for his 
nomination hearing, we spoke about suicide prevention and 
veteran community. We know that there are socioeconomic risk 
factors in addition to mental health issues associated with 
suicide. We have spoken previously about so-called deaths of 
despair.
    [To staff: Can you put that chart up?]
    We find from data prepared by Princeton using CDC data that 
suicide, alcohol abuse, and drug abuse are in this unholy 
trinity, which results in folks being at increased risk for 
support. By the way, CDC notes that 54 percent of suicides have 
no known mental health condition.
    The socioeconomic factors, particularly isolation, should 
be part of our approach. Here is the next graphic, put up by my 
assistant; again, social isolation, foreclosure, life events, 
addiction only being one of them, can be associated with so-
called deaths of despair.
    So, the Community Grant Program that we are suggesting 
would coordinate services within the community, helping 
veterans by integrating and strengthening social networks. I 
smile. My daughter thinks of a social network as being 
Facebook. I do not think that most folks my age would consider 
such.
    The grant, by the way, is also about reaching the 70 
percent of veterans who do not seek care in a VA facility. 
Seventy percent of veterans who die by suicide have not been 
seen within a VA in the past 12 months. We think this is an 
incredibly important statistic and, if you will, a 
vulnerability relying on a VA hospital-central approach.
    So, Dr. Lawrence, you then enter. We are interested in kind 
of a different paradigm. How could we use the Veterans Benefits 
Administration, which is for many the gateway to the VA. In 
fact, more veterans access VA benefits than health care, and in 
many cases that might be their only connection.
    I note that we talked about a VA loan program for homes. 
That is one way a veteran who is probably a little bit better 
off might interact with the VA, but she or he might never 
interact with a hospital. So, we are trying to think of that.
    The other thing--and I think we spoke about this before--
the Transition Assistance Program legislation which establishes 
a governance board in this legislation to address deaths of 
despair within the Benefits Administration, if you will, 
breaking down the silos within the VA, leveraging all the 
resources, not just the hospital system but also VBA in a 
Department-wide suicide prevention effort.
    I say that, again, per our previous conversation, that the 
first 3 years after leaving service are when veterans are at 
the highest risk of suicide, which is why the Transition 
Assistance Program is a critical partner in our suicide 
prevention effort. So, the Community Grant Program will augment 
the VA's efforts in seeking out veterans in need and connecting 
them to the VA and community services and benefits.
    Defeating deaths of despair requires that we take a 
comprehensive approach to reaching vulnerable veterans, and 
that is why we want VBA.
    Dr. Lawrence, we spoke about VBA's role in suicide 
prevention during your confirmation hearing. Since then, and 
knowing that you have looked at the bill we proposed, can you 
give your thoughts on how you, the VBA, can support this effort 
and place in the governance board within VBA to ensure suicide 
prevention is a department-wide effort?
    Mr. Lawrence. Certainly. I want you to know I took 
seriously our conversation on April 12, and one of the first 
things I did when I was confirmed was begin to understand what 
is the relationship, as you point out, with that despair. VA 
has a series of counselors, called ``voc rehab counselors,'' 
vocational rehabilitation. They begin the engagement you 
actually were describing with veterans. One of the things I 
learned from, you know, reports of GAO while watching the House 
hearing, was the ratio of servicemembers to counselors was 
above the ratio prescribed by law. It is supposed to be 125:1. 
It was north of 140. The first thing I immediately did was 
figure out how to streamline staffing to go and hire more of 
these counselors, so by the end of this fiscal year, in a 
couple of months, we will have enough counselors on board so 
that ratio is in compliance with the law. We completely agree 
with you, I completely agree with you that the engagement is 
critical. Part of what these counselors do is exactly what the 
second slide shows. What do you need from us? Is it benefits? 
Perhaps you are homeless. We can expedite your claim. Perhaps 
you need medical attention, and we connect you with VA. I 
totally took our conversation seriously, and it had an impact 
on my actions in the first less than 100 days.
    The second thing, as you know, is transition assistance is 
actually led by the Department of Defense and Department of 
Labor. We work with them. So, you know, I would like to say we 
have reignited--but I do not think it needed that much 
igniting--engaging with them to really work these issues. We 
are conducting a survey--it is now sitting with OMB, so we can 
do that--to analyze servicemembers who are now veterans who 
have gone through TAP afterwards. We get a very good survey 
while it goes on, but sometimes we wonder if they do not know 
what they do not know. We want to talk to them afterwards and 
reflect on now that you have had a job and you have begun your 
life again, how did we do getting you ready.
    So, we are very much in agreement with you that what we 
think about at VA is, you know, you are a member of the 
military for a short period of time, in my case 3 years, but 
you are a veteran forever. We have a longer relationship with 
you that we need to think about how it is maintained and 
continued.
    Senator Cassidy. Thank you very much. I appreciate you all 
looking at this and I look forward to its passage. I urge my 
colleagues to support it when the time arises. Thank you.
    Chairman Isakson. Thank you.
    Senator Hirono?

         HON. MAZIE K. HIRONO, U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman.
    I am proud to join my colleagues and the veteran service 
organizations here today in support of the Blue Water Navy 
Vietnam Veterans Act. Passage of this bill is needed for 
veterans in Hawaii, like Richard from Kaneohe, who served on 
the USS Hancock in the Gulf of Tonkin from 1972 to 1975. 
Richard was diagnosed with diabetes and is now on kidney 
dialysis. Or veterans like Gordon, also from Hawaii, who served 
in the Navy fleet on the USS Chipola from 1967 to 1969 and was 
diagnosed with soft tissue carcinoma. Both Richard and Gordon 
contend that their illnesses are due to Agent Orange exposure 
while serving off the coast of Vietnam.
    These are some of the thousands of Blue Water Navy Vietnam 
veterans who have applied for VA health benefits, but were 
denied because they happened to serve our country at sea rather 
than on land. We would like to correct that wrong.
    One thing I would like to ask you, Dr. Lawrence, is that 
you said that even for these people who did not serve on land, 
it is not an automatic denial of coverage. Is that correct?
    Mr. Lawrence. That is correct.
    Senator Hirono. So, if they are not automatically rejected, 
what would the servicemember have to show to raise the 
presumption that he or she would be covered?
    Mr. Lawrence. It is very complicated--you have asked a 
question that could easily be very, very complicated, but let 
me try.
    Senator Hirono. What I am getting to is: how much of a 
burden are we placing on the servicemembers themselves to prove 
that they were indeed exposed to Agent Orange? See, that can be 
a burden that is way too high for any servicemember, so we may 
as well just automatically deny them.
    Mr. Lawrence. Let me make a couple of observations. At VBA 
we have a duty to assist the servicemembers to help them find 
the records and the information they need. Often, when you ask 
why does it take so long for a claim to be processed, it is 
because we are trying to help them find the medical records. 
So, hopefully, it is less of a burden because we assist. But, 
they are required to produce some information which we will try 
to figure out and if they are qualified under, does this seem 
presumptive or not.
    In addition, we need a medical exam, as Dr. Erickson 
pointed out, to figure out what is the cause of the situation 
they find themselves in.
    Senator Hirono. I have talked to a lot of veterans, and it 
is hard enough to show that they do come within the parameters 
for treatment even without exposure to Agent Orange. I can only 
imagine what that is like for those who claim to have been 
exposed to Agent Orange. So, I think the burden of proof of 
showing, coming forward with that kind of evidence is very 
high. In fact, it took decades for the VA to even cover or to 
acknowledge that exposure to Agent Orange should be one that 
would be covered under the VA. It took an act of Congress for 
that to happen. So, it looks as though we are going to need to 
have an act of Congress again.
    Let us say that we do that, and obviously we need to work 
with you to make sure that you have the resources necessary to 
provide the kind of care that this additional group of veterans 
are going to need. You did indicate in your testimony that this 
would really strain your resources and that you would need to 
hire more people, et cetera. Can you tell me what kind of 
additional resources you would need to deal with the claims 
burden that would be generated by the passage of this bill?
    Mr. Lawrence. Sure. Based on our estimates that we provided 
in the testimony, it is $500 million over 10 years.
    Senator Hirono. OK. How many veterans are we talking about? 
Something like 70,000?
    Mr. Lawrence. Well, yes, that is an estimate. That is 
correct.
    Senator Hirono. OK. So, I think that, you know, in a 
situation like this where the burden is really extremely high 
for the veterans to show that they should indeed be covered, I 
think we should go ahead with covering this. And, I am pretty 
much in line with our former Chair in saying that, you know, we 
should provide the health care that they need.
    I have a question relating to S. 1990 that is also on this 
agenda, Dependency and Indemnity Compensation Improvement Act. 
I am a cosponsor of this bill, and I certainly applaud Senator 
Tester's work in leading this effort. It has been a long 
overdue increase of approximately $300 a month for DIC 
recipients, including thousands of beneficiaries in Hawaii.
    Dr. Lawrence, you state in your testimony that increasing 
the amount of DIC benefits payment will help survivors continue 
to live a sustainable life, which I wholeheartedly agree with. 
Are there any other programs under your purview which need a 
fresh look at--changing the formula for calculating payments 
similar to how S. 1990 does for DIC payments?
    Mr. Lawrence. None come to mind at this moment, but I would 
like to take that back and perhaps come back and discuss this 
with you.
    Senator Hirono. Yes, because I think we share the goal of 
enabling all these survivors to live, as you put it, 
sustainable lives. I would appreciate that information.
    Thank you, Mr. Chairman.

Response to Request Arising During the Hearing by Hon. Mazie K. Hirono 
  to Paul R. Lawrence, Ph.D., Under Secretary for Benefits, Veterans 
      Benefits Administration, U.S. Department of Veterans Affairs
    Question. Dr. Lawrence, you state in your testimony that increasing 
the amount of DIC benefits payment will help survivors continue to live 
a sustainable life, which I wholeheartedly agree with. Are there any 
other programs under your purview which need a fresh look at changing 
the formula for calculating payments similar to how S. 1990 does for 
DIC payments?
    Response. Yes, the VA legislative proposals published in the Fiscal 
Year 2019 President's Budget address identified areas for improvement 
in how VA calculates and provides benefits, including proposals 
pertaining to: (1) the reissuance of VA benefit payments to all victims 
of fiduciary misuse; and (2) the removal of annual income from net 
worth calculations for pension benefits.

    Chairman Isakson. Thank you, Senator Hirono.
    Senator Sullivan?

          HON. DAN SULLIVAN, U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman. And, Dr. 
Lawrence and your team, I want to thank you. I know that with 
Secretary Wilkie on board you guys are going to work hard, but, 
you know, you have got a tough job here, right? These are good 
bills, but there are some issues with them. Your job is to tell 
us which are the good ones, which are the ones you have issues 
with, how you can work with us on them.
    I appreciate what you and your team are doing. It is not 
easy. It is easier to say yes to all these bills. Now I am 
going to ask you to say yes to one of my bills.
    But, in all seriousness, we do appreciate what you are 
doing.
    I do want to talk about a rather simple bill that I know 
you have looked at, and I want to get your view on it. It is 
the Medal of Honor Surviving Spouses Recognition Act, which is 
S. 2485. This was actually--it is kind of a story you have 
probably heard a lot about from some Senate bills. It was 
inspired by a constituent of mine, a gentleman in Alaska named 
Dave Glenn, a Vietnam veteran from Wasilla, AK, who served as a 
paratrooper in the 101st Airborne. Every Memorial Day and 
Veterans Day, he stands for hours at attention on a bridge in 
Alaska named after one of our two Medal of Honor winners, a 
recipient, Army Sergeant First Class James Bondsteel, who was a 
fellow Vietnam vet of his, who now rests at Fort Richardson 
National Cemetery in Alaska. Dave's one-man Honor Guard on the 
bridge twice a year--he is 73 now--pays respect not only to 
Sergeant First Class Bondsteel, but, importantly, the wife and 
the daughters he left behind after he died in a car accident on 
that very bridge, which is why it was named after him.
    Dave, about a year and a half ago, pitched an idea to me. 
He said, ``Senator, you know this. Families serve in the 
military as well as spouses, even if they are not wearing the 
uniform. I always tell my wife and daughters, you know, they 
have served as much as me or anyone else. Maybe sometimes they 
have even a tougher job.''
    So, in that spirit, and that respect from Dave Glenn, my 
bill is simple. It extends the special pensions granted to 
Medal of Honor recipients to the spouses that survive them 
after they are gone. The spouses obviously have sacrificed as 
well.
    This is a rather small gesture. It is not expensive. I know 
you guys have looked at the dollar amounts. When you are 
talking to VA, there are rounding errors. But, it means a lot 
to the families of these Medal of Honor families. I also think 
it means a lot to Americans.
    Mr. Chairman, I am going to submit for the record an 
article from the Frontiersman in Alaska entitled ``Veteran 
stands Honor Guard alongside the Glenn Highway.'' It is about 
Dave Glenn's Honor Guard. He says, ``The fabric of our country 
is heroes,'' and, ``These people''--Medal of Honor winners--
``inspire all of us.''
    I would submit that for the record.
    Chairman Isakson. Without objection.

    [The article follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Sullivan. So, anyway, that is what the bill does. I 
certainly agree with Rick Weidman, the executive director for 
policy and government affairs for the Vietnam Veterans of 
America, when he called this bill a ``no-brainer'' in his 
written testimony. I would appreciate your assessment and your 
team's assessment as well. Then, if I have time, I have a quick 
question on transition assistance.
    Thanks again for the good job you guys are doing. It is not 
an easy job.
    Mr. Lawrence. Thank you. We support the bill.
    Senator Sullivan. Great. Well, I will leave it at that. 
[Laughter.]
    No, no follow-up. Thank you. Wow. OK. Good. I am glad. I 
have another question for you.
    Transition assistance, you know, a number of us right now--
and I think you guys are working with Senators Crapo, Tester, 
Cassidy, myself--we are working on looking at ways to improve 
that. One issue that I have thought might be something--and I 
know you guys are doing studies on it--is, you know, last time 
I got off active duty for a recall was in 2013. I went through 
the TAP transition, and it is all right at the end there. It is 
all right at the end. But, you get hit with a lot of stuff.
    Now, if you are on active day, say a Marine, you have got a 
4-year tour. You are getting out--usually these young men and 
women, they do it all at the end. Is there any thought about 
saying, hey, Marine, you are going to get out in 6 months, let 
us start thinking about your career in 6 months or, you know, 
maybe even a year so they can start thinking and strategizing, 
as opposed to--and we know how it works. I was in this position 
a couple times. You just want to get out, right? You are not 
thinking about transition. You are just saying, ``I am going to 
go through the classes, do all this, and leave.''
    But, is there any thought about pushing that process kind 
of deeper into the career of an active-duty military member so 
they are actually strategizing and thinking a little bit more 
seriously than, ``Hey, I know I have got to go through this; I 
will check the box, and get out of here''?
    Mr. Lawrence. The short answer is yes, especially at VA. We 
very much think about that. We worry exactly as you described, 
that it is all at the end, and sometimes things at the end, 
events overcome and people miss it.
    Senator Sullivan. Yeah, and you are just not that focused.
    Mr. Lawrence. Right. And, as you know, DOD has the lead on 
this; the Department of Labor is involved and we are involved. 
So, these conversations we have with them are collaborative in 
nature, and that is a perspective we bring. They bring 
different perspectives, so we try real hard to work through 
that. We have always advocated that the sooner we can begin to 
teach people about the benefits they will have as a veteran, 
the better it will be, especially when we think about things we 
are talking about--home loan ownership, for example, not 
something you probably think of right away, but later you will 
look back and say, ``This is a very powerful benefit.'' Access 
to health care, as we have talked about, understanding that, 
you know, you will under certain circumstances be open to 
health care and the like.
    We are very much in favor of that. We try hard to work with 
DOD and Department of Labor to get that point into the 
conversation.
    Senator Sullivan. Great. Well, we want to continue to work 
with you on that, with those and other ideas on the transition 
assistance.
    Mr. Lawrence. Thank you very much.
    Senator Sullivan. Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Sullivan.
    Senator Tillis?

                STATEMENT OF HON. THOM TILLIS, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. Thank you, Mr. Chair. I will tell my 
colleague Senator Sullivan that, as Chair of the Personnel 
Subcommittee, that is going to be the focus, TAP, the 
transition assistance program being on VA, not only how much 
earlier we weave it into the life cycle, but recognize some 
young person transitioning may have very different needs than 
someone that has been in 10 years, 15 years, 20 years. So, we 
have got to do a better job of tailoring, we have got to do a 
better job of understanding what sorts of assignments and MOS's 
the military personnel had that may make them at risk for 
certain things they may not even know they are at risk for. So, 
there is a lot of work to be done there, and, Mr. Chair, I was 
going to suggest that we possibly even have a subset of the 
Veterans Committee and Personnel Subcommittee get together so 
we are all hearing the same thing at the same time so the two 
committees can work together.
    Mr. Lawrence, when you were responding to Senator Hirono's 
questions about the documentation and how you process the 
documentation and try to take up claims for outside of which 
you already have a presumption, I was reminded of a constituent 
request that I had about a year and a half ago in my office. We 
are approaching 20,000 cases in North Carolina. I have been in 
3 years, 3\1/2\ years. The majority of them are for veterans. 
This particular one was a veteran who came home with his wife. 
While she was reading the mail, and she said, ``Honey, I did 
not know you died.'' The VA had sent her, as a survivor, a 
notice about the paperwork she needs to do for what was 
apparently her living husband right next to her.
    So, he called the VA, and the VA told him that there was 
this paperwork and these documents that he would have to submit 
to prove that he was, in fact, alive. He then called our 
office. I said, ``Look, it is not our problem to fix your 
problem.''
    Now, I know you are coming in new, and you have got an 
organization that has got a lot of problems to fix. But, I 
would tell you there may be cases where you are trying to help, 
but with the volume you have, I am sure there are a lot of 
cases where people are not getting the kind of help they need, 
and it is very difficult to navigate through the VA. So, I wish 
you well on really trying to make those processes work where it 
is less work for the veteran and more work for the Department 
to get things done.
    He, by the way, is now considered alive again, and he has 
got VA benefits, so that was a happy ending.
    Dr. Erickson, I want to talk with you about the science on 
the Blue Water issue. You may not know--Jerry Ensminger I know 
is on the Hill somewhere, but he was chasing the issue down 
with Camp Lejeune toxic substances before I got here. We had a 
tug and pull with the Department for a while, and to Dr. 
Shulkin's credit, we made good progress there.
    The way we arrived at that is making sure that we kind of 
matched up competing views on the science to a large extent. I 
think that is a fair way to characterize it.
    So, if I look at the Blue Water Navy, I ask myself: how can 
we get a process going that could be driven largely by science, 
but in the same way that we had to pull people together and try 
to bridge the gap, identify a potential class of people that 
right now do not get the presumption? The main reason--I share 
everybody's concerns. I would rather err on the side of the 
veteran in every case. But, one of the concerns that I have 
right now with the bill as proposed is the new pay-for. The 
pay-for that was proposed in the past was an adjustment to the 
COLA, kind of a broad base, relatively low impact, but it 
impacted all veterans. Now, the new proposal is one that gets 
right at loans, home loans. It is something that Senator Warren 
and I worked on. We made some progress on that in terms of bad 
actors for veterans. I am afraid that, one, it actually 
concentrates the cost on a smaller group of veterans, so it 
becomes a higher cost. Depending upon how you get the 
presumptions, it could even be a greater cost. I think we are 
talking about a spread of 25 to 50 basis points, and on certain 
loans that could be a lot of cost borne by certain veterans.
    So, how could we actually accelerate or create a construct 
similar to what we did with Camp Lejeune to come to a good and 
fair conclusion, but also manage the upside risk and costs 
along the way?
    Dr. Erickson. Senator Tillis, thank you for the question. I 
do not know if you remember me. I was part of the tug and pull, 
and I remember all that well.
    Senator Tillis. That is why you got a question. [Laughter.]
    Dr. Erickson. Thank you. I am sure you are aware but 
perhaps other Members of the Committee are not aware that we 
relied initially--and you in legislation relied in the Janey 
Ensminger Act--on the National Academy. In fact, those 15 
covered conditions came from a National Academy report, a 2009 
report. Not a perfect report; I got that. But, that was the 
basis for--the evidentiary basis that initially led to 
legislation.
    Likewise, within the tug and pull with Camp Lejeune, we 
came together with other Federal agencies, in particular, the 
Department of Health and Human Services, ATSDR, looked at a lot 
of the same information together. It was a very profitable 
exercise for us. It is one that, in fact, we are using now for 
lots of other toxic exposure issues. And, in fact, that led to 
our Secretary at the time then promulgating presumptions for 
Camp Lejeune veterans. But, again, based in evidence; based in 
evidence.
    Our challenge right now is that the National Academy did 
not help us out. They said, ``We do not know. We do not know. 
We cannot say that they were exposed. We cannot say that they 
were not exposed.'' So, we are stuck. We are stuck. And, I 
think part of our concern is what are the second- and third-
order effects when we go beyond this law, as there might be 
other groups that will say, ``Well, you know, our evidence is 
equally strong or weak, and, why don't you take care of us 
either through VA regulation promulgation or through 
legislation?'' That is the challenge.
    Senator Tillis. The main thing for me is I want to make 
sure that those where the science leads us to say we absolutely 
owe it to them--and I do not even mind a little gray area, a 
gray area that favors the veteran. But, if you do not figure 
out how to sustain it--what we do here is pass bills, which we 
forget when we cut or change benefits somewhere else later on, 
because we do not have the money to pay for it. I want to make 
sure that the promises that we made we keep, and if we make a 
promise in this area, it is driven in a way that is 
sustainable, gives care to those who need it and deserve it, 
but does not put us in a situation where, when we run out of 
money and we are already out of money. I do not know if you 
know about our $21 trillion debt. You have always got to be 
mindful of making sure that you are not making empty promises, 
you are not promising progress in one area at the expense of a 
risk for future funding in the other area.
    I look forward to the VSOs. Sorry I ran over, Mr. Chair.
    Chairman Isakson. Thank you, Senator Tillis. We excuse the 
panel and thank the panel for being here. If you wish to stay 
to hear from the VSOs, I hope you will.
    If our VSOs will come forward as quickly as possible, I am 
going to make sure I do not cut you off like I did the last 
time you were here.
    While those testifying are being seated, I am going to ask 
to make a unanimous consent request. I have 20 organizations 
that have submitted written statements for today's hearing and 
agenda. I ask consent that those statements be made part of the 
record of this hearing. Hearing no objection--is there any? [No 
response.]
    Hearing no objection, we will enter them in the record.

    [These statements can be found in the Appendix.]
                                ------                                

  Response to Posthearing Questions Submitted by Hon. John Boozman to 
                  U.S. Department of Veterans Affairs
    Question 1. I want to thank the VA for your foresight and 
leadership on S. 769, The Medicare Access to Radiology Care Act of 
2017, to require Medicare to recognize RAs. The VA has indicated that 
they are in the process of authorizing Radiology Assistants at the VA 
to align Medicare requirements with state requirements. Will you 
provide a status update for this effort and your sense as to when this 
process will be completed?
    Response. The Department of Veterans Affairs (VA) Office of Human 
Resources and Administration (HRA) is in the process of establishing a 
new qualification standard for the Registered Radiologist Assistant. 
Currently, the qualification standard is in the final stages of 
concurrence for approval and publication. The qualification standard 
provides that a Registered Radiologist Assistant practices under the 
direction and supervision of a physician. HRA is working toward having 
this qualification standard completed by November 2018.
                                 ______
                                 
 Response to Posthearing Questions Submitted by Hon. Sherrod Brown to 
                  U.S. Department of Veterans Affairs
    Question 2. I am very happy the Committee will review two different 
pieces of legislation to address the needs of active duty 
servicemembers as they transition to civilian life. We need to do 
everything we can to ensure that they have the information and tools 
that they need to succeed. Additional days of training to pursue 
education, technical training, or entrepreneurship will help to set 
servicemembers up for good paying jobs when they reenter civilian life 
and I was pleased that this year's NDAA included a version of this 
provision in the final conference report. Under Secretary Lawrence, in 
your testimony, you say we need to do more to communicate with veterans 
after they transition because rapid identification of risk from 
transition does not present until much later. Are you referring to the 
VFW's suggestion that TAP programs should be offered to veterans once 
they have reintegrated in their communities? Are you referring to risk 
for medical/mental issues, unemployment? Walk me through what you mean 
by that.
    Response. VA agrees with our Veterans Service Organization (VSO) 
partners that consideration must be given to assist transitioning 
Servicemembers to identify and connect with national and community-
based resources within their new civilian communities--wherever they 
choose to live. VSOs are introduced as a support resource early in VA's 
Transition Assistance Program (TAP) curriculum, and additional 
references are integrated throughout the curriculum to ensure 
transitioning Servicemembers are aware of the support and services they 
can provide. The curriculum highlights how VSOs can support the 
military to civilian transition, including VSO support for filing for 
disability compensation within the pre-discharge program. During the 
curriculum, Servicemembers have the opportunity to use locator tools to 
find their local VSO. The program also allows time to introduce local 
VSO representatives in attendance at VA Benefits I & II Briefings.
    However, VA is not referring to offering TAP to Veterans once they 
have reintegrated into their communities. To that end, VA and its TAP 
interagency partners are currently developing a Military Life Cycle 
module that will introduce transitioning Servicemembers to resources 
located in their civilian communities and inform them on how to connect 
with those resources. VA will complete development of this module by 
December 2018 and will be ready to pilot in coordination with the 
Department of Defense (DOD) and the military services beginning in 
January 2019.
    Moreover, with regard to Servicemembers who are at-risk for 
challenges during their transition, VA and its TAP interagency partners 
recognize the need to be available during the entire transition to 
civilian life. As such, we are working to implement Executive Order 
13822, ``Supporting Our Veterans During Their Transition from Uniformed 
Service to Civilian Life,'' to ensure these at-risk transitioning 
Servicemembers are identified and receive a warm handover to the 
support they need. However, VA notes that the signs and symptoms 
associated with these areas of risk do not always appear or begin until 
after transition from military service. The delayed onset of symptoms 
presents challenges for VA and other agencies, as there are times when 
the Government does not have regular contact with the transitioning 
Servicemember/Veteran.
    In keeping with our enduring commitment to those who have worn the 
uniform, VA and its Federal partners have developed a Joint Action Plan 
which, when fully implemented by July 2019, will improve our ability to 
provide a seamless handoff to VA and ensure early and consistent 
contact with Veterans to keep them informed of access to peer support, 
availability of mental health care after separation, and eligibility 
for health care and VA benefits.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Joe Manchin III to 
                  U.S. Department of Veterans Affairs
    In your testimony on S. 1592, VA Financial Accountability Act of 
2017, you stated an independent review of VA financial processes would 
be redundant and that the VA's Enrollee Health Care Projection Model 
(EHCPM) has been extensively reviewed. The two reports you cited, a GAO 
report and a report by The RAND Corporation are from 2008 and 2011 
however, i.e. well before the VA Choice Program was enacted. One of the 
conclusions of the 2008 RAND report was that the EHCPM model could 
yield misleading results, especially in a changing policy and budgetary 
environment.

    Question 3a. Has the EHCPM been updated to model the changing 
demand for healthcare obtained outside of the VA system through Choice 
and other community care initiatives?
    Response. Yes. The 2016 Enrollee Health Care Projection Model 
(EHCPM) that informed the 2019 President's Budget was enhanced to 
differentiate health care provided in VA facilities and care purchased 
in the community. Key enhancements included developing unit costs that 
reflect what VA is expected to pay for purchased care and 
differentiating reliance and other assumptions in the EHCPM by location 
of care.
    The EHCPM has been enhanced to model changes in Veteran demand for 
VA health care recognizing that greater access to care in the community 
closer to the enrollee's home is expected to increase enrollee reliance 
on VA health care and the proportion of that care expected to be met 
outside of the VA system through community care. Since enrollees 
currently rely on VA for less than 40 percent of their health care, 
small changes in reliance can have a significant impact on expenditure 
requirements.
    The total enrollee demand for VA health care projected by the EHCPM 
can be reported separately for care expected to be provided in VA 
facilities and expected to be purchased in the community. However, the 
proportion of total care that will be provided in VA facilities and 
purchased in the community can vary significantly depending upon 
eligibility criteria, operational guidelines, and resource 
availability.
    Health care is very dynamic. Further, the EHCPM projections 
supporting the VA budget are developed based on data that are three 
years removed from the beginning of the budget year (four years for the 
Advance Appropriation). During this time, new policies, legislation, 
regulations, and external factors, such as economic recessions, can 
occur and change the projected demand for VA health care. If so, the 
EHCPM can be updated to reflect this emerging experience, and the 
Budget is updated to reflect the revised projections.

    Question 3b. Has EHCPM been reviewed, by an independent body, since 
the VA Choice program was enacted?
    Response. The EHCPM has been reviewed extensively by independent 
stakeholders, including the Office of Management and Budget, 
Congressional staff, the Congressional Budget Office, and the 
Government Accountability Office (GAO). GAO, which reviewed the EHCPM 
in 2011, is currently reviewing the EHCPM as part their review of the 
VA Community Care Budget (GAO Report 102732). VA is providing extensive 
information on the enhancements to the EHCPM in order to differentiate 
health care provided in VA facilities and purchased in the community 
and will address any recommendations included in GAO's final report.

    Question 3c. Given the sweeping reforms that are part of the VA 
MISSION Act doesn't make sense to have a new, independent review of the 
VA's cost projection models?
    Response. Please see response to Question 3b.

    Question 4. In your testimony, you state that the Blue Water Navy 
bill would add significantly to the number of benefit claims pending 
over 125 days and additional employees would have to be hired to handle 
the case load. How many people would you need to hire if the bill 
passed into law?
    Response. The Veterans Benefits Administration (VBA) would require 
an additional 803 full-time employees (FTE) for 2019 to successfully 
and timely address any new reviews and claims that would be a result of 
the bill passing into law.

    Question 5. In the introduction of the 2011 Institute of Medicine 
(IOM) report on Blue Water Navy, they say the following in the 
introduction: ``The Committee was surprised and disheartened to find a 
dearth of information on environmental concentrations of TCDD during 
the Vietnam War, in spite of large volumes of Agent Orange sprayed 
throughout South Vietnam. Such information is vital to determining 
possible exposures not only of Navy veterans but also veterans who 
served on the ground and on the land waterways of Vietnam.'' Can you 
elaborate on ways the Department of Defense and Department of Veterans 
Affairs have improved service record keeping and transfers of 
information so that they accurately reflect possible toxic exposures 
while in service?
    Response. VA defers to DOD for a full description of initiatives 
and efforts to improve recordkeeping of military exposure events. 
However, VA and DOD work closely to identify situations where 
Servicemembers may be at risk. The Deployment Health Working Group, 
comprised of both DOD and VA officials, meets monthly to discuss 
ongoing and emerging environmental issues and oversees development of 
initiatives to improve interagency sharing of vital information.
    The Individual Longitudinal Exposure Record (ILER) is an example of 
an ongoing joint enterprise initiative between DOD and VA. The purpose 
of this initiative is to establish a complete record of every 
Servicemember's exposure over the course of his or her career. ILER 
will provide a real-time, long-term exposure record matched to health 
status and matched to a Servicemember to a place, time, location, and 
event.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Mazie K. Hirono to 
                  U.S. Department of Veterans Affairs

    Question 6. Dr. Lawrence, you state in your testimony that 
increasing the amount of DIC benefits payment will help survivors 
continue to live a sustainable life, which I wholeheartedly agree with. 
Are there any other programs under your purview which need a fresh look 
at changing the formula for calculating payments similar to how S. 1990 
does for DIC payments?
    Response. Yes, the VA legislative proposals published in the Fiscal 
Year 2019 President's Budget address identified areas for improvement 
in how VA calculates and provides benefits, including proposals 
pertaining to: (1) the reissuance of VA benefit payments to all victims 
of fiduciary misuse; and (2) the removal of annual income from net 
worth calculations for pension benefits.

                                 ______
                                 
Response to Additional Posthearing Questions Submitted by Hon. Sherrod 
              Brown to U.S. Department of Veterans Affairs
                            blue water navy
    Mr. Manar's testimony is very convincing, and so was the Australian 
study. ``If there was dioxin in the water, we would have been exposed 
to it while swimming. Week after week, patrolling up and down the 
coast, we took in sea water and processed it through our fresh water 
evaporator system. We know from the Australian Navy study, validated by 
the National Academy of Medicine (formerly the Institute of Medicine), 
that fresh water evaporator systems concentrated toxic material, 
including dioxin, which was then transmitted to sailors through 
drinking water.\1\
---------------------------------------------------------------------------
    \1\ Blue Water Navy Vietnam Veterans and Agent Orange Exposure, 
Institute of Medicine, 2011, pg 13, https://www.nap.edu/read/13026/
chapter/2#13.
---------------------------------------------------------------------------
    As a matter of observation, absent the cleaning and sanitation of 
the entire fresh water evaporator system, it is conceivable that every 
person who ever served on board my ship could have been exposed to 
dioxin after its first visit to Vietnam. Further, by the time we 
completed our last deployment to Vietnam in 1972, the evaporator system 
would have accumulated concentrated dioxin from dozens of visits to 
Vietnam, not simply the final three that I experienced while on 
board.''

    Question 7. Dr. Erickson, to date, why hasn't VA concluded that the 
science behind the Australian study, which NAM corroborated, is 
sufficient? What additional science is VA waiting for?
    Response. We thank the Senator for this question and for his 
careful consideration of the evidence underlying this bill. We 
recognize that this is a complex exposure issue that is important to 
our Veterans, and we have been working diligently over the years to 
gain as much understanding as possible and to recommend policies that 
are facts based. The Senator has noted that he finds both the 
Australian study and the Veteran's testimony to be strong evidence in 
support of concluding that Blue Water Navy Veterans were exposed to 
Agent Orange and other tactical herbicides during the Vietnam War; 
however, the statements and conclusions made in both of these, in terms 
of the consumption of water distilled aboard ships while at sea, are 
contingent upon the assumption and requirement that tactical herbicides 
and the contaminant Tetrachlorodibenzo-p-dioxin (TCDD) were present in 
the water. VA's understanding of the science related to that issue, 
including the policies regarding the spray missions, the properties of 
the herbicides, the environmental fate of the herbicide components, and 
the expected behavior of the components in bodies of water off the 
coast of Vietnam, is that it is unlikely that this was a significant 
pathway of exposure to tactical herbicides for most Blue Water Navy 
Veterans.
                australian study (muller, et al., 2002)
    Researchers in Australia demonstrated it may have been possible to 
concentrate dioxin during the distillation of contaminated water, based 
on laboratory recreations of the major aspects of the distillation 
systems used aboard most ships during the Vietnam War. The theoretical 
nature of this series of experiments and differences in U.S. and 
Australian Naval policies at the time, however, restrict the 
extrapolation of these findings in terms of representing the experience 
of U.S. Navy Veterans who served on the offshore waters of Vietnam.
    The authors attempted to determine this by recreating the major 
principles of the distillation system in a laboratory setting and 
assessing the potential for the co-distillation of several chemicals. 
It is important to note that most of the variables in the experiments, 
including the concentrations of chemicals, were not chosen to directly 
mirror the conditions in the offshore waters of Vietnam but rather to 
evaluate the effects of the physico-chemical properties of water and 
different types of compounds on distillation in this type of system. 
Thus, it was not meant to model the exposure scenario in Vietnam, but 
rather, the type of distillation system aboard the ships that were 
used. Based on the findings of the study, the authors concluded that 
``the distillation process of water contaminated with TCDD would result 
in contamination of potable water. Subsequent ingestion by sailors on 
board ships (as well as soldiers and airmen, who were passengers) is 
thus a vector for exposure to these chemicals.
    While it is unlikely that accurate exposure of the personnel on 
board ships can be estimated, the study findings suggest that the 
personnel on board ships were exposed to biologically significant 
quantities of dioxins.'' This conclusion may be appropriate for the 
Royal Australian Navy members who served during the war, as their 
protocol at that time was to draw water for drinking from turbid, 
estuarine type waters (or those closer to shore), which would include 
higher levels of salt, suspended particles, and potentially, 
contaminants from herbicide spray drift, while reserving the drawing of 
more pristine waters that were several miles off shore exclusively for 
their steam engines. The U.S. Navy protocol, however, was starkly 
different during that conflict. Per Sec. 2.4.2 of the Naval Ships' 
Technical Manual (NAVMED P-5010-6; Department of the Navy, 1990), which 
is titled ``Polluted Water,'' states that ``unless determined 
otherwise, water in harbors, rivers, inlets, bays, landlocked waters, 
and the open sea within 12 miles of the entrance to these waterways, 
shall be considered to be polluted . . .  The desalting of polluted 
harbor water or seawater for human consumption shall be avoided except 
in emergencies.'' Therefore, U.S. Navy ships that served only on the 
offshore waters several (at least 12) miles off the coast of Vietnam 
were not likely to have drawn contaminated water for drinking.
                2011 institute of medicine (iom) report
    At the request of VA, IOM reviewed the evidence on this topic and 
issued a report in 2011. In this comprehensive review, the Committee 
detailed several factors that would affect the potential for TCDD-
contaminated water to reach U.S. ships that were several miles 
offshore, including:

    <bullet> It has been estimated that 87 percent of the Agent Orange 
sprayed reached the forest canopy, while only 13 percent was lost to 
drift, and of the 13 percent, an appreciable amount was likely degraded 
due to the Vietnamese environment.
    <bullet> Agent Orange and TCDD would have entered waterways via 
riverbank spraying or runoff; however, a considerable fraction would 
absorb in organic materials that would be deposited in the delta 
regions or estuaries.
    <bullet> Agent Orange and TCDD would have entered marine water from 
river discharge and spray drift; however, any amount in marine waters 
would be greatly reduced by the initial dilution in river water and 
dispersion in air and further dilution in coastal waters.

    The Committee also reviewed the Australian study and considered 
another theoretical model that appeared to support its findings on the 
potential to concentrate TCDD through the distillation process. The 
Committee concluded that ``it is theoretically possible to concentrate 
dioxin in distilled water, at least experimentally.'' While the 
Committee noted that, based on the available science, ``if Agent 
Orange--associated TCDD was present in the marine water that U.S. ships 
drew for drinking water, distilled potable water would be a plausible 
pathway of exposure,'' they ultimately concluded that ``without 
information on the TCDD concentrations in the marine feed water, it is 
impossible to determine whether Blue Water Navy personnel were exposed 
to Agent Orange--associated TCDD via ingestion, dermal contact, or 
inhalation of potable water.'' Additionally, regarding the Australian 
study, the Committee stated: ``If the purpose of this experiment was to 
demonstrate the plausibility of TCDD exposure to sailors via distilled 
water, then this study is useful; however, the application of these 
findings to actual shipboard distillation systems requires knowledge of 
several factors not addressed in the experiment. The significance of 
this study's findings for contaminant exposures on Blue Water Navy 
ships is highly uncertain.'' Therefore, IOM did not corroborate the 
Australian study in terms of its applicability to U.S. Navy Veterans 
that served during the Vietnam War, but they noted that the study 
findings do support that the concentration of TCDD during distillation 
aboard ships is theoretically plausible.
  current va study that may provide additional scientific evidence on 
                            blue water navy
    VA recently conducted a survey study on the health of Vietnam-era 
Veterans that included an ``over-sampling'' of Blue Water Navy Veterans 
as a subpopulation. The study will compare the health of this group to 
that of Vietnam Veterans, Vietnam-era Veterans, and the general U.S. 
population. In the absence of adequate exposure data, we hope to gain 
an understanding of the health of Blue Water Navy Veterans and may be 
able to make some determinations about whether outcomes they are 
experiencing could be related to exposure to tactical herbicides during 
their service. The results are currently being analyzed and are slated 
to be published as early as 2019.

    Question 8. Why has VA denied claims for veterans who were exposed 
to Agent Orange if VA has records of specific ships and the veterans 
who were on those ships within the 12 mile demarcation line?
    Response. Under current laws and regulations, there is not a 12-
mile demarcation line for determining whether a vessel operated in the 
inland waterways.
    Background:

    VA, under the law, may only pay compensation based on a presumption 
of service connection for an Agent Orange-related disease if the 
Veteran was exposed to Agent Orange or any other covered herbicide. 
Under the law, 38 United States Code Sec. 1116, a Veteran is presumed 
to have been exposed to Agent Orange only if he or she ``served in the 
Republic of Vietnam'' during the period beginning on January 9, 1962, 
and ending on May 7, 1975.
    VA regulations, 38 Code of Federal Regulations 
Sec. 3.307(a)(6)(iii), defines service in the Republic of Vietnam to 
only include service in the offshore waters if the service included 
duty or visitation in the Republic of Vietnam. VA has further clarified 
``service in the Republic of Vietnam'' to consist of ``boots on the 
ground'' service or service in the inland waterways. VA's 
interpretation of ``service in Vietnam,'' to include encompassing 
inland waterways, but excluding offshore waters has been upheld by the 
courts, to include the United States Court of Appeals for the Federal 
Circuit in its seminal decision in Haas v. Peake, 525 F.3d 1168 (Fed. 
Cir. 2008).
    VA's regulatory definition of service in Vietnam excludes service 
in the offshore waters, as there is no evidence that Agent Orange was 
applied to the waters off the shore of Vietnam, nor is VA aware of any 
valid scientific evidence showing that individuals who served in the 
offshore waters were subject to the same risk of Agent Orange exposure 
as those who served in the geographic land boundaries of Vietnam.
    Therefore, VA would not necessarily award benefits for a claim for 
disability compensation due to Agent Orange exposure for a Veteran who 
had served aboard a ship within 12 miles of the Vietnamese coast, as 
offshore service is not considered service in the inland waterways, 
which meets the statutory and regulatory definition of ``service in 
Vietnam.'' Inland waterways include rivers, canals, estuaries, and 
deltas. Deep-water bays and harbors are not inland waterways but are 
considered to be offshore waters of Vietnam because of their deep-water 
anchorage capabilities and open access to the South China Sea. For 
example, we would consider service aboard a swift boat, landing ship, 
or tank to be service in the inland waterways because those types of 
vessels operated primarily on Vietnam's inland waterways. Agent Orange 
exposure would be conceded for any Veteran who served aboard this type 
of Naval vessel.
    We also would concede exposure to Agent Orange if a Veteran who 
served in a ship operating in the offshore waters that temporarily 
entered an inland waterway. Additionally, we concede Agent Orange 
exposure if the ship docked to a pier or shore or was in the offshore 
waters and delivered personnel or supplies if there is evidence that 
the Veteran went ashore, as this was would be consistent with service 
that ``involved duty or visitation in the Republic of Vietnam.''
    Veterans who are not presumed to have been exposed to Agent Orange, 
including those who served in ships in offshore waters that did not 
enter inland waterways, may submit evidence of actual exposure, and VA 
evaluates such evidence on a case-by-case basis.
          medical surgical prime vendor (mspv) program reforms
    My office has heard that the lack of a comprehensive approach to 
manage medical products throughout the VA system, could lead to an 
inefficient acquisition strategy for the Department. There have been 
efforts to revamp the MSPV program and I would like to know more about 
what the Department's next steps will be.

    Question 9. What additional steps could VA take to reorganize the 
Medical Surgical Prime Vendor (MSPV) Program, and would VA use the 
Pharmaceutical Prime Vendor program as a model?
    Response. VA should continue its efforts on multiple fronts now 
underway to improve the MSPV program, which are:

    <bullet> The Veterans Health Administration (VHA) Healthcare 
Commodities Program Office (HCPO) near-term efforts to improve the MSPV 
program to increase VA medical centers (VAMC) and clinician access to 
the medical/surgical supplies required to treat patients, and improve 
flexibility for adding supplies to the list of available items, as 
feasible under legal and regulatory constraints. Simultaneously, we are 
pursuing longer term program goals that focus on leveraging VA's buying 
power to deliver more consistent, faster distribution services to the 
facilities, lower costs, and increase enterprise spend visibility via 
the MSPV 2.0 and our Clinically-Driven Strategic Sourcing (CDSS) 
initiative.
    <bullet> The VHA CDSS initiative will improve processes and tools 
to better involve clinicians in identifying and validating supplies.
    <bullet> The VHA HCPO's MSPV 2.0 effort is planning new, 
competitively awarded supply and distribution services contracts for 
Prime Vendors to improve VAMC with a more seamless and compliant, end-
to-end supply chain solution focused on lowering costs, reducing 
acquisition wait times, and delivering essential supplies for Veteran 
care.
    The VHA HCPO has been working closely with the Strategic 
Acquisition Center, Office of Small and Disadvantaged Business 
Utilization, and Office of General Counsel to ensure facility 
requirements and requests are pursued within relevant Federal 
Acquisition Regulations and Veterans Administration Acquisition 
Regulation framework and are compliant with legal statutes, which 
include the Rule of Two and Vets First.
    <bullet> VHA is evaluating parts of the Pharmaceutical Prime Vendor 
(PPV) program for incorporation into the MSPV Program. One of the 
potential courses of action is to utilize the Federal Supply Schedules 
to make a larger market basket of medical surgical products available 
to all facilities.
    <bullet> PPV program does currently rely on a single Prime Vendor 
to cover all regions, which is not the preferred approach for the VHA 
MSPV. VHA will propose to have more than one MSPV to reduce dependency 
risk. H.R. 5418, the Veteran Affairs Medical-Surgical Purchasing 
Stabilization Act, would set the expectation to have more than one 
prime vendor for VA medical/surgical supplies.
    <bullet> The mechanism for communicating pharmaceutical prices to 
PPV may not be scalable for the volume of items that are required by 
the MSPV program. In the existing PPV model, the VA/National 
Acquisition Center (NAC) provides the prices electronically to PPV. PPV 
is only permitted to load prices provided by NAC. In the event the 
contracting office is delayed or unable to provide pricing, item 
availability may be at risk as MSPV would not have the information 
required to effectively procure the necessary items. Given that one of 
the key goals of the new MSPV program is to increase item availability, 
the risks associated with the current PPV model would run counter to 
the future intentions of HCPO.

    Question 10. Has VA consulted with other interagency partners such 
as DOD?

    VA Response:

    <bullet> As part of the MSPV 2.0 program, we are analyzing 
different course of action for medical/surgical items--which include 
VA's Federal Supply Schedule and Defense Logistics Agency's (DLA) 
Distribution and Pricing Agreements (DAPA). Utilizing the DLA DAPA 
option is a possible solution that DLA has made available to VA.
    <bullet> VHA views a partnership with DLA as a potential long-term 
solution given the comparable nature of the Department of Defense's 
(DOD) medical programs in terms of service and scope across hundreds of 
facilities; DLA's MSPV program is generally regarded as effective and 
efficient. VHA is including subject matter experts from DLA to assist 
in the MSPV 2.0 development efforts. DLA experts have shared best 
practices for their MSPV program and highlighted key differences 
between the two organizations to provide a more comprehensive 
understanding of the advantages and disadvantages of the different 
supply programs.
    <bullet> As VA continues to explore migration to DOD's Defense 
Medical Logistics Supply System (DMLSS)/LogiCole solution to replace 
the legacy Integrated Funds Distribution, Control Point Activity, 
Accounting and Procurement system, the synergies of leveraging the DLA 
MSPV contract and DAPAs increase. A migration to DMLSS/LogiCole may 
need to include utilizing the DLA MSPV contracts, to achieve the 
efficiencies desired from this program.

    Question 11. What steps would VA take to ensure the new program is 
staffed properly with individuals who have both clinical and medical 
supply chain expertise?
    Response. CDSS initiative will be piloted next year to better 
leverage and integrate clinical, supply chain, and contracting 
expertise to provide clinicians with the medical supplies and equipment 
required to provide improved patient care for our Veterans. CDSS will 
include comprehensive and extensive coordination with the National 
Clinical Program Offices, clinicians, and supply chain personnel at 
both the facility and the Veterans Integrated Service Network levels. 
The strategy will be driven by clinician feedback and requests, and the 
supply catalog will include items that are safe, effective, and 
clinically sourced. Constant communication and transparency with 
clinicians is essential for the success of CDSS, and every CDSS-sourced 
medical item will leverage the medical expertise of our clinicians in 
the field.
    Current VA Ordering Officer training materials will be updated to 
reflect lessons learned as well as the changes introduced by the MSPV 
2.0 (future state) program.

    Question 12. Would the reorganization include a program office to 
manage the new enterprise?
    Response. In June 2018, VA's Healthcare Commodities Program Office 
in its reorganization established a Medical/Surgical Future State 
effort to support the development of the MSPV 2.0 and other future 
medical/surgical programs. As the future MSPV program transitions from 
development to implementation and sustainment, additional 
reorganization may be required to best support the VAMCs.

    Question 13. Would a reorganization require additional resources, 
either personnel or funding?
    Response. VA is assessing the need for additional resources, in the 
form of both personnel and funding, that may be required to support the 
MSPV 2.0 program as it moves into implementation and sustainment. 
Additional resources may be required to support a successful 
implementation, provide contract oversight and administration, and 
provide general program management support.

    Question 14. Does VA need legislative language to facilitate a 
program reform?
    Response. VA is reviewing ideas for legislation that could 
contribute to its efforts in these areas. We are glad to discuss 
potential improvements with the Committee.

    Chairman Isakson. Those testifying in panel 2 are as 
follows: Chanin Nuntavong--did I get that right, Chanin?
    Mr. Nuntavong. Yes, Senator.
    Chairman Isakson. OK. Chanin Nuntavong is Director of 
Veterans Affairs and Rehabilitation, The American Legion; 
Gerald Manar, former Director, National Veterans Service, 
Veterans of Foreign Wars; Thomas Snee, National Executive 
Director of the Fleet Reserve Association; and Rick Weidman, 
Executive Director for Policy and Government Affairs, Vietnam 
Veterans of America.
    We welcome all four of you to testify, and we will begin 
right now with Mr. Nuntavong. I am sorry if I am not doing well 
with the name. I apologize.

  STATEMENT OF CHANIN NUNTAVONG, DIRECTOR, NATIONAL VETERANS 
     AFFAIRS & REHABILITATION DIVISION, THE AMERICAN LEGION

    Mr. Nuntavong. Michael Kvintus, a resident of Cambridge, 
OH, deployed twice aboard the USS Buchanan during the Vietnam 
War. Michael was exposed to the chemical known as Agent Orange 
while guarding aircraft, searching boats, providing field naval 
fire support, and while anchored near Da Nang harbor in August 
1966.
    Chairman Isakson, Senator Sanders, and distinguished 
Members of this Committee, on behalf of National Commander 
Denise Rohan, representing 2 million dues-paying members living 
in every State and American territory, it is my duty and honor 
to present The American Legion's position on the pending 
legislation being discussed here today.
    Michael has been happily married for 55 years, is the 
father of three, and lives with the daily illnesses of exposure 
to Agent Orange. Michael had a heart attack, not one but two 
stents placed in his heart, and quadruple bypass surgery. At 
the age of 72, he currently lives with heart disease, diabetes, 
neuropathy, and erectile dysfunction. All, he believes, is 
connected to Agent Orange exposure.
    H.R. 299 is a massive step forward in recognizing the men 
who were impacted by Agent Orange. Mr. Chairman, it is time we 
as a Nation give veterans like Michael the benefits they 
deserve.
    Beyond the benefits for Blue Water Vietnam veterans, all 
veterans deserve comprehensive health care. The American 
Legion's System Worth Saving program routinely conducts town 
hall meetings across the Nation allowing veterans to share 
their VA experience. We frequently meet with veterans who 
express concerns about VA dental benefit eligibility. A 
majority of the veterans treated by VA do not qualify for this 
benefit. Bottom line, dental care is health care, and The 
American Legion supports this legislation.
    In the 1990s, BRAC was created to assess and close military 
installations no longer paramount to our national defense. An 
unintended consequence of the closures was Mare Island 
Cemetery. The cemetery is in total disrepair. It fell out of 
the purview of the U.S. Navy and is currently under the control 
of the city of Vallejo, CA.
    The proposal in S. 2881 is simple, Mr. Chairman: Transfer 
the cemetery that has more than 850 veterans, including 3 Medal 
of Honor recipients, to the VA's National Cemetery 
Administration, whose mission is to ensure that those who have 
departed us are treated with the respect they deserve. We 
firmly believe NCA is the best authority and only authority to 
restore Mare Island Cemetery to greatness.
    Shifting topics, ensuring servicemembers receive world-
class training as they transition out of the military has been 
and always will be a priority of The American Legion. The draft 
bill before you would increase the number of DOD TAP employees, 
collect data for studying long-term effectiveness, and 
establish a governing board to help prevent overdoses, suicide, 
and alcoholism, among other provisions. The American Legion is 
thankful for the ability to review and provide feedback on this 
proposed bill.
    In short, we support the draft bill but recommend the 
following changes: require commanding officers to attend TAP so 
they can understand what the program offers to their troops; 
require DOD to report data to Congress on troops who have 
completed TAP, broken down into useful information to enhance 
the program; and, finally, eliminate the postsecondary 
education assessment. This program needs significant 
participation before it can yield helpful results.
    In terms of VA staffing, The American Legion, along with 
Members of this Committee, continues to highlight the shortages 
of more than 30,000 jobs within VHA. Filling these vacancies 
with qualified professionals is a priority for The American 
Legion, the 9 million veterans using VA, and future veterans. 
This legislation will allow physicians to complete their 
education, then immediately begin treating veterans in the VA 
system. The VA Hiring Enhancement Act aligns the hiring 
practices of VA to those of the private sector, ensuring top-
quality health care is provided to our veterans. We encourage 
you to support this initiative.
    I conclude by thanking this Committee and you, Chairman 
Isakson, for holding the confirmation hearing, ensuring the 
full Senate to vote, and giving veterans of our Nation a 
Secretary of Veterans Affairs. The Department was without 
Senate-confirmed leadership for 124 days. The American Legion 
stands ready to assist Secretary Wilkie in doing what is best 
for veterans.
    We thank Chairman Isakson and Ranking Member Tester for 
their incredible leadership and for always keeping veterans at 
the core of their mission. It is my privilege to represent The 
American Legion before this Committee. I look forward to 
answering any questions you have. Thank you.
    [The prepared statement of Mr. Nuntavong follows:]
  Prepared Statement of Chanin Nuntavong, Director, National Veterans 
         Affairs & Rehabilitation Division, The American Legion
   h.r. 299; s. 3184; h.r. 5418; s. 1596; s. 2881; s. 1952; s. 1990; 
      s. 2485; s. 2748; s. 514; and all subsequential draft bills
    Chairman Isakson, Ranking Member Tester, and distinguished Members 
of the Committee; On behalf of National Commander Denise H. Rohan, and 
the 2 million members of The American Legion, we thank you for this 
opportunity to testify regarding The American Legion's positions on 
pending legislation. Established in 1919, and being the largest 
veterans service organization in the United States with a myriad of 
programs supporting veterans, we appreciate the Committee focusing on 
these critical issues that will affect veterans and their families.
                                h.r. 299
To amend title 38, United States Code, to clarify presumptions relating 
        to the exposure of certain veterans who served in the vicinity 
        of the Republic of Vietnam, and for other purposes.
    Veterans who served on open sea ships off the shore of Vietnam 
during the Vietnam War are called ``Blue Water Veterans.'' Currently, 
Blue Water Veterans must have physically set foot on the land of 
Vietnam or served on its inland waterways between January 9, 1962 and 
May 7, 1975 to be presumed to have been exposed to herbicides when 
claiming service-connection for diseases related to Agent Orange 
exposure.
    Blue Water Veterans who did not set foot in Vietnam or serve aboard 
ships that operated on the inland waterways of Vietnam must show, on a 
factual basis, that they were exposed to herbicides during military 
service in order to receive disability compensation for diseases 
related to Agent Orange exposure. These claims are decided on a case-
by-case basis.
    We are aware the Department of Veteran Affairs (VA) previously 
asked the National Academy of Sciences' Institute of Medicine (IOM) to 
review the medical and scientific evidence regarding Blue Water 
Veterans' possible exposure to Agent Orange and other herbicides. IOM's 
report, ``Blue Water Navy Vietnam Veterans and Agent Orange Exposure'' 
was released in May 2011. The report concluded that ``there was not 
enough information for the IOM to determine whether Blue Water Navy 
personnel were or were not exposed to Agent Orange.''
    However, Vietnam veterans who served on the open sea now have 
health problems commonly associated with herbicide exposure. Just as 
those who served on land were afforded the presumption because it would 
have placed an impossible burden on them to prove exposure, Congress 
should understand the injustice of placing the same burden on those who 
served offshore. Clearly, all the toxic wind-blown, waterborne, and 
contamination transfer stemming from aircraft, vehicle, and troop 
transfer makes it impossible to conclude that Agent Orange-dioxin 
stopped at the coastline.
    Through Resolution No. 246: Blue Water Navy Vietnam Veterans, The 
American Legion supports legislation to expand the presumption of Agent 
Orange exposure to any military personnel who served on any vessel 
during the Vietnam War that came within 12 nautical miles of the 
coastlines of Vietnam.\1\
---------------------------------------------------------------------------
    \1\ American Legion Resolution No. 246 (Sept. 2016): Blue Water 
Navy Vietnam Veterans
---------------------------------------------------------------------------

The American Legion supports H.R. 299.

      draft bill: veterans dental care eligibility expansion and 
                        enhancement act of 2018
To improve dental care provided to veterans by the Department of 
        Veterans Affairs, and for other purposes.
    The American Legion's System Worth Saving program routinely 
conducts town hall meetings allowing veterans to share their Department 
of Veteran Affairs (VA) healthcare experiences. In addition to hosting 
town hall meetings, The American Legion frequently receives letters and 
telephone calls from veterans expressing concerns about VA dental 
benefit eligibility. Under VA's current eligibility for dental care, 
the majority of veterans treated by VA do not qualify. Generally, 
veterans who suffer from poor dental hygiene are not eligible for basic 
dental care through the VA. These veterans are often not able to afford 
the high cost associated with dental care, especially veterans who live 
on a fixed income.
    Further, the average age of a veteran in the United States is 
currently 58 years old; and The American Legion is concerned the demand 
for dental care will increase as the population ages.\2\ In addition to 
obvious ailments associated with oral care, dental care is a vital 
aspect of general healthcare. Diabetes \3\ and Alzheimer's,\4\ 
conditions commonly associated with veterans, have been linked to poor 
oral health. The need to take care of our Nation's veterans dental 
needs should be apparent and a priority.
---------------------------------------------------------------------------
    \2\ Veterans Average Age: https://www.va.gov/VETDATA/docs/
SurveysAndStudies/VETPOP.pdf
    \3\ Prevalence of and Trends in Diabetes Among Veterans, United 
States, 2005-2014: available at https://www.ncbi.nlm.nih.gov/pmc/
articles/PMC5737977/
    \4\ Veterans and Alzheimers: Meeting the Crisis Head on: available 
at https://www. usagainstalzheimers.org/sites/default/files/
USA2_Veterans_Issue_Brief_April_10_2018.pdf
---------------------------------------------------------------------------
    The Veterans Dental Care Eligibility Expansion and Enhancement Act 
of 2018 is a comprehensive plan to provide needed dental care to 
veterans. This legislation, in addition to expanding needed dental 
services to veterans includes: carrying out pilot programs; acquiring 
new dental facilities; and hiring additional dental healthcare 
providers.
    Section 2 would provide discretionary authority to the Secretary to 
furnish restorative dental services to a veteran, as well as replace 
lost appliances and restore function loss suffered as a result of 
services or treatment furnished by the VA.
    Section 3 would require the Secretary to carry out a pilot program 
to assess the feasibility and advisability of furnishing dental 
services and treatment to all veterans enrolled in the VA healthcare 
system, even those not currently receiving dental healthcare.
    Section 5 would require the Secretary to carry out a program of 
education to promote dental health for veterans who are enrolled in VA 
healthcare system.
    The potential benefits to the veteran community from these expanded 
services is self-evident. The American Legion supports these sections 
through Resolution No. 377: Support for Veteran Quality of Life \5\ and 
No. 186: Department of Veterans Affairs Dental Care.\6\ The American 
Legion believes veterans should have access to timely and quality 
dental care and will support legislation to provide outpatient dental 
care to veterans. We also support legislation or programs within the VA 
that will enhance, promote, restore, or preserve benefits for veterans 
and their dependents with timely access to quality VA healthcare and 
receipt of earned benefits.
---------------------------------------------------------------------------
    \5\ The American Legion Resolution No. 377 (2016): Support for 
Veteran Quality of Life
    \6\ The American Legion Resolution No. 186 (2016): Department of 
Veterans Affairs Dental Care
---------------------------------------------------------------------------
    In addition to expanding services, this draft bill is likely to 
improve the access and quality of care received by veterans through 
sections 4 and 7. These sections have the ability to greatly expand 
access to dental healthcare to veterans. Section 4 of the act would 
require the Secretary to construct or lease a VA dental clinic in any 
State that does not have a VA facility offering onsite dental services. 
Additionally, section 7 provides discretionary authority for the 
Secretary of VA to carry out a demonstration program to train and 
employ alternative dental healthcare providers in rural areas. These 
sections would provide dental healthcare where none currently exists 
and provide healthcare professionals that are not currently available.
    Similarly increasing flexibility and access for veterans receiving 
dental care through VA, section 6 requires VA to expand the VA Dental 
Insurance Program (VADIP) Electronic Health Record capabilities. 
Section 6 would establish a mechanism by which private sector dental 
care providers could forward the VA information on dental care provided 
to individuals under the pilot program for inclusion in the VA's 
electronic medical records. Increased access to medical information 
ultimately translates into better care for veterans.
    Through our Support for Veteran Quality of Life resolution, we 
support enhancing service to veterans by creating services for veterans 
not currently being provided vital health services. The American Legion 
has also long recommended VA's electronic medical records be revised to 
read DOD's electronic health records. Similarly, The American Legion 
believes ensuring VA has the ability to share electronic health records 
with private sector dental care providers is common sense and should be 
a priority for the VA. The American Legion through Resolution No. 83: 
Virtual Lifetime Electronic Record, supports any legislation that would 
allow the electronic sharing of medical record information.\7\
---------------------------------------------------------------------------
    \7\ The American Legion Resolution No. 83 (2016): Virtual Lifetime 
Electronic Record
---------------------------------------------------------------------------

The American Legion supports this Draft Bill.

                                s. 3184
To amend title 38, United States Code, to modify the requirements for 
        applications for construction of State home facilities to 
        increase the maximum percentage of nonveterans allowed to be 
        treated at such facilities, and for other purposes.
    The provisions of this bill fall outside the scope of established 
resolutions of The American Legion. As a large, grassroots 
organization, The American Legion takes positions on legislation based 
on resolutions passed by the membership or in meetings of the National 
Executive Committee. With no resolutions addressing the provisions of 
the legislation, The American Legion is researching the material and 
working with our membership to determine the course of action which 
best serves veterans.

The American Legion has no current position on S. 3184.

          discussion draft bill: transition assistance program
To amend title 10, United States Code, to improve the Transition 
        Assistance Program for members of the Armed Forces, and for 
        other purposes.
    The American Legion supports Congress' continued attention and 
efforts in ensuring that Federal agencies and their valued partners 
properly identify and implement necessary changes/improvements to the 
Transition Assistance Program (TAP). We understand that in order for a 
servicemember to transition seamlessly, and successfully, it requires 
the collaboration between all agencies including Department of Defense 
(DOD), Department of Labor (DOL), Department of Veteran Affairs (VA), 
etc., along with congressional oversight. The key is to combine the 
talents, expertise, and innovations of Veterans Service Organizations, 
non-governmental organizations, and private sector organizations in 
bringing solutions forward to champion initiatives with the Federal 
Government for the purpose of improving opportunities of transitioning 
servicemembers.
    Improving employment opportunities for transitioning servicemembers 
includes introducing both service delivery, business process, and 
technology innovations in support of TAP and credentialing of 
servicemembers. Further, this includes examining all aspects of TAP and 
credentialing from resume writing, financial planning, goal setting, 
job search, interviewing, networking, peer-to-peer support, family 
transition support, higher education, individual career development 
plans, entrepreneurship, VA benefits, and other elements of holistic 
support of veterans ``for life'' and transitioning servicemembers. 
Finally, Congress holding all stakeholders accountable is vital; from 
garrison commanders and Federal officials to partnering organizations, 
there must be metrics regarding efficiency and effectiveness in TAP 
with capable managers implementing policy. The primary objective must 
always be to provide a seamless transition from military service to the 
private sector for our Nation's warfighters leaving the Armed Forces, 
along with their families.
            Sec. 2. Recodification, consolidation, and improvement of 
                    certain transition-related counseling and 
                    assistance authorities.
    TAP is now mandated for all servicemembers and optional for their 
spouses. TAP is presently five-days long with optional two-day classes. 
The Department of Labor and Veterans' Employment and Training Service 
(DOL-VETS) portion, which is three-days long, is responsible for most 
of the information in TAP. Despite the appearance of TAP being widely 
accessible there are still some concerns. First, according to the 
Government Accountability Office report, Transitioning Veterans, less 
than 15 percent of transitioning servicemembers have attended the two-
day classes.\8\ Second, TAP provides a tremendous amount information 
that at times can be extremely intricate and overwhelming in a 
stressful time for transitioning servicemembers.
---------------------------------------------------------------------------
    \8\ Government Accountability Office: Transitioning Veterans 
https://www.gao.gov/assets/690/688203.pdf
---------------------------------------------------------------------------
    To help alleviate these two issues, The American Legion first 
recommends that TAP be mandated for servicemembers at different 
intervals of their careers prior to separation or transitioning into 
the civilian sector along with pre-counseling for those servicemembers 
intending to leave military service. Second, we stress the importance 
of the continued evaluation and revamping of TAP to ensure 
transitioning servicemembers are up-to-date on new trends in the 
civilian marketplace. Last, we look to lead by example, by offering The 
American Legion Job Fairs and other related activities with TAP 
personnel in order for them to promote and publicize these activities 
that may benefit transitioning servicemembers.
    Through American Legion Resolution No. 70: Improve Transition 
Assistance Program, we recommend that the DOD expand and standardize 
their existing pre-separation counseling policies to ensure that 
separating servicemembers receive information regarding Federal and 
private sector employment opportunities, GI Bill, and vocational 
rehabilitation and employment programs.\9\
---------------------------------------------------------------------------
    \9\ The American Legion Resolution No. 70 (2016): Improve 
Transition Assistance
---------------------------------------------------------------------------

The American Legion supports Section 2.

            Sec. 3. Personnel matters in connection with Transition 
                    Assistance Program.
    Section 3 adds full-time personnel to the TAP program with real 
world experience in making the transition to civilian life.
    The American Legion believes adding full-time personnel, with 
experience transitioning to the civilian workforce, to the DOD for the 
purposes of TAP counseling is constructive for transitioning 
servicemembers on their own quest to obtain gainful employment. DOD 
personnel with relevant experience in the civilian workforce will 
provide the necessary information for servicemembers and their spouses 
to make quality decisions on careers, education, and training. TAP is 
vital to assisting servicemembers in mapping out employment 
opportunities and benefits through their honorable military service.
    Through American Legion Resolution No. 70: Improve Transition 
Assistance Program, we recommend that the DOD expand and standardize 
their existing pre-separation counseling policies to ensure that 
separating servicemembers receive information regarding Federal and 
private sector employment opportunities, GI Bill, and vocational 
rehabilitation and employment programs.\10\
---------------------------------------------------------------------------
    \10\ The American Legion Resolution No. 70 (2016): Improve 
Transition Assistance
---------------------------------------------------------------------------

The American Legion supports Section 3.

            Sec. 4. Tracking of participation in Transition Assistance 
                    Program and related programs.
    Section 4 requires the Secretary of Defense to establish and 
maintain an electronic tracking system and database applicable across 
the Armed Forces.
    The American Legion believes an electronic data system and database 
would be useful in determining participation, access, progress, and 
overall performance of TAP. This database may be utilized by Federal 
agencies to improve, adapt, or change the information shared with 
servicemembers. We believe this section supports The American Legion's 
goal for transitioning servicemembers to view TAP as a high quality, 
engaging, and relevant experience, which leads to opportunities in the 
civilian sector.
    Through American Legion Resolution No. 70: Improve Transition 
Assistance Program, we recommend that the DOD expand and standardize 
their existing pre-separation counseling policies to ensure that 
separating servicemembers receive information regarding Federal and 
private sector employment opportunities, GI Bill, and vocational 
rehabilitation and employment programs.\11\
---------------------------------------------------------------------------
    \11\ The American Legion Resolution No. 70 (2016): Improve 
Transition Assistance
---------------------------------------------------------------------------

The American Legion supports Section 4.

            Sec. 5. Information on members of the Armed Forces 
                    participating in pre-separation counseling and 
                    surveys on member experiences with Transition 
                    Assistance Program counseling and services and in 
                    transition to civilian life.
    Section 5 requires the collection of basic information from 
transitioning servicemembers.
    The American Legion believes the accumulation of data for 
transitioning servicemembers is critical in properly evaluating the 
different needs of this community. For example, National Guardsmen and 
Reservists have unique challenges differing from those servicemembers 
transitioning from active duty. Other variables of transitioning 
servicemembers include rank, age, marital status, dependents, and time 
in service.
    Additionally, we would implore Congress to require DOD to submit a 
report of servicemembers who have attended TAP, broken down in three 
areas: 1) those attending TAP counseling under their chosen track; 2) 
those attending the other two optional tracks; and 3) those who have 
not attended TAP counseling. The American Legion supports legislation 
that requires conducting an independent assessment of the effectiveness 
of TAP. The purpose of this assessment would be to ensure that 
transitioning servicemembers are receiving the right skills and 
training needed to complete a seamless transition from the military to 
the private sector. The need for verifiable outcomes will aid in 
allocating resources to the appropriate areas of TAP.
    Through American Legion Resolution No. 12: Accountability and 
Enhancements of Transition Assistance Program; Outcomes and Delivery 
for Today's Digital Transitioning Servicemembers, we urge Congress to 
mandate Federal agencies to conduct a survey and assessment of the 
efficacy and efficiency of delivering ``for life'' support to veterans 
and transitioning servicemembers in the digital era; innovations 
responsive to the digital age warrior and digital era employer in the 
TAP.\12\
---------------------------------------------------------------------------
    \12\ The American Legion Resolution No. 12 (2018): Accountability 
and Enhancements of Transition Assistance Program; Outcomes and 
Delivery for Today's Digital Transitioning Servicemembers
---------------------------------------------------------------------------

The American Legion supports Section 5 with amendments.

            Sec. 6. E-mailing transition assistance materials to 
                    supporters of members of the Armed Forces 
                    transitioning to civilian life.
    Section 6 requires the DOD to solicit, from each member of the 
Armed Forces transitioning from military life to civilian life, an e-
mail address of a supporter of the departing member to whom they can 
send transition assistance materials.
    Transitioning from military life to civilian life can be a 
stressful time for servicemembers; therefore, it is encouraged that 
servicemembers have a support system. In most cases, servicemembers are 
encouraged to bring their spouses to TAP; however, this may not always 
be feasible. The American Legion believes emailing transition 
assistance materials to servicemembers and their spouses (or caregiver) 
can be the missing link that would assist servicemembers in attaining 
gainful employment and financial stability.
    Through American Legion Resolution No. 12: Accountability and 
Enhancements of Transition Assistance Program; Outcomes and Delivery 
for Today's Digital Transitioning Servicemembers, we urge Congress to 
mandate Federal agencies to conduct a survey and assessment of the 
efficacy and efficiency of delivering ``for life'' support to veterans 
and transitioning servicemembers in the digital era; innovations 
responsive to the digital age warrior and digital era employer in the 
TAP.\13\
---------------------------------------------------------------------------
    \13\ The American Legion Resolution No. 12 (2018): Accountability 
and Enhancements of Transition Assistance Program; Outcomes and 
Delivery for Today's Digital Transitioning Servicemembers
---------------------------------------------------------------------------

The American Legion supports Section 6.

            Sec. 7. Command matters in connection with transition 
                    assistance programs.
    Section 7 requires each command climate assessment to include 
information about TAP participation.
    The American Legion believes the importance of the Transition 
Assistance Program cannot be overstated. Not only is it essential that 
commands ensure all servicemembers are given the opportunity to attend 
TAP, but it is also vital that servicemembers are authorized the 
appropriate time to participate, at minimum, in one of the optional 
tracks in the allotted time specified. In the event that a 
servicemember is unable to attend TAP due to unforeseen reasons deemed 
mission critical, both the Commander and servicemember would need to 
submit in writing with justification as to why the servicemember was 
unable to attend TAP. Further, The American Legion, recommends 
commanding officers be mandated to attend a condensed version of TAP as 
a requirement to assuming command at least once every three years.
    Through American Legion Resolution No. 70: Improve Transition 
Assistance Program, we recommend that the DOD expand and standardize 
their existing pre-separation counseling policies to ensure that 
separating servicemembers receive information regarding Federal and 
private sector employment opportunities, GI Bill, and vocational 
rehabilitation and employment programs.\14\
---------------------------------------------------------------------------
    \14\ The American Legion Resolution No. 70 (2016): Improve 
Transition Assistance
---------------------------------------------------------------------------

The American Legion supports Section 7 with amendments.

            Sec. 8. Comptroller General of the United States report on 
                    participation in transition assistance programs at 
                    small and remote military installations.
    Section 8 requires the Comptroller General of the United States to 
submit a report on the participation in covered transition assistance 
programs of members of the Armed Forces assigned to small military 
installations and remote military installations.
    All transitioning servicemembers should attend TAP without regard 
to command size or remoteness. According to the Transition Assistance 
Program Lead, there are 206 installations DOD-wide that conduct 
TAP.\15\ The American Legion recommends that Commanders ensure that 
transitioning servicemembers be given temporary duty orders to the 
nearest military installation that offers TAP.
---------------------------------------------------------------------------
    \15\ The American Legion Resolution No. 12 (2016): Transition 
Assistance Program Employment Workshops for National Guard and Reserve 
Members
---------------------------------------------------------------------------
    Through American Legion Resolution No. 81: Transition Assistance 
Program Employment Workshops for National Guard and Reserve Members, we 
support legislation that will provide every member of the Armed Forces 
(including those in the National Guard and Reserves) who are activated 
for 12 months or longer, an adequate amount of time to attend the TAP 
workshop in entirety, within 90 days of separation.\16\

The American Legion supports Section 8.

            Sec. 9. Education of members of the Armed Forces on career 
                    readiness and professional development.
    This section requires the DOD to carry out a program to provide 
education on career readiness and professional development.
    The American Legion believes experience differences between 
separating servicemembers should be considered during their pre-
separation counseling. There are notable differences between a 
transitioning servicemember who served one enlistment in contrast to 
one who is retiring after 20-plus years of service. Similarly, we 
recognize servicemembers who are being separated for medical reasons 
and/or other unexpected reasons may present different issues. 
Therefore, The American Legion believes pre-separation counseling 
should begin at the time of their first and subsequent duty stations 
with follow-on counseling conducted at different intervals of military 
careers.
    Through American Legion Resolution No. 70: Improve Transition 
Assistance Program, we recommend that the DOD expand and standardize 
their existing pre-separation counseling policies to ensure that 
separating servicemembers receive information regarding Federal and 
private sector employment opportunities, GI Bill, and vocational 
rehabilitation and employment programs.\17\
---------------------------------------------------------------------------
    \17\ The American Legion Resolution No. 70 (2016): Improve 
Transition Assistance
---------------------------------------------------------------------------

The American Legion supports Section 9.

            Sec. 10. Employment skills training--by amending striking 
                    ``The Secretary of a military department may'' and 
                    inserting ``The Secretary of Defense shall.'' 
                    Expansion of Eligible Participants, such as a 
                    spouse of a member of the Armed Forces.
    Section 10 states the DOD should now be responsible for ensuring 
that priority service training is provided to ``covered individuals'' 
and not just ``eligible members'' which includes spouses.
    In a recent Chamber of Commerce survey over 44% of military spouses 
reported that they are living paycheck to paycheck or struggling 
financially, with 80% reporting that the employment search process 
created stress between them and their active duty spouses. The anxiety 
that this induces in families already struggling with the challenges of 
potential deployments and family responsibilities presents a clear 
threat to military readiness.
    The American Legion supports legislation that will afford spouses 
the same level of job training and employment skills training that 
would otherwise have be given to only eligible members only. Spouses of 
an active-duty member are considered a ``dislocated worker'' and should 
be afforded the opportunity to receive priority service within the DOL, 
just as their military spouse.
    Through American Legion Resolution No. 70: Improve Transition 
Assistance Program, we recommend that the DOD expand and standardize 
their existing pre-separation counseling policies to ensure that 
separating servicemembers receive information regarding Federal and 
private sector employment opportunities, GI Bill, and vocational 
rehabilitation and employment programs.\18\
---------------------------------------------------------------------------
    \18\ The American Legion Resolution No. 70 (2016): Improve 
Transition Assistance
---------------------------------------------------------------------------

The American Legion supports Section 10.

            Sec. 11. Identification of opportunities for Job training 
                    and employment skills training for employment with 
                    the Department of Veterans Affairs in SkillBridge 
                    programs of the Department of Defense.
    Section 11 requires the Secretaries of the military departments to 
identify opportunities where the VA can provide training.
    Since 2014, the DOD's ``Skillbridge Initiative'' has authorized 
transitioning servicemembers to participate in employer-driven job 
skills training, apprenticeships and internships that provide industry-
recognized skills needed to move into high-demand jobs and careers. 
Since its inception, more than 5,500 servicemembers have graduated from 
135 Skillbridge-authorized programs according to an August 2017 DOD 
report to Congress.\19\ VA has utilized this authority to launch the 
``Warrior Training Advancement Course (WARTAC),'' which trains 
transitioning servicemembers to become a Veterans Service 
Representatives (VSRs) at the VA.
---------------------------------------------------------------------------
    \19\ Report on job training, employment skills training, 
apprenticeships, and internships & skillbridge initiatives for members 
of the Armed Forces who are being separated
---------------------------------------------------------------------------
    The American Legion is encouraged by the success of the WARTAC 
program. Additionally, The American Legion believes that transitioning 
servicemembers can serve the VA in a myriad of capacities beyond 
processing veterans' claims. This section will mandate that the VA 
learn from the success of this inaugural program, and identify further 
internal employment needs that can be fulfilled utilizing DOD's 
Skillbridge authority.
    Through American Legion Resolution No. 79: Expanding Department of 
Veterans Affairs Employment Pathways, we support innovative retention 
practices that provide education and training incentives for VA veteran 
employees to achieve credentials and licenses to fill critical 
vacancies.\20\
---------------------------------------------------------------------------
    \20\ The American Legion Resolution No. 79 (2017): Expanding 
Department of Veterans Affairs Employment Pathways
---------------------------------------------------------------------------

The American Legion supports Section 11.

            Sec. 12. Evaluation of transition training and counseling 
                    relating to postsecondary education and use of 
                    educational assistance from the Department of 
                    Defense and Department of Veterans Affairs.
    Section 12 would establish standardized assessment criterion for 
evaluating the quality of training and counseling provided through TAP 
that has a focus on postsecondary education or the use of VA 
educational assistance programs.
    While The American Legion applauds efforts to increase quality 
assurance of education training, existing information on TAP education 
module participation indicates that significant restructuring is needed 
before proper evaluation can be applied. A 2017 Government 
Accountability Office study found that only 10.5 percent of all 
transitioning servicemembers receive any additional training on higher 
education.\21\ This level of participation suggests the central 
structure of the two-day `Accessing Higher Education' module has proven 
inimical to widespread adaptation. Before focusing on assessing the 
quality of the existing TAP education syllabus, The American Legion 
urges that its contents be reorganized to increase participation.
---------------------------------------------------------------------------
    \21\ https://www.gao.gov/assets/690/688203.pdf
---------------------------------------------------------------------------
    Through American Legion Resolution No. 12: Accountability and 
Enhancements of Transition Assistance Program; Outcomes and Delivery 
for Today's Digital Transitioning Servicemembers, we urge Congress to 
mandate Federal agencies to conduct a survey and assessment of the 
efficacy and efficiency of delivering ``for life'' support to veterans 
and transitioning servicemembers in the digital era; innovations 
responsive to the digital age warrior and digital era employer in the 
TAP.\22\
---------------------------------------------------------------------------
    \22\ The American Legion Resolution No. 12 (2018): Accountability 
and Enhancements of Transition Assistance Program; Outcomes and 
Delivery for Today's Digital Transitioning Servicemembers
---------------------------------------------------------------------------

The American Legion opposes Section 12.

            Sec. 13. Longitudinal Study on changes to Transition 
                    Assistance Program of Department of Defense.
    Section 13 requires the secretaries of VA, DOL, and DOD along with 
the Small Business Administration Administrator to conduct a five-year 
study on TAP.
    The American Legion believes the longitudinal study for the several 
different components would be valuable for the overall performance of 
TAP. This study would identify specific developments or changes in the 
characteristics of transitioning servicemembers. Further, the research 
should drive the design of TAP, while providing confidence in 
servicemembers as they transition into the civilian workforce.
    Through American Legion Resolution No. 12: Accountability and 
Enhancements of Transition Assistance Program; Outcomes and Delivery 
for Today's Digital Transitioning Servicemembers, we urge Congress to 
mandate Federal agencies to conduct a survey and assessment of the 
efficacy and efficiency of delivering ``for life'' support to veterans 
and transitioning servicemembers in the digital era; innovations 
responsive to the digital age warrior and digital era employer in the 
TAP.\23\
---------------------------------------------------------------------------
    \23\ The American Legion Resolution No. 12 (2018): Accountability 
and Enhancements of Transition Assistance Program; Outcomes and 
Delivery for Today's Digital Transitioning Servicemembers
---------------------------------------------------------------------------

The American Legion supports Section 13.

            Sec. 14. Establishment of Governing Board to Support 
                    Prevention of Drug Overdoses, Death by Suicide, and 
                    Alcohol-Related Mortality.
    Section 14 directs VA to establish a governing board to support 
VA's efforts to prevent suicide. The bill directs the board to exchange 
information and investigate impacts of financial insecurity, 
homelessness, and substance abuse contribute to suicide.
    In 2015, The American Legion supported H.R. 271: The COVER Act, 
also known as the Jason Simcakowski PROMISE Act, which established a 
commission to examine the evidence-based therapy treatment model used 
by the Secretary of Veterans Affairs for treating mental illnesses of 
veterans and the potential benefits of incorporating complementary 
alternative treatments available in non-VA medical facilities.
    Through American Legion Resolution No. 377: Support for Veteran 
Quality of Life, The American Legion urges Congress and the VA to enact 
legislation and programs within the VA that will enhance, promote, 
restore or preserve benefits for veterans and their dependents.\24\
---------------------------------------------------------------------------
    \24\ The American Legion Resolution No. 377 (2016): Support for 
Veteran Quality of Life
---------------------------------------------------------------------------

The American Legion supports Section 14.

            Sec. 15. Review of economic risk factors in suicide 
                    prevention.
    Section 15 calls for two reports to be developed within 90 days of 
this bill becoming law. The first report would include how economic 
risk factors affect suicide prevention efforts. The second report topic 
is about the predictive analytics program Recovery Engagement and 
Coordination for Health--Veterans Enhanced Treatment (REACHVET) that 
utilizes economic risk factors in its algorithm to determine 
suicidality.
    Through American Legion Resolution No. 132: Request Congress 
Provide the Department of Veterans Affairs Adequate Funding for Medical 
and Prosthetic Research, The American Legion urges Congress and the 
Administration to encourage acceleration in the development and 
initiation of needed research on conditions that significantly affect 
veterans, as we firmly believe more research should be conducted on 
this very critical topic.\25\
---------------------------------------------------------------------------
    \25\ The American Legion Resolution No. 132 (2016): Request 
Congress Provide the Department of Veterans Affairs Adequate Funding 
for Medical and Prosthetic Research
---------------------------------------------------------------------------

The American Legion supports Section 15.

            Sec. 16. Grants for provisions of Transition Assistance to 
                    members of the Armed Forces after separation, 
                    retirement, or discharge.
    Section 16 requires DOL, in consultation with VA, to award grants 
to eligible organizations for TAP that include services like legal aid 
and financial services.
    The American Legion supports DOL and VA awarding grants to 
organizations assisting in transition services to servicemembers and 
veterans. In our daily work with veterans, we find many of them having 
difficulties with writing resumes, interview skills and job searches. 
In addition, servicemembers need help with financial literacy and legal 
assistance. These grants would fill a need as servicemembers determine 
their next steps and career goals. We understand the value of these 
programs. In 2018, The American Legion has conducted more than 50 
hiring events, resume, interview workshops, education seminars, and 
small business development workshops. We've witnessed the positive 
impact of these activities on transitioning servicemembers and veterans 
in finding and maintaining suitable employment.
    Through American Legion Resolution No. 70: Improve Transition 
Assistance Program, we recommend that the DOD expand and standardize 
their existing pre-separation counseling policies to ensure that 
separating servicemembers receive information regarding Federal and 
private sector employment opportunities, GI Bill, and vocational 
rehabilitation and employment programs.\26\
---------------------------------------------------------------------------
    \26\ The American Legion Resolution No. 70 (2016): Improve 
Transition Assistance
---------------------------------------------------------------------------

The American Legion supports Section 16.

The American Legion supports this Draft Bill with the noted amendments 
and improvements.

                 draft bill: va hiring enhancement act
To amend title 38, United States Code, to provide for the non-
        applicability of non-Department of Veterans Affairs covenants 
        not to compete to the appointment of physicians in the Veterans 
        Health Administration, and for other purposes.
    The American Legion has long expressed concern about staffing 
shortages at Department of Veteran Affairs (VA) and the Veterans Health 
Administration (VHA) medical facilities to include physicians and 
medical specialist staffing.
    The VA Hiring Enhancement Act will help address the shortcomings in 
recruitment and retention of highly qualified physicians. The bill 
allows VA to make binding job offers up to two years prior to 
completion of medical residency, eliminating much of the bureaucratic 
red tape that slows the hiring of newly recruited individuals. This 
legislation allows physicians to complete their education then 
immediately begin treating veterans. By allowing VA to make binding 
offers, veterans will receive treatment by qualified physicians that 
have completed their medical residency. This bill aligns the hiring 
practices of VA to those of the private sector ensuring top quality 
healthcare is provided to our veterans.
    Further, this common-sense bill also releases physicians from 
``non-compete agreements'' for the purpose of serving in the VHA. The 
American Legion believes enforcing non-compete agreements to VHA hires 
is overbroad and should be unenforceable under public policy. 
Traditional reasoning behind non-compete agreements is to bar 
competitive advantages or protect sensitive information, both of which 
simply do not exist in this context.
    Through American Legion Resolution No. 115, Department of Veterans 
Affairs Recruitment and Retention, we support legislation addressing 
the recruitment and retention challenges of the VA.\27\
---------------------------------------------------------------------------
    \27\ The American Legion Resolution No. 115 (2016): Department of 
Veterans Affairs Recruitment and Retention
---------------------------------------------------------------------------

The American Legion supports this Draft Bill.

                               h.r. 5418
To direct the Secretary of Veterans Affairs to carry out the Medical 
        Surgical Prime Vendor program using multiple prime vendors.
    In terms of contracting, private sector hospitals use multiple 
Group Purchasing Organizations (GPOs) who bid down the price of 
manufactured medical equipment. This practice forces the GPOs to 
compete among themselves, yielding the lowest possible prices, which 
benefits hospitals and the general market place. In summary, 
competition drives down prices.
    Utilizing Medical Surgical Prime Vendor (MSPV) Gen2, VA has 
proposed using only one large single vendor as opposed to the current 
model of using multiple vendors. When purchasing from only one vendor, 
prices may be inflated, simply because of the lack of competition. 
Ensuring there is competition, the VA, and the government as a whole, 
typically receives better pricing, which is ultimately a benefit to the 
U.S. taxpayer.
    The American Legion understands the simplification of utilizing 
only one vendor; however, this practice does not yield the best result 
for the veteran, agency, or the Federal Government. Using a singular 
vendor may be easier, but this procurement shortcut undermines the 
competitive system, and can result in VA overpaying for equipment, or 
not being able to obtain quality materials necessary to supply the 
largest medical network that treats veterans.
    In the current model that VA is employing, Service Disabled Veteran 
Owned Small Businesses (SDVOSBs), works with prime vendors, which not 
only assist and encourages veterans to work in this realm, but also 
allows for competition and to drives down costs. SDVOSBs add value to 
the procurement process by providing last mile delivery, customer care, 
and maintenance services for prime vendors.
    In short, The American Legion opposes the VA switching to a system 
that allows them to simply use one vendor, and urges Congress to force 
VA to allow for competitive bidding.
    Through American Legion Resolution No. 154, Support Reasonable Set-
Aside of Federal Procurements and Contracts for Businesses Owned and 
Operated by Veterans, we support reasonable set-asides of Federal 
procurements and contracts for businesses owned and operated by 
veterans. Allowing the VA to essentially encourage a monopoly on 
medical supplies and equipment is not only wrong, but it could also 
decrease SDVOSB participation, potentially harming the quality care 
that veterans receive at VA, all while overspending taxpayer 
funding.\28\
---------------------------------------------------------------------------
    \28\ The American Legion Resolution No. 154: Support Reasonable 
Set-Aside of Federal Procurements and Contracts for Businesses Owned 
and Operated by Veterans
---------------------------------------------------------------------------

The American Legion supports H.R. 5418.

                                s. 1596
To amend title 38, United States Code, to increase certain funeral 
        benefits for veterans, and for other purposes.
    The American Legion believes all veterans who have honorably served 
our Nation should be provided adequate funeral benefits and that those 
benefits should be indexed for inflation. It is our Nation's 
responsibility to ensure the families and loved ones of our veterans 
are financially supported in their time of mourning. Further, our 
membership has, by resolution, committed to support increases to burial 
allowances for veterans who have died as a result of service-connected 
conditions and that those benefits be tied to the Consumer Pricing 
Index.\29\
---------------------------------------------------------------------------
    \29\ The American Legion Resolution No. 181 (2016): National 
Cemetery Administration
---------------------------------------------------------------------------
    According to the National Funeral Directors Association, the 
national median cost of a funeral in 2017 was $8,508.\30\ Over the past 
decade, the median cost of an adult funeral in the United States has 
increased 28.6 percent and Department of Veterans Affairs (VA) benefits 
have not kept up with the pace of inflation.\31\ For instance, in 1973, 
the benefit for a veteran with no next-of-kin and a non-service-
connected death would have been 22 percent of the national average, 
versus the 2 percent it covers today.
---------------------------------------------------------------------------
    \30\ National Funeral Directors Association: Statistics http://
www.nfda.org/news/statistics
    \31\ National Funeral Directors Association: Statistics http://
www.nfda.org/news/statistics
---------------------------------------------------------------------------
    Currently, VA burial benefit provides: $300 for non-service-
connected deaths and for veterans who have passed without a next-of-
kin; $749 if a veteran passes away in a VA facility, and; $2,000 if a 
veteran passes away from a service-connected disability. The Burial 
Rights for America's Veterans' Efforts (BRAVE) Act would update the 
current funeral and burial benefit system to ensure all non-service-
connected deaths are treated equally, regardless of where the veteran 
passes away. Veterans with no next-of-kin that pass away in a VA 
facility are currently afforded greater funds to cover the costs of 
their funerals and burials than veterans who pass away in a private 
home or other facilities.
    The BRAVE Act will increase the $300 for non-service-connected 
deaths to $749 to equal the benefit received if a veteran passes away 
in a VA facility. The BRAVE Act additionally indexes for inflation both 
the non-service and service-connected passing funeral benefits, thereby 
eliminating the need for Congress to make further readjustments. The 
American Legion supports these provisions recognizing existing non-
service-connected and service-connected burial allowances benefits have 
been significantly eroded by inflation as they now only cover a small 
fraction of the actual cost of a burial.
    Additionally, The American Legion urges The BRAVE Act be amended to 
reflect the resolution passed by our membership, consisting solely of 
wartime veterans, to increase the burial allowance for service-
connected causes from the current $2,000 amount to $4,000. This will 
enhance the quality of life for veterans' survivors to increase the 
value of these benefits, especially during their greatest hour of need.
    Through American Legion Resolutions No. 181: National Cemetery 
Administration\32\ and No. 377: Support for Veteran Quality of Life, 
\33\ we support legislation increasing burial allowances and programs 
within the VA that will enhance, promote, restore or preserve benefits 
for veterans and their dependents.
---------------------------------------------------------------------------
    \32\ The American Legion Resolution No. 181 (2016): National 
Cemetery Administration
    \33\ The American Legion Resolution No. 377 (2016): Support for 
Veteran Quality of Life
---------------------------------------------------------------------------

The American Legion supports S. 1596 with the noted amendments and 
improvements.

                                s. 2881
To direct the Secretary of Veterans Affairs to seek to enter into an 
        agreement with the city of Vallejo, California, for the 
        transfer of Mare Island Naval Cemetery in Vallejo, California, 
        and for other purposes.
    The American Legion's 100-year history is integrally intertwined 
with endeavors to preserve the legacy of this Nation's servicemembers. 
With the creation of the Graves Registration and Memorial Affairs 
Committee in 1962 to the current National Cemetery Committee, The 
American Legion has maintained professional staff dedicated to 
formulate and recommend to our National Executive Committee, through 
the Veterans Affairs & Rehabilitation Commission, polices, plans and 
programs as they relate to the Department of Veterans Affairs (VA) 
national cemeteries, and the interment of veterans, servicemembers, and 
their dependents. The American Legion through its National Cemetery 
Committee believes that all veterans and their eligible dependents are 
entitled a final resting place to commemorate their service to the 
country to include perpetual care of the gravesite.
    Mare Island Naval Cemetery, the oldest military cemetery on the 
West Coast, was deeded to the city of Vallejo, California, under Base 
Realignment and Closure (BRAC) in 1996. Following BRAC, there was no 
mechanism to handle the financial responsibility for these hallowed 
grounds. Since then, the city of Vallejo has struggled financially and 
has not been able to provide for the maintenance and upkeep of the 
cemetery. Due to the lack of maintenance many of the headstones are 
broken, perimeter fences have collapsed, and the vegetation is 
overgrown. More than 800 military veterans who served our country, 
including three Medal of Honor recipients eternally rest in the 
cemetery. Now the lack of upkeep is presenting problems for proud 
veterans.
    S. 2881, directs the Secretary of Veterans Affairs to seek out an 
agreement with the city of Vallejo, under which the city would transfer 
control of the Mare Island Naval Cemetery to the VA. The cemetery would 
specifically be placed under the purview of the National Cemetery 
Administration (NCA). The VA would pay no fee to acquire the land, but 
would assume the obligation of maintaining the cemetery in the future. 
The American Legion has full confidence that the NCA with its proven 
track record of maintaining over 135 cemeteries nationwide, will bring 
dignity and respect to the veterans buried at Mare Island Naval 
Cemetery. NCA's mission is simple: to honor veterans and their families 
with final resting places in national shrines and with lasting tributes 
that commemorate their services and sacrifice to our Nation.
    Through American Legion Resolution No. 181, National Cemetery 
Administration, we support the establishment of additional national and 
state veterans cemeteries and columbaria wherever a need for them is 
apparent.\34\
---------------------------------------------------------------------------
    \34\ The American Legion Resolution No. 181 (2016): National 
Cemetery Administration
---------------------------------------------------------------------------

The American Legion supports S. 2881.

                                s. 1952
To improve oversight and accountability of the financial processes of 
        the Department of Veterans Affairs, and for other purposes.
    The provisions of this bill fall outside the scope of established 
resolutions of The American Legion. As a large, grassroots 
organization, The American Legion takes positions on legislation based 
on resolutions passed by the membership or in meetings of the National 
Executive Committee. With no resolutions addressing the provisions of 
the legislation, The American Legion is researching the material and 
working with our membership to determine the course of action which 
best serves veterans.

The American Legion has no current position on S. 1952.

                                s. 1990
To amend title 38, United States Code, to increase amounts payable by 
        the Department of Veterans Affairs for dependency and indemnity 
        compensation, to modify the requirements for dependency and 
        indemnity compensation for survivors of certain veterans rated 
        totally disabled at the time of death, and for other purposes.
    The Department of Veterans Affairs (VA) Death and Indemnity 
Compensation (DIC) Benefit supports surviving family members of 
servicemembers who died in the line of duty, Gold Star families, and 
survivors of disabled veterans who died from a service-connected 
condition. DIC is paid to the widows and widowers of service-connected 
disabled veterans who die as a result of their service-related 
condition or who at the time of death were rated 100% service-connected 
disabled for at least 10 years. Currently, survivors are denied any 
benefit if a veteran passes away before the arbitrary 10-year 
threshold.
    Unfortunately and unfairly, many veterans do not reach the 100% 
level until they are much older because their condition has worsened 
with time. They often pass away before they have received their 100% 
rating for the required length of time. In many of these instances the 
spouse has been the primary caregiver and companion for these disabled 
veterans throughout their lifetime and the VA compensation has been 
their primary means of support. Consequently, the surviving spouse can 
no longer count on VA benefits for assistance due to a 100% rating for 
less than 10 years. This causes a dramatic change in the quality of 
life of the surviving spouse.
    This detriment to their quality of life is something members of The 
American Legion recognized when we passed Resolution No. 255: Reducing 
Eligibility for Dependency Indemnity Compensation (DIC) Payments for 
100% Disabled Veterans from 10 Years to 5 Years.\35\ Through this 
resolution, we commit to sponsor and support legislation to reduce the 
number of years a veteran must be rated 100% from 10 years to 5 years 
for eligibility of DIC payments. Therefore, we support legislation 
reducing the eligibility requirement from 10 to 5 years, but OPPOSE the 
bill's pro-rated reduction of DIC benefits if the veteran was rated 
100% service-connected for a period less than 10 years. The American 
Legion would support a modified bill that reduces the eligibility 
requirements from 10 to 5 years, with NO reduction of benefits if the 
5-year requirement is met.
---------------------------------------------------------------------------
    \35\ The American Legion Resolution No. 255 (2016): Reducing 
Eligibility for Dependency Indemnity Compensation (DIC) Payments for 
100% Disabled Veterans from 10 Years to 5 Years
---------------------------------------------------------------------------

The American Legion supports S. 1990 with noted amendments and 
improvements.

                                s. 2485
To amend title 38, United States Code, to provide payment of Medal of 
        Honor special pension under such title to the surviving spouse 
        of a deceased Medal of Honor recipient, and for other purposes.
    The provisions of this bill fall outside the scope of established 
resolutions of The American Legion. As a large, grassroots 
organization, The American Legion takes positions on legislation based 
on resolutions passed by the membership or in meetings of the National 
Executive Committee. With no resolutions addressing the provisions of 
the legislation, The American Legion is researching the material and 
working with our membership to determine the course of action which 
best serves veterans.

The American Legion has no current position on S. 2485.

                                s. 2748
To amend title 10, United States Code, to require members of the Armed 
        Forces to receive additional training under the Transition 
        Assistance Program, and for other purposes.
    The Better Access to Technical Training, Learning, and 
Entrepreneurship Act (BATTLE Act) seeks to ensure that servicemembers 
who leave the military receive the specific training they need to 
successfully transition to civilian life, whether they choose to pursue 
higher education, a career in a technical field, or entrepreneurship.
    An average of 200,000 servicemembers transition into the private 
sector annually. The American Legion's National Veterans Employment and 
Education Division's mission is to assist with the reintegration of all 
veterans returning to civilian life after service in the Armed Forces, 
to include when necessary, initiating actions concerning all matters 
affecting the economic well-being of veterans. We understand the value 
of additional training because through our programs we conduct hiring 
events, resume workshops, interview workshops, education seminars, and 
small business development workshops. Additional training helps 
veterans find jobs.
    Under current law, the Department of Defense (DOD) is required to 
ensure that eligible departing servicemembers participate in the 
Transition Assistance Program (TAP). In response to this statutory 
requirement, DOD has published regulations and issued instructions that 
require eligible servicemembers to complete TAP and require commanding 
officers to make certain that servicemembers complete TAP. Beyond the 
mandatory curriculum, departing servicemembers have the option to 
participate in a specialized two-day workshop in one of the following 
areas: higher education, conducted by DOD; technical and skills 
training, conducted by the Department of Veterans Affairs; or, 
entrepreneurship, conducted by the Small Business Administration.
    While the core curriculum is mandatory (five days) for all 
servicemembers, the two-day workshops are less emphasized and 
therefore, sparsely attended. In a recent Government Accountability 
Office report, it was noted that less than 15 percent of transitioning 
servicemembers attend the two-day optional track for various 
reasons.\36\ This information can be vital for a seamless transition 
for a servicemember separating or retiring from the military. 
Therefore, The American Legion believes DOD's TAP should require 
servicemembers to choose one of the specific career-oriented tracks 
that best suit their post-service plans and require servicemembers take 
part in one-on-one counseling a year prior to separation to evaluate 
which transition pathway suits them best.
---------------------------------------------------------------------------
    \36\ Transitioning Veterans: DOD Needs to Improve Performance 
Reporting and Monitoring for the Transition Assistance Program GAO-18-
23: Published: Nov 8, 2017. Publicly Released: Nov 8, 2017. Available 
at https://www.gao.gov/products/GAO-18-23
---------------------------------------------------------------------------
    Through American Legion Resolution No. 70: Improve Transition 
Assistance Program, we recommend that the DOD expand and standardize 
their existing pre-separation counseling policies to ensure that 
separating servicemembers receive information regarding Federal and 
private sector employment opportunities, GI Bill, and vocational 
rehabilitation and employment programs.\37\
---------------------------------------------------------------------------
    \37\ The American Legion Resolution No. 70 (2016): Improve 
Transition Assistance
---------------------------------------------------------------------------

The American Legion supports S. 2748.

                     draft bill: suicide prevention
To require the Secretary of Veterans Affairs to establish a program to 
        award grants to persons to provide and coordinate the provision 
        of suicide prevention services for veterans transitioning from 
        service in the Armed Forces who are at risk of suicide and for 
        their families, and for other purposes.
    The provisions of this bill fall outside the scope of established 
resolutions of The American Legion. As a large, grassroots 
organization, The American Legion takes positions on legislation based 
on resolutions passed by the membership or in meetings of the National 
Executive Committee. With no resolutions addressing the provisions of 
the legislation, The American Legion is researching the material and 
working with our membership to determine the course of action which 
best serves veterans.

The American Legion has no current position on this Draft Bill.

  draft bill: modernization of medical records access for veterans act
To direct the Secretary of Veterans Affairs to carry out a pilot 
        program establishing a secure, patient-centered, and portable 
        medical records system that would allow veterans to have access 
        to their personal health information.
    The American Legion, through Resolution No. 83: Virtual Lifetime 
Electronic Record, has long endorsed and supported the Department of 
Veterans Affairs (VA) in creating a Lifetime Electronic Health Records 
(EHR) system.\38\ Additionally, The American Legion has encouraged both 
the Department of Defense (DOD) and the VA to either use the same EHR 
system, or, at the very least, systems that were interoperable.
---------------------------------------------------------------------------
    \38\ The American Legion Resolution No. 83 (2016): Virtual Lifetime 
Electronic Record
---------------------------------------------------------------------------
    In 2009, The American Legion was pleased when the Obama 
administration announced that the DOD and the VA would finally create a 
path to integrate the flow of patients' information between DOD's Armed 
Forces Health Longitudinal Technology Application (AHLTA) and VA's 
Veterans Information System and Technology Architecture (VistA) EHR 
platforms.
    In 2015, DOD announced that Cerner was awarded a $4.3 billion, 10-
year contract to overhaul the Pentagon's electronic health records for 
millions of active military members and retirees. However, around the 
same time, VA announced it would maintain and modernize VistA.
    On June 6, 2017, VA Secretary David Shulkin announced that the VA 
would adopt the same Cerner EHR system as the DOD during a news 
briefing at VA's headquarters in Washington, D.C.
    On May 18, 2018, Acting VA secretary Robert Wilkie announced that 
VA signed a 10-year contract with Cerner.
    This information sharing system will set the standard for record 
transferability and standardization in American medicine. This new 
national standard will increase patient access, decrease wait times, 
and enhance good medicine for all Americans, not just veterans. 
Congress should refrain from advancing any recommendation or 
legislation that does not directly support implementation of the VA EHR 
modernization effort.

The American Legion opposes this Draft Bill.

                                 s. 514
To direct the Secretary of Veterans Affairs to carry out a pilot 
        program to provide access to magnetic EEG/EKG-guided resonance 
        therapy to veterans.
    In the wake of serious concerns about over prescription of 
medications by Department of Veteran Affairs (VA) physicians, The 
American Legion believes that VA can do more to ensure veterans and 
servicemembers have the most dependable and precise treatment available 
to alleviate their combat-related illnesses and injuries with the least 
amount of negative side effects.
    We have previously testified on the Veterans Health Administration 
(VHA) implementation of a pilot program at approximately 23 VA medical 
centers across the country using Electromagnetic Therapy to treat 
veterans with depression. VHA is using Repetitive Transcranial Magnetic 
Stimulation (RTMS) therapy, which involves up to 30 sessions over a 
six-week period. Recently we learned that VHA's Repetitive Transcranial 
Magnetic Stimulation pilot program fell short in VA trials. The 
American Legion was hopeful the pilot program would conclude that this 
non-pharmaceutical noninvasive therapy would prove successful and 
provide VA with another tool to help deal with depression and Post 
Traumatic Stress Disorder (PTSD).
    The American Legion has long advocated for complementary and 
alternative medicines (CAM) to be further explored by VA and applauds 
this pilot. The American Legion's PTSD/TBI (Traumatic Brain Injury) 
Committee has reviewed several promising CAM treatments that include 
using electroencephalogram (EEG) technology to help better determine 
the efficacy of certain medications on patients with correlating 
quantitative EEG neuroethics. We believe the EEG/EKG 
(electrocardiogram) pilot program will provide VA with additional 
information to determine whether veterans can benefit from this 
therapy.
    The American Legion has reservations due to VA's March 29, 2017 
testimony before the House of Representatives Subcommittee on Health. 
During that testimony VA stated there is no medical device using MeRT 
technology that has been cleared or approved by the Food and Drug 
Administration (FDA) for the uses described in this legislation.\39\ 
Providing non-approved FDA treatment to our Nation veterans is still a 
concern of The American Legion. With the assurance that the EEG/EKG 
pilot program meets FDA approval, The American Legion supports S. 514 
and companion legislation in the House of Representatives, H.R. 1162.
---------------------------------------------------------------------------
    \39\ What is MeRT: https://www.braintreatmentcenter.com/mert
---------------------------------------------------------------------------
    Through American Legion Resolution No. 377: Support for Veteran 
Quality of Life, we support legislation and programs within the VA that 
will enhance, promote, restore or preserve benefits for veterans and 
their dependents.\40\
---------------------------------------------------------------------------
    \40\ The American Legion Resolution No. 377 (2016): Support for 
Veteran Quality of Life
---------------------------------------------------------------------------

The American Legion supports S. 514 with amendments as noted above.

                               conclusion
    The American Legion thanks this Committee for the opportunity to 
elucidate the position of the 2 million veteran members of this 
organization. For additional information regarding this testimony, 
please contact the Assistant Director of the Legislative Division, Mr. 
Larry Lohmann Esq., at The American Legion's Legislative Division.

    Chairman Isakson. Thank you for your testimony.
    Mr. Manar.

 STATEMENT OF GERALD T. MANAR, BLUE WATER NAVY VETERAN, FORMER 
 DIRECTOR, NATIONAL VETERANS SERVICE, VETERANS OF FOREIGN WARS 
                      OF THE UNITED STATES

    Mr. Manar. Chairman Isakson, Senator Sanders, Members of 
the Committee, on behalf of the men and women of the Veterans 
of Foreign Wars and its Auxiliary, thank you for the 
opportunity to testify today.
    We talk in support of the Blue Water Navy Vietnam Veterans 
Act of 2017. I am a veteran of the Navy who served on a ship 
which participated in 11 campaigns during the Vietnam War. From 
1964 through 1972, the USS Whitfield County (LST 1169) was sent 
to Vietnam at least 31 times. During those deployments it 
landed Marines and army units in Vietnam. It patrolled endless 
days off the coast, supported riverine patrol boats on the 
rivers of Vietnam, and went up the river to Saigon.
    I served aboard from July 1971 until she was decommissioned 
in March 1973. During that time our ship went to Vietnam three 
times.
    During the Vietnam War, many hundreds of U.S. Navy ships 
spent weeks or longer off the coast, many of them not just once 
or twice, but repeatedly.
    On my first cruise to Vietnam in 1971, we patrolled up and 
down the coast. We were on the lookout for small boats trying 
to infiltrate supplies and personnel into South Vietnam--north 
and south, day after day, within sight of the shoreline. We 
were a floating warehouse, carrying hundreds of tons of 
supplies on our tank deck. We carried extra ammunition for 
patrol gunboats and other smaller ships which might need 
resupply. Whenever we went to Vietnam, we carried extra fuel 
for ships and JP-5 for helicopters.
    We anchored off the coast several times to conduct shore 
bombardment with our 3-inch/50 guns. We spent Christmas Day in 
1971 taking on supplies from a stores ship, then transferred 
some of those supplies and fuel to two patrol gunboats and a 
mine sweeper. We anchored off the coast 1 day, lowered the 
captain's gig into the water, and went swimming. We followed 
that with a barbecue on the main deck. We did this all within 
sight of the beaches of Vietnam.
    I mention these events as an illustration of the kinds of 
activities we performed close to the shore of Vietnam. If there 
was dioxin in the water, we would have been exposed to it while 
swimming. Week after week, patrolling up and down the coast, we 
took in sea water and processed it through our fresh water 
evaporator system. We know from the Australian Navy study, 
validated by the National Academy of Medicine, that fresh water 
evaporator systems concentrated toxic material, including 
dioxin, which was then transmitted to sailors through drinking 
water.
    Absent the cleaning and sanitation of the entire fresh 
water evaporator system, it is conceivable that every person 
who ever served on board my ship could have been exposed to 
dioxin after its first visit to Vietnam. Further, by the time 
we completed our last deployment to Vietnam in 1972, the 
evaporator system would have accumulated concentrated dioxin 
from dozens of visits to Vietnam, not simply the final three 
that I experienced while on board.
    From 2015 through September 2017, I was a member of the 
Steering Committee for the Vietnam Era Health Retrospective 
Observational Study, abbreviated VE-HEROeS. The aim of the 
study was, in part, to obtain self-reported data on the health 
of Blue Water Navy veterans. Instead of the expected 200 
respondents, a total of nearly 1,000 Blue Water Navy veterans 
answered the questionnaire. The raw data is currently under 
analysis and adjustment to assure accurate comparisons between 
other Vietnam and Vietnam era veterans.
    While the results of this study will be published over the 
next few years, there is more than sufficient data, in our 
view, to show that Blue Water Navy veterans suffer from a 
higher incidence of cancers, hypertension, and ischemic heart 
disease than other populations of similar size and similar age.
    It has been 43 years since the war ended in 1975, and even 
the youngest of Blue Water Navy veterans are over 60 years old. 
Many thousands suffer from the same disabilities as do veterans 
who served in-country. Rather than continue studying the health 
of Blue Water Navy veterans for another 10 years while those 
veterans sicken and die from diseases related to exposure to 
herbicides, Congress must grant Agent Orange presumptions to 
the thousands of veterans who served their country off the 
shores of Vietnam.
    In addition, the VFW supports expansion of benefits to 
Korean DMZ veterans who suffer from diseases directly linked to 
exposure to herbicides without forcing them to prove individual 
exposure.
    We also support the expansion of benefits for children of 
Thailand veterans who were born with spina bifida.
    Finally, we believe the elimination of the distinction 
between the National Guard, Reservists, and active-duty 
servicemembers in requirements to pay certain home loan fees is 
an appropriate recognition of their service to our country.
    This concludes my testimony. I will be happy to answer any 
questions you may have for me.
    [The prepared statement of Mr. Manar follows:]
Prepared Statement of Gerald T. Manar, Blue Water Navy Veteran, Former 
 Director, National Veterans Service, Veterans of Foreign Wars of the 
                             United States
    Chairman Isakson, Ranking Member Tester, and Members of the 
Committee, On behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and its Auxiliary, thank you for the 
opportunity to offer our views on legislation pending before the 
committee.
         h.r. 299, blue water navy vietnam veterans act of 2017
    I am a veteran of the Navy who served on a ship that participated 
in 11 campaigns during the Vietnam War. From 1965 through 1972, the USS 
Whitfield County (LST 1169) was sent to Vietnam at least 31 times. 
During those deployments it patrolled endless days off the coast, 
supported riverine patrol boats on the rivers of Vietnam and went up 
the river to Saigon. I served aboard from July 1971 until she was 
decommissioned in March 1973. During that time our ship went to Vietnam 
three times.
    When you think of navies, you think of aircraft carriers, 
destroyers, submarines. If you are older, or a fan of WWII movies, 
cruisers and battleships figure into the equation as well. However, 
over its history, the United States Navy has had thousands of ships, 
many of which were not the fastest, stealthiest or biggest. Our fleets 
cannot stay at sea for extended periods without oilers, ammunition, and 
stores ships to support them. They cannot land Marines on distant 
beaches without amphibious ships of all sizes and descriptions. The job 
of our Navy is to project power, wherever and whenever that power is 
needed. To do that, dozens of different types of ships are needed to 
make that happen.
    The United States Navy was in Vietnam from start to finish. While 
the war did not start with the Gulf of Tonkin Incident in 1964, it was 
the catalyst for ramping up American participation to its peak in the 
late 1960s. It ended with the evacuation of American personnel and 
thousands of Vietnamese to ships off the coast in April 1975. In 
between, many hundreds of ships spent weeks or longer off the coast, 
many of them not just once or twice, but over and over again. While 
many of those ships put into Vietnamese ports, many others did not.
    Forty years after I last saw the coast of Vietnam from the deck of 
the USS Whitfield County, I spent two days at the National Achives 
pouring over the deck logs, trying to find entries that supported my 
recollection of tying up to a pier in Cam Ranh Bay, beaching the ship 
on the LST ramp at Vung Tao, putting into port at Qui Nhon and sailing 
off the coast of Da Nang. My search revealed much more than I recalled.
    On my first cruise to Vietnam in 1971, we patrolled up and down the 
coast. We were on the lookout for small boats trying to infiltrate 
supplies and personnel into South Vietnam--north and south, day after 
day, within sight of the shoreline. This was not just a random 
assignment. Operation Market Time started in 1965 and continued through 
the end of American participation in 1973. We were a floating 
warehouse, carrying hundreds of tons of supplies on our tank deck. We 
carried extra ammunition for Patrol Gunboats and other smaller ships 
that might need resupply. Whenever we went to Vietnam, we carried extra 
fuel for ships and JP-5 for helicopters.
    We put into port as needed. We once picked up the pieces of a 
patrol boat that had been blown in half by a mine attached to its hull, 
and carried them to another port in Vietnam. We never knew why. We 
anchored off the coast to conduct shore bombardment with our 3''/50 
caliber guns. We spent Christmas Day in 1971 taking on supplies from a 
stores ship, then transferred some of those supplies and fuel to two 
Patrol Gunboats (USS Asheville and Tacoma) and a mine sweeper (USS 
Guide). We anchored off the coast one day, lowered the Captain's gig 
into the water and went swimming. We followed that with a barbeque on 
the main deck. We did this within sight of the beaches.
    I mention these events as an illustration of the kinds of 
activities we performed close to the shore of Vietnam. If there was 
dioxin in the water, we would have been exposed to it while swimming. 
Week after week, patrolling up and down the coast, we took in sea water 
and processed it through our fresh water evaporator system. We know 
from the Australian Navy study, validated by the National Academy of 
Medicine (formerly the Institute of Medicine), that fresh water 
evaporator systems concentrated toxic material, including dioxin, which 
was then transmitted to sailors through drinking water.\1\
---------------------------------------------------------------------------
    \1\ Blue Water Navy Vietnam Veterans and Agent Orange Exposure, 
Institute of Medicine, 2011, pg 13, https://www.nap.edu/read/13026/
chapter/2#13
---------------------------------------------------------------------------
    As a matter of observation, absent the cleaning and sanitation of 
the entire fresh water evaporator system, it is conceivable that every 
person who ever served on board my ship could have been exposed to 
dioxin after its first visit to Vietnam. Further, by the time we 
completed our last deployment to Vietnam in 1972, the evaporator system 
would have accumulated concentrated dioxin from dozens of visits to 
Vietnam, not simply the final three that I experienced while on board.
    From 2015 through September 2017, I was a member of the Steering 
Committee for the Vietnam Era Health Retrospective Observational Study 
(VE-HEROeS). The Committee had input into the study design, the 
questionnaires, communications, and types of analyses and order of 
analyses. The aim of the study was, in part, to see whether Blue Water 
Navy veterans would respond to the survey and describe their health. 
Based on the sample size of all Vietnam and Vietnam Era veterans, the 
researchers estimated that 200 Blue Water Navy veterans would respond. 
In fact, 987 Blue Water Navy veterans answered the questionnaire. As a 
result, the data gathered is more extensive and richer than 
anticipated. The raw data is currently under analysis and adjustment to 
assure accurate comparisons between other Vietnam and Vietnam Era 
veterans.\2\
---------------------------------------------------------------------------
    \2\ Blue Water Navy Characteristics, Presentation to the Steering 
Committee Meeting, September 27, 2017.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    While results of this study will be published over the next few 
years, there is more than sufficient data to show that Blue Water Navy 
veterans suffer from a higher incidence of cancers, hypertension, and 
ischemic heart disease than other populations of similar age.
    It has been 43 years since the war ended in 1975. Even the youngest 
of Blue Water Navy veterans are over 60 years of age. Many thousands 
suffer from the same disabilities as do veterans who served in-country. 
Rather than continue studying the health of Blue Water Navy veterans 
for another 10 years while Blue Water Navy veterans sicken and die from 
diseases related to exposure to herbicides, Congress must grant Agent 
Orange presumptions to the thousands of sailors who served their 
country off the shores of Vietnam.
    The VFW supports expansion of benefits for Korean DMZ veterans who 
suffer from diseases and illnesses directly linked to Agent Orange. 
While many of these veterans receive presumptive disability 
compensation for their service-connected disabilities, hundreds of them 
are unjustly required to prove individual exposure. This legislation 
would provide them the benefits they have been unjustly denied.
    This legislation would also provide benefits to children suffering 
from spina bifida because of their parents' exposure to Agent Orange 
while serving in Thailand during the Vietnam War. Spina bifida is a 
debilitating birth defect, which has been found to be more prevalent 
among children of veterans exposed to Agent Orange. This expansion 
would make equal the level of benefits that other children receive due 
to their parents' exposure to Agent Orange.
    The VFW also supports the reporting and outreach requirements in 
this legislation. Research related to Gulf War Illness is vital to 
ensuring veterans receive the care and benefits they have earned as a 
result of illnesses and injuries caused by their service. The outreach 
and reporting components related to the Blue Water Navy portion of this 
bill would ensure veterans receive the retroactive payments they have 
earned, and allow Congress to oversee proper implementation of the 
legislation. On their behalf, the VFW urges you to approve this 
legislation so these veterans can receive the treatment and 
compensation they have earned through their service to our country.
    Ensuring equality between the active, Guard, and Reserve components 
of the military is a key goal of the VFW. For the past decade and a 
half, our country has been sending National Guardsmen and Reservists 
into harm's way at an unprecedented level, and some of them have been 
wounded in the line of duty. The VFW is pleased that H.R. 299, would 
end arbitrary differences in home loan fees and show that service in 
uniform earns equal opportunity to be a homeowner.
 h.r. 5418, veterans affairs medical-surgical purchasing stabilization 
                                  act
    The VFW encourages the expansion of opportunities for veteran-owned 
small businesses to compete for Department of Veterans Affairs (VA) 
contracts, but we also see the value in having a single supplier if the 
situation is necessary. Mandating VA to use regional prime vendors 
could have a positive impact on competition in the market place, 
however, we would not want to see it negatively impact overall cost. 
The VFW does not have a position on this portion of this bill.
    We do, however, support prohibiting a single prime vendor from 
developing the formulary for medical surgical supplies. Allowing a 
single vendor to tailor the formulary to fit specific needs that only 
they could provide can lead to unfair advantages in competitive 
bidding. Creating a comprehensive formulary that is designed solely 
with the patients in mind is how they should be developed, and not in 
favor of a particular vendor.
                   s. 514, no hero left untreated act
    The VFW opposes this legislation, which would require VA to carry 
out a pilot program to provide veterans Magnetic eResonance Therapy 
(MeRT) to treat Post Traumatic Stress Disorder (PTSD) and other mental 
health conditions.
    The VFW supports expanding access to integrated and complementary 
therapies that have proven to effectively treat veterans who have not 
responded to conventional or evidence-based mental health care. 
However, MeRT is not approved by the U.S. Food and Drug Administration 
(FDA) and has shown little to no evidence of effectiveness in treating 
PTSD or other behavioral health conditions. VA has a current pilot 
program studying Repetitive Transcranial Magnetic Stimulation, or rTMS. 
While this form of therapy is FDA approved, recent data from this 
research shows the therapy is successful on approximately 40 percent of 
patients, which is the same percentage of success in patients receiving 
sham treatments.
    There is currently no evidence that MeRT would outperform treatment 
for any disorders. Additionally, this legislation would not provide VA 
additional funding to test the efficacy of MeRT. The VFW believes that 
VA must spend its already scarce health care resources on therapies 
that have shown promise or have a proven track record.
                       s. 1596, brave act of 2017
    The VFW supports this important bill, which would increase the 
funeral and burial benefit for eligible veterans. Specifically, this 
important bill would also ensure all three benefits are indexed for 
inflation.
    The cost of funeral expenses in the private sector has increased 
nearly sevenfold since 2001, but VA benefits to cover such costs have 
failed to keep pace with inflation. The VFW urges Congress to ensure 
the loved ones of veterans who do not have access to a state or 
national veterans cemetery within 75 miles are not required to 
accumulate debt to provide their loved ones a final resting place that 
honors their sacrifice to our nation.
s. 1952, department of veterans affairs financial accountability act of 
                                  2017
    The VFW supports this bill, which would require a third-party 
review of VA's financial projections. VA's inability to accurately 
project its budgetary needs, or overestimating its medical collections, 
has impacted its ability to provide veterans timely access to high-
quality care and benefits.
    When evaluating VA's budget requests and financial projections, the 
VFW urges Congress to consider the impact outdated Budget Control Act 
discretionary budget caps have on the amount of resources VA is allowed 
to request. While VA budget requests should be based on need, they are 
often based on what VA is able to get approved by the Office of 
Management and Budget. For this reason, the VFW urges this Committee to 
include an analysis on the impact of sequestration on VA budget 
requests.
            s. 2881, mare island naval cemetery transfer act
    The VFW strongly supports this bill, which would transfer the Mare 
Island Naval Cemetery to the National Cemetery Administration (NCA) for 
management. The United States Navy used this cemetery as the final 
resting place of more than 800 veterans. Concern that non-veterans had 
been buried there has been raised as a possible reason to prevent NCA 
from managing the cemetery. The VFW feels that the Navy made the 
decision to bury those people there, that the decision should be 
respected, and that this is not a reason to oppose the legislation. 
This cemetery is in disrepair and the VFW will never support allowing 
the final resting place of veterans to be forgotten.
    The lasting legacy of those who have served our country is on 
display in cemeteries and is a testament to the cost of freedom. While 
our Nation remembers the service of veterans who are no longer with us 
on Memorial Day, NCA, and the American Battle Monuments Commission 
ensure that a daily reminder withstands the test of time.
 s. 3184, to modify the requirements for applications for construction 
    of state home facilities to increase the maximum percentage of 
         nonveterans allowed to be treated at such facilities.
    The VFW supports this legislation which would allow a small 
increase in non-veteran care at State Home Facilities. If certain 
facilities are not operating at full capacity and have the ability to 
treat non-veteran spouses, the facilities should be allowed to do so. 
The VFW believes these decisions should be driven by compassion and 
respect for the aging veterans and their loved ones. If there are open 
bed spaces in State Home Facilities that could be occupied by veterans' 
spouses, we should make that happen.
                   transition assistance legislation
    The period of moving from active duty to civilian life can be 
challenging for many transitioning servicemembers (TSMs). Leaving a 
structured life in the military and moving to an entirely different 
atmosphere brings with it many difficulties. Finding a new job, moving 
away from base, going to school, or leaving friends and comrades are 
just some of the issues servicemembers face with transition.
    The Transition Assistance Program (TAP) is the Department of 
Defense's (DOD) program in cooperation with the Department of Labor, 
VA, and the Small Business Administration to ensure a seamless path for 
servicemembers to civilian life. TAP has improved drastically over the 
past few years, but there are still many changes that need to be made 
to this vital program.
    The VFW supports the discussion legislation on transition 
assistance reform, which would consolidate and streamline the TAP 
overview process. This bill would provide insight and proper reporting 
of the entire TAP curriculum that would provide accurate information 
regarding which parts of TAP are working and which parts need 
improvement. However, there are items we feel should be included in any 
transition legislation in order to improve the entire process.
    The VOW to Hire Heroes Act of 2011 requires TSMs to attend TAP 
class prior to 90 days before leaving active duty service. Currently, 
less than half are attending by the required date. Additionally, less 
than 15 percent are attending the supplemental classes for education, 
entrepreneurship, or career technical training. Late attendance can 
lead to TSMs not having certain VA benefits available as soon as they 
leave active duty service. The VFW supports early participation in TAP 
classes for all servicemembers. We feel beginning TAP 12 months before 
leaving the service will set up TSMs for success better than the 
current three month path.
    The VFW supports S. 2748, BATTLE for Servicemembers Act, and the 
effort to make the supplemental TAP classes mandatory. More than half 
of TSMs utilize their GI Bill benefits after leaving the service, but 
nowhere nearly that many attend classes or briefings dedicated to 
education during their transition classes. Adding the supplemental 
classes to the main curriculum of TAP would expand the knowledge of 
TSMs and better prepare them for civilian life.
    The VFW also recognizes the value in connecting TSMs with the 
communities where they seek to reside. Having the TSMs connect with 
community groups or resources prior to separation could help mitigate 
various hardships as they transition to the civilian sector. There are 
many different organizations that help with education, employment, and 
financial management in communities across the country. Providing a 
connection to local resources during TAP classes is another tool for 
servicemembers to further their success.
    Expanding access for veterans to TAP-style information and 
resources after they leave military service is important for veterans. 
The VFW urges the Committee to revisit the pilot program to offer TAP 
in the community for veterans. Once veterans reintegrate into their 
communities, it is important for them to be able to access specific 
transition resources that apply strictly to their local communities. 
Veterans who participated in the original pilot program were able to 
access information and resources they may have missed during their 
initial TAP classes.
    Another key element the VFW would like to see added to any 
transition legislation is the removal of the 12-year expiration date 
for the Vocational Rehabilitation and Employment (VR&E) Program. 
Education and training are continuous efforts that do not end after 12 
years. Many veterans seek to reeducate and retrain themselves later on 
in life, and removing the expiration date will eliminate an unnecessary 
barrier to do so. There are exemptions that will allow veterans to 
utilize VR&E after the expiration date, however, if a veteran does not 
meet at least one of the exceptions, the veteran is denied due to the 
arbitrary expiration date. Last year, the expiration date on the GI 
Bill was removed so veterans could engage in education and training 
later on in life. The VFW feels Congress must do the same for VR&E.
            veterans dental care eligibility expansion and 
                        enhancement act of 2018
    The VFW supports this draft legislation which would improve dental 
care provided to veterans by VA through a pilot program, as well as 
increase the ability for VA to construct and lease dental clinics. 
Though the VFW would prefer to see legislation that would expand 
eligibility for VA dental care to all veterans who are eligible for VA 
health care, the VFW supports this bill.
    Dental care is a vital aspect of general health care. According to 
the Mayo Clinic and a myriad of peer-reviewed medical studies, oral 
health has a direct impact on severe diseases and conditions, such as 
heart disease and adverse birth conditions. Conversely, several health 
conditions that are prevalent among veterans, such as diabetes and 
Alzheimer's disease, have been found to directly impact oral health. 
Until the VA Dental Insurance Program (DIP) was implemented in 
January 2014, veterans enrolled in VA health care had little to no 
options for receiving dental coverage.
    Additionally, there is a large disparity between VA and DOD dental 
coverage, which can have a significant impact on the health care and 
quality of life for veterans. While in uniform, veterans were required 
to maintain a high level of dental readiness, to the extent that they 
would be placed on a non-deployable status if they failed to receive a 
dental evaluation every year. However, only veterans who were 100 
percent service-connected disabled, certain homeless veterans, and 
those who had a service-connected dental condition were eligible for VA 
dental care. The majority of veterans enrolled in VA health care are 
unjustly denied access to VA dental care. Instead, they are offered the 
ability to purchase dental insurance through VA, which has high costs 
and poor coverage. VFW members who are asked for feedback on VADIP 
report that it is better than nothing. Those who have worn our Nation's 
uniform deserve the best, not ``better than nothing.''
    This draft legislation would create a pilot program to expand 
dental care services and treatment to veterans who are enrolled in VA 
at 16 locations across the country. These 16 locations would include 
four VA medical centers with an established dental clinic, four VA 
medical centers with a contract for dental care, four community-based 
outpatient clinics with available space, and four facilities from 
federally qualified health centers and Indian Health Service clinics. 
These pilot sites would assess the feasibility to furnish dental 
services and treatment to no more than 100,000 veterans who volunteer 
to participate in the program.
    This draft legislation would also provide the Secretary with the 
authority to construct or lease a dental clinic for any state that does 
not currently have a VA facility that offers dental services. The VFW 
finds this to be incredibly important, as veterans must have access to 
dental care and they should not have to cross state lines to obtain 
that care.
draft legislation, modernization of medical records access for veterans 
                                  act
    This draft legislation would provide a portable ``credit card 
sized'' health record for veterans. The VFW understands the intent of 
this bill, but opposes its passage. Veterans already have easy access 
to their health care records. Veterans have the ability to get copies 
by using their My HealtheVet account. After logging into their account, 
the first page a veteran sees offers a selection of four large 
``buttons'' and accessing their medical record is the fourth option. 
VFW staff tested the ability to download their records using this 
method, and in less than 90 seconds an electronic version had been 
downloaded. For those who do not use My HealtheVet, a compact disc copy 
can be obtained by veterans from their local VA medical centers.
    To ensure that the veteran's medical record follows them after 
military service, VA has recently begun the process of adopting a 
commercial off-the-shelf system for the future electronic health 
record. The Electronic Health Record Modernization Program (EHRMP) will 
allow veterans to have more access to their medical records. This 
legislation allows the discharging servicemember to electronically 
``carry'' their record to VA, and for various portions of VA to 
interact with itself and with community care providers while caring for 
the veteran. The VFW believes this bill could create a competing 
medical record that would prevent VA and the veteran from having all 
needed information on one platform, thus slowing the delivery of care. 
Because of a lack of vital information, this could lead to decisions 
being made that could harm the health of the veteran.
    In looking at our first two concerns together, the VFW worries 
about interoperability between the device that would be created and 
other VA systems, and security of the information stored on it. There 
is no requirement for the device to ever be connected to, or even 
interoperable with, the electronic health record that will result from 
EHRMP. A lost device could also lead to compromised information, and 
this is a real threat in the modern day.
    Finally, the VFW opposes this bill because it specifically bans new 
appropriations for implementation. Unfunded mandates harm other 
programs by forcing VA to take money from other parts of its IT budget. 
The VFW is already concerned about VA's IT budget funding levels. This 
legislation would cause VA to divert precious and limited resources 
from other programs, thus hindering modernization of IT capabilities 
and implementation of EHRMP.
  draft legislation, to require the secretary of veterans affairs to 
     establish a program to award grants to persons to provide and 
 coordinate the provision of suicide prevention services for veterans 
   transitioning from service in the armed forces who are at risk of 
                    suicide and for their families.
    The VFW supports this draft legislation, but has concerns the 
current language could provide grants to organizations that compete 
with, rather than complement, VA mental health care.
    This draft legislation would authorize VA to provide grants to 
organizations offering suicide prevention services ranging from 
outreach and education to peer support and referrals to care. While 
providing grants to organizations that complement the care being 
provided by VA is of benefit, Congress and VA must ensure grants will 
not be received by groups competing with VA's suicide prevention 
treatments, or providers who should be enrolled in VA's community care 
program.
    This draft legislation would require the Secretary to consult with 
organizations such as veterans service organizations (VSO's) about 
recipients of these grants. The VFW is grateful to see this, as VSO's 
have extensive background and understanding in programs such as this. 
For example, the VFW has its own mental wellness campaign. Through this 
campaign we have partnered with VA and other groups such as Change 
Direction, One Mind, PatientsLikeMe, Give an Hour, and the Elizabeth 
Dole Foundation. While the VFW does not provide clinical care, members 
work with our partners to provide outreach at home-grown levels to 
educate veterans and their families about recognizing emotional 
distress, as well as what benefits and programs are locally available. 
PatientsLikeMe provides peer support and Give an Hour provides clinical 
care for veterans in need of emergency counseling.
    The VFW also believes the reporting requirement stating the 
Secretary ``may'' require a grant recipient to report how the funding 
is used must be changed to ``shall.'' There are many honest programs 
which can benefit from grants. Still, Congress must work with VA to 
ensure these grants are not used to bankroll bad actors.

    I thank you for the opportunity to testify today and I will answer 
any questions you may have.

    Chairman Isakson. Thank you very much, Mr. Manar.
    Mr. Snee.

STATEMENT OF THOMAS J. SNEE, NATIONAL EXECUTIVE DIRECTOR, FLEET 
                      RESERVE ASSOCIATION

    Mr. Snee. Chairman Isakson, Senator Sanders, Committee 
Members, thank you and on behalf of the veterans for your 
leadership and caring spirit. I am Tom Snee, the national 
executive director for the Fleet Reserve Association, the 
oldest sea service association serving our men and women in the 
U.S. Navy, Marine Corps, and Coast Guard since 1924. We are 
most honored and pleased to have been asked to return again to 
express and share our viewpoints for the Senate's favorable 
vote of H.R. 299 on behalf of the Blue Water Navies.
    I am also a retired Navy master chief petty officer, 
surface warfare, with over 30 years of active duty and a 
Vietnam veteran who probably served on a Blue Water Navy ship 
that was exposed to Agent Orange in the coastal waters off 
Vietnam. Like other ships, we, too, lost a great number of our 
crew due to Agent Orange. Today I am here to put a human face 
on Agent Orange victims and their families. Simply, H.R. 299 
will protect and ensure the poignant care for all Blue Water 
Navy veterans and actions today.
    Mr. Chairman, allow me to read a quote from President 
George Washington: ``The willingness with which our young 
people are likely to serve in any war, no matter how justified, 
shall be directly proportionate on how they perceive veterans 
of earlier wars and how they were treated and appreciated by 
our Nation.''
    Mr. Chairman, every day we delay the well-being of earned 
benefits, quality treatments, and life's sustainability for our 
Blue Water Navy veterans, we are losing their confidence and 
credibility as a Nation. Through despair, addictions, 
homelessness, and suicides, our aging Vietnam veteran 
population can only wonder and frequently ask, do they really 
care?
    For me, as that young 19-year-old from northeast Ohio, I 
never knew that the war was going on, never heard of Vietnam. 
Instead, I took my oath of enlistment seriously. I swore to 
protect and to defend the Constitution of the United States. We 
can all agree on one thing: that the Vietnam era was a very 
unpopular and emotional time back then. I, however, chose to 
serve toward a more deliberate and positive course for our 
country and invest in its national interests and securities.
    The House recently overwhelmingly voted 382-0 for H.R. 299. 
On that day veterans across the Nation lit up phone lines and 
social media that in hope and trust they were finally realized 
and valued for their service. Today this Committee and the 
Senate can further seal that confidence to secure those 
mandates for care and prevention. For those, we have been told 
no. For our Australian counterparts and allies, with the same 
at-sea lifestyles, experienced the same anguish, however, 
initiated the means to provide the needed care for their 
Vietnam sea service veterans. The VA Mission Act of 2018, 
sponsored appreciatively by Chairman Roe, will ensure a 
continuity of care and services for our Blue Water Navy 
veterans. Please consider these points:

    <bullet> Measurable Blue Water Navy issues have been 
addressed to the House and to the Senate. An identifiable and 
affordable pay has been established.
    <bullet> The VA Mission Act provides the needed assurances 
of hope and promise of care and sustainability in their own 
personal lives.
    <bullet> The VA report of 2008 can be qualitatively 
referenced, ``given the availability of evidence, the Committee 
recommends that members of the Blue Water Navy should not be 
excluded from the set of Vietnam era veterans with presumed 
herbicide exposures.''
    <bullet> A letter sent by 14 Senators in January 2016 
stated, ``There seems to be ample reason for you, the Secretary 
of VA, to make the policy decision in favor of many veterans 
who are suffering from painful and debilitating diseases for 
whom justice is long overdue.''
    <bullet> Even the statement on dioxin regarding Agent 
Orange brings the point home as requested. ``Dioxins are in 
nature chemical residues from manufacturing processes and are 
often cancerous.'' Typically, the side effects of dioxins in 
human exposures include sarcoma, lymphoma, blood diseases, and 
various birth anomalies and defects of varying magnitudes of 
seriousness.
    <bullet> And, recently, the VA established a qualitative 
framework to put into practice a positive stance and five 
courses of actions that would support and endorse and decrease 
in suicide instances to match the needs of our service.

    Mr. Chairman, Committee Members, now is the time. We must 
act to forge an informative action for our Blue Water Navy 
veterans. Every day we suspend its passage again, we further 
continue the loss of confidence and psychological setbacks for 
our veterans, including death itself.
    I quote another instance of a widow of a Navy master chief 
who is buried at Arlington Cemetery, who said, ``It is cheaper 
for the VA to bury our veterans than to take them and give them 
the treatment that they need.'' She also said, ``They should 
never have been excluded.''
    The making of fresh water is a universal process on every 
Navy ship. Admiral Zumwalt--I spoke with his daughter and his 
son, and the daughter said at a Navy memorial conference that 
if her Dad had known the following effects of Agent Orange, he 
would never have allowed it.
    In closing, Mr. Chairman, these are the faces and stories 
of the Blue Water Navy vets. We took an oath, we served, we 
made a commitment to the sea--breathing, bathing, drinking, 
cleaning, even brushing our teeth while absorbing Agent Orange. 
Our caretakers are suffering patiently as well and wondering 
just when will that day be.
    Sir, people are not science projects. We are the 
consequences of an era gone by. Vote for H.R. 299.
    Please remember my earlier quote from George Washington, 
because this could have a future impact, as I recently had down 
in Charleston, SC, by a 19-year-old who said, ``Sir, is the 
Government and VA going to take care of me if I should get 
ill?'' just before he went to boot camp.
    Remembering the Vietnam veteran, our resistance will long 
be painful. Sir, we have the means. Let us make sure it does 
not happen to us.
    Mr. Chairman, I thank you and the Ranking Member and the 
Committee and all the members here today, and I respectfully 
request that my statement be placed in the record. I await your 
questions.
    [The prepared statement of Mr. Snee follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Prepared Statement of the Thomas J. Snee, USN (Ret), M.Ed, MCPOC (SW), 
         National Executive Director, Fleet Reserve Association
                              introduction
    Distinguish Chairman Johnny Isakson, Ranking Member Jon Tester, and 
members of the Veterans Committee, We thank you, for the opportunity to 
present the FRA's views on, The ``Blue Water Navy Vietnam Veterans Act 
of 2018,'' sponsored by Rep. David Valadao (R-CA) and other legislation 
listed on the agenda. We would like to recognize and thank Rep Valadao 
for his leadership and direction in the recent House passage of this 
Bill, (382-0) on June 25, 2018. FRA also thanks Senator Kirsten 
Gillibrand (D-NY) for her companion legislation (S. 422), to (H.R. 299) 
as it was introduced in the House. The House bill has 330 co-sponsors 
and the Senate bill has 51 co-sponsors. FRA also thanks House Veterans' 
Affairs Committee Chairman Dr. Phil Roe (Tenn.) and Ranking Member Tim 
Walz (Minn.) for working in a bi-partisan manner to pass the 
legislation out of committee and that recently passed in the House.
                  agent orange/blue water navy reform
    The ``Blue Water Navy Vietnam Veterans Act'' (H.R. 299) not only 
clarifies, but further defines eligibilities for sea service personnel 
that served on ships in the coastal waters off the coast of the 
Republic of Vietnam. This bill also provides a presumptive eligibility 
statute for disability claims submission to the VA for disease and 
ailments from the toxic exposures of the Agent Orange herbicide. FRA 
requests that Congress recognize all ``Blue Water'' veterans who were 
exposed to the Agent Orange herbicide and to authorize immediate and 
presumptive status for VA disability claims submissions. Current 
presumption of service connection only exists for Vietnam veterans who 
served in-country, on land and inland waterways, but limited to those 
who served off its coastal waters. Enactment of H.R. 299/S. 422 will 
ensure a well justified and earned treatments and benefits to the 
thousands of Navy/Marine Corps/Coast Guard personnel who may have been 
denied service-connected claims by the VA since 2002.
    Upon passage of this bill, these servicemembers will no longer have 
to continually prove direct exposures from Agent Orange, and be 
eligible to receive the consideration from the VA for benefits 
associated from presumptive and known associated health conditions 
incurred from exposure from this defoliant while serving on these 
ships. From 1964-1975 more than 500,000 deployed servicemembers serving 
off the coastal waters of Vietnam may have likely been openly exposed 
to the chemical herbicide Agent Orange in the daily performance of 
their shipboard duties. In response to this concern, Congress passed 
the Agent Orange Act of 1991, (P.L. 102-4) under President George H.W. 
Bush.
    Based upon the 1991 Agent Orange Act, the VA policy (1991-2001) 
only recognized servicemember file claims if they received the Vietnam 
Service Medal/Vietnam Campaign Medal with a ``boots on the ground'' 
status. These restrictions of service were not applicable to sea 
service personnel on ships in the coastal waters. Agent Orange 
presumption connections were never extended for those shipboard 
personnel in the performance of their daily duties. The herbicide's 
primary use was to destroy foliage on river banks and shores where the 
Viet Cong hid, in order to fire upon passing ships and small vessels. 
The chemical sprayed found in those rivers, eventually had a 
``natural'' runoff into the coastal waters off Vietnam. As a result, 
shipboard desalination processing, as used daily for bathing, drinking, 
laundering, dish washing, and other onboard daily use were never 
considered from this contamination. It was later determined, that the 
onboard desalinization process for water intensified the toxicity in 
the amounts used in the daily use from these herbicide exposures. In 
addition, consideration must be taken into account from these same 
sprayings, the atmospheric surroundings that were affected on these 
ships.
    FRA is grateful to the 14 Senators, who in joint 2016 letter to the 
Secretary of Veterans Affairs, requested that the VA reconsider its ban 
on presumption for those who served on ships off the coastal waters as 
well as to those who had ``boots on the ground.'' The FRA strongly 
endorsed this letter with its reassurances in the lifting of those 
restrictions. This same letter referenced the recent Gray v McDonald 
decision by the Court of Appeals for Veterans Claims that found that 
VA's exclusion of Da Nang Harbor from the definition of ``inland 
waterways'' to be ``arbitrary and capricious.'' FRA was disappointed 
that the VA issued a court-ordered and ``clarified'' definition of 
inland waterways for the purpose of determining presumption for 
coverage that still maintained its exclusion of the ``Blue Water'' 
Vietnam veterans. For the VA, to state with such confidence that the 
toxin, Agent Orange, could not cross from inland water ways and harbors 
into open coastal waters is a total `rejection in itself to the laws of 
nature'. It was as if some imaginary line drawn across the mouth of any 
river or bay had the ability to stop the herbicide from entering into 
coast waters and currents from flowing.
              house amendments to agent orange legislation
    This current legislation, as amended in the House Veterans' Affairs 
Committee, now extends the presumption of herbicide exposure for 
veterans who served on or near the Korean DMZ between September 1, 1967 
and August 31, 1971. This legislation will now permit and allow 
extended health care, vocational training & rehabilitation and monetary 
allowances to children born with spina bifida, provided that at least 
one parent of the affected child served in Thailand between January 9, 
1962 and May 7, 1975 as determined by the VA Secretary and had been 
exposed to the herbicide Agent Orange during that period.
    This bill also will allow improvements to the VA's home loan 
program. Currently, VA-designated appraisers rely solely on information 
from approved third parties, who, for an example, would use a desktop 
appraisal, when determining a home's value for a VA home loan. This new 
method would combine traditional appraisal methods with modern data 
analytics and market data to expedite and improve VA's appraisal 
process. This bill also eliminates the current conforming loan limit on 
the price of a loan that VA can guarantee. This rate is set by Freddie 
Mac and the amount of the current cap varies depending on the cost of 
living in a particular area. Any veteran who chooses to their benefit 
to purchase a home above the current cap would be required to pay a 
funding fee unless they were rated at the 100 percent service-connected 
level.
                           other legislations
    FRA would like to briefly indicate its position on the other 
legislative proposals being reviewed at this hearing. The FRA's 
position on the other legislative proposals is as follows:

    <bullet> FRA supports the draft legislation sponsored by Senator 
Bernie Sanders (VT) to authorize a pilot program for expanded dental 
services for certain veterans;
    <bullet> FRA has no position on Senator Michael Bennet's (CO) 
legislation (S. 3184);
    <bullet> FRA supports the draft legislation sponsored by Senator 
Michael Crapo (ID) that addresses the streamlining the Transition 
Assistance Program (TAP).
    <bullet> FRA has no position on Senator John Boozman's ``VA Hiring 
Enhancement Act;''
    <bullet> FRA has no position on Rep. Jack Bergman's (MI) ``Veterans 
Affairs Medical-Surgical Purchasing Stabilization Act'' (H.R. 5418);
    <bullet> FRA strongly supports Senator Gary Peters (MI) the ``BRAVE 
Act,'' (S. 1596) that increase benefits for burial, funeral and other 
death related expenses;
    <bullet> FRA strongly supports Senator Diane Feinstein's (CA) 
``Mare Island Naval Cemetery Transfer Act,'' (S. 2881);
    <bullet> FRA supports Senator Jon Tester's (MT) ``VA Financial 
Accountability Act'' (S. 1952);
    <bullet> FRA strongly supports Senator Jon Tester's (MT) 
``Dependency and Indemnity Compensation Improvement Act'' (S. 1990);
    <bullet> FRA strongly supports Senator Dan Sullivan's (AK) ``Medal 
of Honor Surviving Spouse Act'' (S. 2185);
    <bullet> FRA supports the draft legislation, sponsored by Senator 
Bill Cassidy (LA), to require the VA to create a program to provide 
grants for persons to provide and coordinate provisions of the suicide 
prevention services for certain veterans;
    <bullet> FRA strongly supports Senator Bill Cassidy's draft bill 
``Modernization of Medical Records Access for Veterans Act;'' and
    <bullet> FRA supports Senator David Perdue's ``No Hero Left 
Untreated Act'' (S. 514).
                               conclusion
    In closing, please allow me again, to express our sincere 
appreciation on behalf of the Association in allowing FRA to express 
its views on legislation at this hearing.

    Chairman Isakson. Your statement will be placed in the 
record, as will the statements of all the members of the panel. 
Thank you, Mr. Snee.
    Mr. Weidman, you are recognized.

 STATEMENT OF RICK WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY AND 
        GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA

    Mr. Weidman. Thank you, Mr. Chairman. I appreciate it.
    There are a number of bills that are really worthy bills 
and discussion drafts for consideration today, but I am not 
going to comment on all of them. I will just concentrate on 
two.
    First, H.R. 299 with the amendments is a bill that deserves 
passage. One of the statements by the VA panel--the Under 
Secretary can certainly be forgiven because he is brand-new--
but when that Blue Water Navy special study was released by the 
Institute of Medicine, I was there, one of Mr. Snee's 
colleagues who was also present in the room was there, and 
about six VSOs. It did not say that people were not exposed. 
What the report said was that, yes, it was biologically 
plausible and that probably some were exposed. We said, ``So, 
why aren't you recommending upping among the categories that 
the National Academy of Medicine,'' as it is now called, ``has 
the opportunity to do under the 1991 law?''
    The response back to that was, ``We do not know how much 
you were exposed.'' To which I said, ``So what? You do not know 
how much I was exposed versus my friends who is down in I Corps 
who served on the ground?''
    Then we asked a key question: ``What is a safe dose of 
dioxin?'' Of course, her eyes got as big as dinner plates, 
because there is no such thing as a safe dose of dioxin.
    We believe that the report itself has been misinterpreted 
by the so-called public health and toxic exposure section of 
VA, because if you go back and read the actual report, it says 
that, in fact, people who served in the Blue Water Navy were 
exposed. How much makes no difference. You do not know how much 
different folks who served in the delta versus the central 
highlands where I served. Who knows? And, you cannot put it 
together 40 years later.
    I do want to comment and save my remaining time for the 
Veterans Dental Eligibility Expansion and Enhancement Act of 
2018. How in the world dental care and periodontal care got 
separated from the rest of physiological care in our society is 
one of those things that you really have to scratch your head 
about. What do we know about people who use VA? They are older, 
they are sicker, and they have multiple and complex 
interactions of physical conditions. Some of that is due to 
poor nutrition. Some of it is due to bad teeth and other dental 
diseases that make it hard for people to eat real food, and so 
they go for processed foods. It is way past time for the VA to 
do this pilot study. Frankly, we believe that there is enough 
evidence in the general literature about overall health in 
general in regard to dental care, good dental care, that you 
cannot do good overall care, physiological care, unless you 
have good dental care.
    Because of the vagaries of the C&P system, there are a lot 
of people--if you served and applied in one regional office, 
you would have ended up 100 percent. If you apply at another 
regional office, you end up being 60 or 70 percent. Whether or 
not you have dental care, which is absolutely necessary to good 
health, should not depend on where you live and the vagaries of 
even adjudicator to adjudicator within the same office.
    So, we urge early passage of both of these bills and that 
science and justice demand early passage of both, because you 
cannot take care of people's health if you ignore the dental, 
and because what the IOM report really said was that, yes, it 
was plausible that people were exposed. That was what we 
needed.
    One last point about the VA. They were under pressure to 
make a definitive statement about who was in the river and who 
was in the harbor. If you were in the harbor, you, ``were not 
exposed.'' But, if you sit where Senator Sanders and the 
Chairman are sitting and the people behind them, you were 
exposed. They literally drew a line on a map across the mouth 
of the river. I mean, you do not have to be an ocean 
hydrologist to know how stupid that is. The Tombigbee River and 
other rivers in Georgia empty into the ocean. How do you say 
whether if you threw orange dye upstream it is going to end up 
in the harbor? Same with the Lamoille River dumping into Lake 
Champlain. While you can say, ``Yes, that is the mouth of the 
river,'' but anything that is in the water that is coming down 
is going to go out into the larger body of water.
    So, I thank you for your indulgence. I know I am over time, 
Mr. Chairman, and thank you so much for this hearing. I look 
forward to discussing these issues, of each one of these 
discussion drafts and bills, with your staff. Thank you.
    [The prepared statement of Mr. Weidman follows:]
  Prepared Statement of Rick Weidman, Executive Director for Policy & 
            Government Affairs, Vietnam Veterans of America
    Chairman Isakson, Ranking Member Tester, and your distinguished 
colleagues of the Senate Veterans' Affairs Committee, Vietnam Veterans 
of America (VVA) wants to thank you for your stellar efforts on behalf 
of veterans of all eras. And we appreciate the opportunity to offer for 
your consideration our testimony regarding legislation pending before 
this distinguished committee.
    H.R. 299, the Blue Water Navy Vietnam Veterans Act of 2018, 
introduced by Congressman David Valadao (R-CA). VVA, along with just 
about every other VSO and MSO, has pressed for the passage of 
legislation that will right a long-standing wrong for veterans of the 
so-called Blue Water Navy during the years of the Vietnam War. Its fate 
now rests in this Committee, at this time. We hope you will see the 
wisdom in bringing, at long last, a measure of justice to these worthy 
veterans, men who did the Nation's bidding during that difficult and 
turbulent time.
                               background
    During the war in Vietnam, from the early 1960s through the first 
years of the 1970s, some 20 million gallons of Agent Orange and other 
toxic chemicals were sprayed to defoliate jungle flora for two 
important reasons: to kill foliage surrounding fire bases that would 
otherwise provide cover for enemy forces, and to deny the enemy the 
ability to grow crops. Toxic chemicals in the herbicide, have been 
associated with serious, life-threatening health conditions, e.g., non-
Hodgkin's Lymphoma, various cancers, Type II diabetes, and Parkinson's 
disease.
    Agent Orange was sprayed across the former South Vietnam, including 
coastal areas and along the banks of rivers and streams that empty into 
the South China Sea. The dioxin in this defoliant wound up in harbors 
and coastal byways heavily trafficked by military as well as civilian 
vessels. It is virtually certain that this contaminated seawater was 
taken in by ships to be desalinated into potable water for drinking, 
cooking, and showering. Today, too many of the sailors and Marines 
aboard these vessels are afflicted with the same maladies as are so-
called boots-on-the-ground Vietnam vets.
    We wonder how many in this hearing room remember the words of one 
veteran suffering from cancer who stated, ``I died in Vietnam and 
didn't even know it.'' He was not alone. In 1991, Congress enacted the 
Agent Orange Act in an attempt to rectify what had become a persistent 
outcry from veterans suffering from diseases that peer-reviewed 
scientific studies have associated with exposure to dioxin, the toxic 
element in Agent Orange.
    There was a time when the Veterans Benefits Administration treated 
claims from sailors in the same manner as they did for claims by in-
country veterans. This was ended, abruptly, in March 2002. The former 
Secretary who made that decision in 2002, without any justification, 
scientifically or otherwise, published an Opinion piece last week 
urging that the Congress ``not ignore science.'' Between 2002 and 2009, 
the VA denied some 32,880 claims, as the VA limited the scope of the 
Agent Orange Act to only those veterans who could provide proof of 
``boots on the ground'' in Vietnam. Today, approximately 90,000 claims 
by ``Blue Water'' sailors are awaiting adjudication by the VBA.
    (The Department of Veterans Affairs has published on its website a 
listing of ``Navy and Coast Guard Ships Associated with Service in 
Vietnam and Exposure to Herbicide Agents.'' Most of these vessels, 
dubbed ``Brown Water Navy,'' plied inland waterways in the former South 
Vietnam.)
                                h.r. 299
    On June 25, 2018, the House passed an amended version of H.R. 299, 
382-0. The original bill clarified that servicemembers aboard vessels 
in Vietnamese territorial waters (for the most part up to 12 miles from 
shore) during the Vietnam War can claim service connection for ailments 
associated with exposure to Agent Orange when filing a disability 
claim. The House bill was amended to include certain veterans who 
served near the demilitarized zone in Korea and in Thailand.
    Congress, we believe, should recognize that it is as likely as not 
that these veterans were in fact exposed to Agent Orange and should be 
accorded presumptive status for their disability claims citing such 
exposure. When signed into law, this bipartisan legislation would 
reverse the VA's 2002 decision which prevented Blue Water Navy 
veterans--and those veterans who served near the DMZ in Korea and in 
bases in Thailand--from claiming presumptive status for the diseases 
associated with herbicide exposure.
    VVA supports passage of H.R. 299 as amended, and urges swift action 
by you and your colleagues in the Senate.

    S.____ the Veterans Dental Care Eligibility Expansion and 
Enhancement Act of 2018, introduced by Senator Bernie Sanders (I-VT), 
calls for the VA to carry out a 3-year pilot program at no fewer than 
16 VA healthcare facilities. The purpose of this program is to assess 
the feasibility and advisability of furnishing dental services and 
treatment, and related dental appliances, to enrolled veterans who are 
not deemed to be eligible for such services and treatment, who 
volunteer to participate in the program, and who agree to copayments 
for such treatment and services same as they would for medical care. 
This bill also calls for the VA to initiate a program to educate 
enrolled veterans on the importance of good dental health, a program 
that illustrates the association between dental health and overall 
health and well-being.
    VVA most definitely endorses and fully supports this pilot project, 
and Senator Sanders' initiative. As he has noted, ``Untreated oral 
health conditions can lead to tooth loss, pain and infection, and 
contribute to an increased risk for serious medical conditions such as 
diabetes and poor birth outcomes.'' The bill requires, within a year 
and a half after this pilot program commences, that the VA submit a 
report to both SVAC and HVAC that describes the implementation and 
operation of the project and includes ``an assessment of [its] impact 
on medical care, wellness, employability, and perceived quality of 
life.''
    VVA recommends that the VA be required, within six months of the 
date of enactment of this act, to submit an exhaustive study/literature 
review of all peer reviewed articles in reputable medical journals 
pertaining to the effect of dental/periodontal health on overall health 
of adult individuals. Further, that VA submit a complete and documented 
study of the effect of providing dental services to homeless veterans 
and other veterans who receive such services, by cohort group, at VA.
    If this pilot project proves successful, as we believe it will, the 
introduction of full dental services for veterans who have a disability 
rating of less than 100 percent will have a salutary effect on their 
overall wellness.
    The arbitrary division of health and dental health has never made 
any real sense to us at VVA, since the two are so inextricably 
intertwined.

    S. 2881, the Mare Island Naval Cemetery Transfer Act, introduced by 
Senator Diane Feinstein (D-CA), directs the VA to enter into an 
agreement with the city of Vallejo, California, for the transfer to the 
VA of the Mare Island Naval Cemetery in Vallejo, to be maintained as a 
national shrine.
    Because of persistent fiscal uncertainties, Vallejo has been, and 
will continue to be, unable to properly maintain this cemetery. It is 
certainly appropriate for the VA's National Cemetery Administration to 
add this to its roster of national shrines. To not do so would be an 
abdication of presumed responsibility, because to honor the memory of 
those buried there, this final resting place must be accorded proper 
maintenance. The Navy should have properly transferred it to the 
National Cemetery Administration (NCA) when the Navy pulled out of Mare 
Island.
    VVA supports the passage of S. 2881 and would request that, if it 
cannot be enacted as a stand-alone bill, it should be added via 
amendment to the 2019 National Defense Authorization Act.

    S. 1596, the Burial Rights for America's Veterans' Efforts 
(``BRAVE'') Act of 2017, introduced by Senators Gary Peters (D-MI) and 
Marco Rubio (R-FL). This bill would increase the maximum amount payable 
by the Department of Veterans Affairs for the burial and funeral 
expenses of certain veterans, an amount that would increase each fiscal 
year by the percentage increase in the Consumer Price Index.
    The demise of thousands of veterans can be connected to health 
conditions connected to their military service. Just as the CPI 
fluctuates (usually upward) year to year, recompense for burial 
expenses also ought to be aligned with changes in the CPI. S. 1596 
should achieve this. It makes sense, is logical, and we can see no 
reason not to urge Congress to embrace it.

    S. 3184, introduced by Senator Michael Bennet (D-CO), would modify 
the requirements for applications for construction of State home 
facilities to increase the maximum percentage of non-veterans allowed 
to be treated at such facilities.
    The intent of this legislation is righteous. It would provide 
``care to spouses of veterans, during a period in which a facility is 
operating with a bed occupancy rate of 90 percent or less, not more 
than 40 percent of the bed occupancy at any one time will consist of 
patients who are not receiving such level of care as veterans.''
    While we have no qualms about the spouses of veterans to be 
admitted to these homes, the language of S. 3194 is ambiguous. It seems 
to us that with the aging of the Vietnam veteran cohort, more and more 
of us will need to avail ourselves of what State homes can provide. 
Just as VA healthcare facilities are for veterans of the Armed Forces, 
so too, we believe, should homes for veterans be just that: homes for 
veterans who can live in dignity at a place where they can bond with 
other veterans. This also avoids having different levels of care, which 
can result in conflict when non-vets feel discriminated against. 
S. 3184 needs to go back to the drawing board.

    Discussion Draft on Transition Assistance reform, to be introduced 
by Senators Mike Crapo (R-ID), Jon Tester (D-MT), Bill Cassidy (R-LA), 
and Dan Sullivan (R-AK).
    This is an ambitious bill, one that seeks to improve DOD's 
Transition Assistance Program, including pre-separation counseling and 
services on such areas as financial planning, transition and 
relocation, and programs and such benefits as health care; educational 
assistance; preparation and requirements for employment; small business 
ownership and entrepreneurship programs; employment and reemployment 
rights; veterans preference; vocational rehabilitation; home loan and 
housing assistance; support services for family caregivers; and 
survivor benefits. This is commendable, and an attempt to bring 
organization and context to an often haphazard conclusion of a 
servicemember's time on a deployment overseas and/or an end to his/her 
active duty.
    Of particular importance is that section of this bill that calls 
for establishing a governing board to support prevention of drug 
overdoses, deaths by suicide, and alcohol-related mortality. This is 
timely and necessary, and should lead to a more sensible allocation of 
resources Vis a Vis prevention activities involving overdoses, alcohol 
dependence, and suicides. Over the past several years, for instance, 
hundreds of millions of dollars have been appropriated in an attempt to 
better understand and hence be able to prevent active-duty troops and 
veterans from taking their life; very little seems to have been 
achieved that can be ascribed as having made a positive impact on 
cutting the numbers of suicides and overdoses.
    Of particular interest and relevance to VVA and other VSOs and MSOs 
is ``a course of instruction, of at least one day, on the benefits and 
services available under the law administered by the Secretary of 
Veterans Affairs.'' There is far too much ignorance by far too many 
veterans on the benefits and services which they have earned by virtue 
of their service in uniform. For this alone we would endorse this 
legislation.
    There are, however, elements of this extremely prescriptive bill 
that ought to be rethought, e.g., the requirement that while all 
members eligible for assistance must participate, no servicemember 
``shall be required to attend more than one class or counseling session 
in any one-year period.'' This seems self-defeating. And the sheer 
amount of analysis and paperwork that this bill would mandate will 
provide reams of statistics that, we fear, accomplishes little.

    S. 2748, the Better Access to Technical Training, Learning, and 
Entrepreneurship for Servicemembers--or BATTLE--Act, introduced by 
Senators Sherrod Brown (D-OH) and Mike Rounds (R-SD), would require 
members of the Armed Forces receive additional training under the 
Transition Assistance Program.
    It is a far more modest piece of legislation that attempts to 
improve DOD's Transition Assistance Program.
    VVA has no objection to the enactment of this bill.

    S.____, to be introduced by Senator Bill Cassidy (R-LA), would 
require the Secretary of Veterans Affairs to establish a program to 
award grants to organizations (not ``persons'') to provide and 
coordinate the provision of suicide prevention services for eligible 
veterans transitioning from the Armed Forces who are at risk of 
suicide, and for their families.
    Suicide, it has been said, is a permanent solution to a temporary 
problem. Still, despite all manner of attempts by Congress, DOD, the 
VA, and communities to research the reasons why servicemembers and 
veterans attempt or succeed at suicide, and hence to devise initiatives 
and programs to steer them to sources of comfort and assistance, 
suicide still claims far too many of those who have served the Nation 
in uniform.
    Despite the panoply of suicide prevention efforts, especially the 
VA's well- disseminated call-in number which connects those 
contemplating taking their life with well-trained professionals who can 
help them, the VA still does not do consistent evaluations of all 
potential psycho-social, economic, and other material factors in 
suicides, both attempted and completed, in each and every instance. 
This gross failure on the part of VA after 15 plus years of this being 
a major public concern is simply inexcusable, and must be corrected 
prospectively as well as retrospectively before any more funding is 
just thrown at this problem.

    S.____, the Modernization of Medical Records Access for Veterans 
Act, also to be introduced by Senator Cassidy, would direct the 
Secretary of Veterans Affairs to initiate a pilot program to establish 
``a secure, patient-centered, and portable medical records system that 
would allow veterans to have access to their personal health 
information.''
    It seems to us at VVA that any VA patient can request his/her 
medical records simply by asking, because of the VA's pioneering 
electronic health record system, which should be made even more 
efficient as the $16 billion IT modernization effort gets online. 
Certainly, the kernel of this bill can, and should, be incorporated 
into this effort. And implementation of the pilot program called for in 
this bill ought to help in the re-design of the VA's IT. However, this 
needs to be coordinated with DOD's upgrade of its IT system. With this 
caveat, VVA supports enactment of this legislation.

    S.____, the VA Hiring Enhancement Act, introduced by Senator John 
Boozman (R-AR), would ``provide for the non-applicability of non-
Department of Veterans Affairs covenants not to compete to the 
appointment of physicians in the Veterans Health Administration.''
    It appears that the goal of this bill is to make it somewhat easier 
for the VHA to hire medical professionals, to unencumber them from a 
covenant they may have entered into that could conceivably be used by a 
soon-to-be ex-employer to thwart their hiring by the VA. Inasmuch as 
there is a crying need in the VHA for more clinicians, so long as this 
bill is on solid legal footing, VVA fully supports its enactment, and 
thanks Senator Boozman for his leadership.

    H.R. 5418, the Veterans Affairs Medical-Surgical Purchasing 
Stabilization Act, introduced by Congressman Jack Bergman (R-MI), would 
require the VA, in procuring medical, surgical, dental, or laboratory 
items for its medical facilities through the Medical Surgical Prime 
Vendor (MSPV) program, to award contracts to multiple regional prime 
vendors instead of a single nationwide prime vendor. It would prohibit 
a prime vendor from solely designing the formulary of items available 
for MSPV purchase. And it would mandate that the VA ensure that each 
employee who conducts formulary analyses or makes decisions about 
including items on the formulary has relevant medical expertise; and 
that the VA provide Congress, on a quarterly basis, with periodic lists 
of these individuals and their medical expertise listed by categories 
of formulary items.
    VVA endorses the intent of this bill, but we balk at the 
requirement of naming individual employees as a matter of course, 
unless said individual is a SES or other senior VA manager. Certainly, 
if there is a question about a particular action by a specific 
employee, said employee needs to be named and called to task. The 
Accountability Act was supposed to make it easier to hold these senior 
managers accountable, not make it easier to scapegoat and fire those 
they manage. With this caveat, we endorse enactment of H.R. 5418.

    S. 1952, the VA Financial Accountability Act of 2017, introduced by 
Senators Jon Tester (D-MT), John McCain (R-AZ), Joe Manchin (D-WV), and 
Tim Kaine (D-VA), would improve oversight and accountability of the 
financial processes of the Department of Veterans Affairs.
    We have no dispute with the statement that ``the normal budget 
process for the VA should be grounded in sound actuarial analysis based 
on accurate demand forecasting,'' or that ``supplemental requests for 
appropriations should be used sparingly and for unforeseen demand or 
natural occurrences.'' We do question, however, the underpinnings of 
this legislation. Certainly, the VA does not come up with its budgetary 
needs in a void, although VVA has long contended that the so-called 
``Millman formula'' always underestimates the needs of every 
generation. And then . . . the Office of Management & Budget (OMB) gets 
ahold of the VA request, and shrinks an already underestimated set of 
figures. Ultimately it is up to Congress to determine how much is to be 
appropriated.
    The concern, however, seems to be the unanticipated costs of 
fulfilling Congress' promise to give veterans Choice. And going to 
private doctors and hospitals is only going to cost more and more--with 
which both the VA and you in Congress have to come to grips. If some 
``independent third party'' can be contracted with to review and audit 
the financial processes, and actuarial and estimation models of the VA, 
and make recommendations for improving the reporting structures, fine.
    Perhaps, however, Congress might first want to review the Final 
Report of the Commission on Care, which you created while initiating 
the Choice program back in 2014. Its estimates and forecasts seem 
pretty clear; the only issue is how much ``Choice'' do you want to 
fund--without further undermining the current already inadequate 
organizational capacity at the service delivery point of VA medical 
centers.

    S. 1990, the Dependency and Indemnity Compensation Improvement Act 
of 2017, introduced by Senators Jon Tester (D-MT), Richard Blumenthal 
(D-CT), and Mazie Hirono (D-HI). This bill would increase amounts 
payable by the VA to modify the requirements for Dependency and 
Indemnity Compensation (DIC) for survivors of certain veterans who had 
been rated totally disabled at the time of their death.
    Although this bill does not attempt to correct the inequities 
inherent in the SBP-DIC issue, it does seek to increase the amount of 
DIC compensation payable to surviving spouses. This is commendable. It 
should be of significant help to spouses in financial need. And we 
support its enactment into law.
    However, VVA must again state unequivocally that the gross 
injustice done to the widows ``of those who have borne the battle'' by 
deducting what is essentially an insurance program payout on which the 
soldier's family paid into for years (SBP payments) from Death & 
Indemnity Compensation (DIC) is just wrong, both morally and in every 
other way. And all to save the Federal Government a few bucks on a dead 
GI, ignoring the survivors.

    S. 514, the No Hero Left Untreated Act, introduced by Senators 
David Perdue (R-GA) and Gary Peters (D-MI), would require the VA to 
carry out a one-year pilot program to provide access to magnetic EEG/
EKG-guided resonance therapy to treat veterans suffering from PTSD, 
TBI, MST, chronic pain, or opiate addiction.
    ``Congress recognizes the importance of initiating innovative pilot 
programs,'' this bill asserts, ``that demonstrate the use and 
effectiveness of new treatment options for Post Traumatic Stress 
Disorder, Traumatic Brain Injury, military sexual trauma, chronic pain, 
and opiate addiction.'' If in a pilot project this therapy proves to be 
promising or effective, initiating the pilot will be well worth 
whatever it might cost. This program should be funded from Deployment 
Health and other virtually useless programs, including Research & 
Development programs that do not in any way contribute to understanding 
toxic or other wounds of servicemembers and veterans, or improving 
veteran health treatments.

    S. 2485, the Medal of Honor Surviving Spouses Recognition Act of 
2018 , introduced by Senator Dan Sullivan (R-AK), would provide payment 
of the Medal of Honor special pension to the surviving spouse of a 
deceased Medal of Honor recipient.
    Bearing in mind that those who have been awarded the Medal of Honor 
are true heroes and not the ``hero'' appellation that so many in 
Congress feel compelled to honor all those who serve in uniform. To 
provide a modest--$1,329.58 a month--special pension to the surviving 
spouse of one of this Nation's heroes should be a no-brainer, and VVA 
is on board for the swift passage of this bill.

    VVA thanks you for the opportunity to present our views on 
legislation pending before this Committee, and we look forward to 
passage of H.R. 499, the Blue Water Navy Vietnam Veterans Act, and will 
be happy to answer any question the Committee may have.

    Chairman Isakson. You may be over time, but you are always 
informative, and we appreciate it. [Laughter.]
    Mr. Weidman. Thank you very much, Mr. Chairman.
    Chairman Isakson. Do you have a question, Senator Sanders?
    Senator Sanders. I do. Let me start off by thanking The 
American Legion, the VFW, the Fleet Reserve Association, and 
the Vietnam Veterans for all supporting the dental legislation 
that we have. I appreciate that very much, and I think the time 
is long overdue, as Rick just mentioned, for us to pass that.
    I would appreciate from Mr. Weidman or any of the other 
distinguished panelists their thoughts about the need for the 
VA to begin a pilot project to take a look at the dental care 
needs of veterans. Rick, do you want to begin it?
    Mr. Weidman. I come back to what we know about the 
demographics of who uses VA, and the demographics are generally 
veterans who are poor. And what do we know about poor people? 
They do not eat as well as upper-middle-class or middle-class 
people. Some of that is because they cannot access it in the 
inner cities, but even in the countryside, what you have easy 
access to in a place like Vermont or rural Georgia or rural 
North Carolina is the little stores that are nearest you, which 
generally do not carry fresh produce. So, people eat stuff out 
of a can or they hit the fast-food joint. When you have got a 
number of kids, the easiest thing, if you are poor, is to take 
them to a fast-food joint because that will fill them up. It is 
not the right thing, and for the person to eat it, the veteran 
to eat it, they know very well it is not the right thing, but 
it is cheap and they are hungry. So, that is what poor people 
eat.
    Senator Sanders. All right. Let me just jump in and ask 
anybody, are you aware of veterans who have serious dental 
needs?
    Mr. Weidman. Yes.
    Senator Sanders. OK. Mr. Manar?
    Mr. Manar. Well, certainly, and it is really frustrating 
for veterans when they come to seek dental treatment at the VA 
and they are told they need to file a claim. Then, it can take 
months while they are suffering from their dental conditions. 
And, more often than not, they are going to get denied for 
treatment because the evidence is lacking that their condition 
started in service or whatever the reason may be.
    I think that if we looked hard enough at the history of why 
dental treatment got separated from health care, it is the same 
reason vision was separated. First, they are very common and, 
second, they are very expensive over the long run. And, they 
decided to save money, your predecessors decided to save money 
and focus on other things.
    I am really thankful, we are really thankful that you have 
presented this legislation, you are supporting it, and we hope 
that the Senate will move on it and grant the veterans this 
opportunity to participate in a test.
    Senator Sanders. Good. Does The American Legion want to 
comment on that?
    Mr. Nuntavong. Senator, The American Legion believes in 
timely and quality dental care for veterans. I am a retired 
Marine, 22 years. I was required to go to medical once a year, 
but I was required to go to dental twice a year. It is very 
important that our veterans receive the health care they need 
in the form of dental care.
    Senator Sanders. Thank you. Fleet Reserve, Mr. Snee?
    Mr. Snee. Yes, sir, the same. I agree with The American 
Legion's statement. You have got to remember that when these 
individuals come out of the service, they are given their final 
dental care, their final check. Then, it comes down to where do 
they go when they get out? It is where they are settling down, 
then access to that dental care. And, of course, the 
availability of socioeconomics that plays on the family. That 
is very important. They have never had to do that, to go out to 
a civilian dentist, not because of disgust or anything else, 
but where do we go next? That is a factor also. Having that 
availability as a total medical picture for the entire body 
being taken care of, it is very important, yes, sir.
    Senator Sanders. Well, let me thank all of the 
organizations here for their support. What we are proposing is 
nothing terribly radical. It is a pilot project to see what 
kind of need is out there, to see how the VA can best address 
that need. I suspect the pilot project will prove positive, and 
we will go from there. I do appreciate all of your support and 
will look forward to passing this legislation.
    Chairman, thank you very much.
    Chairman Isakson. Thank you, Senator Sanders.
    Senator Tillis?
    Senator Tillis. Thank you, Mr. Chair. I will be very brief.
    First, I want to thank Matt sitting in the front row. 
Because you are in the office a lot, I have mistaken you for 
staff once or twice, so we really appreciate your advocacy on 
behalf of The American Legion.
    My wife's uncle died of Agent Orange exposure, very 
personally important. I have worked on toxic burn pits to try 
and get ahead of what I think could be the next Agent Orange. I 
worked on the Camp Lejeune toxic substances. I want you to know 
that I am very sympathetic to what we are trying to do with the 
Blue Water Navy, and I would like to meet in my office so that 
we can have a more fulsome discussion than we can have here. I 
want to see how we can really move on track to where we can 
bring people together, address some of the concerns I have 
about the pay-for. I think when it was previously proposed, you 
all had some--or some of the VSOs, I will not speak for you, 
had concerns with the pay-for. So, it is important to get it 
right. I think we do need to get it right.
    With respect to science, I think on dental health--I have 
done a lot of work in State public policy; dental health and 
physical health are inextricably linked. We need to make 
progress on that.
    I just wanted to thank you all for your service and let you 
know that our office is willing to work with you. We all know 
that the hearings are important, but what happens in the 
offices every day in meetings where we can drill down and talk 
about how you take positive steps and gain support for the 
measures is the way we get things done.
    Thank you all for your past service and your continued 
service.
    Chairman Isakson. I am glad Senator Tillis wants to work on 
this Blue Water Navy because I had the privilege of working 
with him on the Camp Lejeune issues here a couple years ago. 
Many of those questions leading up to that were not any more 
difficult than the ones we are talking about trying to solve 
with the Blue Water Navy. So, I look forward to working with 
him on that and the others.
    I thank all the Members for being here. I ask unanimous 
consent that the testimony of Dianne Feinstein--which was to 
have been made orally at the first panel, but she could not be 
here. She later submitted it in writing to be submitted for the 
record of today's hearing. Is there any objection?
    [No response.]
    Chairman Isakson. Hearing none, so ordered.

    [The prepared statement of Senator Feinstein can be found 
in the Appendix.]

    Chairman Isakson. Second, we received testimony for a 
February 7, 2018, legislative hearing which we had to postpone 
at the last minute due to inclement weather. I ask unanimous 
consent that the testimony received for that hearing be added 
to today's record for the purpose of making it public 
information. Any objection?
    [No response.]
    Chairman Isakson. Hearing none, so ordered.

    [The testimony submitted for February 7, 2018, for which an 
updated version was not received, is found in the Appendix.]

    Chairman Isakson. We thank you for your participation. We 
have more to do on these issues. This is not the end. This is 
the beginning. I appreciate you all being here very much.
    We stand adjourned.
    [Whereupon, at 4:19 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


         prepared statement submitted by hon. maria cantwell, 
                      u.s. senator from washington

       (brought forward from February 7, 2018, postponed hearing)

    Thank you Chairman Isakson and Ranking Member Tester for moving 
this bill through your committee.
    I would also like to thank Senator Fischer for her co-sponsorship 
and support of servicemembers on this very important issue.
    Currently, the SCRA provides servicemembers the ability to get out 
of term contracts for wireline and wireless telephone service--without 
penalty--upon the servicemember's deployment.
    This bill would extend the same relief for servicemembers that need 
to terminate term cable and Internet service contracts because of a 
deployment. By creating parity with other types of technology that 
servicemembers and their families regularly use we are protecting them 
from unfair termination fees and penalties that may arise when duty 
requires that they, and in some cases their families, move, in order to 
fulfill their duties.
    The text conforms to technical assistance we received from the FCC. 
We vetted with industry, veteran and armed services stakeholder groups. 
The broad support that the bill enjoys speaks to how timely and 
necessary these proposed changes are to bring the SCRA up to date so 
that servicemembers and their families can access the internet and 
cable services we all rely on to stay in touch with their friends and 
loved ones, stay informed about the news and remain connected around 
the world, no matter where they are deployed.
                                 ______
                                 
    Prepared Statement by Hon. Dianne Feinstein, U.S. Senator from 
                               California
          s. 2881--the mare island naval cemetery transfer act
    Chairman Isakson, Ranking Member Tester and Members of the 
Committee, Thank you very much for inviting me here today to discuss my 
legislation.
    S. 2881, the bill I have introduced with several of my colleagues, 
is straightforward and would transfer control of the Mare Island Naval 
Cemetery from the city of Vallejo to the Department of Veterans 
Affairs.
    I'd like to briefly provide some background on the history of this 
cemetery. The Mare Island Naval Cemetery is the oldest military 
cemetery on the West Coast. The cemetery was part of a U.S. Navy base 
that closed down in 1993. After the base closed, the nearby city of 
Vallejo assumed control of the property including the cemetery.
    The cemetery has over 900 graves, including over 800 veterans and 
three Medal of Honor Recipients. There are approximately 80 nonmilitary 
graves, the majority of which belong to military family members.
    Unfortunately, the city of Vallejo didn't have the necessary funds 
to care for the cemetery, which has only been maintained by volunteers 
with limited resources. The cemetery is very damaged: gravestones are 
toppled over, broken or sinking into the ground, serious drainage 
issues exist, and plants and weeds are overgrown. The current state of 
the cemetery requires urgent action to restore these graves and the 
grounds to a respectable condition.
    The bill is a simple transfer of the cemetery from the city to the 
Department of Veterans Affairs. This means that the VA would have the 
responsibility to restore the cemetery and maintain the grounds in a 
respectable condition.
    I want to thank you all for considering this bill and I want to 
thank Senators Harris, Markey, Menendez, Warren, Cardin and Booker for 
cosponsoring this legislation.
    We owe our veterans a great deal. By passing this bill we can 
ensure that the Mare Island Naval Cemetery is restored and maintained 
to honor our veterans who are buried there. For those veterans and 
their family members who sacrificed so much for our Nation, it is 
fitting that we do so.
    Thank you.
                                 ______
                                 
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
  Prepared Statement from The Advanced Medical Technology Association 
                               (AdvaMed)
    AdvaMed is the leading trade association representing medical 
technology manufacturers and suppliers that operate in the United 
States. Our members range from the largest to the smallest medical 
technology innovators and companies. Collectively, we are committed to 
ensuring patient access to life-saving and life-enhancing devices and 
other advanced medical technologies.
    The sacrifice our Nation's veterans and their families make on our 
behalf cannot be overstated. We all have an obligation to ensure they 
receive the highest quality care and have access to the best medical 
technology available. AdvaMed and its member companies believe strongly 
in our collective relationship with the U.S. Department of Veterans' 
Affairs (VA) and share the Department's goal of providing our veterans 
with the highest quality health care possible.
    There are approximately 8 million U.S. veterans of the armed 
services accessing the VA health care system, with another nearly 2.3 
million currently serving in the military on active duty that may do so 
in the future. Through earlier diagnosis and intervention, less 
invasive procedures and more effective treatments, medical technology 
is revolutionizing health care across the continuum of service and 
enhancing the lives of America's troops in the field and beyond. 
Technologies include: spinal cord stimulation; joint/limb replacements; 
wound care products; neurological devices; cardiac technologies; and 
many others. Through these technologies, our companies can help provide 
the standard of care reflective of the respect and commitment we owe to 
our Nation's veterans.
    One person's experience exemplifies our industry's mission when it 
comes to our Nation's veterans. Justin Minyard's story reflects the 
kind of people we are working every day to help--a combat veteran 
injured at the Pentagon while lifting and moving rubble in the search 
for survivors, who has found relief from his chronic back pain thanks 
to Boston Scientific's spinal cord stimulator.
    However, recent changes in VA's procurement of these critical 
medical technologies have created new barriers within the veteran 
health care system. These changes have resulted in significant 
inefficiencies in veterans obtaining access to care and reductions in 
the quality of health care accessible to veterans. In the long term, 
these changes risk pushing high caliber providers and suppliers of 
innovative products out of the VA system.
    Our overarching concern is that, collectively, these problems will 
severely restrict timely patient access to critical technologies and 
quality care, delay access to the right product at the right time and 
in the right setting for veterans and their providers, and possibly 
impact the ability of VA to attract and retain medical professionals.
    Thankfully, Congress has begun to address some of these issues and 
work with both the VA and industry on constructive solutions. H.R. 
5418, the Veterans Affairs Medical-Surgical Purchasing Stabilization 
Act authored by Rep. Bergman, is an important step in improving one 
component of the VA's procurement process. This legislation would place 
procurement decisionmaking for the Medical-Surgical Prime Vendor (MSPV) 
in the hands of clinical experts who are best equipped to advise the VA 
on the most appropriate medical technology to meet the health care 
needs of our Nation's veterans. At the same time, it would preserve the 
ability of the VA to obtain a range of products at a competitive price 
from multiple suppliers. AdvaMed supports the Committee's review of 
this legislation today and looks forward to working further with 
Congress on its adoption into law.
    A well-managed MSPV program would have significant benefits, make 
the VA a more efficient medical system, and reduce overall costs. More 
specifically, a well-run MSPV will give the VA: 1) a full spectrum of 
critical medical products for clinicians to be able to meet every 
veteran's needs that does not exist in today's MSPV program, 2) reduce 
the instances of procedure delays and cancellations at Veterans' 
Affairs Medical Centers (VAMCs) due to lack of needed devices in the 
current MSPV program, 3) reduce excessive and costly medical supply 
inventory levels that currently exist at VAMCs, 4) reduce costs to 
procure products, especially the rampant government purchase card use 
that exists today in VA medical centers due to a poorly run MSPV 
program, 5) reduces the time that VHA physicians and nurses are now 
required to spend away from veteran medical care in order to perform 
medical logistics functions, and 6) reduce the risk of gray market 
medical devices being procured by VA when products re not available in 
the MSPV.
    It is important for the VA to have an efficient procurement system 
across the board that allows for faster adoption of new medical 
technologies and standards of care, while also ensuring appropriate 
reimbursement times for those critical products. Improvements to the 
MSPV program are just one aspect of ensuring veterans have access to 
these life-saving and life-enhancing technologies. It is just as 
important to consider similar improvements to the implant procurement 
program, which includes permanently implantable products not available 
through the MSPV program, like joint replacement technologies, stents, 
etc.
    We welcome today's hearing as another opportunity to understand on 
how the VA, Congress, and industry can take a solutions-oriented 
approach to these issues and work together on the most effective 
resolution. We support efforts to ensure the VA, Congress, and industry 
to work together to review and seek ways to better implement processes 
and to ensure that all procurement policies evaluate technologies based 
on the value to patients. Ultimately, the most important measure of the 
success of the VA's new procurement policies is whether the veterans 
that they serve are getting access to the best medical care in a cost-
effective manner.
    Again, we are grateful for the Committee's leadership on this issue 
and especially appreciate the work of Chairman Isakson, Ranking Member 
Tester, and their staff.
                                 ______
                                 
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 
 Prepared Statement of Amy Webb, National Legislative Policy Advisor, 
                                 AMVETS

                                                Executive Summary
----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
H.R. 299--Blue Water Navy Vietnam Veterans Act of 2018                                                  Support
----------------------------------------------------------------------------------------------------------------
S.514--No Hero Left Untreated Act                                                                       Support
----------------------------------------------------------------------------------------------------------------
S.1596--BRAVE Act of 2017                                                                               Support
----------------------------------------------------------------------------------------------------------------
S.1952--VA Financial Accountability Act of 2017                                                         Support
----------------------------------------------------------------------------------------------------------------
S.1990--Dependency and Indemnity Compensation Improvement Act of 2017                                   Support
----------------------------------------------------------------------------------------------------------------
S.2485--Medal of Honor Surviving Spouses Recognition Act of 2018                                        Support
----------------------------------------------------------------------------------------------------------------
S.2748--BATTLE for Servicemembers Act                                                                   Support
----------------------------------------------------------------------------------------------------------------
S.2881--Mare Island Naval Cemetery Transfer Act                                                         Support
----------------------------------------------------------------------------------------------------------------
H.R. 5418--Veterans Affairs Medical-Surgical Purchasing Stabilization Act                               Support
----------------------------------------------------------------------------------------------------------------
DISCUSSION DRAFT on Transition Assistances Reform                                                       Support
----------------------------------------------------------------------------------------------------------------
DRAFT Veterans Dental Care Eligibility Expansion and Enhancement Act of 2018                            Support
----------------------------------------------------------------------------------------------------------------
DRAFT VA Hiring Enhancement Act                                                                         Support
----------------------------------------------------------------------------------------------------------------
DRAFT bill to require the Secretary of Veterans Affairs to establish a program to award grants to       Support
 person to provide and coordinate the provision of suicide prevention services for veterans
 transitioning from service in the Armed Forces who are at risk of suicide and for their families
 and other purposes
----------------------------------------------------------------------------------------------------------------
DRAFT Modernization of Medical Records Access for Veterans Act                                           Oppose
----------------------------------------------------------------------------------------------------------------


    Chairman Isakson, Ranking Member Tester, and all Members of the 
Committee; Thank you for the opportunity to provide a statement for the 
record on behalf of AMVETS' 250,000 members. We are particularly 
thankful for your efforts to address some of the most challenging and 
longstanding veteran policy issues and appreciate the dedication of 
your staff members who listen to us and work tirelessly to formulate 
policies intended to ensure our Nation's veterans and their families 
are properly cared for.
         h.r. 299--blue water navy vietnam veterans act of 2018
AMVETS supports H.R. 299
    This bill proposes to slightly raise Department of Veterans Affairs 
(VA) home loan fees to fund Agent Orange benefits for the estimated 
90,000 Blue Water Veterans who served during the Vietnam War. AMVETS 
supports this as the fees are minimally raised, and there hasn't been 
an increase in some time. Blue Water Veterans have advocated staunchly 
for this measure, and it is time that they are finally made whole after 
suffering the toxic wounds they incurred during their service to this 
Nation.
    AMVETS is also pleased that this bill allows for a presumption of 
herbicide exposure to certain veterans who served in or near the Korean 
Demilitarized Zone any time from September 1, 1967 to August 31, 1971 
who have conditions covered under section 1116 of title 38.
    Additionally, this measure recognizes the children of veterans who 
served in Thailand between January 9, 1962 and May 7, 1975 who were 
born with spina bifida. Those now adult children will be provided 
benefits including health care, vocational training and rehabilitation 
and a monetary allowance matching the same benefits provided to 
children of Vietnam Veterans who were born with spina bifida.
    AMVETS looks forward to the reporting requirement in this measure 
requiring the Secretary of Veterans Affairs to provide an update report 
on the most recent findings of the Follow-up Study of a National Cohort 
of Gulf War and Gulf Era Veterans to the House and Senate Committees on 
Veterans Affairs.
    While slightly increasing VA home loan fees as a source of revenue, 
we are pleased that Purple Heart recipients and those veterans with a 
service-connected disability rated as permanent and total will have 
said fees waived.
                   s. 514--no hero left untreated act
AMVETS supports S. 514
    AMVETS is pleased to support the No Hero Left Untreated Act, which 
seeks to establish a pilot program for two Department of Veterans 
Affairs (VA) medical centers to treat fifty veterans using magnetic 
EEG/EKG-guided resonance therapy.
    Magnetic EEG/EKG-guided resonance therapy has successfully treated 
more than 400 veterans with Post Traumatic Stress Disorder, Traumatic 
Brain Injury, military sexual trauma, chronic pain, and opiate 
addiction. This small pilot would be instructive to VA in understanding 
the benefits and deciding whether to offer this promising therapy to 
those receiving VA health care.
    AMVETS is encouraged by the initial results of those treated with 
magnetic EEG/EKG-guided resonance therapy and supports the pilot which 
would allow VA to see the results first-hand, with the eventual goal of 
supporting this alternative therapy. If it were fully understood how to 
treat these nuanced disorders and health issues, VA would already be 
doing so--and suffice it to say--the veteran suicide rate would most 
assuredly be lower than it is now. It is imperative that we study new 
ways to help those who have stood up and walked the walk and suffer the 
consequences day after day.
 s. 1596--burial rights for america's veterans efforts (brave) act of 
                                  2017
AMVETS supports S. 1596
    AMVETS has a National Resolution, voted on by our membership, which 
advocates for the Department of Veterans Affairs to increase burial 
benefits. This measure seeks modest increases with built-in future 
increases related to the Consumer Price Index for funeral expenses for 
veterans receiving, or eligible to receive compensation who have no 
next of kin or other person claiming the body of the deceased veteran, 
and when there are not available sufficient resources to cover burial 
and funeral expenses. It also increases funeral expenses for those 
veterans who died as a result of a service-connected disability, which 
we wholly support.
s. 1952--department of veterans affairs financial accountability act of 
                                  2017
AMVETS supports S. 1952
    This bill cuts to the heart of what seems to have become regular 
emergency appropriations requests from the Department of Veterans 
Affairs (VA) to Congress. Often, this includes an appeal that if 
Congress fails to act then veterans will suffer. The processes put in 
place with the passage of this bill would indeed create VA financial 
accountability, and a system of checks and balances that can prevent 
needless emergency appropriation requests. The end result of 
implementation would be a more fiscally sound Department, that would 
have knowledge of every avenue of spending, how to forecast needed 
funds in advance, and how to stop ``living paycheck to paycheck'' where 
one emergency, or the inability to forecast necessary funding, cleans 
out the account. Our veterans and taxpayers deserve better, and we 
applaud the bipartisan leadership that introduced this bill.
 s. 1990--dependency and indemnity compensation improvement act of 2017
AMVETS supports S. 1990
    AMVETS supports the long overdue increase in dependency and 
indemnity payments made to survivors of eligible servicemembers or 
veterans, and the modifications in the measure which eliminates the 10-
year rule for veterans rated at 100 percent disability and creates a 
five-year rule where eligible survivors can receive a payment prorated 
relative to a percentage of the full 10-year amount of compensation.
   s. 2485--medal of honor surviving spouses recognition act of 2018
AMVETS supports S. 2485
    AMVETS supports honoring Medal of Honor survivors with this modest 
increase to their special pension.
      s. 2748--better access to technical training, learning and 
            entrepreneurship (battle) for servicemembers act
AMVETS supports S. 2748
    This measure takes a common-sense approach by allowing groups or 
classifications of those under the purview of the Secretaries of 
Defense or Homeland Security to obtain a waiver to opt out of 
additional training. This would be permitted after consultation with 
the Secretaries of Labor and Veterans Affairs who would need to agree 
that the members in question would not benefit from additional training 
and present a strong reason to believe that they are unlikely to face 
major readjustment, health care, employment and other transition 
challenges that some face. The member may also elect not to receive 
additional training by requesting so in writing, or because they are 
needed to support the imminent deployment of a unit. AMVETS believes 
this could be a cost and time-saving policy, while recognizing that 
many do benefit from such training.
            s. 2881--mare island naval cemetery transfer act
AMVETS supports S. 2881
    S. 2881 directs the Secretary of Veterans Affairs to seek out an 
agreement with the city of Vallejo in California, under which the city 
would transfer control of the Mare Island Naval Cemetery to the 
Department of Veterans Affairs (VA) National Cemetery Administration. 
The VA would pay nothing to acquire the land, and would assume the 
obligation of maintaining the cemetery in the future.
    The cemetery, which dates back 160 years as part of the oldest West 
Coast military base, is the final resting place of 800 veterans, 
including three Medal of Honor recipients. The Federal Government 
closed the Mare Island Naval Base in 1996 without allotting funds for 
the care and maintenance of the cemetery. After more than twenty years 
of neglect, the state of disrepair at the Mare Island Naval Cemetery is 
a national embarrassment, and a disgrace.
    Congress must move swiftly to enact this measure to repair and 
maintain the Mare Island Naval Cemetery.
 h.r. 5418--veterans affairs medical-surgical purchasing stabilization 
                                  act
AMVETS supports H.R. 5418
    This measure adds a needed level of accountability to the 
Department of Veterans Affairs (VA) Medical Surgical Prime Vendor-Next 
Generation (MSPV-NG) program. One vendor should not be permitted to be 
the sole, uncontested provider of medical surgical supplies in a 
certain region, and this would require that multiple contracts be 
awarded while prohibiting a prime vendor from solely designing the 
formulary of supplies.
    It also ensures that VA employees in charge of formulary analyses 
or who makes decisions regarding to including items on the formulary 
have relevant medical expertise. GAO issued a report at the end of 2017 
outlining the improvements needed in purchasing medical and surgical 
supplies and noted how implementing the improvements could yield cost 
savings and efficiency. AMVETS agrees with the GAO recommendations and 
believes passage of this bill can assist in implementing needed change.
           discussion draft on transition assistances reform
AMVETS supports this Discussion Draft
    AMVETS supports this Discussion Draft which consolidates sections 
1142 and 1144 of Chapter 58 of title 10 into one cohesive section, with 
large expansions geared toward improving the Transition Assistance 
Program for members of the Armed Forces.
    Some highlights from the draft include that it allows the 
natiSecretary of Defense to not require attendance in more than one 
class or counseling session per year, yet strengthens the 
accountability of reporting attendance for covered counseling, 
information, and services and rates of attendance in-person, online, 
and the number of waivers granted when the mission prevented attendance 
by a member of the Armed Forces. This is information will be part of a 
new reporting requirement to Congress.
    The discussion draft also would require surveys of those in the 
Armed Forces to assess their experiences with the TAP counseling, 
information and services provided to include quality of instruction and 
courses and their opinion on if their transition needs were adequately 
met. The survey will also seek to identify barriers or obstacles of 
members in accessing the services or counseling. There will be a second 
survey undertaken after transition has fully taken place which will ask 
about their employment history since separation or retirement, if they 
have been in receipt of unemployment benefits, if they pursued further 
education, have joined a Veterans Service Organization or other 
veterans support group, and will seek details on the satisfaction of 
their separation, and any challenges they may have faced. If married 
during separation some of the survey questions would include the spouse 
experiences. The survey will also request recommendations for 
improvement in the counseling and assistance provided in connection 
with transition.
    AMVETS is excited about the provisions which focus on career 
readiness and professional development to include resume assistance, 
interview and job recruitment training, behavioral, educational and 
financial services, legal and benefits assistance, and non-clinical 
case management.
    We are also pleased that the measure would establish a governing 
board to support prevention of drug overdoses, suicides, alcohol-
related deaths and homelessness among veterans through strategic 
partnerships with a vast array of established Federal and community 
entities. The board would also track substance abuse and suicide rates 
in addition to its outreach and support. Economic risk factors which 
may affect suicide prevention efforts will also be reported on.
    AMVETS believes this is a strong discussion draft, and that if the 
new measures are added to enhance the current Transition Assistance 
Program are implemented correctly, that it will go a long way toward 
not only encouraging post-transition employment but will address risk 
factors that can lead to feelings of desperation and sometimes suicide. 
We applaud the work of the Senators Crapo, Tester, Cassidy and Sullivan 
on this in-depth, well thought out reform plan.
   draft veterans dental care eligibility expansion and enhancement 
                              act of 2018
AMVETS supports this Draft measure
    AMVETS supports Section 2 of this measure and amending Section 
1710(c) of title 38 to ensure that eligible veterans may be provided 
dental services and treatment and dental applications needed to restore 
functioning that was lost due to the hospital care, medical services or 
nursing home care the veteran received under Section 1710.
    Section 3 would initiate a three-year pilot program that would 
provide dental services and treatments to veterans currently enrolled 
as a patient in the Department of Veterans Affairs (VA) who are not 
eligible for dental services, treatment and related appliances. The 
services provided would be consistent with those currently provided to 
veterans who are 100% service-connected, and applicable co-pays would 
be collected commensurate to current copays authorized for medical care 
under chapter 17 of title 38.
    The pilot would take place in at least 16 locations and serve up to 
100,000 veterans and there would be a reporting requirement to include 
assessments and cost analysis of the pilot.
    Sections 4 and 5 would allow the VA to lease a dental clinic in 
states where VA does not have a facility that offers onsite dental 
services along with an appropriation of $10,000,000 to carry this out; 
and would develop a dental health education program for enrolled 
veterans.
    Section 6 expands the dental insurance pilot established by section 
17.169 of title 38 to allow private sector dental care providers 
information to VA on dental care furnished to veterans within the pilot 
and extend the pilot for two years.
    Section 7 would establish a VA demonstration program to establish 
programs to train and employ alternative dental health care providers 
to increase access to dental care for veterans who are eligible to 
receive dental services from VA.
    The full amount of appropriations for this Act, if implemented is 
$500,000,000, over a five-year period not including section 4.
    AMVETS understands that dental care is vital to the overall health 
of an individual, and a common complaint we hear from our members is 
their inability to either access affordable dentistry or that a dental 
procedure was delayed to the point that something small turned into an 
incredibly expensive procedure. Sometimes due to delays they have to 
have teeth pulled. AMVETS supports the proposed pilot and the positive 
health outcomes it can provide veterans.
                    draft va hiring enhancement act
AMVETS supports this Draft measure
    AMVETS supports the intention of this draft, which seeks to allow 
the Department of Veterans Affairs the ability to waive non-compete 
covenants made with a non-VA facility when aiming to hire a VA 
physician. This step can assist in widening the pool of those eligible 
to apply to become a physician at the VA, and lead to filling vacancies 
in a more effective manner.
draft bill to require the secretary of veterans affairs to establish a 
    program to award grants to person to provide and coordinate the 
  provision of suicide prevention services for veterans transitioning 
  from service in the armed forces who are at risk of suicide and for 
                   their families and other purposes
AMVETS supports this Draft measure
    AMVETS strongly supports this draft, and is pleased that it seeks 
to reach our most vulnerable transitioning veterans at the highest risk 
of suicide by not only working with people who are trained in 
understanding when someone is at high risk, but who have developed 
strategies to meet them where they are an assist in multiple levels 
including mental health, peer support, financial planning, temporary 
transportation if needed, and child care.
    We think the establishment of a VA Program that offers grants to 
persons/groups to coordinate suicide prevention services to veterans 
who would be eligible for 3 years after separating. It gives priority 
to veterans who are currently not being seen within VHA, but the 
veteran must be notified that the Department is funding the care. It 
also prioritizes rural areas, those areas that have experienced a high 
rate of veteran suicide, and places where no health care is furnished 
by VA.
     draft modernization of medical records access for veterans act
AMVETS opposes this Draft measure
    We owe it to our veterans to protect them and sensitive information 
regarding their health care. HIPPA laws exist for a reason and we are 
concerned that, encrypted or not, a portable credit card device could 
easily be lost, or tampered with, or could put sensitive information in 
the wrong hands. We also owe it to our veterans, as more and more are 
being seen in the private sector, to have the Department of Veterans 
Affairs devise a secure information sharing framework where a patient's 
information can be shared with private sector medical providers with 
the approval of the patient. This bill relieves VA of that 
responsibility and at what cost? At some point, we have faith that 
CERNER will have developed just this capability, but in the meantime 
this type of measure can easily go down a dangerous road, especially 
with no authorization of appropriations. We have seen all too much 
recently, the proposals to cut one form of veterans' benefits in order 
to fund another. In this situation we have faith that record sharing 
can be made amenable for the veterans of all populations, some of whom 
are homeless, and that the burden will not be placed on them to protect 
their own information, but that the system designed to care for them 
will figure out a way to do just that. The private sector has figured 
it out and there is no reason to complicate this.

    Thank you for the opportunity to provide a statement for the record 
for this legislative hearing.
    Please do not hesitate to reach out to AMVETS with any follow up 
questions or concerns.
                                 ______
                                 
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
  Joint Written Testimony of Hon. Tim S. McClain, Chairman, Board of 
 Directors and Mr. James Lorraine, President & CEO, America's Warrior 
                        Partnership, Augusta, GA
Testimony in Support of:

<bullet> ``Discussion Draft on Transition Assistance reform''
<bullet> S.___(Cassidy), An Act to establish a program to award grants 
            to coordinate the provision of suicide prevention
<bullet> S. 1990 (Tester/Blumenthal/Hirono), Dependency and Indemnity 
            Compensation Improvement Action of 2017
<bullet> S. 2485 (Sullivan), Medal of Honor Surviving Spouses 
            Recognition Act of 2018

    Chairman Isakson, Ranking Member Tester, and Members of the 
Committee: Thank you for the opportunity to provide testimony today on 
several pieces of proposed legislation that offer the potential to have 
tremendous impact on our Nation's veterans. I am Tim McClain and have 
had the honor of serving our country on active duty for more than 20 
years as a Navy Surface Warfare Officer and JAG Corps Officer, and the 
privilege of serving as a former General Counsel for the U.S. 
Department of Veterans Affairs (VA).
    I am currently the Chairman of the Board of Directors of America's 
Warrior Partnership, a nonprofit organization serving veterans and 
their families. Our mission at America's Warrior Partnership is to 
empower communities to empower veterans. Our approach to the mission 
takes many forms, but it starts with connecting community organizations 
with local veterans to understand their unique needs and situations. 
After gaining this knowledge, we connect local veteran-serving 
organizations with the appropriate resources, services and partners 
that the veteran requires. Our ultimate goal is to create a better 
quality of life for all veterans.
    Our Community Integration model provides the framework for 
organizations to conduct proactive outreach to veterans and 
holistically serve all of their needs. We have seen incredible results 
from this model, which has established relationships with more than 
42,000 veterans since February 2014 in our eight Affiliate Communities 
across the country. Proactive outreach is having a tremendous impact on 
these veterans. More than 90% of our veterans self-report that 
America's Warrior Partnership's proactive engagement and support give 
them a greater level of overall satisfaction, and they believe their 
community really cares about their well-being. America's Warrior 
Partnership's Community Integration model works.
    Providing testimony with me today is the president and CEO of 
America's Warrior Partnership, Mr. Jim Lorraine, who is also a veteran 
of our great country having served for 22 years as an Air Force Officer 
and Flight Nurse. Prior to founding America's Warrior Partnership, Mr. 
Lorraine served as the founding director of the United States Special 
Operations Command Care Coalition, a wounded warrior advocacy 
organization recognized as the gold standard in supporting more than 
4,000 special operations force wounded, ill, or injured and their 
families. He has also served as Special Assistant for Warrior and 
Family Support to the Chairman, Joint Chiefs of Staff, during which 
time he transformed the Chairman's ``Sea of Goodwill'' concept into a 
strategy. Mr. Lorraine will provide America's Warrior Partnership's 
testimony regarding four pieces of proposed legislation.
    Mr. Lorraine. Thank you, Mr. McClain. In my testimony today, I will 
first address the draft of the proposed legislation on Transition 
Assistance Program reform.
    We believe this reform establishes a very important goal for 
improving services to our Nation's warriors and that, in theory, it 
could have a very positive impact on veterans and the community. We 
fully support and embrace a holistic approach to serving veterans' 
needs, as evidenced by our mission and work at America's Warrior 
Partnership. We have seen first-hand the positive effects that 
proactive outreach has on veterans, and we are pleased that this reform 
both acknowledges this fact and empowers organizations to conduct this 
outreach. Specifically, including communities in the Transition 
Assistance Program reform through the proposed grant program will be 
revolutionary in the ability to locally transition veterans and measure 
long-term outcomes. The draft legislation is the first comprehensive 
legislative approach to assisting military members in their transition 
to civilian life. All of the requirements in the draft are sorely 
needed. However, we would like to state how important collaboration 
among the Department of Defense (DOD), Department of Labor (DoL) and 
the VA is to the success of this reform. Each department brings their 
strength to transition, but we strongly feel DoL is in the best 
position to administer the community interface since the path to 
success is employment. With greater DoL emphasis during pre-transition 
training, the end result will prove measurable and impactful.
    Additionally, the notion of these departments working together to 
implement the Transition Assistance Program has been the mission for 
many years, but it has not proven as effective as intended. Strong 
engagement and support from the DOD, DoL and the VA collectively is 
essential to achieving the goal of real and lasting reform in warrior 
transition. I want to reiterate that we at America's Warrior 
Partnership fully support the goal of this reform, and respectfully 
offer our constructive input based on experience in order to make this 
reform even stronger by stressing the importance of collaboration, a 
principle that also forms the foundation of our own organization's 
work.
    The second piece of legislation I would like to comment on concerns 
the establishment of a grant program to support suicide prevention 
services. The VA reported earlier this year that, on average, 20 
veterans die by suicide every day. This is an alarming public health 
concern that affects every community in the country, and this 
legislation is a step in the right direction of ensuring veteran-
serving professionals have the means to proactively help at-risk 
veterans. The financial support offered by this program will bolster 
the work of researchers who are currently studying the indicators and 
risk factors of suicide and self-harm among veterans. Our team at 
America's Warrior Partnership is collaborating on one such study with 
University of Alabama researchers through funding from the Bristol-
Myers Squibb Foundation. This project, called Operation Deep Dive, is 
the first of its kind to evaluate the role that community environments 
and less-than-honorable discharges may have in suicide among veterans, 
among other factors. The goal of the study is to provide actionable 
insights that can guide the development of effective programs for 
reducing self-harm among veterans. The findings provided by projects 
such as Operation Deep Dive, combined with the support of this grant 
program, are critical elements that will empower communities to help 
veterans live and thrive long after their service is complete.
    My third testimony addresses Senate Bill 1990, which would increase 
dependency and indemnity compensation to surviving family members of 
veterans who were rated totally disabled at time of death. Military 
families serve in their own way by supporting their loved ones both 
during active duty and in their transition to civilian life. The 
service and sacrifice of our veterans may at times result in a 
disability that puts significant strain on the veteran and their family 
members who care for them. Our team at America's Warrior Partnership 
and the affiliate communities that we collaborate with understand these 
sacrifices, which is why our holistic approach to serving veterans is 
always inclusive of their families as well. This bill has the potential 
to offer a lifeline to the families of disabled veterans who need it 
most.
    Finally, I would like to comment on Senate Bill 2485, which would 
provide payment of a special pension to the surviving spouse of a 
deceased Medal of Honor recipient. Our Nation's Medal of Honor 
recipients go above and beyond the call of duty, and we as a nation owe 
them nothing less in return. America's Warrior Partnership is honored 
to have two Medal of Honor recipients serve on our board of directors. 
Their integrity and example continue to guide our mission of empowering 
communities to empower veterans, and the support provided by this 
legislation can help the families of Medal of Honor recipients continue 
their legacy long after their service is complete.
    I appreciate the opportunity to comment on these critical areas and 
will now let Mr. McClain conclude our testimony.
    Mr. McClain. Thank you, Mr. Lorraine.
    Chairman Isakson, thank you for inviting us to provide testimony 
today. We are both honored and pleased to have this opportunity. Our 
mission is the same as the mission of this Committee: to ensure that 
all veterans are taken care of and provided the benefits that they have 
rightfully earned through their service to our country. There is much 
work to be done, and we look forward to continue collaborating with the 
Department of Veterans Affairs and our partners across the country to 
empower veterans from all walks of life as they transition to civilian 
life.
    Thank you again for the invitation to share our testimony today.
                                 ______
                                 
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
  Prepared Statement Submitted by Cinthia Johnson, Interim Executive 
              Director, Connecticut Veterans Legal Center

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
    Prepared Statement of Jeremy M. Villanueva, Associate National 
            Legislative Director, Disabled American Veterans
    Mr. Chairman and Members of the Committee: Thank you for inviting 
DAV (Disabled American Veterans) to submit testimony for the record of 
this legislative hearing of the Senate Veterans' Affairs Committee. As 
you know, DAV is a non-profit veterans service organization comprised 
of more than one million wartime service-disabled veterans that is 
dedicated to a single purpose: empowering veterans to lead high-quality 
lives with respect and dignity. DAV is pleased to offer our views on 
the bills under consideration by the Committee.
         h.r. 299, blue water navy vietnam veterans act of 2018
    H.R. 299 was passed by the House of Representatives with a vote of 
382 to 0 on June 25, 2018.
    Section 2 (Clarification of Presumptions of Exposure for Veterans 
Who Served in Vicinity of Republic of Vietnam) would provide 
presumption of service connection for herbicide exposure for Vietnam 
era veterans with service in the waters offshore. The bill defines a 
location as being offshore of Vietnam if the location is not more than 
12 nautical miles seaward of a line commencing on the southwestern 
demarcation line of the waters of Vietnam and Cambodia and intersecting 
specific points as noted.
    The Agent Orange Act of 1991 required the Department of Veterans 
Affairs (VA) to provide presumptive service connection to Vietnam 
veterans with illnesses that the National Academy of Sciences directly 
linked to Agent Orange exposure. Yet, in 2002, the VA decided to cover 
only veterans who could prove that they had ``boots on the ground'' 
during the Vietnam War. Because of this decision, thousands of Vietnam 
veterans were excluded from receiving benefits although these ``Blue 
Water'' Navy veterans had significant Agent Orange exposure from 
drinking and bathing in contaminated water just offshore. It is simply 
inequitable that veterans who served on ships no more distant from the 
spraying of herbicides than many who served on land have been 
arbitrarily and unjustly denied benefits because they are excluded from 
the presumption of service connection for herbicide-related 
disabilities.
    DAV strongly supports Section 2 (Clarification of Presumptions of 
Exposure for Veterans Who Served in Vicinity of Republic of Vietnam) 
based on DAV Resolution No. 033, which calls for legislation to 
expressly provide that the phrase ``served in the Republic of Vietnam'' 
include service in the territorial waters offshore.
    Enactment of this legislation would provide ``Blue Water'' Navy 
Vietnam veterans the disability and health care benefits they earned as 
a result of exposure to Agent Orange. Eligibility for VA benefits under 
this legislation would be retroactive to September 25, 1985, the date 
VA began providing disability compensation to veterans with medical 
disorders related to Agent Orange providing long overdue justice to 
thousands of veterans who were excluded by the VA in 2002.
    Section 3 (Presumption of Herbicide Exposure for Certain Veterans 
who served in Korea) would recognize September 1, 1967 as the earliest 
date for exposure to herbicides on the Korean demilitarized zone (DMZ).
    Currently, VA regulations provide that any veteran who, during 
active military, naval, or air service, served between April 1, 1968, 
and August 31, 1971, in a unit that, as determined by the Department of 
Defense, operated in or near the Korean DMZ in an area in which 
herbicides are known to have been applied during that period, shall be 
presumed to have been exposed during such service to an herbicide 
agent. Section 2 would define the exposure to herbicides as a veteran 
who, during active military, naval, or air service, served in or near 
the Korean DMZ, during the period beginning on September 1, 1967, and 
ending on August 31, 1971.
    In accordance with DAV Resolution No. 090, we also support Section 
3, to recognize September 1, 1967, as the earliest date for exposure to 
herbicides on the Korean DMZ. This change will provide veterans exposed 
to herbicides on the Korean DMZ with greater equity with respect to 
herbicide exposure and the presumptive diseases associated therein.
    Section 4 (Benefits for Children of Certain Thailand Service 
Veterans born with spina bifida) would provide children of veterans 
exposed to herbicides in Thailand, who are suffering from spina bifida, 
the health care, vocational training and rehabilitation, and monetary 
allowance required to be paid to the children of Vietnam veterans who 
are suffering from spina bifida.
    VA provides spina bifida-related benefits for the children of 
Vietnam veterans exposed to herbicides in Vietnam and on the DMZ in 
Korea. This bill would provide the same entitlements to the children of 
Vietnam era veterans exposed to herbicides while serving in Thailand. 
In accordance with DAV Resolution No. 090, we support Section 4, as it 
provides relief and equity to veterans' children suffering from the 
devastating effects of spina bifida.
    Section 5 (Updated Report on certain Gulf War Illness study) would 
require the VA to submit to the Committees on Veterans' Affairs of the 
House of Representatives and the Senate an updated report on the 
findings, as of the date of the updated report, of the Follow-up Study 
of a National Cohort of Gulf War and Gulf Era Veterans under the 
epidemiology program of the VA.
    The VA has recognized certain illnesses associated with Gulf War 
service in the Southwest Asia theater of military operations from 
August 2, 1990 to the present. These medically unexplained illnesses 
are long-term health problems with significant impairments.
    DAV has significant concern regarding the multitude of ailments 
reported by a growing number of Persian Gulf War veterans who were 
exposed to both identified and unknown health hazards. In accordance 
with DAV Resolution No. 261, we support Section 5, the requirement for 
the updated report of the Follow-up Study of a National Cohort of Gulf 
War and Gulf Era Veterans under the epidemiology program of the VA.
    Section 6 (Loans Guaranteed Under Home Loan Programs of Department 
of Veterans Affairs) would make several changes to the VA Home Loan 
Guaranty program. First, it would remove the current limit on maximum 
loan guaranties to align it with other Federal home loan programs that 
allow nonconforming, or ``jumbo'' loans. Second, it would increase the 
fees charged to veterans using the program by approximately .25 percent 
for nine years, thereafter reverting to the fee schedule as it 
currently exists. It is important to note that veterans with a service-
connected disability are currently exempt from paying any home loan 
guaranty fees. Third, it would require that veterans with less than a 
total disability rating be required to pay fees for loan guaranties if 
they require a jumbo loan guaranty above the conforming limits. These 
fees would apply to the entire loan guaranty, not just the portion 
above the limit.
    DAV Resolution No. 002, adopted at our most recent National 
Convention this July in Reno, Nevada, `` . . . vigorously opposes any 
recommendations made for the purpose of reducing, adding limitations on 
or eliminating benefits for service-connected disabled veterans and 
their families.'' By imposing fees for the first time on VA home loan 
guaranties for service-disabled veterans, this Section would 
effectively reduce the value of benefits that have already been paid 
for through their service and sacrifice. DAV opposes Section 6 of the 
bill.
    DAV does not have a resolution specific to Section 7 (Information 
Gathering for Department of Veterans Affairs Home Loan Appraisals) and 
takes no position on this section.
 h.r. 5418, veterans affairs medical-surgical purchasing stabilization 
                                  act
    This measure would require the VA to use multiple vendors in 
procuring medical supplies and ensure that the employees responsible 
for selecting the supplies have medical expertise regarding those 
items. VA currently uses four vendors to purchase its medical supplies 
and employs clinicians on its integrated product teams to select those 
supplies. VA would also be required to submit quarterly reports to the 
Congress identifying the individual employees at VA who determine which 
items to purchase for VA's formulary and describing their medical 
expertise.
    We urge the Committee ensure this bill requires VA support 
businesses controlled by service-disabled veterans in its medical 
surgical prime vendor program. DAV Resolution No. 306 calls for 
legislation requiring the Federal Government make mandatory set-asides 
of not less than 3 percent of the total value of all prime and 
subcontract awards to businesses controlled by service-disabled 
veterans each fiscal year. Additionally, it calls for effective 
monitoring and accountability for Federal agencies that are not meeting 
the set-aside goal of not less than three percent, and a mandate to 
list in their annual reports their prior fiscal year's actual 
percentage of meeting this goal, the results of which would serve as an 
annual report card of which agencies need the most assistance in the 
development and implementation of stronger contracting compliance.
    In addition, DAV Resolution No. 277 calls for the provision of all 
supplies, prosthetic devices and medications, including over-the-
counter medication, necessary for the proper treatment of service-
connected disabled veterans. This recognizes VA's more recent efforts 
to aggressively standardize durable/disposable equipment, including 
prosthetics and similar items, to realize greater savings by buying 
fewer distinct items in greater quantity from fewer suppliers while 
minimizing the volume of government purchase card usage to the 
detriment to the veteran patient. We support the provision in this 
measure that would require clinically driven sourcing to ensure 
adequate input from frontline clinical providers with the expertise on 
the specific items within the formulary to ensure veterans receive the 
prosthetics and similar items that promote, preserve, and restore the 
veteran's whole health and not merely for medical necessity.
                   s. 514, no hero left untreated act
    S. 514 would require the VA secretary to carry out a pilot program 
to provide veterans access to magnetic EEG/EKG-guided resonance therapy 
(also known as transcranial magnetic stimulation or TMS). The year-long 
pilot program would take place at not more than two VA facilities for 
not more than 50 veterans. VA would be required to submit a report 
about the pilot 90 days after the termination of the pilot.
    In 2008, the Food and Drug Administration (FDA) approved TMS for 
drug resistant major depression. Other applications of TMS to such 
conditions as to Post Traumatic Stress Disorder (PTSD), Traumatic Brain 
Injury, chronic pain, and opiate addiction (conditions targeted by this 
bill) are considered ``off-label'' meaning that doctors may employ 
them, but the therapy has not been approved for these purposes.
    Emerging research has shown that TMS does reduce symptoms of PTSD 
and helps with some other issues such as autism and Alzheimer's 
although many questions remain about the duration of symptom relief, 
how to most appropriately administer the treatment and whether TMS is 
more effective for all conditions than more conventional treatments.
    As we understand it, VA does own a significant number of these 
machines. Some are being used in studies, but some are beginning to 
offer treatment for depression under the accepted FDA protocol.
    DAV Resolution No. 277 calls for VA to provide access to 
complementary and integrative medicine. Likewise, we have consistently 
called on VA to develop innovative approaches to manage and treat 
mental health conditions (Resolution No. 293).
    While the empirical evidence for TMS applications continue to 
emerge, DAV believes that veterans deserve access to the promising 
results of treatment claimed by veterans who have used TMS and hopes 
that additional studies using this technology will yield more 
information in support of the treatment for other conditions. For these 
reasons, DAV supports S. 514.
 s. 1596, the burial rights for american veterans' efforts (brave) act 
                                of 2017
    S. 1596 would increase the burial allowance payable to the 
veteran's beneficiary regardless of whether the death occurs in a VA 
facility and provides for automatic annual adjustments to keep up with 
future inflation.
    The passage of Public Law 111-275, the Veterans Benefits Act of 
2010, resulted in an increase in both plot and burial allowance from 
$300 to $700 for nonservice-connected deaths in VA facilities. It is 
indexed to the Consumer Price Index for annual adjustments and 
currently pays $762. However, it did not address nonservice-connected 
deaths that did not occur in VA facilities nor did it address service-
connected death burial payments currently at $2000.
    The current $300 burial allowance for nonservice-connected deaths 
not in VA facilities was last increased in April 1988 and the current 
$2000 burial allowance for service-connected death was last increased 
in December 2001.
    In 1973, the burial allowance for veterans with no next of kin and 
non-service-connected death was 22 percent of funeral and burial costs. 
The current $300 burial allowance for nonservice-connected deaths not 
in VA facilities in comparison to the average cost of a funeral is 
about $9,000, decreasing the value of this allowance significantly to 
approximately 3 percent.
    Service-connected death burial allowance in December 2001 was 
$2,000 and the average funeral cost at that time was $6,000. The 
payment value was 33 percent of the cost. Today, the average funeral 
cost has increased to $9,000, decreasing the value down to 22 percent 
of the burial allowance benefit, a decrease of 11 percent.
    We note that the median cost of funerals and burials is rising 
higher than the Consumer Price Index for all urban consumers (CPI-U). 
S. 1596 would tie the benefit to the CPI-U, providing some needed 
adjustment; however, in the long-term, the benefit will erode if this 
discrepancy continues.
    Notwithstanding, DAV strongly supports S. 1596, in accordance with 
DAV Resolution No. 054, adopted at our most recent national convention. 
Our resolution calls on Congress to support legislation to increase the 
burial allowance payable in the case of death due to service-connected 
disability regardless of whether the death occurs in a VA facility and 
provide for automatic annual adjustments indexed to the cost-of-living 
increases.
            s. 1952, va financial accountability act of 2017
    This bill would require VA to contract with a third-party to review 
and audit its financial processes and models for estimating veterans' 
demand for services that inform its budget request. It would further 
require the contractor to make recommendations about improving such 
models within 180 days of being awarded the contract. VA would then be 
required to submit a plan for implementing these recommendations within 
60 days of completion of the review. VA would appoint an individual to 
ensure that the third party recommendations are implemented along with 
those pertinent recommendations of the Government Accountability 
Office, the Special Counsel and VA's Inspector General. The Secretary 
would have to justify, within 45 days, any requests for supplemental 
appropriations. The bill would also require VA's Chief Financial 
Officer (CFO) to certify that the budget request is sufficient to 
provide benefits and services for veterans required by law, and that 
the CFO has made consultations with budget officers throughout the 
Department to estimate budgets.
    DAV has a long history of supporting predictability and 
transparency in VA's budget process under DAV Resolution No. 112. We 
strongly advocated for the passage of Public Law 111-81 which required 
advanced appropriations for VA's Medical Care account and has 
subsequently protected veterans from delayed or denied care due to 
government shutdowns. This same law required that GAO submit an 
analysis of VA's actuarial models versus its actual obligations in 
fiscal years 2011, 2012, and 2013. We note that in recent years VHA has 
been compelled to deal with a series of major transitions in health 
care delivery such as the Veterans Choice Program, and now the VA 
MISSION Act of 2018 that have drastically changed how the Department 
estimates demand for services. These changes likely account for much of 
the lack of precision in recent budget requests and the subsequent need 
for supplemental funding. Yet it is important to ensure transparency in 
these efforts, which is why DAV opposed the proposal to consolidate 
Medical Services and Medical Community Care accounts.
    We believe as VA continues to evolve its practices such as 
recording community care obligations at the date of payment rather than 
at the date of authorization and gains experience with its new 
contracting authorities, its estimations will likely become more 
accurate. Nonetheless, DAV understands the importance of accurate 
budget models and processes and therefore are pleased to support 
S. 1952.
 s. 1990, dependency and indemnity compensation improvement act of 2017
    S. 1990 would increase dependency and indemnity compensation (DIC) 
for surviving dependents and would lower the threshold of eligibility 
to allow certain survivors to receive this benefit who currently do not 
meet the requirements.
    Under title 38, United States Code, Sec. 1318(b)(1), a survivor, is 
eligible for DIC if the veteran was 100 percent permanently and totally 
disabled for ten years prior to death. S. 1990 would ease the 10-year 
rule for eligibility and replace it with a graduated scale of benefits 
that begins after five years. If a veteran is rated as totally disabled 
for five years and dies as a result of a non-service-connected cause, a 
survivor would be entitled to 50 percent of total DIC benefits. This 
concept of the percentage of benefits payable based the number of years 
is applicable for payments at 60, 70, 80, 90, and then 100 percent of 
the DIC amount.
    This bill would increase the DIC base rate as equal to 55 percent 
of the rate of compensation paid to a totally disabled veteran, making 
it more equitable with rates provided to Federal civilian employee 
survivors, and it would reduce the age allowed for a surviving spouse 
to remarry and maintain their benefits from 57 to 55, consistent with 
other Federal survivor benefit programs.
    DAV's Resolution No. 036, which was approved by our members during 
our most recent National Convention, supports legislation to reduce the 
10-year rule for DIC qualification.
    DAV strongly supports S. 1990. Not only would this bill reduce the 
threshold of eligibility for certain survivors, it would also create 
equitable relief in increasing the compensation rates paid, and reduce 
the age allowed for the surviving spouse to remarry and retain their 
benefits.
   s. 2485, medal of honor surviving spouses recognition act of 2018
    S. 2485 would increase the monthly special pension for Medal of 
Honor recipients and extend eligibility to surviving spouses.
    The bill would codify the increase in the monthly special payment 
from $1,000 to $1,329.58 under title 38, United States Code, Sec. 1562. 
The bill would allow the special pension to be paid to a surviving 
spouse upon the veteran's death.
    DAV does not have a resolution calling for an increase of the 
monthly special pension for Medal of Honor recipients or expanding 
eligibility to the pension benefit to the surviving spouse upon the 
death of the veteran. While we have no formal position on S. 2485, we 
have no objection to its favorable consideration by the Committee.
                 s. 2748, battle for servicemembers act
    S. 2748 would encourage greater participation in the additional two 
day training program that occurs after the three day required portion 
of the Transition Assistance Program (TAP). Specifically, a 
servicemember could choose a two day training session on either higher 
education, technical training, or entrepreneurship. Instead of 
continuing with an opt-in option, the bill would make the training opt-
out so that more transitioning servicemembers would utilize this 
important training. According to a 2017 GAO report (GAO-18-23), only 14 
percent of separating servicemembers completed at least one additional 
two-day training program after completing the three day required 
portion of TAP.
    Mr. Chairman, DAV has no resolution on this particular issue, but 
believes the intent of this legislation is in keeping with the goal of 
ensuring that all servicemembers have the tools and information needed 
to successfully transition into civilian life. We therefore have no 
objection to this legislation's favorable consideration.
            s. 2881, mare island naval cemetery transfer act
    S. 2881 would direct the Secretary of Veterans Affairs to seek to 
enter into an agreement with the city of Vallejo, California, to hand 
over ownership and care of the Mare Island Naval Cemetery to the 
National Cemetery Administration (NCA). Mare Island Naval Shipyard 
(MINS) was the first United States Navy base established on the Pacific 
Ocean in 1853. During its time of service, it served as the main 
shipyard for naval operations in the Pacific and housed the United 
States Marine Corps' Recruit Depot from 1911 to 1923. The shipyard was 
identified for closure during the Base Realignment and Closure (BRAC) 
process of 1993 and was decommissioned in 1996. Since that time the 
city of Vallejo has owned the property.
    The Mare Island Naval Cemetery was established in 1854 and 
continued internments until 1921. Notable internments are the daughter 
of Star Spangled Banner composer Francis Scott Key and three Medal of 
Honor recipients. It currently is the final resting place for more than 
800 individuals, most of them veterans. It was included in the National 
Register of Historic Places in 1975.
    After the closure in 1996, the cemetery fell into disrepair. 
Multiple structural issues have been noted--tombstones are crumbling, 
and most of the maintenance is done through volunteer efforts. The 
estimated cost for repairing the cemetery and future upkeep is 
currently at $15 million.
    DAV does not have a resolution that addresses this issue and takes 
no position on this bill; however, we understand that there are local 
options that could be pursued to resolve this issue that would not 
divert resources and funding from National Cemeteries that are still 
accepting new internments.
 s. 3184, to modify the requirements for applications for construction 
  of state home facilities to increase the maximum percentage of non-
           veterans allowed to be treated at such facilities
    State Veterans Homes are long term care facilities operated by 
states in partnership with the Federal Government. States receive 
matching grants from VA to construct, expand, rehabilitate and repair 
State Veterans Homes, with VA providing up to 65 percent and states 
providing at least 35 percent of the cost of the project. State 
Veterans Homes are constructed and operated principally to care for 
veterans, and current law requires that no more than 25 percent of 
occupied beds can be filled by non-veterans, such as spouses or parents 
as determined by individual states. State Veterans Homes offer three 
levels of care: Nursing Home Care; Domiciliary Care; and Adult Day 
Health Care (ADHC), with VA providing per diem payments to states for 
the care of eligible veterans for each level of care. For nursing home 
care, the State Veterans Home receives a basic per diem payment for 
each eligible veteran, equal to approximately 30 percent of the total 
daily cost of care, with states required to cover the balance through 
other sources, including payments from veterans. Some veterans qualify 
for a higher per diem rate due to their service-connected disabilities, 
which is intended to cover the full cost of their care, and constitutes 
payment in full to the State Veterans Home.
    This bill would amend current law to allow spouses or parents of 
veterans to occupy up to 40 percent of the total occupied beds in a 
State Veteran Home if its occupancy rate is less than 90 percent. This 
legislation is intended to allow additional spouses or parents to 
occupy open beds, often joining their veteran spouse or child, when 
there are no eligible veterans seeking admission to the State Veterans 
Home.
    DAV is a strong supporter of State Veterans Homes. This bill 
intends to assist State Homes utilize available capacity, thereby 
increasing cost-effectiveness and financial viability, while also 
improving the quality of life for certain veterans and spouse by 
keeping couples together. DAV has no resolution on this specific issue 
and takes no formal position on the bill. Because we do not know how 
this proposed policy will affect State Veterans Homes across the 
country, we want to ensure service-connected veterans are not 
disadvantaged or otherwise delayed or denied placement. Accordingly, we 
recommend the Committee consider other reasonable options, such as 
adding reporting requirements to the bill to assess how it affects 
service-connected veterans' admission to State Veterans Homes, using a 
waiver authority to the current occupancy rule, or a starting a pilot 
program in select locations.
                 draft bill, va hiring enhancement act
    This draft bill would render ``non-compete'' agreements between an 
applicant for VA employment and a previous employer non-applicable with 
regard to VA employment. Employees appointed with this understanding 
would be required to serve out the length of their non-compete 
agreement within their VA position or serve in that position for at 
least one year (whichever is longer). The bill intends to allow VA, on 
a contingent basis, to begin recruiting and hiring physicians up to two 
years before they complete their residency, as well as physicians who 
have completed their residencies leading to board certification. These 
contingent appointed physicians must satisfy VA's requirements to 
receive a permanent appointment.
    We appreciate the goal of this legislation aimed at creating as 
large an applicant pool for qualified medical professionals to treat 
our service-disabled veterans as possible in VA. DAV Resolution No. 129 
calls for effective recruitment, retention and development of the VA 
health care workforce. Because this measure attempts to reduce barriers 
for employment at VA for physicians; we are pleased to support the 
bill's passage.
      draft bill, veterans dental care eligibility expansion and 
                        enhancement act of 2018
    The ``Veterans Dental Care Eligibility Expansion and Enhancement 
Act of 2018'' would require VA to offer restorative dental services to 
those who lose functioning as a result of dental services or treatment 
rendered by VA. It would also require the Secretary to develop a pilot 
program to assess the feasibility and advisability of offering dental 
care to all enrolled veterans.
    The pilot program would begin 540 days after enactment and take 
place in at least 16 medical centers including: four centers with 
established dental clinics; four centers with a contract for dental 
services; four community-based outpatient clinics with space available 
to furnish care; and, four federally qualified health centers of which 
at least one must be a facility the Indian Health Service with 
established dental clinics. Not more than 100,000 veterans would 
participate in the program on a voluntary basis. Services would include 
those available to veterans with service-related disabilities rated by 
VA at 100 percent. Veterans must contribute to the cost of their dental 
care in a manner consistent with the copayments required of them for VA 
medical care and services.
    Site selection for the selected participating medical centers would 
consider rural facilities; facilities distant from military 
installations and would represent the various geographic locations (or 
census tracts) identified by the Bureau of the Census. VA would 
determine the appropriate performance standards and metrics for each 
contract entered under the pilot, as well as specifying how compliance 
is to be measured.
    VA would be required to report 540 days after enactment and 3 years 
after the date the program commences about the implementation and 
operation of the pilot program in addition to the number of veterans 
receiving services, an analysis of the costs and benefits associated 
with the program as well as findings and conclusions.
    The bill would also require the Secretary to construct or lease 
dental clinics in states in which the Department does not have onsite 
dental services and would appropriate $10 million in emergency funding 
to support construction or lease of such facilities.
    The legislation further specifies an educational program VA would 
be required to operate. The program would promote dental health and 
include information about common dental conditions, treatment options 
and options for obtaining access to dental care including defining 
eligibility for VA services, options available through State or local 
governments or nonprofit agencies; purchasing private dental insurance 
or obtaining free or low cost care through federally qualified health 
centers or dental schools. It would also require VA to develop written 
material with this information, including for blind or visually 
impaired veterans.
    The bill would further require VA to develop a mechanism for 
private sector providers working with veterans under the dental 
insurance pilot program (established under Sec. 17.169 of title 38, 
Code of Federal Regulations) to share information in VA electronic 
medical records. The bill would give the Secretary the discretion to 
continue the pilot for an additional two years after the termination 
date in order to assess the mechanism for sharing this information. 
Individual veterans would be given the option of participating in this 
part of the pilot.
    The draft legislation contains a demonstration program to train and 
employ alternative dental health care providers in rural and 
underserved areas to increase veterans' access to dental care.
    Finally, the bill would authorize an additional $500 million in 
fiscal year 2020, to be available for five years, for the provisions of 
this act excluding the construction or major lease funding.
    DAV recognizes that oral health is integral to the general health 
and well-being of a patient and is part of comprehensive health care. 
According to a 2000 report by the Surgeon General of the United States, 
Oral Health in America, individuals who are medically compromised or 
who have disabilities are at greater risk for oral diseases, and, in 
turn, oral diseases further jeopardize their health. Likewise, such 
diseases are progressive, cumulative and become more complex over time, 
and can affect economic productivity and compromise the ability of 
someone to work, and often significantly diminish their quality of 
life.
    Irrespective of service-connected disability, section 1701(9), 
title 38, United States Code, defines ``preventive health services'' as 
a broad collection of VA health services that improve, protect and 
sustain the general health and well-being of veterans enrolled in VA 
health care, to include ``such other health care services as the 
Secretary may determine to be necessary to provide effective and 
economical preventive health care''
    For these reasons, DAV supports a dental benefit for all enrolled 
service-connected veterans in accordance with DAV Resolution No. 018.
draft bill, to require the secretary of veterans affairs to establish a 
   program to award grants to persons to provide and coordinate the 
  provision of suicide prevention services for veterans transitioning 
  from service in the armed forces who are at risk of suicide and for 
                             their families
    This draft bill would authorize grants to individuals for the 
purpose of providing and coordinating suicide prevention services for 
eligible veterans or a family member of a veteran who is within 3 years 
of being discharged from military service and may be at risk of 
suicide.
    The grant applicant would be required to identify how they would 
deliver suicide prevention services and any previous experience with 
providing or coordinating such services with veterans and their family 
members including outreach to at risk veterans, screening, education 
about veterans at risk for families and communities, case management, 
peer support, and assistance with obtaining benefits, temporary 
assistance with transportation, personal financial planning, legal 
services, and other services, such as family support and child care.
    The Secretary would be required to give priority to applicants 
serving areas of the country that have experienced a high burden of 
veteran suicide, areas where no health care is furnished by the 
Department or rural and tribal areas of the country.
    DAV is extremely sensitive to the post-deployment mental health and 
readjustment needs of veterans and the challenges they often face 
during transition from military to civilian life. The intent of this 
draft legislation and its apparent goal of utilizing individuals to 
help prevent veteran suicides in locations where services are limited 
or non-existent is notable.
    While we appreciate the intent of the bill, DAV is concerned about 
the quality of care that may be delivered by applicants and the 
difficulty in providing oversight for such an award program and 
individual grant recipients. DAV believes that the range and intensity 
of mental health programs VA and VA's Readjustment Counseling Service 
offers and delivers--from peer-to-peer support, outpatient, in-patient 
and a compliment of specialized services for PTSD, substance use 
disorder and homelessness provide the depth, breath and quality of care 
necessary to meet the mental health care needs of veterans during their 
initial transition period.
    In addition, as VA grapples with establishing the new contract 
program combining existing contracting policies and programs into one 
under the VA MISSION Act of 2018, DAV has concerns about embracing a 
new grant program that would require VA to fund and monitor the 
provision of additional care in the private sector to individual 
persons. We also believe that, under the auspices of the VA MISSION 
Act, many of the goals of promoting access and availability to remote 
vulnerable veterans can be achieved with knowledgeable vetted 
providers. We, therefore, do not support this discussion draft bill.
  draft bill, modernization of medical records access for veterans act
    VA is in the process of a sea change in managing its medical 
information. Last June, VA announced it would contract with Cerner to 
create a new platform for managing electronic health records. The goal 
of this contract is for VA to have information that is more 
interoperable with the Department of Defense, academic affiliates, and 
other community providers. This is a critical tool enabling providers 
to transfer information within the VA and with its partners--done 
correctly, it could assist in coordinating care, timely scheduling of 
appointments, eliminating duplicative services, ensuring patient 
safety, assessing organizational performance and easing administrative 
burdens, including quality assurance and billing. It is a massive 
undertaking that will likely take billions of dollars and staff and 
contractor hours to implement.
    This draft bill would require VA to develop a pilot program to 
assess the use of a portable medical records storage system to store 
patient information in order to share timely information between VA and 
community providers. The pilot program would run in one VISN for at 
least one year using a competitively awarded contract to develop a 
portable device no bigger than a credit card to allow veterans to carry 
at least 4 gigabytes of medical information between VA and non-VA 
providers. While some of the goals of this pilot may be similar to 
those being considered by Cerner, it is difficult to understand whether 
this undertaking would add or detract from the larger effort underway. 
Because the bill appears to approach personal storage of medical 
information using external hard drives and limits the use of cloud 
storage, we urge the Committee consider including provisions that 
require tracking and mitigation when the security of the portable 
device is compromised. DAV does not have a resolution on VA medical 
records management and therefore takes no position on this draft bill.
            transition assistance reform (discussion draft)
    The discussion draft bill on Transition Assistance Reform would 
provide changes to the Transition Assistance Program (TAP) and specific 
requirements on the Departments of Defense (DOD) and Homeland Security 
(DHS), to include training requirements, reports to Congress, creation 
of a five year longitudinal study, inclusion of veteran service 
organizations in TAP, and establishment of a governing board to support 
suicide prevention and substance abuse prevention efforts.
    Section 2 (Recodification, Consolidation, And Improvement of 
Certain Transition-Related Counseling and Assistance Authorities) would 
eliminate the existing title 10, United States Code, Sec. Sec. 1142 and 
1144 and provide a new statue defining the Transition Assistance 
Program. The proposed new statute would incorporate all of the current 
language from both statutes and continue to address information on 
civilian employment including labor market information, instruction on 
resume preparation, job interview techniques and certification and 
licensure requirements in civilian occupations that correspond to 
military occupational specialties.
    DAV Resolution No. 298 urges Congress to establish a clear process 
for military training to meet civilian certification and licensure 
requirements. It is vital to break down employment barriers for 
transitioning servicemembers to successfully adapt to civilian life by 
obtaining the required certification and licensure based on their 
military occupational specialties.
    The proposed statue would add very specific training requirements 
for conducting TAP. Those requirements would include at least a full 
day course on general professional development and employment 
assistance and a full day on the benefits and services available under 
the laws administered by the VA. TAP would also be required to include 
at least two consecutive days of training on post-service pathways. The 
servicemember would be able to choose from topics such as, employment, 
higher education, entrepreneurship, and career and technical training.
    Another major addition in the proposed new statute is a requirement 
of reports and notices from the Secretaries of Defense and Homeland 
Security to the Secretaries of Labor and Veterans Affairs, and the 
heads of any other departments and agencies of the Federal Government 
involved in the furnishing of counseling and other assistance under the 
program. The Secretaries of Defense and Homeland Security would be 
required to provide an annual report to Congress. The reporting would 
require information regarding the timeliness of receipt of covered 
counseling, information, and services, and rates of participation on an 
in-person basis and an online or other electronic basis.
    DOD has publicly reported 92 to 97 percent compliance rates with 
mandated TAP elements. However, a 2017 GAO report (GAO-18-23) found 
that actual TAP participation rates based on DOD internal monitoring 
reports for eligible servicemembers are lower, particularly for Reserve 
Component members (approximately 47 percent compliance). In the 2017 
report, top reasons affecting TAP participation included instances 
where members were separated on short notice, and mission- or duty-
related requirements that interfered with ability to attend the course.
    DAV Resolution No. 304 calls for expansion of the required training 
of TAP, standardization of all provided training, tracking of member 
participation, and monitoring and oversight of TAP. As noted in the 
above GAO report, there are inaccuracies in the current reporting 
mechanisms of the DOD, therefore, we support the additional 
requirements of training for TAP and the inclusion of reporting by the 
Secretary of Defense and Secretary of Homeland Security to the 
Secretary of Labor, the Secretary of Veterans Affairs, and the annual 
report to Congress. Reporting and oversight will lead to closer 
evaluations and determinations of the effectiveness of TAP for 
transitioning servicemembers. DAV strongly supports the provisions in 
Section 2 (Recodification, Consolidation, and Improvement of Certain 
Transition-Related Counseling and Assistance Authorities) based on DAV 
Resolutions No. 298 and 304.
    Section 3 (Personnel Matters in Connection with Transition 
Assistance Program) provides the minimum number of DOD personnel 
dedicated to TAP, the designation of transition coordinators and an 
annual report to Congress.
    This provision notes the Secretary of Defense shall take 
appropriate actions to ensure that the minimum number of full-time 
personnel of the DOD dedicated to counseling and other activities under 
TAP at each military installation is not less than one for every 250 
members of the Armed Forces currently eligible for participation in the 
TAP at such military installation. It further provides that the 
requirement for full-time personnel cannot be satisfied through the use 
of contractor personnel.
    Section 3 would further require the Secretary to designate at least 
one member of the Armed Forces in each field grade unit of the Armed 
Forces as a transition coordinator to support the transition of members 
in each such field grade unit to civilian life and to support 
completion of the requirements of the Transition Assistance Program. 
Included is a requirement to report annually to Congress on the action 
to implement Section 3.
    DAV Resolution No. 304 notes that it is essential for 
servicemembers to gain full understanding of entitlements and free 
assistance available to them. Mandatory TAP personnel requirements, at 
all grades, provide assurance of dedicated resources and manpower for 
TAP success. Reporting and oversight will lead to closer evaluations 
and determinations of the effectiveness of TAP for transitioning 
servicemembers. In accord with DAV Resolution No. 304, we support 
Section 3 (Personnel Matters in Connection with Transition Assistance 
Program).
    Section 4 (Tracking of Participation in Transition Assistance 
Program and Related Programs) would require the Secretary of Defense to 
establish and maintain and electronic database and tracking system. 
Section 5 (Information on Members of the Armed Forces Participating in 
Pre-separation Counseling and Surveys on Member Experiences with 
Transition Assistance Program Counseling and Services and in Transition 
to Civilian Life) would provide for tracking of members TAP experiences 
and TAP surveys.
    The database would track information on individual member 
participation in TAP, track member surveys and experiences, and notes 
form counselors in connection with TAP. This information would be 
available to the Secretaries of Labor, Veterans Affairs, and the heads 
of any other departments and agencies of the Federal Government 
involved in the furnishing of counseling and other assistance under the 
program. Members of the Armed Forces and commanders will have access to 
the information as well.
    DAV Resolution No. 304 urges Congress to monitor and review TAP, 
its classes, training methodology, delivery of services, and collection 
and analysis of surveys and comments. As noted in the 2017 GAO study 
(GAO-18-23), it was determined that many servicemembers were not able 
to attend TAP or had experiences they felt were not effectively 
preparatory for a successful transition to civilian life.
    Our mission includes the principle that this Nation's first duty to 
veterans is the rehabilitation and welfare of its wartime disabled. 
This principle envisions assisting disabled veterans to prepare for and 
obtain gainful employment and enhanced opportunities for employment and 
job placement. This includes providing servicemembers with the right 
resources and oversight to ensure successful transitions into civilian 
life. Based on DAV Resolution No. 304, we support Section 4 and 
Section 5.
    DAV does not have a position on Sections 6 through 12 of the 
discussion draft.
    Section 13 directs the Secretary of Veterans Affairs, in 
consultation with the Secretaries of Defense and Labor, and the 
Administrator of the Small Business Administration, to conduct a five-
year longitudinal study regarding TAP that includes those 
servicemembers who have attended the program before the enactment of 
this bill, those who have attended after the implementation of the 
proposed changes, and those who have not attended the program. This 
study would note the percentage of those studied that received 
unemployment benefits, the number of months each member was employed, 
annual starting and ending salaries, suicide rates (to include attempts 
and substance abuse issues), and other pertinent info that occurred 
during the time studied. After the five year period, and every year 
thereafter, the Secretaries of Veterans Affairs, Defense and Labor, and 
the Administrator of the Small Business Administration shall report the 
findings to the House and Senate Veterans' Affairs Committees.
    DAV supports the provisions of this section to monitor and report 
on the effectiveness of TAP. This coincides with the intent of DAV 
Resolution No. 304, which supports monitoring the success rates of TAP 
to ensure the program is meeting its objective and to follow up with 
participants to determine if they found gainful employment following 
training. According to a March 2016 RAND Corporation article, ``merely 
placing veterans in jobs is not enough: veteran employment efforts 
should also enable veterans to build successful careers over the long 
term. To reach this goal, research must provide evidence to inform 
these efforts and ensure their effectiveness.''
    Section 14 directs the Secretary of Veterans Affairs to establish a 
governing board within the Veterans Benefits Administration (VBA) that 
would partner with community and Federal entities whose mission would 
be to support the prevention of suicides, substance abuse, and 
homelessness amongst veterans. This board would consist of 
representatives from the Departments of Labor, Homeland Security, 
Defense, and various representatives from within the VA. The duties of 
this board would be to track suicide rates for each business line, 
dissemination of educational products to veterans participating in 
programs of the VBA, supporting communication between the Veterans 
Health Administration and the VBA to support suicide and substance 
abuse prevention efforts, and management of the VA's Gun Safety Lock 
program in support of suicide prevention efforts.
    DAV Resolution No. 293 supports program improvements, data 
collection and reporting on suicide rates among servicemembers and 
veterans, improving outreach through general media for stigma reduction 
and suicide prevention, and enhanced resources for VA mental health 
programs. DAV appreciates the goal of this section of the bill, which 
would enhance the support between the various Federal entities to lower 
the rate of veteran suicides. This section of the draft measure 
coincides with the intent of our resolution.
    Section 17 states, in part, that the Departments of Defense, Labor, 
and Veterans Affairs should work together with veteran service 
organizations, such as the DAV, to establish points of contacts for 
relocating members of the Armed Forces and provide them employment, 
education, and other appropriate information about the State or locale 
to assist in relocation.
    The transition from military service to civilian life is very 
difficult for many veterans who must overcome obstacles to successful 
employments, such as relocation. TAP was created to help our separating 
servicemembers successfully transition to the civilian workforce, start 
a business, or pursue training or higher education. DAV Resolution No. 
304 states, in part, that participation by DAV and other veterans 
service organizations in TAP is essential to servicemembers to gain a 
full understanding of the entitlements and free assistance available 
upon discharge from military service and the inclusion of DAV and other 
veterans service organizations in the process. We are pleased to 
support this section of the draft bill aimed at addressing this need.

    This concludes my testimony, Mr. Chairman. DAV would be pleased to 
respond for the record to any questions from you or the Committee 
Members concerning our views on these bills.
                                 ______
                                 
            Prepared Statement of the Department of Defense
    Chairman Isakson, Ranking Member Tester, and Members of the 
Committee, The Department of Defense (DOD) appreciates the opportunity 
to provide this statement for the record addressing legislation pending 
before the Committee. This statement focuses on the S. 2748, ``Better 
Access to Technical Training, Learning, and Entrepreneurship for 
Servicemember Act'' or the ``BATTLE for Servicemember Act,'' and the 
Discussion Draft on Transition Assistance Reform. We defer to the 
Department of Veterans Affairs and the Department of Labor to provide 
responses on those bills and sections of pending legislation with no 
significant DOD impacts.
     s. 2748, ``better access to technical training, learning and 
      entrepreneurship for servicemember act'' or the battle for 
                           servicemembers act
    DOD has no objections to H.R. 2748. This bill amends title 10, 
U.S.C., which requires members of the Armed Forces to receive 
additional training under the Transition Assistance Program (TAP), and 
for other purposes. In addition to ensuring members of the Armed Forces 
eligible for the TAP receive additional training in any of the 
supplemental subjects prescribed in section 1144(f) of title 10, 
U.S.C., the Secretary of Defense and the Secretary of Homeland Security 
will have the authority to waive the training for certain groups or 
classifications of members as the Secretaries determine, in 
consultation with the Secretaries of Labor and Veterans Affairs. A 
member may also elect in writing to not receive such additional 
training.
    s.____, discussion draft regarding transition assistance reform
    This draft bill ``amends title 10, U.S. Code to improve the 
Transition Assistance Program for members of the Armed Forces and for 
other purposes.'' This draft legislation directs the Secretaries of 
Defense, the Department of Veterans Affairs, Department of Labor, and 
the Department for Homeland Security to take certain actions to improve 
transition assistance to members of the Armed Forces who separate, 
retire, or are discharged from the Armed Forces, and for other 
purposes. DOD objects to this proposed legislation due to significant 
concerns identified by our review.
    Servicemember feedback, as well as outside of government research 
indicate the Transition Assistance Program works well to meet the needs 
of our transitioning Servicemembers. Despite anecdotal comments, DOD 
has yet to see strong data or evidence that would indicate the need to 
revamp TAP with remedial legislation. Additionally, when Veterans 
Service Organizations were briefed on the updated TAP curriculum in 
June 2018, DOD received overwhelmingly favorable responses. Several 
interagency evaluation efforts currently underway will provide more 
robust evidence to determine what improvements should be made to the 
TAP. For example, a study led by the Department of Labor, a 
longitudinal study led by the Army, and a Post-Separation Assessment 
led by the Department of Veterans Affairs will help DOD identify and 
develop sound improvements. DOD assesses the proposed legislation as 
premature for improving Servicemember transition outcomes. While 
refinements and improvements can always be made to programs (we 
continue to update TAP annually), changes are most effective when made 
based on evidence-based program evaluations and best practices.
    DOD and its partners are extremely careful when implementing 
changes that impact approximately 308,000 transitioning Servicemembers 
and spouses each year. When changes are to be made to TAP, we prefer to 
experimentally evaluate such changes and their outcomes via a pilot 
study to closely analyze the impact of these changes on a smaller group 
of Servicemembers rather than proceeding immediately to full-scale 
implementation. If the pilot confirms that the proposed changes would 
result in a more positive outcome for transitioning Servicemembers, we 
would then implement the changes more broadly. We urge Congress to 
allow time for the TAP interagency governance team to continue to 
collect and analyze the data from our evaluation efforts in progress 
before legislating mandated changes to TAP. Each section of this draft 
bill is discussed in detail below.
Section 2. Recodification, Consolidation, and Improvement of Certain 
        Transition-Related Counseling and Assistance Authorities
    The statute should align organizational authorities and 
responsibilities based on the missions, roles, and responsibilities of 
the Federal agencies and departments; thus, DOD has serious concerns 
about the elimination of section 1144, title 10, U.S.C. By striking 
section 1144, and consolidating it with section 1142, the proposed 
legislation assigns the authority and responsibilities from the 
Secretary of Labor to the Secretary of Defense for employment 
assistance, job training assistance, assistance in identifying 
employment, and training opportunities, and other information and 
services. As the Secretary of Labor is responsible for employment-
related programs and services for transitioning Servicemembers and 
veterans, DOD requests that section 1144 remain.
    DOD supports eligible transitioning Servicemembers (including 
National Guard and Reserves) to receive resources, counseling, 
information, and services they need for their transition from the 
military to civilian life. The proposed legislation, however, lacks 
clarity about its applicability to members of the National Guard and 
Reserves. National Guard and Reserve Servicemembers eligible for TAP do 
not retire or separate upon demobilization or deactivation. They are 
``released from active duty'' (REFRAD). Therefore, DOD recommends the 
phrase, ``release from active duty'' be inserted in paragraph (a) (1) 
to read as follows: ``The Secretary of Defense and the Secretary of 
Homeland Security with respect to the Coast Guard when it is not 
operating as a service in the Navy shall, in cooperation with the 
Secretary of Labor and the Secretary of Veterans Affairs, carry out a 
program to furnish individual counseling, information, and services 
described in paragraph (2) to members of the Armed Forces under the 
jurisdiction of the Secretary of Defense or the Secretary of Homeland 
Security, as applicable, whose retirement, separation, or release from 
active duty is anticipated as of a specific date, and to the spouses of 
such members.'' This recommended change will clarify in statute the 
applicability of TAP to the National Guard and Reserve members.
    DOD is also concerned about the lack of clarification as to when 
eligible members of the National Guard and Reserves shall commence and 
complete TAP. While the proposed legislation addresses when members of 
the National Guard and Reserves shall commence TAP, the proposed 
legislation falls short of addressing the completion date for TAP (to 
include all covered counseling, information, and services). The 
legislation does not state how and when members of the National Guard 
and Reserves will receive transition assistance. Given the unique 
operational requirements for demobilizing and deactivating Reserve 
Component Servicemembers and short notice separations, DOD recommends 
the proposed legislation provide the Secretary of Defense waiver 
authority to allow National Guard and Reserve members to complete any 
TAP requirements not accomplished prior to release from active duty, 
not later than 120 days from the date of release from active duty.
    DOD does not support the requirement for ``Preliminary 
Assistance.'' Not all Military Occupational Codes align with a 
credential. Not all Servicemembers wish to pursue employment in their 
same military occupation. Evidence-based research shows that more than 
half of our transitioning Servicemembers want to pursue a civilian 
occupation that is different from their military career. DOD 
effectively utilizes existing GAP Analysis Career Readiness Standard to 
accomplish the objective of ``Preliminary Assistance.'' We recommend 
the requirement for ``Preliminary Assistance'' be deleted from the 
proposed legislation.
    Practices for hiring counselors, vetting and establishing 
contracts, developing training curriculum, and testing information 
technology data fields do not allow DOD to meet the deadlines as 
written in the section of the proposed legislation titled 
``Commencement of Certain Instructions.'' DOD requests the deadline be 
at least 18 but not later than 24 months after enactment. Additionally, 
DOD requests the Secretary of Defense be given two-year funding 
authority to implement requirements for this proposed legislation.
Section 3. Personnel Matters in Connection with Transition Assistance 
        Program
    DOD recommends synchronizing the staffing ratios to support 
approximately 308,000 eligible Servicemembers and spouses transitioning 
annually because the language specified in Sec. 1142, paragraph (a) (1) 
requires the Secretary of Defense to carry out a program to members of 
the Armed Forces and to the spouses of such members. The proposed 
legislation bases its ratio on military members at installations and 
does not take into account their spouses. We believe the Military 
Services are best positioned to determine the requirements for 
transition counselors.
Section 4. Tracking of Participation in Transition Assistance Program 
        and Related Programs
    DOD's primary concern is to protect Servicemember privacy, 
including each member's Personally Identifiable Information (PII). The 
Military Services capture most, but not all of the data requirements as 
outlined in Section 4 (case work and other services). DOD's existing 
system tracks transitioning Servicemembers. We support enhancing our 
existing TAP web service; however, the cost to develop the enhancements 
necessary to capture all the new data and information prescribed in the 
proposed legislation will require further review and study. DOD 
supports sharing specific data through approved data-sharing agreements 
that preserve the integrity of each individual's PII.
Section 5. Information on Members of the Armed Forces Participating in 
        Pre-separation Counseling and Surveys on Member Experiences 
        With Transition Assistance Program Counseling and Services and 
        In Transition to Civilian Life
    DOD supports sections 5(a) and (b). We defer to the Department of 
Veterans Affairs regarding the provisions in section 5(c).
Section 6. E-mailing Transition Assistance Materials to Supporters of 
        Members of the Armed Forces Transitioning to Civilian Life
    DOD does not support this provision of the proposed legislation. 
Departmental policy gives Servicemembers the option to include their 
email address in the Remarks section of the DD Form 214, ``Certificate 
of Release or Discharge from Active Duty.'' Members may elect a State/
Locality Veterans Affairs office to receive information. In addition, 
transition assistance materials, to include the Transition GPS (Goals, 
Plans, Success) curriculum, described in the proposed legislation, can 
be obtained through public web sites as presented during TAP. 
Transitioning Services members and their spouses can avail themselves 
of the websites and the materials at any time before, during and after 
transition. DOD does not support obtaining a third party email address 
to provide information readily available online. TAP materials, to 
include all TAP curricula, can be accessed free of charge through 
public web sites.
Section 7. Command Matters in Connection with Transition Assistance 
        Programs
    DOD accomplishes the requirements of section 7(a) through DOD 
policy, which requires the Inspectors General to assess TAP at military 
installations. The Military Services provide professional military 
education to inform Commanders, at all levels, about all aspects of 
command, including TAP. Therefore, DOD recommends Section (b) be 
deleted.
Section 8. Comptroller General of the United States Report on 
        Participation in Transition Assistance Programs at Small and 
        remote Military Installations
    DOD supports Section 8 of the proposed legislation.
Section 9. Education of Members of the Armed Forces on Career Readiness 
        and Professional Development
    DOD recognizes the important role career readiness and professional 
development pursuits can play in professionalizing the Force and in 
enhancing the Servicemember's ability to transition to the civilian 
workforce upon completion of military service. Providing opportunities, 
whether academic-or certification-related, is an investment in our 
people. Whether an individual is acquiring knowledge, skills, or 
abilities needed to perform mission functions or make a seamless 
transition to an industry profession, DOD supports education, 
certification, training, and employment assistance that maximize 
opportunities both in and out of service. DOD collaborates with the 
Departments of Labor and Veterans Affairs on a Servicemember outcomes 
initiative that aligns career readiness and professional development 
opportunities to better ensure Servicemembers are prepared to 
successfully enter the civilian workforce upon completion of service, 
and that veterans are able to capitalize on their Service training, 
education, and experiences in pursuit of civilian career opportunities.
    Although DOD is generally supportive of the proposed provisions of 
section 9, and has already aligned and coordinated appropriate assets 
to support Servicemember lifecycle development opportunities and career 
pathway programs, we recommend removal of the below listed provisions.
    Remove section 9(b)(1) as DOD already informs the transition plan 
required by section 1142(g)(1)(C) through various established tools 
including the Joint Services Transcript, the Community College of the 
Air Force Transcript, and the Verification of Military Experience & 
Training document.
    Remove section 9(b)(2)(B), as DOD has no capability to collect, 
store, and update information provided by hundreds of local communities 
across the Nation. However, DOD is postured to support a trusted 
external data source that provides centralized insight into such civic 
programs and resources.
    Remove section 9(d), as DOD does not support mandating an Alumni 
Network Program. DOD would support language that encourages the 
Military Services to establish a Network Program; however, we recommend 
the decision be left to each Military Service's discretion. Further, 
DOD recommends consideration of alternative terminology such as 
``Professional'' or ``Veteran'' to describe the Network Program vice 
``Alumni.'' Alumni historically refers to graduates or formal students 
of a particular school, college, or university, and such a naming 
convention might not properly convey the intent of Congress to focus on 
career mentoring, networking, and advice and not higher education 
solely.
    Last, DOD has significant concerns with section 9(c) as there is 
potential duplication between this effort, those under section 2 of 
this proposal, and numerous other personal and professional development 
authorities of DOD. Additionally, this provision mandates the provision 
of information beyond that available, yet provides no additional 
manpower or financial resources. DOD's Voluntary Education enterprise 
employs approximately 500 professional guidance counselors. Each year, 
this workforce counsels more than 256K Tuition Assistance 
beneficiaries, as well as another 350K Servicemembers participating in 
other Voluntary Education programs such as college-level examination 
and academic skills improvement. Increasing the requirement to provide 
information, without appropriate resources, would jeopardize the impact 
of such legislation.
Section 10. Employment Skills Training
    DOD supports an expansion of eligible participants under the DOD 
SkillBridge authority with the below comments. Further clarify section 
10(2)(A)(ii). Eligibility does not appear to be limited to spouses of 
transitioning Servicemembers for which 10 U.S.C. 1143(e) was enacted. 
Recent statistics indicate that 54 percent of Servicemembers are 
married. This potential pool of participants far exceeds the roughly 
200K transitioning Servicemembers for which the program was intended 
each year. DOD is concerned that the new eligibility parameters 
drastically change the scope of the program and may have significant 
implications for program implementation.
    Further clarify section 10(2)(A)(iii). Eligibility does not appear 
to be limited to recently transitioned Servicemembers for which 10 
U.S.C. 1143(e) was enacted. With roughly 200K transitioning 
Servicemembers each year becoming eligible in perpetuity, DOD is 
concerned that the new eligibility parameters drastically change the 
scope of the program and may have significant implications for program 
implementation. Additionally, DOD is concerned about the authority to 
expend its operations and maintenance appropriation in support of 
separated Servicemember participation. There is some precedent for this 
in the form of stipends and bonuses paid to veterans participating in 
the Troops-to-Teachers program. However, in this example, eligibility 
for the program expires 3 years after separation.
    The proposed legislation is unclear about whether spouses and 
Veterans may utilize base housing, receive compensation-type benefits, 
etc. For example, spouses and veterans would not be eligible for 
compensation while participating, to include housing and allowances 
funded by DOD. A policy review would need to be accomplished to 
determine whether unemployment compensation paid by DOD would be 
permissible in conjunction with participation in SkillBridge programs.
    Further clarify the intent of the $10M identified in section 4. The 
DOD SkillBridge is intended to be a low/no cost program whereby 
providers fund the necessary job training and employment skills 
training opportunities.
Section 11. Identification of Opportunities for Job Training and 
        Employment Skills Training for Members of the Armed Forces for 
        Employment with the Department of Veterans Affairs in 
        SkillBridge Programs of the Department of Defense
    DOD supports the proposed change of section 11 with two comments: 
(1) Replace ``the Secretaries of the military departments shall . . .  
'' with ``the Secretary of Defense shall . . . ;'' (2) Consider 
broadening the language, including authority to work with all Federal 
agencies in support of critically understaffed and high-skilled 
positions. While DOD is already working with the Department of Veterans 
Affairs to establish such opportunities, we have been approached by 
other Federal agencies requesting consideration as well (e.g., 
Department of Homeland Security for cybersecurity professionals).
Section 12. Evaluation of Transition Training and Counseling Relating 
        to Post-secondary Education and Use of Educational Assistance 
        from Department of Defense and Department of Veterans Affairs
    DOD supports the proposed evaluation of section 12, with one 
recommendation. Remove Section (d), contract organization. In 
accordance with the Code of Federal Regulations, DOD may leverage 
federally Funded Research and Development Centers (FFRDC) for the 
purpose of the proposed analysis.
Section 13. Longitudinal Study on Changes to Transition Assistance 
        Program of Department of Defense
    DOD defers to the Department of Veterans Affairs for comments on 
section 13.
Section 14. Establishment of Governing Board to Support Prevention of 
        Drug Overdoses, Deaths by Suicide, and Alcohol-related 
        Mortality
    DOD defers to the Department of Veterans Affairs for comments on 
section 14.
Section 15. Review of Economic Risk Factors in Suicide Prevention
    DOD defers to the Department of Veterans Affairs for comments on 
section 15.
Section 16. Grants for Provision of Transition Assistance to Members of 
        the Armed Forces After Separation, Retirement, or Discharge
    The DOD defers to the Department of Labor for comments on section 
16.
Section 17. Sense of Congress on Transition Assistance Program and 
        Other Transition-related Assistance for Members of the Armed 
        Forces
    DOD concurs with the provisions of section 17.
    This large and complex piece of proposed legislation brings 
potentially huge resource implications in the form of more counselors, 
Information Technology enhancements, veterans' surveys, the creation of 
professional networks, opening counselor notes to other Federal 
agencies, and adding TAP to command climate assessments, with 
unintended consequences. This proposed legislation would move DOD to a 
TAP case management system and would require more resources to fulfill 
all the mandates outlined. Additionally, requirements that span the gap 
from Servicemember to veteran will require additional attention to data 
privacy, collection, and storage requirements, as well as increased 
public disclosures and opportunity for comment through the Federal 
Register process.

    The Department of Defense thanks the Committee for its outstanding 
and continuing support of our Servicemembers, veterans, and their 
families.
                                 ______
                                 
   Prepared Statement from Ivan Denton, Director, Office of National 
Programs, Veterans' Employment and Training Service, U.S. Department of 
                                 Labor
                              introduction
    Chairman Isakson, Ranking Member Tester, and Members of the 
Committee, thank you for the opportunity to submit a statement for the 
record of today's hearing. I thank you all for your tireless efforts to 
ensure that America fulfills its obligations to our servicemembers, 
veterans, and their families. As the Director of the Office of National 
Programs in the Veterans' Employment and Training Service (VETS) at the 
Department of Labor (DOL, or Department), my office is responsible for 
managing DOL's Employment Workshop (DOLEW, or Workshop) and Career 
Technical Training Track (CTTT) courses, as part of the Transition 
Assistance Program (TAP). The move to a civilian career is critical for 
transitioning servicemembers (TSMs) and their entire families as they 
conclude their military service, and it can also prove to be stressful. 
More broadly speaking, successful career transition is vital to 
attracting an All-Volunteer Force, and to building the American 
economy. I appreciate the opportunity to discuss DOL's collaborative 
work with the Department of Defense (DOD) and the Department of 
Veterans Affairs (VA) to administer the TAP and improvements that can 
be made to better assist servicemembers with employment preparation as 
they transition to civilian life.
    The Department stands firmly behind our Nation's servicemembers, 
veterans, and their families. The Secretary has set several clear 
priorities to assist our veterans and military spouses. They include: 
(1) supporting America's veterans by helping veterans, servicemembers, 
and their spouses find family-sustaining jobs; (2) expanding 
apprenticeships in America; and, (3) removing barriers to employment 
through occupational licensing reform.
    DOL is the Federal Government's focal point for workforce 
development, employment services, and information related to the 
economic health of all Americans. The Department maintains the 
expertise and a nationwide network of American Job Centers (AJCs) to 
provide workforce education and employment opportunities for all 
Americans. Within this network, veterans receive priority of service. 
This integrated network and the programs DOL administers are best 
suited to continue generating positive employment outcomes for the men 
and women who serve our country. I am pleased to report the employment 
situation for veterans continues to improve. The unemployment rate for 
veterans was down to 3.7 percent in 2017, which is the lowest since 
2001, and I continue to hear from employers who are hiring veterans 
because veterans provide the technical and leadership skills that 
businesses need. There are 6.6 million job openings in the United 
States.\1\ Transitioning servicemembers and veterans can help to fill 
these jobs, and employers are eager to hire them.
---------------------------------------------------------------------------
    \1\ BLS. (2018, July 10). Job Openings and Labor Turnover Summary. 
Retrieved from https://www.bls.gov/news.release/jolts.nr0.htm.
---------------------------------------------------------------------------
    While this hearing is focused on several bills under consideration 
by the Committee, I will focus my remarks on the two pieces of 
legislation that would directly impact the programs administered by 
DOL, specifically S.__, ``Improving Preparation and Resources for 
Occupational, Vocational, and Educational Transition,'' or the 
``IMPROVE Transition for Servicemembers Act, and S. 2748, ``Better 
Access to Technical Training, Learning, and Entrepreneurship for 
Servicemembers Act,'' or the ``BATTLE for Servicemembers Act.''
   s._____, ``improving preparation and resources for occupational, 
 vocational, and educational transition,'' or the ``improve transition 
                        for servicemembers act''
    As a retired Infantry Officer with 35 years of total service, I was 
blessed with the opportunity to command both a battalion and a brigade 
in Iraq on two separate mobilizations. Sadly, I found these deployments 
to be, in total, less stressful than my transition off of active duty 
in 2016. I trained all of my adult life to lead soldiers; however, I 
only had a fraction of that time to make the transition to civilian 
life. I know firsthand the importance of TAP and fully understand the 
necessity of getting TAP right.
    The IMPROVE Transition for Servicemembers Act would amend title 10, 
U.S. Code, by striking sections 1142 and 1144 and inserting a new 
section 1142, which directs the Secretary of Defense and the Secretary 
of Homeland Security, with respect to the Coast Guard, in cooperation 
with the Secretaries of Labor and VA, to take certain actions intended 
to improve the transition assistance provided to members of the Armed 
Forces who separate, retire, or are discharged from military service.
    The Department opposes this bill as currently drafted, as we 
believe it would negatively impact the transition to civilian 
employment and successful careers for many transitioning 
servicemembers.
    The draft bill removes the Secretary of Labor's statutory authority 
to establish and maintain an employment assistance program for 
transitioning servicemembers and their spouses. This authority and 
responsibility is rightly, and most appropriately, entrusted to DOL; 
however, this bill would place that authority, and concomitant burden, 
on the Secretary of Defense, whose essential and fundamental mission is 
to lead DOD in the defense of our Nation. This bill would unnecessarily 
disrupt an effective interagency Federal program that DOL has 
supported, without fail, for over 25 years.
    The bill would reduce the five-day combined employment-related 
curriculum that is currently available to TSMs to a three-day mandatory 
combined curriculum. For the majority of TSMs, it would also reduce the 
existing three-day mandatory employment workshop, administered by DOL/
VETS, to a mandatory one-day workshop. This significant reduction may 
decrease the likelihood that our transitioning servicemembers will be 
able to secure meaningful, gainful employment that can lead to a 
successful family-sustaining career. Employment is arguably the most 
important factor in a successful transition, impacting all areas of the 
servicemember's life. We owe it to our servicemembers and their spouses 
to thoroughly prepare them for a smooth transition into the next phase 
of their career.
    To inform any future discussion and collaboration with regard to 
TAP reform, I offer several observations on the contents of the draft 
bill for the Committee's consideration and defer to our partners at DOD 
and VA to discuss other sections which are specific to their TAP 
responsibilities.
Sec. 2. Recodification, Consolidation, and Improvement of Certain 
        Transition-Related Counseling and Assistance Authorities
    Section 2 of the bill would amend title 10 of the U.S. Code to make 
a number of changes to the structure and content of the existing TAP. 
In particular, section 2 would require the Secretary of Defense, and 
the Secretary of Homeland Security with respect to the Coast Guard, in 
cooperation with the Secretary of Labor and the Secretary of VA, to 
carry out a program to furnish individual counseling, information, and 
services to retiring and separating servicemembers. Section 2 further 
requires the Secretaries to work together to: develop and revise 
necessary training documents, resources, and curriculum; use experience 
gained from implementation of the pilot program under section 408 of 
Pub. L. No. 101-237 in providing the pre-separation counseling required 
under section (f)(4) of the bill; work with Military Service 
Organizations (MSOs), Veterans Service Organizations (VSOs), and other 
appropriate organizations to promote and publicize job fairs for TSMs; 
and, furnish covered counseling, information, and services to TSM 
spouses, when appropriate and at the discretion of the servicemember 
and the spouse, as well as job placement counseling for the spouse in 
connection with the transition of the servicemember to civilian life. 
Section 2 of the draft bill also: makes participation in TAP mandatory, 
unless the Secretary of Defense or Homeland Security waives the 
requirement, based upon delineated criteria; requires a servicemember 
to attend TAP no later than 120 days before retirement or 90 days prior 
to separation; establishes the parameters for pre-separation 
counseling, preliminary assistance, introduction of specific post-
service pathways, instruction on professional development and 
employment assistance, and introduction to VA benefits; and, outlines 
the use of personnel and organizations. This section would also reduce 
the mandatory three-day employment workshop to only one day.
    The Administration believes that the three-day employment workshop 
conducted by the Department is contributing to reduced unemployment 
among TSMs and should continue to be mandatory.
    As the Department interprets this draft bill, the delivery of DOLEW 
and CTTT would no longer be the responsibility of DOL, but would 
instead become the responsibility of DOD and DHS. DOL has significant 
concerns with this fundamental programmatic change, as it fails to 
recognize the Department's expertise and experience in employment and 
training. The draft bill states, ``It is the sense of Congress to 
acknowledge that the Armed Forces face significant and often competing 
pressures in carrying out its essential and fundamental mission to 
defend the Nation.'' However, this bill further adds to these competing 
pressures by dismantling an effective interagency program and placing 
the full responsibility for transition onto the DOD and DHS. Providing 
employment assistance to transitioning servicemembers and veterans is 
an integral program function that the Department has unfailingly 
supported for over 25 years. DOD and DHS should be assisting 
servicemembers in developing and documenting the skills that will make 
them successful both inside and outside of the military, and DOL is 
best equipped to assist them in transitioning to a civilian career.
    Since the Department began providing the Employment Workshop more 
than 25 years ago, the number of workshops, participants, and locations 
has grown considerably and the quality and relevance of the course 
material improves each year. In 2011, the VOW to Hire Heroes Act of 
2011, Title II, Pub. L. No. 112--56 (the VOW Act) made participation in 
the DOLEW mandatory for most transitioning servicemembers, including 
those demobilizing from the National Guard and Reserve Components. Last 
year, DOL conducted more than 6,000 Workshops for over 164,000 
participants at 187 sites worldwide. Of the over 164,000 participants, 
more than 4,800 were National Guard and Reserve. The three-day DOLEW is 
standardized so that all attending servicemembers and their spouses can 
receive the same high level of instruction. The current three-day 
employment workshop has contributed to:

    <bullet> The unemployment rate for veterans aged 18-24 decreasing 
from a high of 30.2 percent in 2011 to 7.9 percent (2017);
    <bullet> Overall veteran unemployment being at its lowest rate of 
3.7 percent (2017) since 2001; and
    <bullet> Unemployment Compensation paid to ex-servicemembers (UCX) 
being reduced by over 72 percent from $944 million to $258 million, 
lower than pre-recession levels.

    Employment is arguably the most important element of a successful 
transition to civilian life, and the existing DOLEW and CTTT are key 
elements of TAP. Removing the requirement for participation in the 
current DOLEW, or reducing by two-thirds the required employment 
preparation instruction, would have a negative impact on a TSM's 
readiness for civilian employment and career success. The vast majority 
of the courageous men and women who serve our country will enter the 
workforce, whether immediately following their transition, or after 
pursuing additional education or training. The DOLEW provides them with 
employment preparation that is vital for a positive transition and a 
successful future.
    Moving forward, and as discussed in our November 2017 written 
testimony before the House Veterans' Affairs Committee's Subcommittee 
on Economic Opportunity, DOL is working to advance two primary goals 
for TAP. First, DOL will continue to work with our interagency partners 
to improve TAP's timeliness of completion rates. Second, we will also 
work with interagency partners to increase the percentage of TSMs that 
participate in the two-day supplemental career tracks.
    All TSMs are eligible to begin TAP activities, which start with 
pre-separation counseling, as soon as 24 months prior to retirement or 
12 months prior to separation. By law, TSMs are also required to 
complete TAP within 90 days of transition. However, based on statistics 
contained in the November 2017 U.S. Government Accountability Office 
report (GAO-18-23), Transitioning Veterans, DOD Needs to Improve 
Performance Reporting and Monitoring for the Transition Assistance 
Program,\2\ fewer than half of all TSMs actually complete TAP on time. 
DOL's first goal is important because survey data from the 
November 2016 Hiring Our Heroes report from the U.S. Chamber of 
Commerce Foundation,\3\ indicates veterans continue to face challenges 
as they transition from the military, but the survey results show a 
clear relationship between a successful transition and when 
transitioning servicemembers start their job search. Those who begin to 
plan for transition early (more than six months before separation) fare 
better than those who wait.
---------------------------------------------------------------------------
    \2\ U.S. Government Accountability Office (2017, November). 
Transitioning Veterans: DOD Needs to Improve Performance Reporting and 
Monitoring for the Transition Assistance Program. (GAO-18-23). 
Retrieved from https://www.gao.gov/assets/690/688203.pdf.
    \3\ Chamber of Commerce. (2016, November 02). Veterans in the 
Workplace: Understanding the Challenges and Creating Long-Term 
Opportunities for Veteran Employees. Retrieved from https://
www.uschamberfoundation.org/reports/veterans-workplace.
---------------------------------------------------------------------------
    The GAO report also noted that only 22,468 (14.1%) of active duty 
TSMs, out of the 160,000 who were eligible, participated in the two-day 
supplemental career tracks. DOL believes that this number is far too 
low and that greater participation in these tracks would allow TSMs to 
identify career opportunities that could increase their long term 
earnings.
    According to the Bureau of Labor Statistics (BLS), the median wage 
for a U.S. worker with only a high school degree was about $37,000 per 
year in 2017. However, four-year degree wages are $60,000 per year.\4\ 
Graduates of Apprenticeship programs earn an average of $60,000 per 
year, and more than 8 in 10 graduates retain their employment nine 
months after exiting their apprenticeships. Although participation in 
the supplemental two-day tracks does not guarantee higher wages, our 
assessment shows that attendance metrics for each of the career tracks 
provide an indication of whether or not a TSM is selecting a career 
path that increases the chances of obtaining a meaningful career.
---------------------------------------------------------------------------
    \4\ BLS. (2018, April 13). Usual Weekly Earnings of Wage and Salary 
Workers Second Quarter 2018. Retrieved from https://www.bls.gov/
news.release/pdf/wkyeng.pdf.
---------------------------------------------------------------------------
Sec. 3. Personnel Matters in Connection with Transition Assistance 
        Program
    Section 3 of the draft bill requires the Secretary of Defense to 
employ full-time DOD personnel dedicated to counseling and other TAP 
activities at each military installation (no less than one for every 
250 members eligible for transition services in the Armed Forces), and 
prohibits the use of contractor personnel to satisfy this requirement. 
Section 3 also requires the Secretary of Defense to submit a report to 
Congress on the actions taken to implement this section.
    The Department is concerned with the long-term ramifications of 
administering TAP with Federal employees, when contract facilitators 
offer a flexible and cost effective way to provide workforce 
development services to transitioning servicemembers to meet the ever-
changing needs of the civilian employment sector. The DOLEW and CTTT 
are currently administered by contract facilitators, as directed by the 
VOW Act. The use of contractors allows the Department to ensure that 
the instruction for DOLEW and CTTT is consistently of high quality. The 
use of contractor personnel also made the program more nimble to manage 
as we are able to rapidly schedule or reschedule classes as required by 
the military services.
Sec. 4. Tracking of Participation in Transition Assistance Program and 
        Related Programs
    Section 4 requires the Secretary of Defense to establish and 
maintain an electronic tracking system and database, applicable across 
the Armed Forces, to collect, assemble, and make available information 
on: the participation and progress of individuals in TAP, data 
collected in surveys; resources available for members of the Armed 
Forces and their spouses; and, notes to TAP counselors in connection 
with the provision of casework and other programmatic services. 
Information collected in the tracking system and database is to be made 
available to members of the Armed Forces who are undergoing transition 
from military life, Commanders of the Armed Forces at all levels, the 
Secretaries of Labor, VA, and the heads of any other departments and 
agencies of the Federal Government involved in TAP.
    The Department does not oppose this section and believes that 
tracking information on the progress of TSMs is important. The 
Department continues to process data from the Defense Manpower Data 
Center (DMDC) for the Veterans' Data Exchange Initiative (VDEI). As we 
work with DOD to improve data quality, information about TAP timeliness 
of completion metrics and career technical training track attendance 
metrics will be shared by DOD and DOL leaders at the national and local 
level. The Department will eventually establish a data dashboard that 
allows DOL to see performance metrics for each individual service and 
individual bases within each service branch.
Sec. 5. Information on Members of the Armed Forces Participating in 
        Pre-separation Counseling and Surveys on Member Experiences 
        with Transition Assistance Program Counseling and Services and 
        in Transition to Civilian Life
    Section 5 requires the Secretary of Defense to collect the 
demographic data on servicemembers entering into pre-separation 
counseling, requires the Secretaries concerned (as that phrase is 
defined in section 101 of title 10, U.S. Code) to conduct surveys of 
the members of the Armed Forces at the conclusion of the receipt of 
counseling, information, and services under section 1142, and requires 
the Secretary of VA, in consultation with the Secretaries of Defense, 
Homeland Security, Education, and Labor, to conduct surveys of veterans 
recently retired, discharged, or released from the Armed Forces, in 
order to assess the experiences of such veterans in the transition from 
military life to civilian life.
    DOL is generally supportive of section five. The Department 
recommends that language also be included to amend the Social Security 
Act to authorize the Secretaries of Labor and Veterans' Affairs to 
access the National Directory of New Hires (NDNH) for purposes of 
tracking veterans' employment. Like VA, DOL strongly supports this 
access to the NDNH, and believes that the information would provide the 
interagency TAP partners with a more complete understanding of post-
transition employment outcomes and greatly assist us in evaluating the 
efficacy of our transition assistance efforts.
Sec. 6. E-mailing Transition Assistance Materials to Supporters of 
        Members of the Armed Forces Transitioning to Civilian Life
    Section 6 requires the Secretaries of Defense and Homeland Security 
to solicit an e-mail address from each TSM and the e-mail address of a 
supporter so that the Secretary concerned may send transition materials 
as set forth in section 1142(f) of title 10 and additional information 
as the Secretary concerned considers appropriate.
    The Department does not oppose this section. DOL currently receives 
email addresses from DOD via the eForm data. The Department sends 
emails to TSMs to highlight the importance of participating in the 
supplemental career tracks and DOLEW as early as possible. To date, DOL 
has sent nearly 290,000 messages to TSMs on these topics.
Sec. 10. Employment Skills Training
    Section 10 amends section 1143(e) of Title 10, U.S. Code, by 
directing the Secretary of Defense, in consultation with the Secretary 
of Labor, to carry out job training and employment skills training, 
including pre-apprenticeship programs under the SkillBridge program, to 
transitioning servicemembers and their spouses who are within six 
months of their transition out of the military. Veterans, as defined in 
section 101 of title 38, U.S. Code, who have completed at least 180 
days of active duty or have been awarded the Purple Heart are also 
eligible to receive services from this program, but at a lower level of 
priority than TSMs. Finally, this section authorizes $10 million to the 
Secretary of Defense to carry out this program.
    The Department is supportive of the concept as it would not require 
transitioning servicemembers and some veterans to be excluded from 
training programs like SkillBridge just because they will transition 
off of active duty before completing it. The Department notes that the 
required consultation between DOD and DOL will be necessary to ensure 
that these programs are integrated with and not duplicative of the 
training and employment services for veterans that are funded by DOL.
Sec. 13. Longitudinal Study on Changes to Transition Assistance Program 
        of Department of Defense
    Section 13 tasks the Secretary of the VA, in consultation with the 
Secretaries of Defense, Labor, and the Small Business Administration, 
to conduct a five-year longitudinal study.
    DOL is generally supportive of section 13. Once again, DOL believes 
that access to NDNH would provide the interagency TAP partners with a 
more complete understanding of post-transition employment outcomes.
Sec. 16. Grants for Provision of Transition Assistance to Members of 
        the Armed Forces After Separation, Retirement, or Discharge
    Finally, section 16 requires the Secretary of Labor, in 
consultation with VA, to award grants to eligible organizations for the 
provision of transition assistance to members of the Armed Forces who 
are separated, retired, or discharged from the Armed Forces, and 
spouses of such members.
    The Department supports the intent of section 16, but believes it 
is duplicative of services that are already available through the DOL-
funded State Workforce System and VA. The Department suggests that the 
grants emphasize case management and referral to Federal, state, and 
local resources that can meet the needs of transitioning servicemembers 
and their families.
     s. 2748, ``better access to technical training, learning, and 
    entrepreneurship for servicemembers act,'' or the ``battle for 
                          servicemembers act''
    S. 2748 would amend section 1144(f) of title 10, U.S. Code, to 
require members of the Armed Forces to receive additional training 
under TAP.
    The Department supports S. 2748 because, if passed, it would 
increase the amount of days of employment-related curriculum for most 
servicemembers by making the attendance of TAP's Optional tracks 
mandatory. Currently, TSMs have the option to participate in a series 
of two-day tailored tracks within the Transition GPS curriculum: (1) an 
Accessing High Education Track (provided by DOD), for those pursuing a 
higher education degree; (2) CTTT (provided by DOL), for those 
interested in obtaining job-ready skills through apprenticeship or 
other industry-recognized credentials; and (3) the ``Boots to 
Business'' Entrepreneurship Track (provided by Small Business 
Administration), for those wanting to start a business. CTTT is an 
additional two-day workshop focused on apprenticeships and industry-
recognized credentials for transitioning servicemembers and their 
spouses. The CTTT provides these servicemembers with an opportunity to 
identify their relevant skills, increase their awareness of workforce 
development programs and apprenticeship programs that can lead to 
industry-recognized credentials and meaningful careers, and develop an 
action plan to achieve their career goals. DOL believes that the 
optional courses in TAP provide servicemembers with resources critical 
to their success in the civilian world. By making the attendance of an 
optional track mandatory, the Department expects the number of TSMs who 
would attend these courses, and obtain enhanced employment-related 
curriculum, would increase significantly.
                               conclusion
    In conclusion, our long-term goal continues to be that military 
service is universally recognized as a path to high-quality civilian 
careers. The future of the Nation's All-Volunteer Force depends upon 
this recognition, as does our economy. The Department views employment 
as a vital element of a successful transition to civilian life. The 
Department thanks the Congress for addressing TAP participation through 
the VOW Act, and for your continued partnership in removing barriers to 
employment.
    The Department remains committed to working with our interagency 
partners to continuously review and improve TAP curricula, including 
the DOLEW and CTTT, through our regular review cycle that incorporates 
input from employers and the public related to the best practices 
across the Nation. Moving ahead, we look forward to preparing 
transitioning servicemembers and their spouses even more effectively by 
improving the timeliness of DOLEW participation and increasing 
participation rates in the supplementary career-related tracks.
    The Department looks forward to working with the Committee to 
ensure that our separating servicemembers have the resources and 
training they need to successfully transition to the civilian 
workforce. The improving employment situation for veterans is a 
resounding testament to the nationwide recognition from stakeholders, 
both public and private, at the national level and within local 
communities, of the value veterans bring to the workforce.

    Mr. Chairman, Ranking Member, and Members of the Committee, this 
concludes my statement for the record. Thank you for the opportunity to 
be a part of this hearing.
                                 ______
                                 
         Prepared Statement of the Mortgage Bankers Association
    Chairman Isakson and Ranking Member Tester, The Mortgage Bankers 
Association (MBA) appreciates the opportunity to submit written 
testimony on the pending legislation being considered before the Senate 
Committee on Veterans' Affairs. In particular we are pleased to share 
our views on H.R. 299, the Blue Water Navy Vietnam Veterans Act of 
2017.
    MBA is the national association representing the real estate 
finance industry, an industry that employs more than 280,000 people in 
virtually every community in the country. The association works to 
ensure the continued strength of the Nation's residential and 
commercial real estate markets, to expand homeownership, and to extend 
access to affordable housing to all Americans. MBA promotes fair and 
ethical lending practices and fosters professional excellence among 
real estate finance employees through a wide range of educational 
programs and a variety of publications. MBA's membership of over 2,300 
companies represents all elements of real estate finance, including 
firms serving both the single-family and commercial/multifamily 
markets. Our membership features commercial banks, community banks, 
credit unions, independent mortgage bankers, investors, brokers, and 
industry vendors, among others.
    We applaud the Committee for its efforts to provide adequate 
medical benefits for veterans who were exposed to dangerous chemicals 
in the course of their service. And while H.R. 299 contains a number of 
provisions relevant to such healthcare-related concerns, MBA will limit 
its views to Sections 6 and 7 of the legislation, which address the 
U.S. Department of Veterans Affairs (VA) Home Loans program. We also 
wish to draw the Committee's attention to another pressing problem in 
the market for VA-guaranteed refinances, which has prevented some loans 
from serving as collateral in Government National Mortgage Association 
(Ginnie Mae) pools.
Section 6(a)
    Section 6(a) of H.R. 299 adjusts the size of the VA loan guaranty 
for a subset of loans. Under existing law, the VA guaranty on loans 
greater than $144,000 cannot exceed the lesser of: (1) 25 percent of 
the government-sponsored enterprise (GSE) conforming loan limit, 
reduced by the amount of entitlement previously used and not restored; 
or (2) 25 percent of the loan. The proposed changes in the legislation 
would adjust the VA guaranty on loans greater than $144,000 to 25 
percent of the loan, reduced by the amount of entitlement previously 
used and not restored.
    For veterans who have not used their entitlement, or have had their 
entitlement fully restored, the new calculation would not change the VA 
guaranty on loans at or below the GSE conforming loan limit. It would, 
however, increase the VA guaranty on loans above the GSE conforming 
loan limit. We believe this adjustment is warranted, as it will promote 
access to credit for veterans living in higher-cost areas of the 
country.
    However, the proposed adjustment would have the effect of lowering 
the VA guaranty on second properties purchased by the veteran, in cases 
in which the second loan is at or below the GSE conforming loan limit. 
As such, this adjustment would make it more difficult for veterans to 
obtain zero-down payment financing for many second properties. Given 
the frequency with which veterans may be required to relocate due to a 
permanent change of station, it is common for veterans to purchase a 
second home in their new station, while continuing to own and rent 
their first home. In such a scenario, we believe it is appropriate to 
allow for zero-down payment financing for the second home, particularly 
if the loan is at or below the GSE conforming loan limit.
    In order to address this concern while maintaining the increased VA 
guaranty on more expensive properties, we recommend that the language 
in Section 6(a) be further amended so as to use the existing 
calculation for loans at or below the GSE conforming loan limit and the 
new calculation contained in Section 6(a) only for loans above the GSE 
conforming loan limit. This amendment would not change the VA guaranty 
for veterans who have not used their entitlement or have had their 
entitlement fully restored, relative to H.R. 299. It would, however, 
allow veterans greater opportunity to use zero-down payment financing 
for their second homes. We would also recommend that such amendments 
clarify the application of existing VA policies regarding restoration 
of entitlement, including any changes to this process.
    We therefore support this section of the legislation, provided that 
it is amended per the recommendations described above.
Section 6(b)
    Section 6(b) of H.R. 299 changes the VA loan fee schedule. The 
changes to the schedule, which are summarized below, would increase the 
overall fees collected from veterans in association with VA-guaranteed 
loans. The changes would also equalize the fees paid by active duty 
veterans and reservists, as reservists often pay higher fees in the 
current system.
    It appears that these increased loan fees are serving to offset 
other expenditures contained in the legislation. And while we are not 
offering comments on the efficacy of the healthcare provisions of the 
legislation, we firmly believe that mortgage borrowing costs should not 
be increased to pay for non-housing-related expenditures. The loan fees 
charged to veterans should reflect the credit risk associated with the 
VA guaranty, and any fee increases that are unrelated to this risk 
unnecessarily raise the cost of mortgage credit for veterans. As such, 
we oppose any changes to VA loan fees that do not correspond to the 
credit risk associated with the VA guaranty.
    The table that follows displays the change in VA loan fees from the 
existing baseline for each loan type, borrower type, and closing 
date.\1\
---------------------------------------------------------------------------
    \1\ Fees are expressed as a percentage of the total amount of the 
loan guaranteed, insured, or made, or, in the case of a loan 
assumption, the unpaid principal balance of the loan on the date of the 
transfer of the property. Red cells indicate an increase in the fee. 
Green cells indicate a decrease in the fee. Yellow cells indicate no 
change in the fee.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Section 6(c)
    Section 6(c) of H.R. 299 requires VA loan fees to be collected from 
veterans with service-connected disabilities rated as less than total, 
surviving spouses of such veterans, or veterans that receive a loan in 
excess of the GSE conforming loan limit. This section also exempts 
veterans serving on active duty who were awarded the Purple Heart from 
paying VA loan fees. Under existing law, VA loan fees are not collected 
from veterans receiving compensation (or eligible to receive 
compensation) due to a service-connected disability or from surviving 
spouses of veterans who died due to a service-connected disability.
    As noted above with respect to Section 6(b), it is unclear that 
this provision, which would have the effect of increasing the overall 
fees collected through the VA Home Loans program, is being proposed due 
to a commensurate change in the credit risk profile or the financial 
health of the program. Veterans with service-connected disabilities 
have sacrificed for their country, and the existing waiver from paying 
VA loan fees is an appropriate benefit. We would strongly oppose 
removing this benefit for the purpose of raising funds to offset non-
housing-related expenditures.
    Similarly, the purchase of a home with a loan that exceeds the GSE 
conforming loan limit is unrelated to the veteran's service-connected 
disability. Because the VA loan fees are expressed as a percentage of 
the loan, veterans who purchase more expensive homes already pay higher 
absolute fees than comparable veterans who purchase homes using loans 
below the GSE conforming loan limit. The proposed legislation would 
prevent veterans with service-connected disabilities from utilizing 
their fee waiver if they purchase a more expensive home, but the 
purpose of the waiver is not influenced by the size of the loan. If 
Congress determines that veterans with such disabilities warrant a fee 
waiver, the size of the loan should not be a relevant factor in that 
determination. In other words, we believe that veterans with similar 
disabilities should be treated equally, regardless of the value of 
their home or the size of the loan that is used. As such, we oppose 
Section 6(c)(2) of the legislation.
Section 7
    Section 7 of H.R. 299 allows VA-approved appraisers to conduct 
appraisals solely on the basis on information gathered and provided by 
a third party. Under existing law, VA maintains a list of approved 
appraisers who are selected on a rotating basis to conduct appraisals 
for properties to be financed with loans that will feature a VA 
guaranty. Such appraisers must meet minimum qualifications to obtain 
approved status, which are verified through written testing, sample 
appraisals, training experience, and recommendations from other 
appraisers. This process better ensures that the VA guaranty is 
properly protected from inflated or otherwise inaccurate valuations.
    In recent years, however, VA-guaranteed financing has been 
inhibited in certain parts of the country due to appraiser shortages or 
other difficulties in obtaining appraisals from approved individuals. 
This problem is often more acute in rural communities where it may take 
an approved appraiser many hours of travel to reach the property. In 
these situations, appraisal ``turn times'' can be lengthy, which can 
then delay closings, force extension of rate locks, or result in 
penalty fees or the loss of earnest money deposits should the borrower 
opt for a non-VA-guaranteed loan.
    Allowing appraisers the ability to receive property information 
from third parties could effectively address this problem by scaling 
back the travel time required of appraisers. This provision could also 
allow appraisers to make better use of the improved technology that is 
facilitating large-scale data collection by industry vendors. 
Importantly, while the appraiser is relying on information provided by 
a third party, the responsibility for conducting the appraisal remains 
with the approved individual.
    However, the legislation as currently drafted provides that VA 
``may'' issue guidance prior to prescribing regulations to implement 
this change. We would recommend that VA instead be required to issue 
guidance ahead of any regulations that are prescribed. This guidance 
should include details regarding the standards that must be met in 
terms of the collection of property information by third parties. VA 
has already issued similar guidance with respect to third parties that 
provide loan underwriting services, such as verification of borrower 
income, employment, and assets.\2\ And while VA may clarify standards 
for the use of third parties in any implementing regulations, it is 
important that there be no confusion in the market prior to the 
issuance of these regulations, and therefore guidance should be 
required prior to the effective date of this section.
---------------------------------------------------------------------------
    \2\ VA, ``Clarification of Third-Party Verification Requirements,'' 
Circular 26-17-43, December 29, 2017. Available at: https://
www.benefits.va.gov/homeloans/documents/circulars/26_17_43.pdf.
---------------------------------------------------------------------------
    Similarly, to allow for additional flexibility in VA's 
implementation of this provision, we would recommend that the language 
be amended to clarify that VA may also enter into such agreements with 
third parties.
    We therefore support this section of the legislation, provided that 
it is amended per the recommendations described above.
Further Improvements to the Seasoning Requirements for VA Refinances
    We also respectfully urge the Committee to support technical 
amendments to the recently passed S. 2155, the Economic Growth, 
Regulatory Relief, and Consumer Protection Act. In particular, Section 
309 of the legislation, which provides enhanced requirements on VA 
refinances that we believe will effectively address the problem of loan 
churning, has caused inadvertent disruptions in this market and is in 
need of revision.
    We appreciate and endorse the urgent need to respond to the 
increased churning of veteran borrowers in recent years. In many 
situations, borrowers are the target of aggressive and potentially 
misleading advertising that encourages them to continually refinance 
their VA-guaranteed mortgage so as to lower their interest rate, even 
if only by a small amount. However, when fees are then added to the 
principal balance of the loan, the borrower may be put in a position in 
which there is no realistic possibility that the fees can be recouped 
through the lower monthly payments. This practice directly harms 
veterans and lowers demand for Ginnie Mae mortgage-backed securities 
(MBS), thereby raising borrowing costs for loans guaranteed or insured 
through a wider array of government mortgage programs.
    To address this problem, MBA supported Section 309 of S. 2155, 
which includes new requirements on refinanced loans to achieve 
eligibility for a VA guaranty and Ginnie Mae pooling. One such 
requirement is a minimum seasoning period for the prior loan. For both 
VA and Ginnie Mae eligibility, at least 210 days must have passed 
between the date of the first payment made by the borrower on the prior 
loan and the note date of the refinance. This seasoning period is 
intended to slow the pace of refinances, thereby deterring extreme 
cases of serial refinancing.
    While we support the use of a minimum seasoning requirement, the 
implementation of Section 309 has led to unexpected disruptions in the 
market. This result has occurred because the seasoning calculation 
described above differs from--and is longer than--that of the seasoning 
requirement instituted by Ginnie Mae through a prior All Participant 
Memorandum.\3\ Ginnie Mae's existing standard requires 210 days to pass 
between the first payment due date of the prior loan and the first 
payment due date of the refinance. The seasoning calculation in Section 
309 differs in both the start point and end point for this timeline.
---------------------------------------------------------------------------
    \3\ Ginnie Mae, ``APM 17-06: Pooling Eligibility for Refinance 
Loans and Monitoring of Prepay Activity,'' December 7, 2017. Available 
at: https://www.ginniemae.gov/issuers/program_ guidelines/Pages/
mbsguideapmslibdisppage.aspx?Para mID=82.
---------------------------------------------------------------------------
    Because there was no effective date provided in the legislation, 
the new requirements took effect immediately. Notably, VA implemented 
the requirements of Section 309 for all loans with applications taken 
on or after May 25, 2018.\4\ Ginnie Mae, however, has followed a 
Department of Housing and Urban Development (HUD) interpretive rule 
which states that, while Ginnie Mae securities issued in May 2018 or 
earlier are unaffected, no VA refinances can be included in issuances 
in June or later unless they are compliant with the new 
requirements.\5\
---------------------------------------------------------------------------
    \4\ VA, ``Policy Guidance Update: VA Refinance Loans and the 
Economic Growth, Regulatory Relief, and Consumer Protection Act,'' 
Circular 26-18-13, May 25, 2018. Available at: https://
www.benefits.va.gov/HOMELOANS/documents/circulars/26_18_13.pdf.
    \5\ HUD, ``Government National Mortgage Association: Loan Seasoning 
for Ginnie Mae Mortgage-Backed Securities--Interpretive Rule,'' July 3, 
2018. Available at: https://www. Federalregister.gov/documents/2018/07/
03/2018-14354/government-national-mortgage-association-loan-seasoning-
for-ginnie-mae-mortgage-backed.
---------------------------------------------------------------------------
    As a result, some VA refinances that were in process or recently 
closed at the time the legislation was signed into law in late May lost 
their eligibility to serve as collateral for Ginnie Mae MBS. These 
``orphaned'' loans cannot be delivered to Ginnie Mae despite carrying a 
valid VA guaranty and being fully compliant with the requirements in 
place at the time the applications were taken and (in some cases) the 
loans were closed. This situation has caused liquidity strains for some 
lenders, particularly if they have originated a significant volume of 
affected loans.
    MBA has noted in formal comments to HUD that this outcome does 
nothing to advance the legislative aim of the statute, actively 
frustrates the purpose of the statute, and ignores both congressional 
intent and the historical relationship between VA and Ginnie Mae.\6\ To 
effectively address this problem, we strongly urge Congress to 
undertake technical corrections needed to restore Ginnie Mae 
eligibility for the orphaned loans and align the VA seasoning 
requirements with those of the other government mortgage programs.
---------------------------------------------------------------------------
    \6\ MBA, ``Re: Government National Mortgage Association: Loan 
Seasoning for Ginnie Mae Mortgage-Backed Securities--Interpretive Rule 
[Docket No. FR-6112-IA-01],'' July 12, 2018. Available at: https://
www.mba.org/Documents/MBA_HUD_Interpretive_Rule_Ginnie_Mae_Loan_ 
Seasoning(0).pdf.
---------------------------------------------------------------------------
    These technical corrections would entail two components. First, the 
Ginnie Mae seasoning requirement in Section 309(b) of the legislation 
should be eliminated. By striking this language, Ginnie Mae would no 
longer be prohibited from guaranteeing MBS backed by the orphaned VA 
refinances, which would effectively restore the eligibility of the 
loans for pooling. This correction would not diminish the anti-churning 
purpose of the legislation, as the seasoning requirements would remain 
a condition of the VA guaranty, which itself is a condition of Ginnie 
Mae pooling. Therefore, VA loans that do not meet the seasoning 
requirements prior to refinancing would not be eligible to serve as 
collateral for Ginnie Mae MBS.
    Second, the seasoning period defined in Section 309(a) of the 
legislation should be amended to match that of the earlier Ginnie Mae 
requirements. That is, 210 days should be required to pass between the 
first payment due date of the prior loan and the first payment due date 
of the refinance. This amended calculation would align the VA seasoning 
requirement with those of the other government mortgage programs. And 
importantly, it would also facilitate improved adoption in the market, 
as the current calculation suffers from the fact that many lenders are 
unable to determine the date on which the first payment on the prior 
loan was made by the borrower. Without this information, it is 
impossible for lenders to be certain that they are compliant with the 
new requirements.
    These technical corrections would address a pressing need in the 
current market and would allow for more sensible implementation of 
these important anti-churning provisions on an ongoing basis. We 
strongly urge the Committee to work with the Committee on Banking, 
Housing, and Urban Affairs and other relevant stakeholders to enact 
these corrections as soon as possible.
                              *    *    *
    MBA appreciates the opportunity to provide our views regarding H.R. 
299, as well as the ongoing problems related to VA refinances that are 
ineligible to serve as collateral for Ginnie Mae securities. We look 
forward to our continued work with the Committee as it undertakes 
issues that are critical to maintaining veterans' access to safe, 
reliable, and affordable mortgage credit.
                                 ______
                                 
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
     Prepared Statement of Military Officers Association of America
    Chairman Isakson, Ranking Member Tester, and Members of the 
Committee on Veterans' Affairs, The Military Officers Association of 
America (MOAA) is pleased to submit its views on pending legislation 
under consideration.
    MOAA does not receive any grants or contracts from the Federal 
Government.
                           executive summary
    On behalf of the 350,000 members of MOAA, the largest military 
service organization representing the seven uniformed services, 
including active duty and Guard and Reserve members, retirees, 
veterans, and survivors and their families, thank you for your 
commitment and enduring support of our Nation's servicemembers and 
veterans and their families.
MOAA offers our position on the following bills.

    <bullet> H.R. 299, Blue Water Navy Vietnam Veterans Act of 2018
    <bullet> S. __, Veterans Dental Care Eligibility Expansion and 
Enhancement Act of 2018
    <bullet> Discussion Draft on Transition Assistance Reform
    <bullet> S. 1596, BRAVE Act of 2017
    <bullet> S. 1952, VA Financial Accountability Act of 2017
    <bullet> S. 1990, Dependency and Indemnity Compensation Improvement 
Act of 2017
    <bullet> S. 2748, BATTLE for Servicemembers Act
    <bullet> S. __, Grant Program on Provision of Suicide Prevention 
Services for Veterans
    <bullet> S. __, Modernization of Medical Records Access for 
Veterans Act
    <bullet> S. 514, No Hero Left Untreated Act

    MOAA takes no position on: S. 3148; S. __, VA Hiring Enhancement 
Act; S. 5418, Veterans Affairs Medical-Surgical Purchasing 
Stabilization Act; S. 2881, Mare Island Naval Cemetery Transfer Act; 
and S. 2485, Medal of Honor Surviving Spouses Recognition Act.
                          pending legislation
H.R. 299, Blue Water Navy Vietnam Veterans Act of 2018.
    MOAA supports this legislation.
    MOAA has always supported restoring the presumption of herbicide 
exposure to Blue Water Navy Veterans. MOAA further supports the 
extension of the presumption to veterans who served on the Korean DMZ 
from Sept. 1, 1967, to Aug. 31, 1971, as well as benefits to children 
born with spina bifida of veterans who served in Thailand during the 
Vietnam conflict.
    MOAA is disappointed that the only way found to fund these benefits 
was raising VA home loan fees. This places the financial burden solely 
on the 1 percent of the U.S. population who served their nation in time 
of conflict and relieves the remaining 99 percent of our Nation's 
population of bearing any financial responsibility or liability. Those 
who sacrificed will continue to sacrifice and subsidize a solution to 
resolve the toxic exposure of veterans who provided our Nation's 
security and defense.
    MOAA is grateful the legislation includes a provision proposed by 
MOAA to use a portion of these funds toward a report on a follow-up 
study on certain Gulf War illnesses. It is clear the reason Vietnam 
veterans have had exceptional difficulty in obtaining VA benefits for 
their conditions was the direct result of the failure of the Department 
of Defense to accurately and adequately maintain records of toxic 
exposures. MOAA asks for this Committee to work collaboratively with 
the Committee on Armed Services to ensure future generations of 
veterans are not placed in the same predicament.
S. __, Veterans Dental Care Eligibility Expansion and Enhancement Act 
        of 2018
    MOAA supports this legislation and requests Congress provide the 
associated funding needed to support the legislative requirements of 
this bill.
    It is well established that dental health correlates to overall 
health and affects vital functions such as overall nutrition. According 
to studies, cost barriers are the biggest burden to obtaining dental 
services and the burden is considerably higher than it is for other 
health care services.\1\ Many disabled veterans are unable to either 
afford paying for the cost of private dental care out-of-pocket or they 
lack access to dental insurance, so they go without. MOAA supports a 
pilot program to determine the overall health improvements made in 
veterans' health given access to dental care, particularly in rural 
areas.
---------------------------------------------------------------------------
    \1\ Wall T, Guay A. The per-patient cost of dental care, 2013: a 
look under the hood. Health Policy Institute Research Brief. American 
Dental Association. March 2016. Available from:
    http://www.ada.org//media/ADA/Science%20and%20Research/HPI/Files/
HPIBrief_0316_4.pdf
---------------------------------------------------------------------------
    MOAA believes the cost of the initiative could be reduced by making 
the pilot program smaller and still be able to assess overall health 
improvements. Any pilot program, however, should include rural areas.
Discussion Draft on Transition Assistance Reform
    MOAA supports this draft bill.
    Military spouses experience some of the same issues servicemembers 
face when transitioning out of the military; one of the most common 
being finding employment. After having a resume filled with gaps in 
employment and multiple moves, spouses often need the same 
professional-development advice servicemembers need and receive through 
the Transition Assistance Program (TAP). Additionally, it is vital 
spouses are equally informed on veterans' benefits that not only affect 
the servicemember but also their families. Often, spouses of 
servicemembers handle family matters such as health care and financial 
decisions, which are impacted by transition. TAP addresses these 
changes, and it is important spouses, especially those who handle these 
benefits for their families, are able to receive the information and 
ask questions from the TAP instructors. MOAA is pleased to see 
discussion on including military spouses in TAP, whereas previously 
spouses could attend only if space was available.
    MOAA understands the intent behind the waiver provision for members 
who might not benefit from attending the program. The waiver provision, 
however, does not contain a way for the member to express a desire or 
ability to attend the program even though he or she might be eligible 
for a waiver. The waiver is dictated by the services upon entire groups 
who are ``unlikely to face major readjustment . . .  to civilian life'' 
with no option for the member to override the waiver. This is 
problematic, as individuals within those groups might, nonetheless, 
have circumstances that would present them with such challenges and 
have no way of accessing the program. MOAA recommends, for groups or 
classifications designated by the service secretaries as being waived 
from the program, that individual members have a way to opt into the 
program nonetheless. The program, after all, is meant to benefit the 
member, not the service, so the ultimate decision to waive off should 
reside with the member and not the service.
    For members ``possessing specialized skills'' who are unable to 
attend the program ``to support the imminent deployment of a unit,'' 
MOAA would like the program to be made available to them within a year 
of their separation from service. The November 2017 Government 
Accountability Office report titled ``Transitioning Veterans; DOD Needs 
to Improve Performance Reporting and Monitoring for the Transition 
Assistance Program,'' noted over one-third (37 percent) of 
servicemembers surveyed did not attend TAP at all, not even the core 
curriculum portion, because they were not released from their duties 
due to having mission-critical skills. Having over one-third of 
transitioning servicemembers unprepared for their follow-in careers is 
simply unacceptable. Allowing these servicemembers to participate 
within a year of separating from service would ensure they still are 
able to receive the training and assistance in a fashion that does not 
compromise the mission.
    MOAA further recommends the inclusion of information specific to 
women veterans in the program. A Department of Veterans Affairs (VA) 
employee recently shared a sentiment that MOAA has heard echoed both 
from women veterans and the VA: ``Women veterans are still coming to us 
in the VA not even knowing how to apply for all the benefits they rate. 
They need to be educated prior to leaving service to ensure we can 
effectively assist them once they get here.'' Data and experience have 
identified areas where women veterans have unique experiences and needs 
following transition, yet women veterans still are bypassing the VA or 
are arriving there unaware of what they should be doing to access the 
women-specific benefits and services available to them in the 
department. This indicates a failure in the agencies communicating 
about the benefits and resources for women veterans.
S. 1952, Department of Veterans Affairs Financial Accountability Act of 
        2017
    MOAA supports this legislation.
    The VA Financial Accountability Act introduced by Sens. Jon Tester 
(D-Mont.), John McCain (R-Ariz.), Jerry Moran (R-Kan.), and Tim Kaine 
(D-Va.) would improve the oversight and accountability of VA financial 
processes.
    The bill provides a sense of Congress as to what a normal or 
standard budget process should look like for the VA in seeking future 
appropriations:

    <bullet> The process should be grounded in sound actuarial analysis 
based on accurate demand data for forecasting.
    <bullet> The regular budget process should be the norm.
    <bullet> Requests for supplemental appropriations should be used 
sparingly and for unforeseen demand or natural occurrences.

More specifically, the VA would be required to contract with an 
independent third party to: review and audit financial processes and 
reporting structures, including actuarial and estimation models and 
develop recommendations for financial system improvements. The 
secretary of the VA then would submit a plan for implementing the 
report recommendations to both the Senate and House Committees on 
Veterans' Affairs. One individual within the Office of the Secretary 
would be responsible for monitoring the status and implementation of 
the recommendations.
    The secretary also would be required to notify Congress not later 
than 45 days in advance of a request for supplemental appropriation for 
budgetary issues outside of the standard budget process. The VA chief 
financial officer (CFO) would be required to provide a statement with 
supporting materials to the Committees assuring financial projections 
submitted with the president's annual budget request is sufficient to 
provide benefits and services in the department. Additionally, the CFO 
must certify responsibility for internal controls and collaboration 
with department financial officers of all facilities and components 
when submitting the VA's annual budget.
    MOAA, like lawmakers, recognizes VA fiscal problems cannot continue 
to be fixed by adding more money to the budget, particularly during 
fiscally constrained times. Implementation of the Choice Program and 
ongoing funding crises in recent years have brought to light a number 
of problems associated with VA financial, data management, and 
forecasting systems. MOAA supports the VA Financial Accountability Act 
and believes the audit and certification provisions in the bill are 
long overdue and a much needed move in the right direction to get the 
VA's fiscal house in order.
S. 1596, BRAVE Act of 2017
    MOAA supports this legislation and requests Congress provide the 
associated funding needed to support the legislative requirements of 
this bill.
    The BRAVE Act would correct a long-overdue shortfall that places an 
unnecessary burden on surviving families. In 2017, the average funeral 
cost over $8,000.\2\ The current VA reimbursement rate of $300 for 
veterans not dying of a service-connected disability amounts to less 
than 4 percent of the costs a surviving family may incur. The current 
reimbursement rates for the family of a veteran dying of a service-
connected cause amounts to 25 percent of the total potential cost. 
Using the Consumer Price Index to increase these amounts periodically 
is a logical solution to attempting to alleviate some of the burden 
that results from these low reimbursement amounts.
---------------------------------------------------------------------------
    \2\ National Funeral Directors Association, Statistics, available 
at http://www.nfda.org/news/ statistics
---------------------------------------------------------------------------
S. 1990, Dependency and Indemnity Compensation Improvement Act of 2018
    MOAA is supportive of this legislation, pending modification. We 
request Congress provide the associated funding needed to support the 
legislative requirements of this bill.
    The Dependency and Indemnity Compensation Improvement Act would 
make important changes to Title 38: It would change the computation of 
Dependency and Indemnity Compensation (DIC); it would reduce from 10 
years to five the number of years a veteran must be rated permanently 
disabled for a survivor to become eligible for DIC; and it would reduce 
from 57 to 55 the age at which a surviving spouse may remarry and 
retain DIC.
    The Dependency and Indemnity Compensation Improvement Act would 
change the computation of DIC to 55 percent of the rate of pay for a 
100-percent-disabled veteran. Changing the formula for how DIC is 
calculated would make the benefit more in line with that of other 
Federal programs. The change would provide approximately $300 more per 
month for qualified survivors.
    MOAA commends the desire to increase DIC payments. The increase in 
tax-free compensation would be a welcomed addition to qualified 
survivors. However, the bill, as currently written, omits an important 
provision contained in previous military survivor bills. MOAA would 
like to see the following language incorporated into the bill:

        (g) In the case of an individual who is eligible for Dependency 
        and Indemnity Compensation under this section who is also 
        eligible for benefits under another provision of law by reason 
        of such individual's status as the surviving spouse of a 
        veteran, then, notwithstanding any other provision of law 
        (other than section 5304(b)(3) of this title), neither a 
        reduction nor an offset in benefits under such provision shall 
        be made by reason of such individual's eligibility for benefits 
        under this section.

    The bill also lowers the number of years a veteran must be rated 
100 percent disabled for a survivor to qualify for DIC. MOAA supports a 
graduated scale of benefits after five years of being rated permanently 
and totally disabled for surviving spouses of veterans.
    The bill also would lower from 57 to 55 the age at which a 
surviving spouse may remarry and retain DIC benefits. The change would 
align DIC with other Federal programs. MOAA supports this change.
    As Members of the Committee know, the Survivor Benefit Plan (SBP) 
and DIC are benefits paid for two distinct reasons. SBP is a voluntary, 
member-purchased annuity provided by DOD, allowing a continuation of a 
portion of military retired pay upon the death of the servicemember. 
DIC is a VA-paid monetary benefit for eligible survivors whose sponsors 
died of a service-connected injury or disease. MOAA remains steadfast 
believing the only way to end the unfair treatment of survivors of 
military retirees and those killed in the line of duty is to repeal 
SBP-DIC offset.
S. 2748, BATTLE for Servicemembers Act
    MOAA supports this legislation and requests Congress provide the 
associated funding needed to support the legislative requirements.
    The November 2017 Government Accountability Office report titled 
``Transitioning Veterans; DOD Needs to Improve Performance Reporting 
and Monitoring for the Transition Assistance Program,'' noted that 
participating in the two-day additional classes offered through TAP was 
thwarted by ``lack of commander support'' and that 57 percent of the 
installations that GAO spoke to stated ``commanders and direct 
supervisors were less inclined to allow servicemembers to attend these 
classes because they were considered optional.'' The lack of 
opportunity by these servicemembers to participate in such an important 
transition program element defies the intent and institutional rigor 
dedicated to transition programs in the first place.
    Changing the two-day classes from an opt-in model to a member opt-
out model has the potential to minimize this level of command 
interference and to reinforce the importance of the program to a 
transitioning servicemember's future career.
S. __, Grant Program on Provision of Suicide Prevention Services for 
        Veterans
    MOAA supports this legislation and requests Congress provide the 
associated funding needed to support the legislative requirements.
    The bill requires the secretary of Veterans Affairs to establish a 
program to award grants to persons to provide and coordinate the 
provision of suicide prevention services for veterans transitioning 
from service in the Armed Forces who are at risk of suicide and for 
their families, and for other purposes. It augments existing VA 
programs and is a natural extension of those resources.
    The bill is comprehensive in its attempt to capture the key 
functional requirements to provide suicide prevention services for 
veterans and their families. The focus and priority is placed on 
veterans and families who live away from any VA medical center and are 
located in more rural or tribal areas, which MOAA supports given the 
sparsity of resources in those areas. MOAA would like the legislation 
to emphasize that this legislation will not compete with or be a 
replacement for existing VA suicide prevention services, but is 
intended only as a compliment to what VA provides.
    It is anticipated that programs selected will have a history of 
providing these services along with the relevant programmatic and 
professional credentialing. A brief review of grants and activities of 
SAMSHA (Substance Abuse and Mental Health Services Administration) 
shows a wide variety of public/private and community partnership 
activities and programs and certified community behavioral health 
clinics. Given the existing precedent in other areas, veterans should 
be allowed to benefit from such arrangements, as well.
    MOAA specifically appreciates including services for families under 
grant uses as family members feel the direct impact of the mental 
health of their veteran and this, in turn, can influence their own 
mental health.
S. __, Modernization of Medical Records Access for Veterans Act
    MOAA does not support this legislation.
    This bill would direct the VA to carry out, in at least one 
Veterans Integrated Services Network (VISN), a pilot program for at 
least a 12-month period during which veterans enrolled in the VA's 
patient enrollment system will use a portable medical records storage 
system to store and share with VA health care providers and community 
health care providers records of their individual medical histories. 
This is specified to be similar in nature and characteristics to a 
standard credit card. The bill also prohibits new appropriations in 
carrying out this pilot.
    MOAA is supportive of a system that would enable veterans who 
receive care from non-VA providers to be able to consolidate their VA 
and non-VA records in an effective and efficient manner. This is 
important to ensure continuity of care and accuracy of treatment. MOAA 
does not support, however, the express prohibition on new 
appropriations to carry this initiative out. Unfunded mandates have the 
significant potential to harm other VA programs from which the funds 
are extracted. Further, MOAA has supported the implementation of the 
current VA electronic health record initiative and believes that a 
solution for needs such as these could be satisfied through that system 
if properly implemented.
S. 514, No Hero Left Untreated Act
    MOAA supports this legislation.
    This legislation would establish a pilot program within the VA on a 
promising neurological treatment option for mental trauma called 
magnetic EEG/EKG-guided resonance therapy, also known as Magnetic 
eResonance Therapy (MeRT). This is an individualized non-
pharmaceutical, non-invasive neuromodulation procedure that applies 
magnetic stimulation to restore proper brain function. To date, open 
label trials and placebo-controlled, double-blind studies indicate over 
400 veterans have reported a marked improvement in symptoms associated 
with PTS, TBI, MST, chronic pain, and opiate addiction. One study done 
at Tinker Air Force Base, after four weeks of testing, specifically 
concluded, ``Transcranial MeRT is a promising adjuvant treatment 
modality to help veterans suffering from PTSD.''
    MOAA believes there is sound research to support a pilot on 50 
veterans. MOAA also notes the bill prohibits new appropriations to 
carry out the pilot program. Although MOAA generally objects to 
unfunded mandates, the fact this pilot is limited to 50 veterans and 
only requires VA to provide ``access to'' the treatment vice directly 
rendering the treatment, MOAA believes the cost will be negligible.
    MOAA thanks the Committee for considering these important pieces of 
legislation, and we look forward to working with Members of Congress in 
making the necessary changes listed above and to move the bills quickly 
through the Congress for final passage.
                                 ______
                                 
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
  Prepared Statement Submitted by Aleks Morosky, National Legislative 
              Director, Military Order of the Purple Heart
    Chairman Isakson, Ranking Member Tester, and Members of the 
Committee, On behalf of the Military Order of the Purple Heart (MOPH), 
whose membership is comprised entirely of combat wounded veterans, I 
thank you for inviting us to submit our views on pending legislation. 
For the purposes of this statement, we will focus our comments on H.R. 
299, the Blue Water Navy Vietnam Veterans Act of 2018, specifically 
section 6(c), which extends the Department of Veterans Affairs (VA) 
Home Loan funding fee waiver to Purple Heart recipients serving on 
active duty in the Armed Forces.
    As its name implies, the Blue Water Navy Vietnam Veterans Act deals 
in large part with extending presumptive service connection for 
conditions related to Agent Orange exposure to veterans who served 
offshore of the Republic of Vietnam from January 9, 1962 to May 7, 
1975. It would also grant the same presumptive service connection for 
veterans who served on the Korean Demilitarized Zone from September 1, 
1967 to August 31, 1971, extend benefits to the children born with 
spina bifida to certain veterans who served in Thailand, and require VA 
to submit an updated report on its Gulf War Illness study. MOPH 
supports all of these provisions.
    This legislation also makes a number of technical changes to the VA 
Home Loan Program. Among those is section 6(c), which would extend the 
VA home loan funding fee waiver to active duty Purple Heart recipients. 
Since VA home loans require no down payment or mortgage insurance, the 
funding fee is used to cover any losses VA may incur in guaranteeing 
the loans. The fees for first time users of the program are between 
2.15 and 2.4 percent of the loan amount, and may be paid upfront or 
financed as part of the loan. While the VA Home Loan Program is a 
valuable benefit, the funding fee generally adds thousands of dollars 
to the final amount of the loan. However, disabled veterans and 
surviving spouses of veterans who died of service-connected 
disabilities are eligible to have the funding fee waived as a benefit 
of their service.
    Combat wounded veterans still serving on active duty, however, are 
required to pay the funding fee in all cases. MOPH strongly believes 
that these veterans, the vast majority of whom will almost certainly be 
eligible for some level of service-connected disability rating upon 
separation, should be entitled to the funding fee waiver on the same 
basis as disabled veterans who have already been discharged. Many 
active duty Purple Heart recipients were severely wounded in Iraq and 
Afghanistan, and spent many months recovering in military hospitals 
before they were able to return to duty. Others may spend months or 
years in military hospitals before ultimately receiving medical 
discharges, but may wish to purchase homes during that period of 
recovery. MOPH sees absolutely no reason why they should be penalized 
by the VA Home Loan Program in any way, simply because they continue to 
serve on active duty in some capacity.
    This issue was first brought to our attention by a MOPH member, 
Major Byron Owen, United States Marine Corps. A multiple Purple Heart 
recipient, Major Owen was wounded twice in Iraq in 2006, and again in 
Afghanistan in 2008. After recently deciding to use his VA Home Loan 
benefit, and being aware that veterans with service-connected 
disabilities are exempt from the funding fee, he was frustrated to 
discover that he was not eligible for the waiver as an active duty 
servicemember. In his own words:

        ``I think they (VA) unfairly punish active duty personnel who 
        choose to remain in uniform instead of accept medical 
        separation or retirement. I was medevac'd out of Iraq in 2006 
        and had to undergo months of therapy to return to service. Why 
        should I have to pay 20 grand to get a VA loan when someone 
        with a non-combat related disability gets to waive it? Some of 
        my friends are amputees in uniform. They're paying the funding 
        fee. Does that seem right? I think someone should advocate on 
        the behalf of active duty Purple Heart recipients who would 
        almost certainly receive service-connected disability payments 
        if we were out.''

    MOPH strongly agrees with Major Owen, and stands with him and the 
approximately 8,000 other Purple Heart recipients currently serving on 
active duty in the U.S. military. Veterans who have been wounded in 
combat with the enemies of our Nation have made incredible sacrifices, 
and under no circumstances should they be excluded from a benefit as 
significant as the VA Home Loan funding fee waiver, simply because of 
their duty status. We strongly urge the Committee to correct this 
injustice by passing H.R. 299 without delay.

    Chairman Isakson, Ranking Member Tester, this concludes my 
statement. On behalf of the Order, I thank you for the opportunity to 
submit our statement, and would be happy to answer any questions for 
the record that you or other Members of the Committee may have.
                                 ______
                                 
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
    Prepared Statement Submitted by CDR John B. Wells, USN (Ret.), 
             Executive Director, Military-Veterans Advocacy
                              introduction
    Distinguished Chairman Johnny Isakson, Ranking Member Jon Tester 
and other Members of the Committee, Thank you for the opportunity to 
present Military-Veterans Advocacy's views on H.R. 299, the Blue Water 
Navy Vietnam Veterans Act of 2017.
                    about military-veterans advocacy
    Military-Veterans Advocacy Inc. (MVA) is a tax exempt IRC 501[c][3] 
organization based in Slidell, Louisiana that works for the benefit of 
the Armed Forces and military veterans. Through litigation, legislation 
and education, MVA seeks to obtain benefits for those who are serving 
or have served in the military. In support of this, MVA provides 
support for various legislation on the State and Federal levels as well 
as engaging in targeted litigation to assist those who have served.
    Along with the Blue Water Navy Vietnam Veterans Association, Inc 
(BWNVVA) and the Fleet Reserve Association (FRA), MVA has been the 
driving force behind the Blue Water Navy Vietnam Veterans Act 
(H.R. 299). Working with Members of Congress and United States Senators 
from across the political spectrum, MVA and BWNVVA provided technical 
information and support to sponsors who have worked tirelessly to 
partially restore the benefits stripped from the Blue Water Navy 
veterans sixteen years ago. H.R. 299 passed the House of 
Representatives by a bi-partisan and unanimous vote of 382-0.
            military-veterans advocacy's executive director 
                  commander john b. wells, usn (ret.)
    MVA's Executive Director, Commander John B. Wells, USN (Retired), 
has long been viewed as the technical expert on H.R. 299. A 22-year 
veteran of the Navy, Commander Wells served as a Surface Warfare 
Officer on six different ships, with over ten years at sea. He 
possessed a mechanical engineering subspecialty, was qualified as a 
Navigator and for command at sea, and served as the Chief Engineer on 
several Navy ships. As Chief Engineer, he was directly responsible for 
the water distillation and distribution system. He is well versed in 
the science surrounding this bill and is familiar with all aspects of 
surface ship operations. This includes the hydrological effect of wind, 
tides and currents.
    Since retirement, Commander Wells has become a practicing attorney 
with an emphasis on military and veterans law. He is counsel on several 
pending cases concerning the Blue Water Navy and has filed amicus 
curiae briefs in other cases. He has tried cases in state, Federal, 
military and veterans courts as well as other Federal administrative 
tribunals. Since 2010 he has visited virtually every Congressional and 
Senatorial offices to discuss the importance of enacting a bill to 
partially restore benefits to those veteran who served in the bays, 
harbors and territorial seas of the Republic of Vietnam. He is also 
recognized in the veterans community as the subject matter expert on 
this matter.
               historical background surrounding h.r. 299
    In the 1960's and the first part of the 1970's the United States 
sprayed over 12,000,000 gallons of a chemical laced with 2,3,7,8-
Tetrachlorodibenzodioxin (TCDD) and nicknamed Agent Orange over 
southern Vietnam. This program, code named Operation Ranch Hand, was 
designed to defoliate areas providing cover to enemy forces. Spraying 
included coastal areas and the areas around rivers and streams that 
emptied into the South China Sea. By 1967, studies initiated by the 
United States government proved that Agent Orange caused cancer and 
birth defects. Similar incidence of cancer development and birth 
defects have been documented in members of the United States and Allied 
Armed Forces who served in and near Vietnam.
    Throughout the war, the United States Navy provided support for 
combat operations ashore. This included air strikes and close air 
support, naval gunfire support, electronic intelligence, interdiction 
of enemy vessels and the insertion of supplies and troops ashore. 
Almost every such operation was conducted within the territorial seas 
of the Republic.
    The South China Sea is a fairly shallow body of water and the 
thirty fathom curve (a fathom is six feet) extends through much of the 
area designated in the bill. The gun ships would operate as close to 
shore as possible. The maximum effective range of the guns required 
most operations to occur within a few thousand yards of shore.
    It was common practice for the ships to anchor while providing 
gunfire support. Digital computers were not yet in use and the fire 
control systems used analog computers. By anchoring, the ship's crew 
was able to achieve a more stable fire control solution, since there 
was no need to factor in their own ship's course and speed. It was also 
common for ships to steam up and down the coast at high speeds to 
respond to call for fire missions, interdict enemy sampans and other 
operational requirements.
                        agent orange act of 1991
    In 1991, the Congress passed and President George H. W. Bush 
signed, the Agent Orange Act of 1991, Pub.L. 102-4, Feb. 6, 1991, 105 
Stat. 11. This Federal law required VA to award benefits to a veteran 
who manifests a specified disease and who ``during active military, 
naval, or air service, served in the Republic of Vietnam during the 
period beginning on January 9, 1962, and ending on May 7, 1975.''
    The Department of Veterans Affairs (hereinafter VA) drafted 
regulations to implement the Agent Orange Act of 1991 and defined 
``service in the Republic of Vietnam'' as ``service in the waters 
offshore and service in other locations if the conditions of service 
involved duty or visitation in the Republic of Vietnam.'' 38 CFR 
Sec. 3.307(a)(6)(iii) (1994). This was in contrast to a previous 
definition which defined ``service in the Republic of Vietnam'' as 
``service in the waters offshore, or service in other locations if the 
conditions of service involved duty or visitation in Vietnam.'' 38 CFR 
Sec. 3.313 (1991). The placement of the comma became critical in the 
VA's interpretation. As a result of the comma's omission, benefits were 
stripped from those who served in the bays, harbors and territorial 
seas of Vietnam.
    Originally, the VA interpreted the regulation to allow the 
presumption of exposure throughout the Vietnam Service Medal area, 
which is the dark solid line marked on the Exhibit. Under this 
definition, a ballistic missile submarine was covered as were the 
aircraft carriers on Yankee Station and submarines conducting 
operations where no Agent Orange was sprayed. These ships would not be 
covered under H.R. 299.
    In 1997 the VA General Counsel issued a precedential opinion 
excluding servicemembers who served offshore but not within the land 
borders of Vietnam. The opinion construed the phrase ``served in the 
Republic of Vietnam'' as defined in 38 U.S.C. Sec. 101(29)(A) not to 
apply to servicemembers whose service was on ships and who did not 
serve within the borders of the Republic of Vietnam during a portion of 
the ``Vietnam era.'' The opinion stated that the definition of the 
phrase ``service in the Republic of Vietnam'' in the Agent Orange 
regulation, 38 CFR Sec. 3.307(a)(6)(iii), ``requires that an individual 
actually have been present within the boundaries of the Republic to be 
considered to have served there,'' and that for purposes of both the 
Agent Orange regulation and section 101(29)(A), service ``in the 
Republic of Vietnam'' does not include service on ships that traversed 
the waters offshore of Vietnam absent the servicemember's presence at 
some point on the landmass of Vietnam.''
    After lying dormant for a few years, this General Counsel opinion 
was incorporated into a policy change that was published in the Federal 
Register during the last days of the Clinton Administration. The final 
rule was adopted in Federal Register in May of that year. Comments by 
the VA concerning the exposure presumption recognized it for the 
``inland'' waterways but not for offshore waters.
    Historically the VA's Adjudication Manual, the M21-1 Manual, 
allowed the presumption to be extended to all veterans who had received 
the Vietnam service medal, in the absence of ``contradictory 
evidence.'' In a February 2002 revision to the M21-1 Manual, the VA 
incorporated the VA General Counsel Opinion and the May 2001 final rule 
and required a showing that the veteran had set foot on the land or 
entered an internal river or stream. This ``boots on the ground'' 
requirement is in effect today.
    One exception to this rule deals with Non-Hodgkins Lymphoma. A 
punctuation difference in the regulation allows the VA to exclude Navy 
veterans suffering from other Agent Orange related illnesses.
                          hydrological effect
    The Agent Orange that was sprayed over South Vietnam was mixed with 
petroleum. The mixture washed into the rivers and streams and 
discharged into the South China Sea. In addition, the riverbanks were 
sprayed continuously resulting in direct contamination of the rivers.
    The dirt and silt that washed into the river can be clearly seen 
exiting the rivers and entering the sea. This is called a discharge 
``plume'' and in the Mekong River it is considerable. Although the 
Mekong has a smaller drainage area than other large rivers, it has 
approximately 85% of the sediment load of the Mississippi. In two 
weeks, the fresh water of the Mekong will travel several hundred 
kilometers. Notably, the Agent Orange dioxin dumped off the east coast 
of the United States was found in fish over one hundred nautical miles 
from shore.
    Eventually, the Agent Orange/petroleum mixture would emulsify and 
fall to the seabed. Evidence of Agent Orange impingement was found in 
the sea bed and coral of Nha Trang Harbor. During the Vietnam War, the 
coastline, especially in the harbors and within the thirty fathom curve 
was a busy place with military and civilian shipping constantly 
entering and leaving the area in support of the war effort. Whenever 
ships anchored, the anchoring evolution would disturb the shallow 
seabed and churn up the bottom. Weighing anchor actually pulled up a 
small portion of the bottom. The propeller cavitation from military 
ships traveling at high speeds, especially within the ten fathom curve, 
impinged on the sea bottom. This caused the Agent Orange to constantly 
rise to the surface. Tidal effects mixed the contaminated river water 
with the salt water in the territorial seas. The contaminated water was 
ingested into the ship's evaporation distillation system which was used 
to produce water for the boilers and potable drinking water. Navy ships 
within the South China Sea were constantly steaming through a sea of 
Agent Orange molecules.
                            judicial impact
    This matter first came before the judiciary in 2006. Haas v. 
Nicholson, 20 Vet. App. 257. The Haas court found that the veteran, who 
was operating off the shoreline, was within the scope of the statutory 
definition and invalidated the VA ``boots on the ground'' policy. The 
Federal Circuit reversed in Haas v. Peake, 525 F.3d 1168, 1196 (Fed. 
Cir. 2008) reh'g denied Haas v. Peake, 544 F.3d 1306, 1309 (Fed. Cir. 
2008).
    In 2015, the Court of Appeals for Veterans Claims considered 
another Blue Water case, as it applied to bays and harbors, in Gray v. 
McDonald, 27 Vet. App. 313 (2015). The Gray Court found the Secretary's 
exclusion of Da Nang from their inland waterways definition was 
arbitrary and capricious. Gray, 27 Vet. App. at 313. The Gray court 
went on to note that the VA failed to address their rationale in 
excluding areas where brown water and blue water mix, such as Da Nang 
Harbor. Gray, supra., at 322. Stopping short of applying a definition 
of inland waters, the Gray Court ruled that they would vacate the BVA 
decision and remand the matter to the VA. The Secretary did not file an 
appeal. The Secretary failed to follow the Gray court's guidance. A new 
regulation issued in the M21-1 Manual on February 5, 2016 renewed the 
same exclusionary policy used to deny the veterans their benefits. A 
petition for review, pursuant to 38 U.S.C. Sec. 502, was filed in the 
Court of Appeals for the Federal Circuit. The petition was dismissed 
due to lack of jurisdiction. Gray v. MacDonald, 830 F.3d 570 (D.C. Cir. 
2016). A petition for rehearing en banc was also denied 7-3. Gray v. 
Sec'y of Veterans Affairs, 884 F.3d 1379 (Fed. Cir. 2018). A petition 
for certiorari is pending in the Supreme Court of the United States.
    Additionally, there is a case pending in the United States Court of 
Appeals for the Federal Circuit, Procopio v. O'Rourke, 17-1821. 
Briefing and oral argument have completed. Procopio asks the court to 
extend the presumption of exposure to the territorial seas. Procopio, 
assuming it is decided in favor of the veterans, will not resolve the 
problem. Without the geographic designations incorporated into the 
bill, the VA would be free to define the territorial seas as they 
desired. Accordingly, H.R. 299 is needed to fix the area to be covered.
                            cost of h.r. 299
    The Congressional Budget Office has scored H.R. 299 at $894 million 
over ten years. This includes $882 million for the Blue Water component 
and the remainder to provide expanded benefits to Korea DMZ veterans 
and additional Spina Bifida benefits. H.R. 299 also called for an 
increase in loan guarantee fees which will generate $1.165 billion over 
ten years. Accordingly, H.R. 299 will result in a $271 million dollar 
savings to the government over ten years.
    The loan guarantee fees vary depending on whether there is a down 
payment and whether it is the first or subsequent use of the home loan 
benefit. The increased rates will vary between 1.25% and 3.30% and are 
expected to cost the veteran $2.00 to $2.50 per month. Disabled 
veterans will generally be exempt from the provision. The cap on jumbo 
loans will be removed which will allow the VA to provide a guarantee on 
the full amount of the loans. The disabled veteran exemption for jumbo 
loans will not apply however, unless the veteran is 100% disabled.
    The bill and the offset have generally received the support of the 
Veterans Service Organizations. The exception seems to be a real estate 
agent, George Varrato II, a Phoenix Realtor has objected to the offset 
although he does not object to the bill. Varrato contacted the 
undersigned several weeks ago but was unable to provide any substitute 
offset significant enough to finance these benefits. He was also unable 
to provide information on how many veterans would be affected by the 
fees.
    Although Military-Veterans Advocacy is unhappy with any offset for 
additional veterans benefits, the reality of the situation is that they 
are required by Pub. L. 111-139. Of the various offsets reviewed by 
MVA, this offset seems the most innocuous.
                      common va misrepresentations
    The VA has consistently opposed the expansion of the presumption of 
exposure. On October 24, 2017, however, former Secretary Shulkin 
expressed support for H.R. 299 in his testimony before the House 
Veterans' Affairs Committee. Given the previous opposition, and the 
lack of a confirmed Secretary to articulate the present VA position, 
MVA feels compelled to address previous VA misrepresentations.
    Some common VA misrepresentations are as follows:

    Misrepresentation: The Australian distillation study was never peer 
reviewed.
    MVA Comment: The report was presented for review at the 21st 
International Symposium on Halogenated Environmental Organic Pollutants 
and POPs and is published in the associated peer reviewed conference 
proceedings: Mller, J.F., Gaus, C., Bundred, K., Alberts, V., Moore, 
M.R., Horsley, K., 2001. It was also reviewed and confirmed by two 
separate committees of the Institute of Medicine.
    Misrepresentation: There is no evidence that the evaporation 
distillation process used by the Australians was the same as used on 
United States ships.
    MVA Comment: All steam ships used a similar system which remained 
in place until the 1990's. In addition many of the Australian gun ships 
were the United States Charles F. Adams class and were built in the 
United States. Both the MVA Executive Director and another experienced 
Navy Chief Engineer have reviewed the Australian report. They concluded 
the distillation systems therein were the same as used by United States 
Navy ships.
    Misrepresentation: There is no evidence that Navy ships distilled 
potable water.
    MVA Comment: Ships carried a reserve of potable water but it was 
normally replenished by distillation daily or every other day. A 
Destroyer sized ship carried less than 20,000 gallons for a crew size 
between 275 and 300 men. The water was used for cooking, cleaning, 
laundry, showering and drinking. As Vietnam is in the tropics, 
significant hydration was necessary. In addition, the warmer sea 
injection temperature below the 17th parallel resulted in less 
efficient water production. Water hours, where showers were limited or 
banned, was common during tropical deployments. Water was constantly 
being distilled to meet the requirements for boiler feed water and 
potable water.
    Misrepresentation: The Australian study monitored the reverse 
osmosis system rather than the evaporation distillation system used on 
United States Navy ships.
    MVA Comment: The only time that the reverse osmosis system was used 
in the Australian study was to purify the baseline sample prior to 
adding the solids and sediments consistent with the estuarine waters of 
Vietnam. The actual distillation process, as confirmed above, was the 
same distillation system used by United States Navy ships.
    Misrepresentation: The IOM found more pathways of Agent Orange 
exposure for land based veterans than those at sea.
    MVA Comment: Technically this is true but irrelevant. The IOM noted 
that discharges from rivers and steams was a pathway unique to the Blue 
Water Navy and that it was one of the plausible pathways of exposure. 
The number of possible pathways is not determinative. What is 
conclusive is that pathways of exposure existed. Misrepresentation: The 
IOM could not quantify any Agent Orange in the water.
    MVA Comment: This again is a red herring. Any amount of exposure 
can do damage to the human body. The IOM also found that the 
evaporation distillation process enriched the dioxin by a factor of 
ten. This is consistent with Australian studies showing a higher cancer 
incidence among Navy veterans and a Center for Disease Control study 
showing a higher incidence of Non-Hodgkins Lymphoma among Navy 
veterans.
    Misrepresentation: Ships operating hundreds of miles off shore who 
were not exposed will be given the presumption of exposure.
    MVA Comment: Not true. This bill applies only to the territorial 
seas which at their widest point off the Mekong extends out to 90 
nautical miles from the mainland. In the central and northern part of 
the Republic of Vietnam, the territorial seas would only extend 20-30 
nautical miles from the mainland.
    Misrepresentation: Submarines would come into the area to obtain 
the Vietnam Service Medal for their crews and would be eligible for the 
presumption.
    MVA Comment: One ballistic missile submarine the USS Tecumseh, SSBN 
628 did enter the VSM area for that purpose but there is no indication 
that they entered the territorial seas. Submarines operating off of 
Haiphong or near Hainan Island would not have been within the 
territorial seas and are not covered by H.R. 299.
    Misrepresentation: No Agent Orange was sprayed over water.
    MVA Comment: Not true. MVA is in possession of statements from 
witnesses that ships anchored in Da Nang Harbor were inadvertently 
sprayed as the ``Ranch Hand'' planes made their approach to the 
airfield. Additionally, there are anecdotal reports of defective spray 
nozzles resulting in spray over the ships at anchor or operating in the 
South China Sea. Finally, the IOM recognized that the offsetting winds 
would blow some spray intended for the landmass over water.
    Misrepresentation: Navy regulations prevented ships from distilling 
water within ten miles of land.
    MVA Comment: This statement was taken out of context from a 
preventive medicine manual and was not a firm requirement. Ships were 
encouraged to not distill potable water near land because of the 
possibility of bacteriological contamination. Commanding Officers could 
allow potable water to be distilled close to land and often delegated 
that authority to the Chief Engineer. The IOM noted that the 
recommendation contained in the manual was widely ignored. More 
importantly, the recommendations in the manual did not apply to the 
distillation of feed water for use in the boilers. Since the same 
equipment was used for potable water, distillation to feed water would 
contaminate the entire system down to the final discharge manifold. 
Additionally, feed water used in auxiliary systems was discharged to 
the bilges via low pressure drains. Crew members would also be exposed 
to Agent Orange residue while cleaning and inspecting the watersides of 
boilers and the steam sides of condensers as well as other equipment.
    Misrepresentation: The IOM confirmed that there was no likelihood 
of exposure to herbicides in Da Nang Harbor.
    MVA Comment: The court in Gray v. McDonald, took the VA to task for 
this statement noting that this was not the conclusion of the IOM.
                               conclusion
    MVA urges the adoption of H.R. 299. It will restore the earned 
benefits to tens of thousands of Navy veterans that were taken from 
them over a decade ago. This bill is supported by virtually all 
veterans organizations including the American Legion, Veterans of 
Foreign Wars, Vietnam Veterans of America, Reserve Officers 
Association, Fleet Reserve Association, Military Officers Association 
of America, Association of the U.S. Navy and other groups. We have 
always enjoyed the support of the Military Coalition. Enactment of this 
legislation is overdue and Military-Veterans Advocacy most strongly 
supports its passage.
                               Attachment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
  Prepared Statement of Joshua Stewart, Director of Policy, National 
                    Coalition for Homeless Veterans
    Chairman Isakson, Ranking Member Tester, and distinguished members 
of the Senate Committee on Veterans' Affairs: The National Coalition 
for Homeless Veterans (NCHV) is honored to present this statement for 
the record for the legislative hearing of February 7, 2018. On behalf 
of the 2,100 community- and faith-based organizations NCHV represents, 
we thank you for your commitment to serving our Nation's most 
vulnerable heroes.
    This statement reflects NCHV's mission of ending veteran 
homelessness and the bill presented at the hearing today that has the 
potential to most strongly impact that mission. There are three actions 
we should be carrying out as a country to further the goal of ending 
veteran homelessness: 1) supporting and--only where necessary--
expanding current services, 2) spurring the creation of affordable 
housing, and 3) filling service gaps in our current system. If passed 
into law S. 1072, the Homeless Veterans Prevention Act of 2017, would 
accomplish the first and last of these.
    S. 1072 would fill long-standing, critical gaps in our service 
delivery system. Despite years of progressively better services, 
accumulated expertise, and best practices, there are still areas in 
which we know we need to do better. For decades, the U.S. Department of 
Veterans Affairs has conducted the CHALENG report and survey which 
among other things identifies the unmet needs of homeless veterans. And 
for decades, this report has consistently revealed that among the 
highest unmet needs of male and female homeless veterans are help with 
legal issues of all kinds. Family law plays a particularly prominent 
role, but also legal issues revolving around restoring driver's 
licenses, discharge upgrades, and financial issues are reported 
annually. And of course, legal assistance to prevent eviction and 
foreclosure is frequently reported.
    The long term, consistent nature of this unmet need points to a 
very real gap in our services. Section 3 of the Homeless Veterans 
Prevention Act would go a long way to ameliorating these issues for 
many veterans. The provision is well crafted and highlights the exact 
service need, while also allowing the Secretary leeway to add 
additional areas for legal services as he or she finds necessary.
    Similar to legal service's frequent appearance on the CHALENG 
report is the issue of dental care. The provision of dental care has 
consistently appeared on the top unmet needs list of homeless veterans 
for decades; in the most recent CHALENG report it was particularly 
pronounced in the female homeless veteran population. Though important 
in their own right, dental care is not merely a comfort or confidence 
concern. Untreated dental needs can cause severe health issues, and 
constant pain can be a trigger for self-medication and/or substance 
abuse. Furthermore, pain or unsightly dental features can wreck the 
confidence of a job seeker- causing a negative impact on the employment 
potential of a veteran.
    Extending dental care eligibility to homeless veterans in the HUD-
VA Supportive Housing and Grant and Per Diem (GPD) programs, as well as 
those in the care of a Domiciliary, would be a huge step in the right 
direction. And that is exactly what Section 4 of S. 1072 accomplishes.
    In addition to filling these critical gaps in our service delivery 
system, this bill would also support our existing programs in two 
important ways; it allows the payment of per diem to GPD providers who 
serve the dependents of homeless veterans, and it extends the authority 
for the Supportive Services for Veteran Families (SSVF) program.
    As we modernize GPD, our transitional housing program at the VA, it 
becomes more and more clear that these providers need the authority to 
serve dependents of homeless veterans. While there are a very few 
providers who already do this, they must scrape together funding from 
other sources to make it work. Many providers who see the importance of 
this work and who wish to expand into it simply cannot make the math 
work. They need support from VA to make this shift possible. As it is 
now, veterans--in particular female veterans who statistically are more 
likely to be accompanied by children in their homelessness--are faced 
with the choice to get only themselves off the street or to stay with 
their children. Many understandably choose family unity and wait for 
permanent housing options together, out-of-doors. Section 2 of S. 1072 
would open the door for many more GPD providers to serve dependents; 
keeping families together, and improving the efficiency of our system.
    Finally, S. 1072 supports our existing programs by extending the 
authority for the SSVF program. But this is not merely a mundane annual 
re-authorization, and nor can it be. Because of an historical quirk in 
funding, there are 56 communities whose ``surge funding''--awarded in 
FY 2015--expired at the end of FY 2017. To maintain the normal schedule 
of funding ($300 million per annum) and prevent the loss of services 
from the surge grants ($207 million over the next three years) the 
funding for the SSVF program for FY 2018 must be no less than $400 
million. A list of communities who received surge funding and who are 
at risk of losing services without an increased FY 2018 appropriation 
can be found at https://www.va.gov/HOMELESS/ssvf/docs/
SSVF_September2014_GrantRecipients.pdf.
    Section 6 of S. 1072 provides the SSVF program an authorization of 
$500 million, which would allow VA to redistribute another round of 
surge funding at almost the same level as the FY 2015 round. This is 
the best scenario, and one which NCHV heartily supports. Of course, we 
must also point out that Section 6 would now need a technical 
correction to proposed subparagraph (F), changing ``fiscal year 2017'' 
to ``fiscal year 2018,'' or even to ``fiscal year 2019.'' The latter 
change would exacerbate the gap in services felt in communities, but 
would allow the appropriations committees time to fully fund the 
increased authorization.
    This one technical correction notwithstanding, the Homeless 
Veterans Prevention Act of 2017 is an outstanding piece of legislation. 
NCHV strongly supports S. 1072, and asks the Senate and the House to 
quickly pass it in its entirety. We thank the Senate Committee on 
Veterans' Affairs for its tenacity on these issues, as well as the 
bills long-time sponsor, Senator Burr. All of your work on behalf of 
homeless veterans is commendable.
                                 ______
                                 
  Letter from Co-Directors of National Military and Veterans Alliance

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
          Prepared Statement of Paralyzed Veterans of America
    Chairman Isakson, Ranking Member Tester, and Members of the 
Committee, Paralyzed Veterans of America (PVA) would like to thank you 
for the opportunity to submit our views for the record on the important 
legislation pending before the Committee. The bills considered today 
can have a significant positive impact on veterans and their families 
who depend on the benefits and services available through the 
Department of Veterans Affairs (VA). Our comments will be limited to 
those bills in which PVA has a specific interest.
     h.r. 299, the ``blue water navy vietnam veterans act of 2018''
    PVA supports H.R. 299, the ``Blue Water Navy Vietnam Veterans Act 
of 2018.'' This legislation would extend presumption of exposure to 
herbicides containing dioxin, including Agent Orange, to veterans who 
served in ``blue water'' areas. Before 1997, Vietnam Veterans were 
eligible for a presumption of exposure to Agent Orange and other 
herbicides if ``during active military, naval or air service they had 
served in the Republic of Vietnam'' unless there was evidence they had 
not been exposed to Agent Orange. This policy was later amended so that 
service on the ground in Vietnam and service in inland waterways, 
``brown water,'' was required to receive a presumption of exposure. PVA 
applauds you for making the necessary amendments to include veterans 
who served in ``blue water'' areas in the presumption.
   draft bill, the ``veterans dental care eligibility expansion and 
                       enhancement act of 2018''
    PVA supports this draft legislation to improve dental care provided 
to veterans by VA. This legislation would establish a pilot program on 
expansion of dental services and treatment to all veterans enrolled in 
VA health care. Due to a lack of dental service providers within VA and 
the strict eligibility criteria for veteran patients to access such 
care, few veterans are able to access oral health care at VA. Veterans 
who do access VA dental care are generally those with service-connected 
dental conditions or injuries or other dental conditions that are 
aggravated by a service-connected injury or illness. For all other 
veterans there are some limited dental insurance plans that can be 
purchased through VA.
    The pilot program would expand dental care services and treatment 
to veterans who are enrolled in VA health care at 16 locations across 
the country. These 16 locations would include four VA medical centers 
with an established dental clinic, four VA medical centers with a 
contract for dental care, four community based outpatient clinics with 
available space, and four facilities from federally qualified health 
centers and Indian Health Service clinics. These pilot sites would 
assess the feasibility and ability to furnish dental services and 
treatment to no more than 100,000 veterans who volunteer to participate 
in the program.
    As the research of the last several years has made clear, oral 
health and overall health are not independent of one another. In 2012, 
the American Heart Association released a statement acknowledging an 
association between periodontal disease and cardiovascular disease. 
Recent studies suggest a connection between periodontal disease and 
kidney disease, diabetes, and strokes. VA must explore resources to 
properly integrate dental care and awareness into their holistic 
approach to veterans' health care.
     s. 3184, to amend title 38, united states code, to modify the 
requirements for applications for construction of state home facilities 
to increase the maximum percentage of nonveterans allowed to be treated 
               at such facilities, and for other purposes
    PVA supports S. 3184. This bill would allow state veterans' homes 
to provide care to spouses of veterans under certain conditions. 
Although many state veterans' homes are at capacity, there are some 
that are not. In these instances, veterans in need of, or already in a 
state home, may wish to have their spouse reside in the state home with 
them. If there is not enough demand by veterans needing access to state 
homes, PVA sees no reason why families need to separate for the sake of 
rigid adherence to the current 25 percent occupancy rules.
   draft bill, to amend title 10, united states code, to improve the 
transition assistance program for members of the armed forces, and for 
                             other purposes
    PVA supports the intent of the draft legislation which would 
improve the Transition Assistance Program (TAP) for members of the 
Armed Forces. This bill would make the first significant changes to the 
TAP since 2011. One of the notable changes this legislation would make 
is to tailor the transition program based on the servicemember's time 
in service, rank, age, and disability status. This will provide more 
specific opportunities to the servicemember instead of one blanket 
program for everyone.
    This legislation also provides transition assistance starting a 
year from the date of separation. One of the reasons servicemembers 
have such a difficult time transitioning is the fact that the TAP 
program is offered just a few months prior to their separation. To be 
fully prepared, servicemembers should begin the transition process much 
sooner. Earlier preparation would help them be better prepared to 
transition to civilian life, which would also support their mental 
health and overall wellbeing.
             draft bill, the ``va hiring enhancement act''
    PVA supports the ``VA Hiring Enhancement Act.'' The bill would end 
the applicability of non-VA covenants not to compete to the appointment 
of certain Veterans Health Administration (VHA) personnel. It would 
also permit VHA to make contingent appointments and require VA 
physicians to complete residency training.
    This bill intends to fill vacancies and make VA more competitive by 
authorizing VHA to begin the recruitment and hiring process up to two 
years prior to the completion of required training. This would allow 
for physicians to quickly begin work at VA medical centers upon the 
completion of their education. This could help to stem the flow of the 
ever recurring stories of young clinicians who wished to serve veterans 
but were unable to endure the months of an uncertain onboarding 
process. Veterans deserve the best this country can offer. Congress 
should explore every means to ensure VA does not lose out on these 
young professionals due to inefficient hiring practices.
     h.r. 5418, the ``veterans affairs medical-surgical purchasing 
                          stabilization act''
    PVA supports H.R. 5418, the ``Veterans Affairs Medical-Surgical 
Purchasing Stabilization Act.'' This legislation would direct the 
Secretary of VA to carry out the Medical Surgical Prime Vendor program 
using multiple vendors and prohibiting a prime vendor from solely 
designing the formulary of supplies.
    In the private sector, hospitals use multiple Group Purchasing 
Organizations that bid down medical equipment prices. With Medical 
Surgical Prime Vendor, VA proposed using only one large vendor as 
opposed to multiple vendors. Arguably, the lack of competition has 
ensured higher prices for VA and thus the taxpayer than would otherwise 
be the case with competing vendors. While one vendor ensures 
consistency and a reliable timeline, it may not be an improvement on 
quality. What we do know is the procurement shortcut can undermine the 
competitive system, and result in VA overpaying for equipment.
  s. 1596, the ``burial rights for america's veterans' efforts act of 
                              2017,'' or 
                       the ``brave act of 2017''
    PVA supports S. 1596, the ``Burial Rights for America's Veterans' 
Efforts Act of 2017,'' or the ``BRAVE Act of 2017.'' This legislation 
would increase the amount payable through VA for burial and funeral 
expenses for non-service-connected veterans regardless of whether the 
death occurred in a VA facility. Under the bill, the benefit would 
increase from $300 to $749. The legislation also requires VA to 
increase burial benefits based on the percentage increase in the 
Consumer Price Index. This legislation is critical to ensuring that 
veterans' survivors have additional financial resources available to 
them to help address funeral and burial expenses.
        s. 1952, the ``department of veterans affairs financial 
                      accountability act of 2017''
    PVA supports S. 1952, the ``Department of Veterans Affairs 
Financial Accountability Act of 2017.'' This legislation would require 
VA to engage in several efforts to ensure more accurate budgeting for 
the programs and services provided by the Department. First, the 
legislation would require VA to engage the services of a third party to 
conduct a review of its financial processes and to develop a plan to 
address any recommendations that result from the review. Second, it 
would require a member of the Secretary's office to be accountable for 
tracking VA's progress in implementing recommendations received from 
the Comptroller General of the United States, the Special Counsel, and 
the VA's Inspector General. Third, the legislation would require VA to 
provide any special requests for funding to Congress within 45 days of 
when the funding would be needed. Such requests would need to include a 
justification for the extra funds. Last, it would require VA to give 
attestations regarding financial projections concurrent with the 
President's annual budget.
    In order to properly implement the critical legislation that 
Congress has passed in recent months to reform the claims appeals 
process, implement a new community health care program, and expand 
access to comprehensive caregiver benefits, VA needs to ensure that it 
is using appropriated funds in an efficient and effective manner. 
Improved fiscal accountability will help to ensure that VA is able to 
more accurately project expenses and request adequate budgets. Congress 
will in turn be able to provide the funding needed to ensure that VA is 
able to meet its responsibilities to veterans with disabilities and 
their families.
s. 1990, the ``dependency and indemnity compensation improvement act of 
                                 2017''
    PVA supports S. 1990, the ``Dependency and Indemnity Compensation 
Improvement Act of 2017.'' This legislation would increase the amounts 
payable for Dependency and Indemnity Compensation (DIC) by 
approximately $300 per month. It would also provide eligibility to a 
portion of the DIC benefit for survivors whose veterans were rated 
totally disabled for at least five years prior to their death. Last, 
the bill would change the age at which a spouse could remarry and 
retain DIC benefits from age 57 to age 55. The critical changes 
provided by this important legislation will ensure that survivors are 
better able to meet their living expenses following their veteran's 
death.
  s. 2485, the ``medal of honor surviving spouses recognition act of 
                                 2018''
    PVA supports S. 2485, the ``Medal of Honor Surviving Spouses 
Recognition Act of 2018.'' This legislation provides a pension for 
survivors of veterans who were awarded the Medal of Honor. The pension 
would compensate surviving spouses $1,329.58 monthly. To be eligible, 
the surviving spouse must have been married to the veteran for one year 
or more prior to the veteran's death; or, for any period of time if a 
child was born of the marriage, or was born to them before the 
marriage. This pension will ensure that the families of America's 
heroes are properly provided for by our Nation.
   s. 2748, the ``better access to technical training, learning and 
    entrepreneurship for servicemembers act,'' or the ``battle for 
                          servicemembers act''
    PVA supports S. 2748, the ``Better Access to Technical Training, 
Learning and Entrepreneurship for Servicemembers Act,'' or the ``BATTLE 
for Servicemembers Act.'' This legislation provides opportunities for 
servicemembers to receive additional training under TAP. Servicemembers 
will have the ability to receive this training unless they fall into 
specifically exempted categories. PVA supports any efforts that will 
better prepare transitioning servicemembers for returning to civilian 
life.
draft bill, to require the secretary of veterans affairs to establish a 
   program to award grants to persons to provide and coordinate the 
  provision of suicide prevention services for veterans transitioning 
  from service in the armed forces who are at risk of suicide and for 
                 their families, and for other purposes
    PVA supports the intent of the draft bill requiring the Secretary 
of VA to establish a program to award grants to persons to provide and 
coordinate the provision of suicide prevention services for veterans 
transitioning from service in the Armed Forces who are at risk of 
suicide and for their families. We would encourage, however, that the 
program also focus in equal measure on veterans 50 and older, who are 
committing suicide in greater numbers than the post-9/11 generation. 
While we recognize the window in which a servicemember is transitioning 
from active service is a critical time that can correlate with the 
potential for suicide ideation, there is an equal and growing need to 
reach out to older veterans.
    Similarly, women veterans commit suicide at nearly six times the 
rate of other women. Of the annual suicide deaths per 100,000 people in 
the United States, male veterans comprised 32.1, and non-veteran men 
20.9. Among women veterans they comprised 28.7 compared to just 5.2 
among non-veteran women. This is a particularly concerning statistic 
since men, on average, are far more likely than women to commit 
suicide. Thus, this program must give particular heed to interrupting 
the unique factors that lead to such a risk for suicide among women 
veterans.
    Last, 14 of the 20 veterans who complete a suicide every day have 
never touched the VA system. We hope an introduced bill will offer 
further details about how community prevention experts are to be made 
aware of the grant opportunities.
draft bill, the ``modernization of medical records access for veterans 
                                 act''
    PVA supports the intent of the draft bill, the ``Modernization of 
Medical Records Access for Veterans Act.'' We believe, however, that 
some points of the draft bill should be clarified prior to its 
introduction. For example, it is unclear how the proposed medical 
records card will help to efficiently address the issues of 
interoperability for VA electronic health records. Since the card must 
be brought back to VA before VA's records can be updated, we are 
uncertain about how this solution would be more beneficial than cloud 
sharing medical records. This is particularly the case due to the 
inherent delays in updating a veteran's records through such a card. We 
look forward to learning more about how the medical records card could 
address current concerns about medical records access.
               s. 514, the ``no hero left untreated act''
    PVA has no official position on S. 514, the ``No Hero Left 
Untreated Act.'' This legislation would establish a pilot program with 
VA to use Magnetic eResonance Therapy technology, or MeRT technology. 
This therapy, while not yet FDA approved, is used to treat Post 
Traumatic Stress Disorder (PTSD), Traumatic Brain Injury (TBI), 
military sexual trauma (MST), chronic pain, and opiate addiction. The 
legislation would establish a one-year pilot program on MeRT technology 
for 50 veterans at two VA medical centers.
    VA currently offers veterans access to repetitive transcranial 
magnetic stimulation (rTMS). This treatment is FDA approved to address 
treatment-resistant depression, a comorbid condition in PTSD, TBI, MST, 
and chronic pain and opioid addiction. While it is functionally similar 
to MeRT, there is no existing evidence that MeRT is superior to rTMS 
for treating any disorder.

    Again, PVA thanks you for the opportunity to present our views on 
these bills. We would be happy to take any questions you have for the 
record.
                                 ______
                                 
     Prepared Statement of Ms. Lauren Augustine, Vice President of 
            Government Affairs, Student Veterans of America

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Prepared Statement Submitted by Tragedy Assistance Program For 
                            Survivors (TAPS)
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Isakson, Ranking Member Tester, and distinguished members 
of the Senate Veterans' Affairs Committees, The Tragedy Assistance 
Program for Survivors (TAPS) thanks you for the opportunity to make you 
aware of issues and concerns of importance to the families we serve, 
the families of the fallen.
    While the mission of TAPS is to offer comfort and support for 
surviving families, we are also committed to improving support provided 
by the Federal Government through the Department of Defense (DOD), the 
Department of Veterans Affairs (VA), Department of Education (DoED), 
Department of Labor, state governments, government contractors, and 
local communities for the families of the fallen--those who fall in 
combat, those who fall from invisible wounds and those who die from 
illness or disease.
    TAPS was honored to enter into a new and expanded Memorandum of 
Agreement with the Department of Veterans Affairs in 2017. This 
agreement formalizes what has been a long-standing, informal working 
relationship between TAPS and the VA. The services provided by TAPS and 
VA are complementary, and in this public-private partnership each will 
continue to provide extraordinary services through closer 
collaboration.
    Under this agreement, TAPS continues to work with surviving 
families to identify resources available to them both within the VA and 
through private sources. TAPS will also collaborate with the VA in the 
areas of education, burial, benefits and entitlements, grief counseling 
and other areas of interest.
    The VA Office of Survivor Assistance, including Director Moira 
Flanders and her staff, works closely with TAPS to answer questions and 
concerns that are raised by surviving family members. We also 
appreciate the opportunities provided by the DOD/VA Survivors Forum, 
held quarterly, which works as a clearinghouse for information on 
government and private sector programs and policies affecting surviving 
families. This is ably facilitated by Craig Zaroff of the VA Benefits 
Assistance Service.
                          pending legislation
                                s. 1990
    TAPS applauds Senator Tester and his staff for this legislation 
which offers an increase to the Dependency and Indemnity Compensation 
(DIC) provided for surviving spouses of those servicemembers who die on 
active duty or die of a service-connected disability. A second 
provision provides a graduated scale of benefits and addresses an 
arbitrary eligibility restriction. The third provision provides equity 
with other survivor benefits by allowing surviving spouses who remarry 
after age 55 to retain DIC benefits.
History of DIC
    According to the Congressional Research Service (CRS), survivor 
compensation has been paid in some form to survivors since the 
Revolutionary War.
    During the Civil War, survivor compensation was expanded to cover 
all servicemembers at a rate that would be payable to totally disabled 
veterans. The Civil War also led to other changes to survivor 
compensation, especially for survivors of servicemembers with service-
connected disabilities. They were covered under the Act of July 14, 
1862, which was referred to as General Law, and amended various times 
in the 19th century.
    In 1917, Congress passed the War Risk Insurance Act to eliminate 
the need for non-service pensions and highlighted that service-
connected payments for death and disability were compensation payments. 
The act changed the system to meet the current needs of World War I 
veterans and their survivors and eliminated the pay discrepancy between 
officers and soldiers.
    The Servicemen's Indemnity Act of 1951 replaced this life insurance 
system with a new system where the servicemembers did not contribute to 
the insurance program, but the government provided monthly payments to 
eligible survivors of $120 with a 2.25% increase per year until a 
$10,000 insurance maximum was reached. Potentially eligible survivors 
included spouses, children, parents, and siblings.
    Because legislation had been written in response to need, 
dependency and indemnity compensation was unorganized and administered 
by four different administrations by the mid-1950s, and congressional 
and executive committees were formed to make the issuance of 
compensation more streamlined and manageable. Death compensation was 
set up similar to the way it is now by the time the final report of the 
President's Commission on Veterans' Pensions, Veterans' Benefits in the 
United States: Report to the President by the President's Commission of 
Veterans Pensions (hereafter referred to as the Bradley Report) was 
written in 1956. Death compensation was provided to survivors (except 
for dependent parents) regardless of income. The rate of compensation 
depended on whether the veteran served in peacetime or wartime.
    In 1969, after review of the Bradley Report, recommendations from a 
commission headed by Robert M. McCurdy in 1967, and extensive testimony 
from several other Federal administrations and veterans' service 
organizations, Congress devised a different, more equitable system for 
survivor compensation that gave fixed rates to each pay grade. The base 
rate was adjusted for a cost-of-living increase to reflect changes in 
the cost of living since the last base rate had been determined in 
1956, 13 years earlier. In 1969, years of service were no longer a 
factor in determining DIC. There were no subsequent changes of 
significance to DIC legislation until 1993, when the rate tables for 
surviving spouses were eliminated and one flat monthly rate was 
reinstated. In 2003, surviving spouses who remarried after reaching the 
age of 57 were able to retain DIC.
    DIC, along with other VA disability payments, are usually increased 
annually by the Federal cost of living adjustment (COLA), when there is 
a COLA. This COLA has been the only increase to the DIC since the new 
rate tables were established in 1993.
Provision 1
    TAPS appreciates the 12 percent increase to the DIC to bring it up 
to 55 percent of the rate of compensation paid to a totally disabled 
veteran. It is something that we have supported for many years and, for 
those survivors whose only recompense is the DIC payment, long overdue.
    We also appreciate the provision of an additional $350 increase to 
the Special Survivor Indemnity Allowance (SSIA) for those survivors who 
are in receipt of both DIC and the Survivor Benefit Plan annuity. This 
would go a long way to make some survivors who are impacted negatively 
by the DIC offset to SBP whole, i.e. their offset would be completely 
eliminated when combined with the SSIA they currently receive.
    However, we have heard concerns from some survivors. Would the 
proposed SSIA increase also be tied to COLA? Is there a time limit for 
this provision? Where would the funding come from? We hope these 
questions will be addressed.
Provision 2
    We support the intent of provision 2.
Provision 3
    TAPS fully supports the provision to allow surviving spouses who 
remarry after age 55 to retain DIC benefits. This makes the DIC program 
consistent with other Federal programs, including the Department of 
Defense survivor benefit plan and the Federal Employees survivor 
benefit plan.
                                h.r 299
    TAPS strongly supports H.R 299, the Blue Water Navy Vietnam 
Veterans Act of 2018. We stand with our friends in the Military 
Coalition and the Association of the United States Navy in encouraging 
quick passage of this long over due legislation. Many of the families 
impacted by Agent Orange from time in the Navy have become surviving 
families now, and TAPS believes those families should be eligible for 
the same survivor benefits as all other Agent Orange families.
                                s. 2881
    TAPS supports S. 2881, the Mare Island Naval Cemetery Transfer Act, 
so as to ensure veterans buried in Vallejo, CA are treated with the 
respect they deserve. As the oldest military cemetery on the West 
Coast, it should be treated as a national shrine and elevated to a 
Department of Veterans Affairs national cemetery. We thank Senator 
Feinstein for bringing this issue to light.
                                s. 2485
    TAPS honors the service and sacrifices made by Medal of Honor 
recipients and their families and is grateful to Senator Sullivan for 
introducing S. 2485 to establish a special pension for surviving 
spouses of Medal of Honor recipients.
                                 s. 541
    New and innovative programs have proved time and again to be 
helpful in treating PTSD/TBI and preventing suicide. If there is a 
possibility that magnetic EEG/EKG therapy can help in treating veterans 
with PTSD/TBI and preventing veteran suicide, then TAPS supports the 
one-year pilot program.
                                s. 1596
    TAPS supports the BRAVE Act of 2017, which increases the amount 
provided for the burial of a veteran from $300 to $749 with annual COLA 
increases.
                          draft text--cassidy
    Suicide prevention is one of TAPS' top legislative priorities. 
Suicide is the second leading cause of death for active duty 
servicemembers and the numbers are growing. TAPS currently serves over 
12,000 surviving family members whose loved ones died by suicide and we 
are grateful to Senator Cassidy for bringing forth the draft 
legislation to create a grant program through VA for organizations 
working in suicide prevention.
            draft text--transition assistance program (tap)
    Veterans who make a good transition into civilian life are less 
likely to die by suicide, so TAPS is grateful to see such effort put 
into overhauling the Transition Assistance Program. While many key 
aspects were updated by the 2019 NDAA, there is still much work to do. 
TAPS supported the House version H.R. 5649, the Navy Seal Chief Petty 
Officer Bill Mulder Transition Improvement Act, and we look forward to 
seeing the House and Senate versions conferenced to best improve 
transitions for veterans.

    TAPS thanks the Committee and the original sponsors of all this 
important legislation for your thoughtful consideration of the needs of 
our Nation's veterans and surviving families.
    It is the responsibility of the Nation to provide for the support 
of the loved ones of those who have paid the highest price for freedom. 
Thank you for allowing us to speak on their behalf.
                                 ______
                                 
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
Prepared Statement Prepared by Ralph Parrott, Captain, Supply Corp., US 
 Navy (Ret.) and Thomas Bandzul, Esq., Legislative Counsel, Veterans & 
                     Military Families for Progress
    Senate Committee Members, We'd like to take this opportunity to 
thank Chairman Isakson, Ranking Member Tester and all the Members of 
the Senate Veterans' Affairs Committee, to present our position on the 
Mare Island Cemetery Restoration bill, S. 2881. This bill, offered by 
Senator Diane Feinstein (D-CA), will allow for the future care of this 
historic landmark at the discretion of the Department of Veterans 
Affairs (VA).
    The Mare Island Naval Cemetery was established in 1856 on the 
grounds of the Mare Island Naval Shipyard in Vallejo, CA. It is the 
oldest military cemetery on the west coast. The last burial in the 
cemetery occurred in 1921. The following is a summary of the 
internments in the cemetery:

    <bullet> 860 Veterans Navy and Marines, 3 Medal of Honor 
recipients,
    <bullet> 8 Russian sailors killed fighting a fire in San Francisco 
in the 1860s while their ship was visiting at the invitation of 
President Lincoln
    <bullet> 4 French sailors authorized by the US Navy for reasons 
lost to history
    <bullet> 33 Children of Veterans buried there
    <bullet> 40 Spouses of Veterans buried there (includes the daughter 
of Francis Scott Key)
    <bullet> 7 Other civilians authorized by the US Navy for reasons 
lost to history

TOTAL: 952

    The cemetery was turned over by the Navy to the City of Vallejo in 
1996 as part of BRAC '93. There were no provisions made for the 
perpetual care, maintenance and restoration as part of the turnover 
agreement. The City of Vallejo has been unable or unwilling to provide 
the necessary resources to maintain the cemetery and it has fallen into 
disrepair. The City has also formally requested the Federal Government 
to take over the Cemetery. The VA, who runs the National Cemetery 
Administration, does not have the legal authority to take over the 
cemetery. Senator Feinstein's introduction of S. 2881 will give the 
necessary authority to the VA. Congressman Mike Thompson has introduced 
a similar bill (H.R. 5588) which is currently before the House 
Veterans' Affairs Committee.
    VMFP and our partner Veteran Service Organizations (VSO's) along 
with the many people in California, urgently requests the Senate 
Veterans' Affairs Committee report this bill to the floor of the US 
Senate and provide this historic site the perpetual care, maintenance 
and restoration it so justly deserves.
         h.r. 299, blue water navy vietnam veterans act of 2018
    VMFP full supports this as an issue long overdue. There is some 
trepidation this will cause a large increase to the Veterans Health 
Administration (VHA) overhead and Veterans Benefits Administration 
(VBA) will have a large increase in claims. Since there are no specific 
numbers published on this, my belief is, MOST Veterans with issues 
caused by exposure to Agent Orange (AO) have already qualified for 
benefits, are eligible for care within another program (TRICARE for 
Life, Medicare/Medicaid, etc.) or have some other form of health 
insurance.
   s. ___ (sanders), veterans dental care eligibility expansion and 
                        enhancement act of 2018
    It has always been an objective of VMFP to improve the health of 
Veterans everywhere. The one thing missing in society in general is a 
comprehensive dental care program. In VA, unless there is extreme need 
tor most Veterans comprehensive dental care is also missing.
    We believe this legislation will help to measure the costs and 
needs and will help define the alternatives for Veterans for healthy 
teeth and gums. VMFP support this bill as a path to improving 
understanding the needs for this care for veterans.
                                s. 3184
    To amend title 38, United States Code, to modify the requirements 
for applications for construction of State home facilities to increase 
the maximum percentage of nonveterans allowed to be treated at such 
facilities, and for other purposes.
    VMFP Strongly supports this bill. ft has long been the history of 
other organizations (Gary Sinise Foundation; Habitat for Humanity, 
etc.) to have been helping with the construction of housing for 
deserving Veterans. We support the expansion. of this as a government 
initiative and the inclusion of more Veterans with housing needs.
              s. ___ (boozman), va hiring enhancement act
    For many years, VMFP has been a strong proponent of hiring 
qualified Veterans, trying to transition from the military to civilian 
life. One of the roadblocks for this transition has been certification 
and review of necessary qualification. We believe this bill is a good 
step to improving the staffing shortages at VA with highly skilled 
medical persons.
    VMFP believes this bill will create a more ``level playing field'' 
in competition for many of the skilled people needed to fill the array 
of openings in the healthcare field for VA. We strongly support this 
legislation.
    VMFP believes this bill will create a more ``level playing field'' 
in competition for many of the skilled people needed to fill the array 
of opening in the healthcare field for VA We strongly support this 
legislation.
 h.r. 5418, veterans affairs medical-surgical purchasing stabilization 
                                  act
    VMFP has no position on this legislation since there are many bills 
with similar clauses. We have not had enough time to review this to 
make a recommendation one way or the other.
               s. 1596 (peters/rubio), brave act of 2017
    The cost of a funeral has risen over the years and is now estimated 
to be between $7,000 and $10,000 in North America (according to 
PARTING; a funeral home rating website). Through the increase in this 
legislation does provide for more variable adjustments in the future 
and the initial suggested increase is substantial, we believe this 
value should be increased to a minimum level of $3,000.00 (the average 
cost of a cremation funeral--Source: National Funeral Directors 
Association).
    An argument can be made, many Veterans can be interred in a 
cemetery cared for by VA at substantially less, but not everyone can 
take advantage of this benefit. While VMFP supports this bill, we would 
like to see an increase in funding.
      s. 2881 (feinstein), mare island naval cemetery transfer act
    Statement at Page 1 (separate).
  s. 1952 (tester/mccain/manchin), va financial accountability act of 
                                  2017
    With budgetary issues, financial accountability and several years 
of increases in VAs budget with proportional instances of overspending, 
cost overruns and program demands (unfunded mandates) left unfulfilled, 
it is VMFP's opinion this legislation would be a good step in the right 
direction.
     s. 1990 (tester/blumenthal/hirono), dependency and indemnity 
                  compensation improvement act of 2017
    VMFP takes no position on this legislation.
s. 2485 (sullivan), medal of honor surviving spouses recognition act of 
                                  2018
    VMFP fully support this legislation. While some believe this may 
have consequences in personal relationships in the future, the intent 
of the bill meets a need we feel is long be unfulfilled as an 
obligation by the government to the spouse of a Medal of Honor hero.
         s. 2748 (brown/rounds), battle for servicemembers act
    Our group fully supports this legislation as a necessary step to 
full and timely access to employment and training to meet any need of a 
returning Veteran.
                            s. ___ (cassidy)
    To require the Secretary of Veterans Affairs to establish a program 
to award grants to persons to provide and coordinate the provision of 
suicide prevention services for veterans transitioning from service in 
the Armed Forces who are at risk of suicide and for their families, and 
for other purposes.
    Suicide prevention, in all it's forms, has always been a top 
priority for Veterans and their families within our organization. As a 
person who has dealt directly with suicide (as a police officer) and 
directly involved with the family (my brother). I know this has 
horrible consequences and is a preventable tragedy; given the proper 
resources, awareness and education.
    Any effort to help recognize the symptoms of depression, despair 
and hopelessness leading to a suicidal ideation is a priority for VMFP. 
We fully support this legislation.
s. ___ (cassidy), modernization of medical records access for veterans 
                                  act
    VMFP has no position on this legislation.
           s. 514 (perdue/heller), no hero left untreated act
    VMFP takes no position on this bill but we believe a pilot program 
on Magnetic EEG/EKG-guided resonance therapy could yield significant 
information so as to make a more informed decision on the benefits and 
cost of this treatment program.
            Respectfully Submitted,
                                       Thomas Bandzul, Esq.
                                               Legislative Counsel.
                                 ______
                                 
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
    Prepared Statement of Rene C. Bardorf, Senior Vice President of 
      Government and Community Relations, Wounded Warrior Project
    Chairman Isakson, Ranking Member Tester, and distinguished Members 
of the Senate Committee on Veterans' Affairs, Thank you for inviting 
Wounded Warrior Project (WWP) to submit this statement for the record 
of today's hearing on pending legislation.
    Since our inception in 2003, WWP has grown from a small 
organization delivering comfort items in a backpack at the bedside of 
wounded warriors here in our Nation's capital, to an organization of 
nearly 700 employees in more than 25 locations around the world 
delivering over a dozen direct-service programs to warriors and 
families in need. Through our direct-service programs, we connect these 
individuals with one another and their communities; we serve them by 
providing mental health support and clinical treatment, physical health 
and wellness programs, job placement services, and benefits claims 
help; and we empower them to succeed and live life on their own terms. 
As we advocate for this community before Congress, we appreciate you 
inviting us to speak on these issues and look forward to helping any 
way we can.
         h.r. 299--blue water navy vietnam veterans act of 2018
    Although we have few alumni that served in Vietnam, Korea, and 
Thailand during the Vietnam war, we consider the military toxic 
exposure problem a cross-generational issue. It is important that if 
servicemembers are exposed to harmful toxins while serving this 
country, the government ensures they have proper health care and 
assistance if any injuries or illnesses arise from their exposures. 
This philosophy was the impetus behind our current partnership with 
Vietnam Veterans of America (VVA) and the Tragedy Assistance Program 
for Survivors (TAPS) to conduct a needs assessment of the landscape 
facing post-9/11 generation warriors who were or who may have been 
exposed to toxic substances during service.
    As individual organizations, VVA, TAPS, and WWP have shared 
concerns for several years about the emergence of toxic exposure as a 
common thread among former servicemembers who are sick, dying, or 
already deceased from uncommon illnesses or unusually early onset of 
more familiar diseases like cancer. In the past, we have advocated for 
initiatives such as the creation of the Airborne Hazards and Open Burn 
Pit Registry in June 2014 and the more recent passage of the Toxic 
Exposure Research Act of 2016 (P.L. 114-315, Sec. Sec. 631-34). Given 
our collective interest in prevention, treatment, and awareness, 
Wounded Warrior Project decided in October 2017 to coordinate efforts 
with TAPS and VVA and invested $200,000 in a needs assessment to guide 
our future advocacy. Wounded Warrior Project remains committed to 
continued investments of resources and expanding its partnerships to 
include others passionate about this important issue. More can be read 
about our partnership from our recent House Committee on Veterans' 
Affairs submitted on June 7, 2018.\1\
---------------------------------------------------------------------------
    \1\ https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108367
---------------------------------------------------------------------------
    As this partnership continues to address the challenges faced by 
servicemembers and veterans who served on or after September 11, 2001, 
WWP is pleased that the Committee is considering legislation to provide 
recourse for ``blue water'' Vietnam veterans. We are particularly 
encouraged by Section 5 of this legislation (``Updated Report on 
Certain Gulf War Illness Study'') and further request that future 
legislation add additional research between the Veterans' Affairs (VA) 
and the Department of Defense (DOD) on toxic exposure for Gulf War-era 
veterans as well as for those who served after 9/11.
    Wounded Warrior Project Supports H.R. 299.
draft bill--veterans dental care eligibility expansion and enhancement 
                              act of 2018
    This draft bill will increase VA's internal dental capabilities by 
expanding its clinical capacities in rural locations and creating a 
pilot program that would open dental coverage to all veterans 
regardless of disability status at select VA hospitals. The pilot 
program will determine if expanding VA-provided dental services to all 
veterans enrolled in the VA healthcare system is feasible. Although we 
agree with the intent of the pilot program and overall dental 
expansion, we have concerns over how the bill will be paid for and how 
the current dental care program is administered to veterans.
    Anecdotally, WWP has heard from veterans struggling to get service-
connected disability ratings for injuries to the mouth which occurred 
during service. Additionally, only veterans with 100% service-connected 
disability or former prisoners of war (POW) qualify for VA dental 
care.\2\ Before the VA expands dental coverage to all veterans, WWP 
would like to see VA review the current rating system for dental 
eligibility. We recommend that Congress instruct VA to conduct a report 
of how many veterans with face and mouth service-connected injuries are 
not getting needed health care and how many veterans are denied for 
dental coverage when applying for this type of service-connected 
disability. Additionally, we would like to see full coverage of dental 
services expanded to homeless veterans. Dental needs for homeless 
veterans is one of their top three unmet needs and WWP feels that VA is 
not meeting its obligation in supporting homeless veterans when it 
comes to individual dental problems and its impacts in retain suitable 
long-term employment.\3\
---------------------------------------------------------------------------
    \2\ https://www.vets.gov/health-care/about-va-health-care/dental-
care/
    \3\ https://www.va.gov/homeless/dental.asp
---------------------------------------------------------------------------
    Wounded Warrior Project supports the provisions to construct 
additional dental clinics in rural areas, increase dental health 
education, establish an electronic health record system, and authorize 
the Secretary to carry out a program to train and employ alternative 
dental health care providers. WWP suggests increasing the appropriated 
funding of this section to include the construction of dental 
facilities at any major VA hospital that does not currently offer 
onsite dental services. Furthermore, Congress needs to appropriately 
fund this dental expansion. As with the current VA MISSION Act funding 
shortfall, Congress should not pass legislation without appropriate 
funding mechanisms attached.
    Wounded Warrior Project supports this legislation with alterations 
to the language as stated above.
s. 3184--to modify the requirements for application for construction of 
state home facilities to increase the maximum percentage of nonveterans 
    allowed to be treated at such facilities, and for other purposes
    Wounded Warrior Project does not have a current position on this 
legislation but welcomes future discussions with the Committee on this 
proposal.
         discussion draft on transition assistance reform and 
                 s. 2748--battle for servicemembers act
    With approximately 200,000 servicemembers leaving the military each 
year, it is critical that DOD and VA disseminate information pertinent 
to transition success, VA benefits, and job opportunities.\4\ Wounded 
Warrior Project supports a holistic approach to reforming Transition 
Assistance Program (TAP) that reflects the input of all relevant 
stakeholders. The Departments of Veterans Affairs, Defense, and Labor, 
the Small Business Administration, Congress, and multiple veteran 
service organizations committed to meeting the needs of transitioning 
servicemembers and all have critical voices that must be adequately 
considered, and WWP would support a comprehensive bill that has been 
thoroughly vetted by all parties.
---------------------------------------------------------------------------
    \4\ https://watson.brown.edu/costsofwar/files/cow/imce/papers/2017/
Zogas_Veterans%27%20 Transitions_CoW_2.1.17.pdf
---------------------------------------------------------------------------
    Wounded Warrior Project was pleased to host leaders from VA, DOD, 
DOL, and over 10 veteran service and nonprofit organizations in 
November 2017 to explore the components of wellness and their 
relationship to a successful military civilian transition. WWP has been 
an active participant in VA's Military-to-Civilian Summits and remains 
committed to being deeply involved with government and nongovernment 
leaders alike who have a stake in the success of TAP. Additionally, we 
are hearing from our transitioning alumni that the current the TAP is 
not comprehensive enough. We have some concerns that the proposed House 
Veterans'
    Affairs Committee (HVAC), Senate Armed Services Committee (SVAC), 
and the National Defense Authorization Act (NDAA) changes to the TAP 
does not expand the overall amount of TAP days. Where the current 
changes look to streamline the TAP while keeping it within the current 
five days, we recommend expanding the overall days dedicated to the TAP 
curriculum.
    While we are encouraged by the time and attention that has been 
given to TAP to date, we believe both bills under consideration by the 
Committee today fall short of what is necessary for meaningful TAP 
reform. Our concern is that there are other proposed changes to TAP 
currently under consideration by the HVAC, the House Armed Services 
Committee (HASC), and the Senate Armed Services Committee (SASC). 
Before supporting any one piece of legislation, we request that 
Congress identify the best provisions in each proposal and work 
collaboratively to form a single TAP bill supported by all relevant 
stakeholders. To this end, we request that Congress have a joint 
hearing between SVAC, HVAC, HASC, and SASC to clearly inform all 
committees of jurisdiction about the issues surrounding the TAP. In our 
opinion, this approach would afford all stakeholders--including outside 
organizations and government agencies--to clearly identify key 
priorities and considerations to improve transition.
    We are concerned that the community is not on the same page when it 
comes to new TAP legislation. We are submitting the following thoughts 
on the TAP bills under consideration at this hearing; however, we 
request Congress to take a step back and develop one piece of 
legislation in conjunction with DOD, VA, community partners, and both 
sides of Congress.
(1) Discussion Draft on Transition Assistance Reform
            Section 2. Recodification, Consolidation, and improvement 
                    of certain transition-related counseling and 
                    assistance authorities:

    Wounded Warrior Project is encouraged by section (D) ``the 
availability of mental health services and the treatment of Post 
Traumatic Stress Disorder, anxiety disorders, depression, suicidal 
ideation, or other mental health conditions [ . . . ] and information 
concerning the availability of treatment options and resources to 
address [these issues].'' We would request that WWP programs are 
included as resources for transition servicemembers dealing with mental 
health issues. Wounded Warrior Project has developed a significant 
amount of mental health programming for post-9/11 veterans, and we are 
doing so in concert with VA and several leading community-based health 
providers. We've built these programs within a ``continuum of support'' 
designed to meet warriors wherever they are in their recovery while 
also investing substantial resources in other organizations in the 
community, including four of the Nation's leading academic medical 
centers that have come together within our Warrior Care Network&reg;.
            Section 3. Personnel matters in connection with transition 
                    assistance program:

    Ensuring that military installations have the proper personnel to 
administer TAP programming is essential. Section 3 would require the 
military to have ``not less than one [full-time TAP personnel] for 
every 250 members of the Armed Forces currently eligible for 
participation in the Transition Assistance Program.'' Additionally, 
this provision would ensure that TAP personnel teaching these classes 
have at least two years of civilian employment experience before they 
can teach transition classes. This is to ensure that the people 
teaching these TAP classes have themselves gone through a successful 
transition. Last, this section would require DOD to identify one point 
of contact (POC) to coordinate all the on-post TAP programming at each 
field grade unit. This will help ensure that information being 
distributed throughout the military is consistent from base to base.
            Section 5. Information on members of the Armed Forces 
                    participating in preseparation counseling and 
                    surveys on member experiences with transition 
                    assistance program counseling and services and in 
                    transition to civilian life:

    Collecting and analyzing programmatic data is essential for 
ensuring positive outcomes from programs. Something that the current 
TAP program has failed in is surveying members after they have 
transitioned out of the military and the effectiveness of their TAP 
experience. This section would require the Secretary of Veterans 
Affairs to consult with the Secretary of Defense, the Secretary of 
Homeland Security, the Secretary of Education, and the Secretary of 
Labor to conduct surveys of veterans that have been recently retired, 
discharged, or released from active duty to assess their experiences 
transiting from the military to civilian life. This data can help 
identify areas where the TAP program is assisting and areas where it is 
lacking.
    Wounded Warrior Project suggests editing this section to include a 
set number of veterans that shall be surveyed. We recommend the survey 
track their success over a period of no less than five years after 
separation. Additionally, WWP encourages committee staff to review The 
Veterans Metric Initiative (TVMI) study commissioned by the Henry 
Jackson Foundation--and funded, in part, by WWP--that focuses on post-
military well-being. The TVMI study's findings regarding vocation, 
finances, health, and social relationships may provide compelling 
evidence to guide the approach under this section.
            Section 6. E-mailing transition assistance materials to 
                    supporters of members of the Armed Forces 
                    transitioning to civilian life:

    Wounded Warrior Project is particularly interested in this section. 
Section 6 would require DOD to email TAP program materials to family 
member of transitioning servicemembers. The Secretary of Defense will 
solicit an email address from the servicemember to disseminate TAP 
information. When a servicemember transitions out of the military it 
affects the whole family. Ensuring that TAP information is shared with 
the spouse of the servicemember will help the entire family transition 
from DOD to the civilian world. We recommend making this optional for 
those servicemembers who are not interested in share an email with DOD. 
As currently written, it is not clear if the servicemember can opt-out 
of supplying an email address to DOD.
            Section 9. Education of members of Armed Forces on career 
                    readiness and professional development:

    Wounded Warrior Project is interested in the Alumni Network Program 
defined in section (d); ``[the] Secretary concerned shall establish an 
alumni network program to connect veterans with members of the Armed 
Forces for mentorship, networking, and career advice.'' In our 
experience, peer-to-peer support is critical to recovery for many 
warriors. According to our 2017 Wounded Warrior Project Survey, more 
than half of those surveyed, or 51.6 percent, used talking with another 
Operation Enduring Freedom, Operation Iraqi Freedom, or Operation New 
Dawn veteran as a resource to address mental health issues. The only 
more frequently utilized resource was VA medical centers.\5\ In this 
context, WWP is highly supportive of permanently authorizing 
reintegration and readjustment counseling services for transitioning 
servicemembers. VA pilot programs that study peer-to-peer or alumni 
networks have been highly successful and WWP has seen similarly 
encouraging results in its own programming. Because of this, WWP 
supports the proposed Alumni Network Program. WWP requests the 
legislation require DOD to partner with and promote successful peer-to-
peer programs administered by veteran service organizations and 
military service organizations to servicemembers transitioning out of 
the military.
---------------------------------------------------------------------------
    \5\ https://www.woundedwarriorproject.org/media/172072/2017-wwp-
annual-warrior-survey.pdf
---------------------------------------------------------------------------
            Section 10. Employment Skills Training:

    Currently, spouses may attend TAP classes if space is available. 
This provision would require DOD to authorize access to TAP classes to 
spouses. A strong military family is important. A strong civilian 
family is equally as important. Wounded Warrior Project supports the 
concept in ensuring the TAP classes are available to spouses as it will 
assist in the entire family's transition.
            Section 14. Establishment of Governing Board to support 
                    prevention of drug overdose death by suicide, and 
                    alcohol-related mortality:

    This section would require the Secretary of VA to establish a 
governing board within the Veterans Benefits Administration (VBA) to 
facilitate the transfer of information and to create partnerships that 
would prevent suicide, substance abuse, and assist homes veterans. The 
board would include representatives from DOD, DHS, and DoL, inducing 
representatives from VA staff offices that focus on these issues. 
Wounded Warrior Project requests including veteran service 
organizations into the board as well.
            Section 16. Grants for provision of transition assistance 
                    to members of the Armed Forces after separation, 
                    retirement, or discharge:

    This section would require DOL to work with VA to award grants to 
outside organizations who provide transition assistance services to 
members of the military that have separated. These grants would be 
awarded to organizations that focus on career skills, behavioral 
health, and education. $10 million dollars would be authorized for the 
grants. WWP has in the past supported increasing the outside 
capabilities of transitioning servicemembers access to information and 
assistance to successfully integrate into the civilian population and 
has invested a substantial amount of fund in peer-to-peer mental health 
and employment transition programs.
    WWP's Warriors 2 Work (W2W) is one such successful program. W2W 
assists veterans transitioning from the military into the civilian 
workforce. WWP does this through resume building, job coaching, 
assistance with building local networks, online LinkedIn workshops, and 
one-on-one job referrals to partnering companies. Currently, we work 
with over 400 companies and focus on small-scale hiring fairs called 
``micro job fairs.'' WWP feels that there is a natural synergy between 
our peer-to-peer mental health network, our peer-to-peer W2W programs, 
and the proposed grants defined in this section.
(2) S. 2748--BATTLE for Servicemembers Act
    Under the current TAP, there is a mandatory ``core curriculum'' 
consisting of a three-day employment workshop that is conducted by DOL; 
six hours of briefings on veterans' benefits, conducted by VA; and 8-10 
hours of briefings on topics such as translating military skills to 
civilian jobs and preparing a financial plan, conducted by DOD. 
Following completion of the core curriculum, transition servicemembers 
can opt to take one of three additional transition tracks that include 
(1) higher education, conducted by DOD; (2) technical and skills 
training conducted by the VA; or (3) entrepreneurship, conducted by the 
Small Business Administration. Although these additional tracks are 
available, they are often not utilized. This legislation would require 
transitioning servicemembers to take one of the three additional 
tracks. Wounded Warrior Project agrees that transitioning 
servicemembers need all the resources they can get to properly 
transition back into the civilian world. Because of this, we support 
expanding the amount of training given to servicemembers as they leave 
the military. We would request that a fourth track be added for those 
interested in additional employment information.
                 draft bill--va hiring enhancement act
    Wounded Warrior Project does not have a current position on this 
legislation but welcomes future discussions with the Committee on this 
proposal.
 h.r. 5418--veterans affairs medical-surgical purchasing stabilization 
                                  act
    H.R. 5418 would require the Secretary to award contracts to 
multiple regional prime vendors instead of a single nationwide prime 
vendor and prohibits the prime vendor from solely designing the 
formulary of such supplies. Wounded Warrior Project is concerned that 
restricting the Secretary of Veterans Affairs' ability to purchase 
medical equipment, the VA may adversely affect veteran safety and 
health because Congress has limited the agency's purchasing options. 
Wounded Warrior Project recommends changing the wording on page 2, line 
8 from ``Secretary of Veterans Affairs shall carry out . . .'' to 
``Secretary of Veterans Affairs may carry out . . . .''
    Wounded Warrior Project opposes this legislation.
                       s. 1596--brave act of 2017
    Wounded Warrior Project is here to assist injured, ill, and wounded 
veterans and servicemembers. When these disabilities lead to the death 
of a warrior, appropriate assistance should be rendered to the family 
by the Federal Government. S. 1596 would increase funeral benefits for 
veterans and fallen servicemembers and establish a percentage increase 
of this benefit each year. The current $300 payment would be increased 
to $749. With the average cost of burials exceeding $7,000 in 2016,\6\ 
this payment increase would represent a small step in the right 
direction in assisting families during this time of mourning; however, 
WWP requests that burial benefit payments be increased to match the 
average cost of a burial.
---------------------------------------------------------------------------
    \6\ http://www.nfda.org/news/statistics
---------------------------------------------------------------------------
    Wounded Warrior Project supports this legislation with amendments.
            s. 2881--mare island naval cemetery transfer act
    Mare Island Naval Cemetery is one of the oldest West Coast military 
burial sites. Over the past decade, the cemetery has fallen into 
disrepair. The cemetery, which is currently owned and operated by the 
city of Vallejo, California does not have the necessary funds to 
maintain the cemetery appropriately. This legislation would direct the 
Secretary of Veterans Affairs to enter into an agreement with the city 
of Vallejo, California to ensure that the cemetery is properly 
maintained. Wounded Warrior Project feels that the final resting place 
of military servicemembers and veterans should be kept to a high 
standard of maintenance. In the rare instance that a local community 
has the responsibility to maintain a veteran cemetery, and is unable to 
maintain that standard, the VA should step up and assist.
    Wounded Warrior Project supports this legislation.
            s. 1952--va financial accountability act of 2017
    Wounded Warrior Project does not have a current position on this 
legislation but welcomes future discussions with the Committee on this 
proposal.
 s. 1990--dependency and indemnity compensation improvement act of 2017
    S. 1990 aims to increase the Dependency and Indemnity Compensation 
(DIC) benefits rate so that it is equivalent to the rate paid to 
survivors of Federal civilian employees. The increase would provide 
approximately $300 more per month to spouses of servicemembers and 
veterans who die while on active military duty or as a result of a 
service-connected injury or illness. Additionally, a spouse will be 
authorized to receive the DIC benefit if the servicemember was rated 
totally disabled for a period of five years. Currently, DIC payments 
are provided to survivors or those rated totally disabled for a period 
of ten years. Wounded Warrior Project has always supported the spouses 
of those injured, ill, or wounded while serving this country. WWP will 
continue to support them after these warriors pass on. We support this 
bill as it will also ensure that these individuals are financially 
supported after their loved one dies.
    Wounded Warrior Project supports this legislation.
   s. 2485--medal of honor surviving spouses recognition act of 2018
    S. 2485 would provide a special pension payment to the surviving 
spouses of a deceased Medal of Honor recipient and increase the special 
pension amount from $1,000 to $1,329.58. Medal of Honor recipients, and 
their families have gone above and beyond in service to this Nation. 
Their sacrifices should not go unnoticed. This pension does not nearly 
cover the gratitude this Nation owes these heroes. Because of this, 
Wounded Warrior Project fully supports this legislation.
    Wounded Warrior Project supports this legislation.
draft bill--to require the secretary of veterans affairs to establish a 
   program to award grants to persons to provide and coordinate the 
 provision of suicide prevention services for veterans transition from 
 service in the armed forces who are at risk of suicide and for their 
                    families, and for other purposes
    This draft bill would establish a program to award grants to 
organizations that are providing and coordinating suicide prevention 
services to veterans. Through offerings such as Warrior Care 
Network&reg;, Project Odyssey, and WWP Talk, WWP has served 17,822 
warriors and family members through interactive programming, 
rehabilitative retreats, and other professional services to address 
their mental health needs.
    The Warrior Care Network&reg; (WCN) has a critical mission to heal 
the invisible wounds of war by increasing access to some of the highest 
quality care for wounded warriors and their families. Launched in 2016 
with a vision of becoming a national leader, innovator, and integrator 
in the delivery of treatment for warriors living with psychological 
injuries as well as those suffering from Traumatic Brain Injury, the 
WCN has enjoyed early success due in part to collaboration with the 
Department of Veterans Affairs (VA).
    In FY 2017, the partnership provided 3,707 hours of transition 
services, 2,612 professional consultations, 383 briefings, and 401 
referrals into VA care. As the need for professional mental health 
treatment for Veterans and their families is great (and growing), the 
WCN is committed to expanding its efforts in the coming years and we 
wish to continue the collaborative partnership with the VA. In the next 
five years, the WCN will invest over $160 million to the care of 
approximately 5,000 Veterans and family members in the intensive 
outpatient program and approximately 6,500 Veterans in traditional 
outpatient care where the partnership with the VHA will be even more 
critical for the continuity of care.
    Additionally, Project Odyssey and the WWP Talk programs support 
veterans through peer-to-peer counseling and rehabilitative retreats. 
With over five Project Odyssey events happening across the Nation each 
week and thousands of one-on-one calls to warriors happening each 
month, WWP is committed to addressing today's mental health needs in a 
variety of ways.
    While WWP has many successful direct programs serving the needs of 
warriors and their families, we alone cannot meet every need this 
generation of wounded servicemembers and veterans face. Because of 
this, WWP supports any effort by VA to increase funding for suicide 
prevention to outside partners. We would suggest increasing eligibility 
into the program to current servicemembers. Additionally, on page 7, 
line 19, we would suggest changing ``The Secretary may require a person 
receiving a grant under this section to submit to the Secretary a 
report that describes the use of the grants amounts by the person or 
such other information as the Secretary considers appropriate'' to a 
``shall'' statement. WWP feels that it is important for an organization 
that applies for a grant to be required to describe how the funds will 
be utilized.
    Wounded Warrior Project supports this legislation with amendments.
  draft bill--modernization of medical records access for veterans act
    Wounded Warrior Project does not have a current position on this 
legislation but welcomes future discussions with the Committee on this 
proposal. Wounded Warrior Project assists ill, injured, and wounded 
warriors, family members, and Caregivers. We stand ready to assist 
Congress in legislation affecting these individuals. Although we do not 
have a position on this bill we do caution Congress in implementing 
another technological pilot program while there is no VA Chief 
Information Officer and with the electronic health record project 
between DOD and VA ramping up. We request more discussions with 
committee staff before formulating a position.
                   s. 514--no hero left untreated act
    S. 514 would direct the Secretary of Veterans Affairs (VA) to carry 
out a pilot program to provide access to magnetic EEG/EKG-guided 
resonance therapy to veterans. Based on trends we have identified from 
our work through direct mental health programming and partnerships in 
the community, WWP strongly believes that more can be done to address 
the invisible wounds of war, particularly PTSD, TBI, depression, and 
other related conditions; however, we must ensure that new forms of 
treatment are safe for Veterans. Currently, EEG/EKG-guided resonance 
therapy is not approved by the Federal Drug Administration (FDA); 
however, we understand that EEG/EKG-guided resonance therapy is 
primarily used for research applications and therefore not typically 
approved by the FDA. Additionally, the VHA has implemented a pilot 
program at approximately 23 medical facilities. This pilot program uses 
Repetitive Transcranial Magnetic Stimulation, or rTMS therapy, and WWP 
has followed the outcomes of the pilot program. The most recent report 
on the rTMS therapy pilot program indicated that rTMS therapy did not 
assist in reducing PTSD symptoms any more than the control study 
group.\7\ It is obvious that more research is needed regarding this new 
form of mental health treatment. Given the most recent rTMS program 
findings, WWP would support this legislation if the bill language were 
changed to include a double-blind research provision on the outcomes of 
the pilot program. WWP would like to see this research program compared 
to the most recent rTMS pilot program to understand it's longer-term 
viability as a treatment for PTSD, MST, TBI, and depression.
---------------------------------------------------------------------------
    \7\ https://www.medpagetoday.com/psychiatry/depression/73740
---------------------------------------------------------------------------
    Wounded Warrior Project would support this legislation if it were 
presented as a research pilot program as opposed to a treatment pilot 
program and sufficient language addressing this was included in the 
bill.
                               conclusion
    Wounded Warrior Project thanks the Senate Committee on Veterans' 
Affairs, its distinguished members, and all who have contributed to the 
policy discussions surrounding the bills under consideration at today's 
hearing. We share a sacred obligation to serve our Nation's veterans, 
and Wounded Warrior Project appreciates the Committee's effort to 
identify and address the issues that challenge our ability to carry out 
that obligation as effectively as possible. We are thankful for the 
invitation to submit this statement for record and stand ready to 
assist when needed on these issues and any others that may arise.
      

                                  [all]
</pre></body></html>
